<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-669]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-669

  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2013

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 5857/S. 3241

   AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF STATE, FOREIGN 
 OPERATIONS, AND RELATED PROGRAMS FOR THE FISCAL YEAR ENDING SEPTEMBER 
                    30, 2013, AND FOR OTHER PURPOSES

                               __________

                          Department of State
           United States Agency for International Development

                               __________

         Printed for the use of the Committee on Appropriations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE

72-336 [DF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi, Ranking
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

    Subcommittee on State, Foreign Operations, and Related Programs

                  PATRICK J. LEAHY, Vermont, Chairman
DANIEL K. INOUYE, Hawaii             LINDSEY GRAHAM, South Carolina
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        MARK KIRK, Illinois
RICHARD J. DURBIN, Illinois          ROY BLUNT, Missouri
MARY L. LANDRIEU, Louisiana          DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio                  JOHN HOEVEN, North Dakota
                           Professional Staff

                               Tim Rieser
                             Nikole Manatt
                             Janet Stormes
                         Paul Grove (Minority)
                      Rachelle Johnson (Minority)

                         Administrative Support

                             Maria Veklich
                       LaShawnda Smith (Minority)



















                            C O N T E N T S

                              ----------                              

                       Tuesday, February 28, 2012

                                                                   Page

Department of State: Secretary of State..........................     1

                       Wednesday, March 14, 2012

U.S. Agency for International Development........................    93

 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2013

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy, Mikulski, Durbin, Landrieu, 
Lautenberg, Brown, Graham, Coats, and Hoeven.

                          DEPARTMENT OF STATE

                        Office of the Secretary

STATEMENT OF HON. HILLARY RODHAM CLINTON, SECRETARY


             opening statement of senator patrick j. leahy


    Senator Leahy. Madam Secretary, we are pleased to have you 
here. I know this is your first appearance before the Congress 
on the President's fiscal year 2013 budget request for the 
Department of State, foreign operations, and related programs. 
Senator Graham and I have tried to work very, very closely in 
this subcommittee, and I appreciate the time both Senator 
Graham and I had with you earlier this morning.
    Before we begin, I would like to note we are missing a 
member of the subcommittee today, Senator Mark Kirk, who has 
had a serious health problem. But the indications are that he 
is improving, and all of us--both Republicans and Democrats--
wish him a speedy recovery.
    The request for the Department of StateState, foreign 
operations, and related programs totals $54.7 billion. That is 
a 2.6-percent increase more than last year. The increases are 
mostly limited to a few areas. Funding for the majority of 
programs is frozen at current levels and there are few new 
initiatives.
    We live in an increasingly competitive and dangerous world. 
China's growing military power and global influence pose major 
challenges and opportunities for the United States, as it does 
for many countries. I worry about whether we are responding as 
vigorously as we should.
    When you testified before the subcommittee 1 year ago--and 
it seems like 100 years ago--the Arab Spring was just starting. 
We were witnessing the power of citizens to force their 
government to begin a transition to democracy and the 
protection of fundamental freedoms.
    One year later, we see Syria devolving further and further 
into civil war and the slaughter of Syrian civilians. The 
Egyptian military and Mubarak holdovers are trying to silence 
those who are working for democracy and human rights. The 
Government of Bahrain continues to use force against civilians 
who are demonstrating peacefully. It is increasingly difficult 
to predict what is going to emerge from the chaos in Libya and 
Yemen.
    But while our intelligence agencies were caught off guard 
by the dramatic changes in the Middle East and North Africa, on 
the whole I believe the State Department's response has been 
commendable. The question is, ``Where we go from here?''
    You have spent time there. What are your intentions for 
your proposed Middle East and North Africa Incentive Fund, for 
example? In the midst of all this turmoil and the growing 
challenges in East Asia and our own hemisphere, there are 
disproportionate uses of resources--in my view, anyway--in 
Iraq, Afghanistan, and Pakistan.
    I think history will show, and this was before your time as 
Secretary, that our ambitions in Afghanistan and Iraq were 
naive and enormously wasteful. I think we should scale back our 
costs in both countries to amounts that can be justified and 
sustained.
    Despite many attempts and billions of dollars over the 
years, it is sobering how little progress we have made in 
building a positive, stable relationship with the people of 
Pakistan, not to mention its military and civilian leadership. 
But the administration's budget proposes more of the same. Part 
of me considers this ``budgeting by inertia''.
    Yesterday, I returned from Haiti and Colombia. I have seen 
notable progress in both countries. I met with President 
Martelly, and I should say, incidentally, that he appreciates 
very much the interest you and your husband have shown to 
Haiti. As you know, my wife and I have gone there many times.
    I also believe that President Santos of Colombia deserves 
our support, but that support is not unconditional.
    I also visited Cuba. I think their government and a vocal, 
but small population of Cuban Americans are, in my view, the 
primary beneficiaries of our embargo. I told former President 
Castro and reiterated to current President Castro that, in some 
ways, our embargo is the best thing they have going for them 
because they can blame a failed economic and political system 
on us. I think our policy there needs to change.
    I also want you to know, that our delegation--and there 
were six of us--received invaluable help from our Ambassadors 
and their staffs in each of the countries we visited. They 
worked very hard, especially in a couple of these countries, 
when the schedule was changing daily, hourly, a couple times 
even while we were in flight.


                           prepared statement


    It is going to be difficult to get a bill through this 
year. We will certainly receive an allocation below the amount 
requested by the President. It will be difficult, but Senator 
Graham and I have worked very closely together, as we have 
before.
    Actually, for years, with Senator Graham, Senator Mitch 
McConnell, and former Senator Judd Gregg, we have gone back and 
forth between who is chairman or who is ranking member. We have 
always worked together. The American people deserve nothing 
less.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Welcome, Madam Secretary. We appreciate that this is your first 
appearance before the Congress on the President's fiscal year 2013 
budget request for the Department of State, foreign operations, and 
related programs.
    Before we begin I would like to note that we are missing a member 
of the subcommittee today, Senator Mark Kirk. We are thinking of 
Senator Kirk and wish him the best for a speedy recovery.
    The request for the Department of State foreign operations, and 
related programs totals $54.7 billion, which is a 2.6-percent increase 
more than last year. However, the increases are mostly limited to a few 
areas. Funding for the majority of programs is frozen at current 
levels, and there are few new initiatives.
    We live in an increasingly competitive and dangerous world. China's 
growing military power and global influence pose major challenges and 
opportunities for the United States, as it does for many countries, and 
I am concerned that we may not be responding to those challenges as 
vigorously as we should.
    When you testified before this subcommittee a year ago the Arab 
Spring was just starting and we were witnessing the power of citizens 
to force their governments to begin a transition to democracy and the 
protection of fundamental freedoms.
    A year later, Syria is devolving further and further into civil 
war. The Egyptian military and Mubarak holdovers are trying to silence 
those who are working for democracy and human rights.
    The Government of Bahrain continues to use force against civilians 
who are demonstrating peacefully, and it is increasingly difficult to 
predict what is going to emerge from the growing chaos in Libya and 
Yemen.
    While our intelligence agencies were caught off guard by the 
dramatic changes in the Middle East and North Africa, on the whole I 
believe the State Department's response has been commendable. The 
question is where we go from here and what your intentions are for your 
proposed Middle East and North Africa Incentive Fund.
    In the midst of all this turmoil and the growing challenges in East 
Asia and our own hemisphere, the Department continues to focus 
resources--disproportionately, in my view--on Iraq, Afghanistan, and 
Pakistan.
    I believe history will show that our ambitions in Afghanistan and 
Iraq were naive and enormously wasteful, and that we should scale back 
our costs in both countries to amounts that can be justified and 
sustained.
    Despite many attempts and billions of dollars over the years, it is 
sobering how little progress we have made in building a positive, 
stable relationship with the people of Pakistan, not to mention its 
military and civilian leadership. Yet your budget proposes more of the 
same. It is understandable that some consider it budgeting by inertia. 
Perhaps that is overly pessimistic.
    Yesterday, I returned from Haiti and Colombia where there has been 
notable progress. President Martelly and President Santos deserve our 
strong, if not unconditional, support. I also visited Cuba whose 
government and a vocal, but small population of Cuban-Americans are, in 
my view, the primary beneficiaries of our misguided embargo.
    I also want you to know that my delegation received invaluable help 
from our Ambassadors and their staffs in each of the countries we 
visited. They gave us excellent advice and support.
    Madam Secretary, like last year, we are faced with an extremely 
difficult budget environment. We will almost certainly receive an 
allocation that is below the amount requested by the President, and 
getting a bill to his desk will require difficult choices.
    But for as long as I have held the gavel of this subcommittee we 
have functioned in a bipartisan, cooperative manner. We also work that 
way with our House counterparts. Every detail of what we recommend is 
open to scrutiny and debate.
    I want to thank Senator Graham for being such an active and 
constructive partner, and the other members here. We have a lot of work 
ahead of us.

    Senator Leahy. Senator Graham.
    Senator Graham. Thank you.

                  STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Well, I have nothing to blame my voice on. 
I just actually talk this way. But I know you have just gotten 
back from some overseas travels, and I really appreciate the 
working relationship. It has been fun to understand the world 
from a different perspective.
    The first thing I want to do is acknowledge the Secretary 
of State. I am glad we don't pay you by the mile.
    You would bust the budget.
    Senator Leahy. Or by the hour.
    Senator Graham. Yes, by the hour. But really, on behalf of 
all Americans, Secretary Clinton, I really appreciate what you 
have done for our country. You are tireless. You travel the 
world, it seems to be endless. I know you must have a refueling 
probe on your plane. But sometimes we will have differences, 
but I know you sincerely care about the state of world affairs, 
and I think you represent our country very well on the world 
stage, and I just want to say that because I know how hard you 
work.
    Everything Senator Leahy said is true. Fifty-four billion 
dollars, we probably won't get there. It is a 2.6-percent 
increase. I would ask my colleagues to think about the world. 
Has the world gotten 2.6 percent more dangerous? I would say it 
has.
    But the foreign aid budget is 1 percent of the budget. When 
I ask people at home about foreign assistance, it is a very 
tough topic--I think everybody in the Senate agrees with that--
because people need so much to be done here.
    I would just tell my fellow citizens and people from South 
Carolina, I want to shape the world the best we can, rather 
than just follow the world. And if you don't believe military 
force is the answer to every problem, which I don't, then we 
need an engagement strategy. Sometimes investing in a country 
at the right time can pay dividends.
    So, yes, the world is in turmoil, but there are a lot of 
exciting opportunities to re-engage parts of the world that we 
have been shut out.
    Tunisia, for one. This new government in Tunisia has a lot 
of potential. They believe in free markets. They want a free 
trade agreement with the United States. But they have a cash 
flow problem for the next couple years. They have just had 
snowfall, which is sort of a historic abnormality. Tunisia is a 
good example of where, if we could work with the international 
community to provide some budget assistance for 2 years, I 
think we could turn the country around and have a lot of 
business opportunities.
    Egypt, strategically, is a very important country. They are 
trying to figure out who they are and where to go. The new 
government, believe it or not, wants to separate themselves 
from the Mubarak era. And the Muslim Brotherhood, when you hear 
that term in America, a lot of people get concerned, including 
me, given some of the things they have said.
    But we met with the Muslim Brotherhood on a recent trip, 
and I was impressed with their view of how to grow the economy 
in Egypt and their desire not to associate themselves with the 
nongovernmental organizations (NGO) law that is being used to 
prosecute National Democratic Institute and International 
Republican Institute American citizens and their associates. 
This is an unjust prosecution. The theory behind the case is 
absurd. Ambassador Patterson has done a wonderful job with the 
State Department.
    I went with Senator McCain and others to deliver the 
message to the Egyptian Government that we would not tolerate 
this kind of behavior, that we want a good relationship. And 
the Muslim Brotherhood issued a statement after our meeting 
saying that the NGO law in question was unjust. They intended 
to change it when they get full control of the new parliament.
    So there are some hopeful things going on in the world. And 
I do hope sanctions will work against Iran. No one wants a 
conflict with Iran, but no one, I believe, in their right mind 
wants Iran to have a nuclear weapon.
    So, as we look throughout Afghanistan and Iraq--Iraq is 
very problematic. Afghanistan is at one of the low points, but 
I do believe that a strategic partnership agreement, wisely 
crafted, can secure our interests in Afghanistan. And to those 
who say, ``Is it worth it? We have been there for 10 years'', 
the question for me is, ``Can you afford to lose?'' The answer 
is ``No''.
    We do have a game plan. There is a transition plan in place 
with General Allen. There is a military-civilian partnership 
plan, where the State Department and the Departments of Justice 
and Agriculture work hand-in-hand with our military to create 
some economic capacity.
    It is a corrupt place, but the people we are working with 
that we are mentoring, the younger people of Afghanistan, will 
be in charge one day, and they have a very good view of 
America. We are just going to have to push through this and not 
make emotional responses that are understandable and in many 
ways justified. But we have to think strategically.
    And that is what I would like to end this, my opening 
statement on, is that this is a time of strategic thinking, not 
emotional reaction. Republicans and Democrats need to work 
together the best we can.
    Senator Leahy, it has been a joy to work with you.
    Secretary Clinton, I think you have tried to always keep 
our national security and diplomatic interests in strategic 
terms, not tactical terms.
    So I look forward to working with you and your staff to 
come up with a budget that is lean and affordable. And what you 
are doing in Africa I think has been a case study of how 
American assistance can change a continent and change the 
relationship between the United States and people of an entire 
region. So I look forward to working with you in the future.
    Senator Graham. Thank you, Mr. Chairman.
    Senator Leahy. Thank you, Senator Graham.
    Like you, when I travel to different parts of the world, I 
am always struck and very pleased to hear the respect that 
heads of state and foreign ministers have for you. It is 
respect because you have earned it.
    Madam Secretary, why don't you go ahead, and then we will 
ask questions. After Senator Graham and I, we will go back and 
forth in the order that people arrived.

              SUMMARY STATEMENT OF HILLARY RODHAM CLINTON

    Secretary Clinton. Thank you very much, Chairman Leahy, 
Ranking Member Graham, and members of the subcommittee.
    It is good to be back here in the Senate again. And I 
greatly appreciate the excellent working relationship that we 
have had over the last 3-plus years.
    I wish also to register my concern and my best wishes for 
Senator Kirk. Of course, I wrote him as soon as I heard about 
his health challenges, and we all wish him a speedy return.
    I also greatly appreciate the travel that both of you have 
just described having taken. I think it is absolutely essential 
to see what is going on in the world with your own eyes and to 
hear from leaders and citizens with your own ears. So let me 
express to you and to all members our appreciation.
    We know how quickly the world is transforming, from Arab 
revolutions to the rise of new economic powers, to a more 
dispersed, but still dangerous al Qaeda terrorist threat. In 
this time, only the United States of America has the reach, 
resources, and relationships to anchor a more peaceful and 
prosperous world.
    The State Department and United States Agency for 
International Development (USAID) budget we discuss today is a 
proven investment in our national and economic security, but it 
is also something more. It is a down payment on continuing 
American leadership.
    When I took this job, I saw a world that needed America, 
but also one that questioned our focus and our staying power. 
So we have worked together to put American leadership on a firm 
foundation for the decades ahead.
    We have ended one war. We are winding down another. We have 
cemented our place as a Pacific power while maintaining our 
alliance across the Atlantic. We have elevated the role of 
economics within our diplomacy. And we have reached beyond 
governments to engage directly with people, with a special 
focus on women and girls.
    We are updating our diplomacy and development for the 21st 
century and finding ways to work smarter and more efficiently. 
After the first-ever Quadrennial Diplomacy and Development 
Review (QDDR), we created two new bureaus, focused on 
counterterrorism and energy, and reorganized a third, focused 
on fragile states.
    Now, like many Americans in our tough economic times, we 
have made difficult tradeoffs and painful cuts. We have 
requested 18 percent less for Europe, Eurasia, and Central 
Asia, preserving our most essential programs, and using the 
savings for more urgent needs elsewhere. We are scaling back on 
construction, improving procurement, and taking steps across 
the board to lower costs.
    Now, within the foreign operations budget, the State 
Department and USAID are requesting $51.6 billion. That 
represents an increase of less than the rate of inflation, and 
just more than 1 percent of the Federal budget, even as our 
responsibilities multiply around the world.
    Today, I want to highlight five priorities.
    First, our request allows us to sustain our vital national 
security missions in Iraq, Afghanistan, and Pakistan, and 
reflects the temporary extraordinary costs of operating on the 
front lines. As President Obama has said, ``The tide of war is 
receding.'' But as troops come home, civilians remain to carry 
out the critical missions of diplomacy and development.
    In Iraq, civilians are now in the lead, helping that 
country emerge as a stable, sovereign, democratic partner. This 
does increase our civilian budget, but State and USAID are 
asking for only one-tenth of the $48 billion the United States 
Government spent on Iraq as recently as 2011. The 2013 U.S. 
Governmentwide request for Iraq, including defense spending, is 
now $40 billion less than it was just 2 years ago. So we think 
that this is a continuing good investment to stabilize the 
sacrifice that our men and women in uniform, our civilians, and 
our taxpayers have made.
    Over time, despite the past week's violence, we expect to 
see similar Government-wide savings in Afghanistan. This year's 
request will support the ongoing transition, helping Afghans 
take responsibility for their own future and ensure their 
country is never again a safe haven for terrorists who can 
target us.
    Next door, we have a challenging, but critical relationship 
with Pakistan. And we remain committed to working on issues of 
joint interest, including counterterrorism, economic stability, 
and regional cooperation.
    Second, in the Asia-Pacific, this administration is making 
an unprecedented effort to build a strong network of 
relationships and institutions in which the United States is 
anchored. In the century ahead, no region will be more 
consequential.
    As we tighten our belts around the world, we are investing 
the diplomatic attention necessary to do more with less. In 
Asia, we pursue what we call ``forward-deployed diplomacy'', 
strengthening our alliances, launching new strategic dialogues 
and economic initiatives, creating and joining important 
multilateral institutions, pursuing a possible opening with 
Burma--all of which underscores that America will remain a 
Pacific power.
    Third, we are focused on the wave of change sweeping the 
Arab world. As the region transforms, so must our engagement. 
Alongside our bilateral and security support, we are proposing 
a $770 million Middle East and North Africa Incentive Fund.
    This fund will support credible proposals, validated by 
rigorous analysis and by the Congress, from countries that make 
a meaningful commitment to democratic change, effective 
institution building, and broad-based economic growth. In an 
unpredictable time, it lets us respond to all of the 
unanticipated needs in a way that reflects our leadership and 
agility in the region.
    This budget request would also allow us to help the Syrian 
people survive a brutal assault and plan for a future without 
Assad. It continues our assistance for civil society and Arab 
partners in Jordan, Morocco, and elsewhere. And I want to echo 
Senator Graham's emphasis on Tunisia, a country that I think 
deserves a lot of attention and support from the United States.
    The budget also provides a record level of support for 
Israel, and it makes possible our diplomacy at the United 
Nations, and around the world, which has now put in place, with 
your help, the toughest sanctions Iran or any nation has ever 
faced.
    The fourth priority is what I call ``economic statecraft'', 
in particular how we use diplomacy and development to create 
American jobs, jobs in Ohio, New Jersey, Maryland, Vermont, 
South Carolina, and Indiana. We have more than 1,000 State 
Department economic officers working to help American 
businesses connect to new markets and consumers. We are pushing 
back against corruption, redtape, favoritism, distorted 
currencies, and intellectual property theft.
    Our investment in development helps create the trading 
partners of the future, and we have worked closely on the three 
trade agreements that we believe will create tens of thousands 
of new American jobs. We hope to work with the Congress to 
ensure that as Russia enters the World Trade Organization, 
foreign competitors do not have an advantage over American 
businesses.
    And finally, we are elevating development, alongside 
diplomacy and defense, within foreign policy. Poverty, disease, 
hunger, climate change can destabilize entire societies and sow 
the seeds for future conflict. We have to make strategic 
investments today to meet even our traditional foreign policy 
goals tomorrow.
    Through the Global Health Initiative, we are consolidating 
programs, increasing partners' capacities, and shifting 
responsibilities to help target our resources where they are 
most needed and highest impact, including in areas like 
maternal and child health. Our Feed the Future Initiative is 
helping millions of men, women, and children by driving 
agricultural growth and improving nutrition to hasten the day 
when countries no longer need food aid at all.
    As we pursue these initiatives, we are transforming the way 
we do development, making it a priority to partner with 
governments, local groups, and the private sector to deliver 
measurable results. Ultimately, our goal is to empower people 
to create and seize their own opportunities.
    These five priorities, Mr. Chairman, are each crucial for 
American leadership. And they rely on the work of some of the 
most capable, hardest working, and bravest people I have ever 
met--the men and women of State and USAID. Working with them is 
one of the greatest honors I have had in public life.
    So, with so much on the line, we simply cannot pull back. 
And I know this subcommittee understands this.
    But, for me, American leadership is personal. After 3 
years, 95 countries, more than 700,000 miles, I know very well 
what it means to land in a plane that says ``United States of 
America'' on the side, to have that flag right there as I walk 
down the stairs. People look to us to protect our allies and 
stand by our principles and serve as an honest broker in making 
peace, in fighting hunger, poverty, and disease, to standing up 
to bullies and tyrants.

                           PREPARED STATEMENT

    American leadership is not just respected. It is required. 
And it takes more than just resolve and a lot of hours in the 
plane. It takes resources.
    This country is an unparalleled force for good in the 
world, and we all want to make sure it stays that way.
    So I urge you to work with us to make this investment in 
strong American leadership and a more peaceful and prosperous 
future.
    Thank you very much.
    [The statement follows:]
              Prepared Statement of Hillary Rodham Clinton
    Chairman Leahy, Ranking Member Graham, members of the subcommittee: 
it is good to be with you again. I am grateful for your support for 
civilian power these past 3 years and eager to hear your thoughts on 
the work ahead.
    We are living through a time of volatility and possibility. The 
Arab world is transforming. The rise of new powers is redrawing the 
strategic map, creating new partners, new challenges, and growing 
economic competition. Al Qaeda is weakened, but still dangerous. In 
this time, only America has the reach, resources, and relationships to 
anchor a more peaceful and prosperous world.
    The State Department and United States Agency for International 
Development (USAID) budget we discuss today is a proven investment in 
our national and economic security, but also something more: it is a 
down payment on American leadership in a fast-changing world.
    When I became Secretary of State, I saw a world that needed 
America, but also one that questioned our focus and staying power. Ever 
since, we have worked together to put American leadership on a firm 
foundation for the decades ahead. We have ended one war and are winding 
down another. We have cemented our place as a Pacific power, while 
maintaining the most powerful alliance in history across the Atlantic. 
We have elevated the role of economics within our diplomacy to create 
American jobs and advance our strategic interests. We have reached 
beyond governments to engage directly with people--with a special focus 
on women and girls.
    We are updating our diplomacy and development for the 21st century, 
making use of new technologies, partnering with the private sector and 
finding ways to work smarter and more efficiently. After the first-ever 
Quadrennial Diplomacy and Development Review, we created two new 
bureaus focused on counterterrorism and energy and reorganized a third 
to prevent fragile states from becoming failed states.
    Like many Americans in tough economic times, we have made difficult 
tradeoffs and painful cuts. We have requested 18 percent less for 
Europe, Eurasia and Central Asia, preserving our most essential 
programs and using the savings for more urgent needs elsewhere. We are 
scaling back construction, improving procurement, and taking countless 
steps to lower costs.
    Even as our challenges and responsibilities multiply around the 
world, our request represents an increase of less than the rate of 
inflation. State and USAID request $51.6 billion, just more than 1 
percent of the Federal budget.
    Today, I want to highlight five priorities--all made possible by 
the investments in this budget.
    First, our request allows us to sustain our vital national security 
missions in Iraq, Afghanistan, and Pakistan. As President Obama says, 
``the tide of war is receding''. But as troops come home, civilians 
remain to carry out the critical missions of diplomacy and development. 
Our request reflects the temporary, extraordinary costs of operating on 
the frontlines.
    In Iraq, civilians are now in the lead, working to help that 
country come through this current period of challenge and uncertainty 
to emerge as a stable, sovereign, democratic partner. This increases 
our civilian budget, but State and USAID are asking for only one-tenth 
of the $48 billion the United States Government spent on Iraq as 
recently as 2011. The 2013 United States Government request for Iraq, 
including defense spending, is now $40 billion less than it was just 2 
years ago. So this approach is saving taxpayers a great deal of money.
    Over time, despite the past week's violence, we expect to see 
similar Governmentwide savings in Afghanistan, where civilians have 
already taken on increased duties. This year's request will support the 
ongoing transition, helping Afghans take responsibility for their own 
future and ensure their country is never again a safe-haven for 
terrorists to threaten America. In Pakistan, we have a challenging, but 
critical relationship. We remain committed to working on issues of 
joint interest, including counterterrorism, economic stability, and 
regional cooperation.
    For the past decade, we have been focused--by necessity--on the 
places where we face the greatest threats. In the decade ahead, we need 
to be just as focused on the areas of greatest opportunity. Which 
brings me to another critical priority: the Asia-Pacific region, from 
the Indian subcontinent to the shores of the Americas. The Obama 
administration is making an unprecedented effort to build a strong 
network of relationships and institutions across the Pacific. In the 
century ahead, no region will be more consequential.
    As we tighten our belts around the world, we are investing the 
diplomatic attention necessary to do more with less. In Asia, we are 
pursuing what we call forward-deployed diplomacy--from strengthening 
our alliances, to launching new strategic dialogues and economic 
initiatives, to creating and joining important multilateral 
institutions, to our new opening with Burma--to underscore that America 
will remain a Pacific power.
    Third, we are focused on the wave of change sweeping the Arab 
world. We have a significant stake in successful democratic 
transitions. And as the region transforms, so must our engagement.
    Alongside our bilateral and security support, we are proposing a 
$770 million Middle East and North Africa Incentive Fund to encourage 
major political and economic reforms. This fund will support credible 
proposals--validated by rigorous analysis and key stakeholders, 
including the Congress--to promote democratic change, effective 
institutions, and broad-based economic growth. When countries commit to 
making genuine reform, the fund will provide meaningful assistance, 
which ultimately puts our partnerships on firmer footing. And, in an 
unpredictable time, it lets us respond to unanticipated needs in a way 
that reflects our leadership role in the region.
    Of course, not all countries in the region are embracing the mantle 
of reform and responsibility. This budget request would allow us to 
keep our commitment to help the Syrian people survive a brutal assault, 
reclaim their country, and plan for a future without Assad.
    Our request also supports those working for change at the 
grassroots. It continues our assistance for Arab partners in Jordan, 
Morocco, and elsewhere. It provides a record level of support for our 
ally, Israel. And it makes possible our diplomacy at the United Nations 
and around the world, which has now put in place--with your help--by 
far the toughest sanctions Iran has ever faced.
    The fourth priority is what I call economic statecraft--how we act 
at the crossroads of economics and diplomacy. At every turn, we are 
asking: How can we use diplomacy and development to strengthen our 
economy? We have more than 1,000 State Department economic officers 
working every day to help American businesses connect to new markets 
and consumers to create opportunities here at home. We are pushing back 
against corruption, redtape, favoritism, distorted currencies, and 
intellectual property theft. USAID invests in the poorest, most 
unstable regions because it is the right thing to do, but also because 
it helps create the trading partners of the future. Under the 
leadership of U.S. Trade Representative Ron Kirk, we have worked 
closely together on three trade agreements that will create tens of 
thousands of American jobs. And we hope to work with the Congress to 
ensure that, as Russia enters the World Trade Organization, foreign 
competitors do not have an advantage over American business.
    Finally, we are elevating development alongside diplomacy and 
defense within our foreign policy. Poverty, disease, hunger, and 
climate change can destabilize entire societies and sow the seeds for 
future conflict. We have to make investments now not just to promote 
human security, but to meet even our traditional foreign policy goals 
down the road.
    Through the Global Health Initiative, we are consolidating 
programs, increasing efficiencies and shifting responsibilities to host 
countries. By driving down costs, we will be able to provide life-
saving HIV treatment for 6 million people by the end of 2013 without 
additional spending-accelerating our progress toward President Obama's 
vision of an AIDS-free generation. Building on past investments, we are 
increasing countries' own health system capacity. That helps us target 
our resources where they are most needed and have the greatest impact, 
including areas like maternal and child health.
    Our Feed the Future initiative will help millions of men, women, 
and children--farmers and consumers--by driving agricultural growth and 
improving nutrition to hasten the day when countries no longer need 
food aid at all.
    As we pursue these initiatives, we are transforming the way we do 
development. We are partnering with governments, local groups, and the 
private sector instead of substituting for them. We are making it a 
priority to deliver measurable results, build local capacity and 
promote good governance and pro-growth policies to empower people to 
create and seize their own opportunities.
    These five priorities--the frontline states, the Asia-Pacific, the 
Arab transitions, economic statecraft and elevating development--are 
each crucial to American leadership. And they are just the beginning of 
what we do to serve and safeguard the American people in every region 
of the world--including Africa, Latin America, Central Asia, and 
Europe. The Department of State and USAID reduce the threat of nuclear 
weapons, fight international trafficking, counter violent extremism, 
and protect U.S. citizens overseas.
    This work is done by some of the most capable, hardest-working, and 
bravest people I have ever met--the men and women of State and USAID. 
The political officers who worked for thousands of hours to assemble 
and hold together a NATO-Arab coalition that helped the Libyan people 
reclaim their future--without a single American death. The economic 
officers helping American companies take part in the tens of billions 
of dollars of construction underway as Brazil prepares for the World 
Cup and Olympics. The development officers offering life-saving 
treatment. The consular officers who serve as the front line of our 
efforts to secure our borders. The public diplomacy officers who tell 
the world our story. And the management officers who make everything 
else possible. Working with them is one of the greatest honors I have 
had in public life.
    With so much on the line, from the Arab world to the Asia-Pacific, 
we simply cannot pull back. Investments in American leadership are not 
the cause of our fiscal challenges, and retreating from the world is 
not the solution.
    American leadership is personal for me. It is my job everywhere I 
go. After 3 years, 95 countries and more than 700,000 miles, I know 
very well what it means to land in a plane that says ``United States of 
America'' on the side. People look to us to protect our allies, stand 
by our principles and serve as an honest broker in making peace; to 
fight hunger, poverty and disease; and to stand up to bullies and 
tyrants. American leadership is not just respected. It is required. And 
it takes more than just resolve. It takes resources.
    This country is an unparalleled force for good in the world. We all 
want to make sure it stays that way. I urge you to make this investment 
in strong American leadership and a more peaceful and prosperous 
future.

    Senator Leahy. Thank you very much, Madam Secretary.
    I agree with you that it is a good symbol when you land, 
but I suspect the symbol is even more yourself. In some areas 
we are basically reintroducing America to the rest of the 
world.
    You mentioned the Arab Spring. Like everyone, I saw the 
uprising in Tunisia, Egypt, Libya, and Yemen. We also see 
violent attempts by regimes who want to cling to power--Syria, 
especially.
    You propose a new Middle East and North Africa Incentive 
Fund. Is this substantively different from what we appropriated 
for this region during fiscal year 2012, or is it just money 
consolidated under one heading? I know it is about $700 
million----
    Secretary Clinton. Right.
    Senator Leahy [continuing]. But I am curious how it 
differs.
    Secretary Clinton. It is intended to do several things, Mr. 
Chairman. We are, of course, grateful for the funding that we 
have had in the past that allows us to do the work we do.
    But given the fast-moving changes that we are seeing, it is 
very hard to predict, sitting here today and even as you go 
through the appropriations process, what we are going to need 
in October or November.
    Senator Leahy. I understand that. Perhaps you could provide 
for the record more fully how it differs from the money we have 
already given.
    In that regard, I would note that Senator Inouye and I had 
a hearing last year where we submitted some questions to you, 
and we got the responses 11 months later. We will include them 
in the record. But at that point, it is impossible to use them 
to make any judgments on the budget.
    It is going to be a battle royale this year on the budget. 
So if questions are submitted, please tell your staff to get 
responses as quickly as possible.

    UNITED NATIONS EDUCATIONAL, SCIENTIFIC AND CULTURAL ORGANIZATION

    Regarding the United Nations Educational, Scientific and 
Cultural Organization (UNESCO), President George W. Bush 
announced the United States would rejoin UNESCO as a symbol of 
our commitment to human dignity. As you know, we have two 1990 
laws that prohibit a United States contribution to UNESCO if 
the Palestine Liberation Organization (PLO) becomes a member.
    The PLO became a member. Our $79 million contribution was 
cut off. We were doing this to support Israel. It is 
interesting. Of course, Israel remains a contributing member of 
UNESCO.
    They get all the advantages of being a member. We lose our 
influence. So it is like saying, ``Here, we will punish the PLO 
by hitting ourselves in the head.''
    Is there any way we get out of this?
    Secretary Clinton. Well, a couple of things, Mr. Chairman.
    First, I deeply regret that any questions did not get to 
you in a timely manner. I was not aware of that. I checked on 
it when I saw some reporting on it, and I can tell you it will 
never happen again. I deeply regret it.
    Second, I wanted to just respond on the $770 million. You 
know, during the course of this last year, based on what the 
Congress appropriated, we had to carve out nearly $360 million 
from ongoing programs and from global humanitarian assistance 
accounts to meet emerging needs in Tunisia, Egypt, and Libya.
    In addition, we set aside money from the Egypt program, 
from the rest of the world, to try to fund what the Congress 
agreed with us on, namely the debt swap, and to create another 
program that Congress supported, the Enterprise Funds for Egypt 
and Tunisia. We pulled money from other programs to address the 
ongoing challenges in North Africa and the Middle East, and it 
was an awkward, difficult kind of operation.
    And if you compare the $770 million that we are requesting 
for this fund to what we did in 1989, where we had support for 
East European democracy, providing assistance for just Hungary 
and Poland alone at $1 billion, and then when we responded in 
the aftermath of the Georgia-Russia conflict in 2008, the U.S. 
Government committed $1 billion. I think we made the right 
investments back in 1989 and 2008. I think we need to recognize 
the requirement for such a fund at this point.
    And Mr. Chairman, on your third point, you are absolutely 
right. Under our laws, we certainly followed the requirements 
that we no longer fund UNESCO. We are abiding by the 
requirements from the early 1990s. But you are right that 
Israel remains a full, dues-paying member of UNESCO. And we 
were delighted to help Israel join UNESCO.
    And the reason I think they believe it is important is 
because you battle out a lot of issues that are critical to 
Israel and, I would add, to the United States. But certainly, 
the requirement of our law does not permit any room for 
discretion.
    Senator Leahy. Anybody would do exactly what you did under 
our law. I am just pointing out that sometimes these laws, 
while they may have great symbolic significance to Members or 
certain lobbies can end up really hurting us in the end. I hope 
that regarding this one cooler heads may prevail.

                                  IRAQ

    Now, you speak of and moving money around in Africa, and 
then you talked about Eastern Europe. I am well aware of each 
of those times we have had to move it. That is why I worry a 
great deal about our Embassy in Iraq, again something you 
inherited, but I think it is far too big and too expensive. I 
think it is a symbol of grandiose and unrealistic ambitions in 
that country.
    The administration has a $4.8 billion budget request for 
civilian operations and programs in Iraq, particularly relating 
to an $850 million police training program. The cost of 
providing security and day-to-day needs of employees and 
contractors is five times more costly than the actual programs.
    Of the 16,000 staff under the Ambassador's authority, more 
than 14,000 are for extraordinary support, including more than 
8,000 security and life-support contractors.
    We have a Shiite government that seems more autocratic 
every day, aligned with Iran. They go out of their way to tell 
us how little they think of us, and we don't have enough money 
for our Embassies where we have other interests, including U.S. 
commercial interests. We don't have enough money for the 
programs you speak of in Africa and elsewhere, which I think 
are very important.
    How do we continue to sustain this? I have got to tell you, 
just as one Senator, I am finding it harder and harder to vote 
for money to continue these programs in Iraq, Afghanistan, 
Pakistan. As you were giving your answer on the needs for 
Africa and elsewhere--and I agree with you--I look at this 
great big, almost like a blinking red light, this budget for 
our Embassy in Iraq.
    [The information follows:]

    The resources requested for fiscal year 2013 in Afghanistan will 
play a key role in ensuring Afghanistan never again serves as a safe 
haven to al Qaeda or other extremist groups. Foreign assistance 
resources will focus on building Afghan capacity to more effectively 
manage their own development. The $1.85 billion requested in the 
Economic Support Fund for Afghanistan represents our estimate of the 
resources that will be required to set a sustainable foundation for an 
economically stable, post-transition Afghanistan, Such requests will 
gradually decline from a high point of $3.4 billion in fiscal year 2010 
in a responsible manner in order to ensure a successful transition and 
maintain hard-won gains of the last decade. Foreign operations 
resources will ensure a secure U.S. diplomatic and development presence 
appropriately sized to oversee our continuing robust cooperation with 
Afghanistan.
     In the last year, we have taken significant strides toward a 
secure and stable Afghanistan through gains on the battlefield, the end 
of bin Laden, and strong commitments by the region and international 
community to Afghanistan's future at the Istanbul and Bonn conferences. 
At the North Atlantic Treaty Organization (NATO) Summit in Chicago 
later this spring, we hope to join with international partners to 
announce a plan to share the burden of training and equipping Afghan 
security forces to ensure Afghanistan's long-term stability.
    Since 2002, the Government of Afghanistan has made significant 
progress in terms of its fiscal sustainability and technical capacity 
to govern. Government revenues have increased steadily over the last 5 
years, including significant increases in collection of customs duties 
and fees for electricity. The Government has also signaled its 
commitment to reform through the adoption of a new economic strategy 
last year in Bonn which sets specific objectives to combat corruption 
and improve governance. This is not to say there have not been 
challenges and setbacks. In spite of the challenges though, we remain 
determined to meet our goal of transitioning security responsibility to 
the Government of Afghanistan by the end of 2014, which should result 
in a significant reduction in United States military spending.
    Our assistance program in fiscal year 2013 will continue to improve 
project sustainability through capacity building to ensure Afghans can 
maintain past investments into the future. Nowhere is this more evident 
than our investments in the Afghanistan infrastructure sector. Our 
fiscal year 2013 assistance request for infrastructure is a 12-percent 
decrease from fiscal year 2012 and a 31-percent decrease from fiscal 
year 2011; and our major focus is on increasing operations and 
maintenance capacity and sustainability as opposed to new construction 
projects.
    We are also seeking to improve the sustainability of the projects 
by increasing the percentage of development projects implemented by the 
Government of Afghanistan. These on-budget projects give the Government 
of Afghanistan hands-on experience in managing their own development 
within tightly defined parameters and with close supervision by USAID. 
We also remain committed to support for the Afghanistan Reconstruction 
Trust Fund, and the related National Solidarity Program as a means to 
improve the capacity of the government to sustain the country's 
development.
    Development resources have allowed the United States to work in 
partnership with Afghans to make major improvements in health, 
education and economic growth, but more work is required to ensure 
Afghans can continue progress without outside help. Making key 
foundational investments now (including energy infrastructure, 
sustainable agriculture, and government economic capacity) is important 
in fostering a more sustainable and resilient economy.

    Secretary Clinton. Well, it is the case, Mr. Chairman, as 
you know very well, that we have attempted to do something that 
hasn't been done since World War II, which is to take 
responsibility for the transition from a very large military 
footprint performing a lot of functions inside Iraq, 
unilaterally and bilaterally with the new Iraqi Government, and 
move toward a normal relationship between the United States and 
Iraq. And that does require right-sizing Embassy Baghdad.
    And so, we have a robust diplomatic presence in Iraq, not 
only in Baghdad, but in Erbil, in Basra, elsewhere. We are 
looking to make sure we have a constructive relationship with 
the new Iraqi Government and a normal relationship between 
sovereign nations.
    We have never made any secret of the fact that, even as we 
planned and executed the military-to-civilian transition, we 
were thinking about the next phase, a methodical plan for 
moving in the direction of operations along the lines of how we 
operate elsewhere in the world.
    And our budget request for fiscal year 2013 shows a 
reduction as a result of normalizing operations. This process 
is just part of the daily doing business, and we haven't--I 
don't think we have moved too quickly, contrary to press 
reports. We haven't reduced our presence by 50 percent. But we 
do hope over the coming years to be able to normalize by hiring 
more Iraqis, which is what we do everywhere in the world, 
sourcing more goods locally, reducing our dependence on 
contractors, which is very expensive.
    So we understand the serious concerns in your question, Mr. 
Chairman. And I can assure you that we are trying to move in a 
methodical way to do this right, so that what we end up with 
represents the importance of this relationship.
    Senator Leahy. We will probably have a lot more discussion 
about this. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I think maybe I will just pick up where you left off. I 
share the chairman's concern--and I know you do, too--about the 
security environment in Iraq. I think we are down to 600 
American military personnel.
    My question is, do you feel, given the conditions in Iraq, 
that we can safely operate on the diplomatic and economic 
development front?
    Secretary Clinton. At this time, our Embassy personnel, our 
U.S. mission--which, of course, is not just State and USAID, 
but a number of Government agencies--is going about the 
business of working with the people and Government of Iraq. We 
are obviously focused on ensuring the safety of both our staff 
and our contractors. We monitor security hour by hour, and we 
know there is no guarantee of safety. But we think we have 
judiciously deployed our staff and made everyone aware of the 
risks that they face.
    Senator Graham. How would you describe the security 
environment in Iraq right now? Is it stable, unstable, 
somewhere in between?
    Secretary Clinton. I think, Senator Graham, it is certainly 
far better than at any point in the past. It is more stable and 
safe. But there is a continuing unfortunate danger from 
extremists. We have seen this in the car bombs and other 
attacks, and we are doing our best to make sure our people are 
as safe as possible.
    This is not the only environment in which our diplomats and 
development experts operate with some concern about their 
safety. But right now, based on our assessment, we believe it 
is a manageable risk in Iraq.
    Senator Graham. Well, I think I will probably come out with 
a different view of the security situation, and we are going to 
have to look at our aid in light of that. I just don't see how 
we can effectively engage the Iraqi people, given the 
deteriorating security situation. We will have to re-evaluate 
our programs there.
    So I share Senator Leahy's concern, and I appreciate all 
those serving in Iraq, because it is dangerous. And nobody 
wants it to turn out well more than I, but I am very concerned 
about Iraq.

                             UNITED NATIONS

    Let us talk about the United Nations right quick. 
Palestinian statehood being achieved through the United Nations 
without negotiations with Israel, I think the administration 
opposes that. Is that correct?
    Secretary Clinton. That is absolutely correct.
    Senator Graham. And I think that is a very wise decision. 
We want a two-state solution, but instead of the United Nations 
conferring statehood just out of the blue, we want the parties 
to sit down and negotiate a peace treaty, then have statehood.
    So it is the position of the Obama administration, I think, 
is to tell subdivisions of the United Nations please don't 
admit the Palestinians through this process. Is that still the 
position?
    Secretary Clinton. That is still our position.
    Senator Graham. So when you are talking about the World 
Health Organization (WHO), which is a fine organization, if the 
Palestinians applied tomorrow, and WHO agreed to admit them, it 
would be the position of this Government that we would no 
longer participate. Is that correct?
    Secretary Clinton. We would no longer be able to fund WHO.
    Senator Graham. And I just think that is the signal to send 
the United Nations. You are not doing Israel and the 
Palestinian people much of a service when you go around the 
peace process.
    So I support the idea that United Nations subdivisions not 
unilaterally confer statehood on the Palestinians without first 
negotiating with the Israelis. And I want to applaud the 
administration, and I will continue to push back against any 
effort to obtain statehood through that process.

                                 SYRIA

    Let us go to Syria right quick. Do you believe that Assad 
should be viewed by the international community as a war 
criminal?
    Secretary Clinton. I think that, based on definitions of 
war criminal and crimes against humanity, there would be an 
argument to be made that he would fit into that category.
    Senator Graham. Is there any effort to make that argument 
before the world community?
    Secretary Clinton. I think people have been putting forth 
the argument, but I also think that from long experience, that 
can complicate a resolution of a difficult, complex situation 
because it limits options to persuade leaders perhaps to step 
down from power.
    Senator Graham. Well, I hope we can persuade him to step 
down. It doesn't seem to be that we are very successful right 
now.
    But eventually, he goes. Do you agree with that?
    Secretary Clinton. I do. I just don't know how to define 
``eventually'' right now.
    Senator Graham. Well, sooner rather than later would be the 
goal.
    Secretary Clinton. Yes.
    Senator Graham. And what follows--tell me what follows in 
Syria.
    Secretary Clinton. It depends upon how it is done, Senator. 
That is what we spend a lot of our time worrying about.
    We have just had, after 1 year of effort, a transition of 
power in Yemen. It was not easy, there was a lot of bloodshed, 
a lot of bombing and other activity went on. But eventually, 
through persistent diplomacy, and I particularly applaud our 
Ambassador on the ground in Sana'a, there was a peaceful 
transfer of power after an election that was viewed as widely 
credible.
    So, in Syria, what we are trying to achieve is something 
similar.
    Senator Graham. I hate to interrupt, but would you agree 
that the level of violence by the regime in Syria is 
unprecedented versus the Arab Spring as a whole? That what 
Assad is doing, killing citizens by the thousands, using tanks, 
is something different than we have experienced in other 
places?
    Secretary Clinton. Well, there were similarities----
    Senator Graham. Other than Libya.
    Secretary Clinton. Yes, I was going to say other than--
there were similarities to what Gaddafi both did and attempted 
to do in Libya. So there--it is not unprecedented certainly 
around the world, but it is----
    Senator Graham. In the----
    Secretary Clinton [continuing]. The most extreme use of 
state violence in the Arab Spring.
    Senator Graham. And people always ask me on my side, ``What 
do you think about Secretary Clinton?'' I always answer, ``I 
have a very high opinion of her.'' And I think one of your high 
moments was when you persuaded the President, along with some 
other strong women in the administration, not to let Misurata 
be slaughtered. I thought that was one of the best things you 
did for the world community because it will pay dividends in 
Libya.
    I would argue that we need to be looking at Syria through 
the same prism, that people are literally being slaughtered. 
And eventually, arms were supplied to the Libyan opposition, 
with training. I am not suggesting we do it, but the Saudi 
Arabians have talked about helping the opposition in Syria.
    So I would just encourage you to be looking at the Libyan 
model for Syria because it did end the atrocities, and for 
that, I am very grateful.
    Now, Iran. Do you believe the Iranians are trying to 
develop a nuclear weapon or peaceful nuclear power?

                            NUCLEAR WEAPONS

    Secretary Clinton. Well, as you know, Senator, there has 
been intense effort by the intelligence community here in our 
country and elsewhere to answer that question. There is no 
doubt that they are developing their nuclear capacity. It is 
the conclusion of our intelligence community that they have not 
made a decision to pursue a nuclear weapon. And that is----
    Senator Graham. Have they made the decision to create the 
capability to build a nuclear weapon?
    Secretary Clinton. That is a point of debate in the 
intelligence community, as you know.
    Senator Graham. Is it the position of this administration 
to deny them the ability to become a nuclear threshold state?
    Secretary Clinton. It is the position of the administration 
to prevent them from attaining nuclear weapons.
    Senator Graham. Would that be the component parts to make a 
nuclear weapon?
    Secretary Clinton. I am going to stick with what the policy 
of the administration is.
    Senator Graham. Now I have got to run to the Budget 
Committee, but I shall return because this is----
    Secretary Clinton. Oh, say a good word for us.
    Senator Graham. I will. I am going to go up there and see 
if I can put a plug in for your budget. Because you really are 
running the State Department in a business-like fashion.
    But do you believe, as someone who has spent 700,000 miles 
on the road, do you really have any doubt what the Iranians are 
up to? I really don't. Because I don't think you build nuclear 
power plants at the bottom of a mountain. And if you really 
weren't up to any good, why would you be defying the world 
community's ability to come in and look at what you are doing?
    I just think we need to embrace the idea that the Iranians 
are, in fact, developing nuclear capability, and it should be 
the policy of the United States not to let that happen.
    So, from a personal point of view, do you think they are 
trying to develop nuclear capability for weapon purposes?
    Secretary Clinton. Well, Senator, I am here as the 
Secretary of State and answer on behalf of the administration. 
I think the intelligence community's position has been quite 
clear.
    But I do think, having lived as long as I have lived, 
people sometimes say and do things that are at variance with 
what one might expect. It still is quite bewildering to me why 
Saddam Hussein wanted everybody to believe that he had 
chemical, biological, and even nuclear weapons of mass 
destruction when, apparently, he did not at that point----
    Senator Graham. One last question.
    Secretary Clinton [continuing]. In history.
    Senator Graham. If we err--if we err in judging Iran, don't 
you think we should err on the side of making sure they don't 
develop nuclear capability? And the tie goes to us, not them. 
Given the behavior of the regime, given the rhetoric of the 
President, given all their actions, that it would be a prudent 
thing for the United States and the world to assume the worst 
about Iran, and not the best?
    Secretary Clinton. I think that there is a very clear-eyed 
view of Iran and Iranian objectives, and that is why the 
President's policy is so clear and adamant, that the United 
States intends to prevent Iran from obtaining a nuclear weapon.
    Senator Leahy. Thank you.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman.
    Secretary Clinton, it is so great to have you back in the 
Senate, and all of your women colleagues in the Senate on both 
sides of the aisle continue to extend you an invitation to come 
to one of our regular dinners. You have a certain emeritus 
status with us.
    Senator Mikulski. And again, after 3 years, 700,000 miles, 
95 countries, you accomplished a lot. Candor, determination, 
leadership, your commitment to--ongoing commitment to the 
empowerment of women and girls and children around the world is 
legendary, and your emphasis on smart power and diplomacy.
    We want to thank you for what you are doing. But as the 
Senator from Maryland, I also want to thank you--and thank you, 
and by thanking you, thank all of the people who work at the 
State Department and our Foreign Service professionals who work 
both in this country and around the world. Many of them live in 
my own home State. Some have even sacrificed with their lives, 
like Ambassador Bartley did at the Khobar Towers.
    And our USAID workers. And also those NGO contractors. It 
was the University of Maryland who responded to Haiti with our 
National Guard. It is Hopkins and its School of Public Health 
that is helping in Africa and Nepal. Eliminating blindness 
among African children came out of work at Hopkins. And we are 
the home of Catholic Relief and Lutheran World Vision.
    So I want to thank everybody who works every day with where 
you provide the leadership, we help provide the money and the 
policies. But it is really--they are a unique group of people 
who have boots on the ground. And too often in all the budget 
debates, we forget about their salaries. We forget about their 
wages. We forget about their healthcare. We forget about their 
pensions. And every time we bash the Federal civil service, we 
are bashing those who are diplomats who bring the boots on the 
ground. So I want to publicly say, ``Thank you.''

                    DEATH OF MAJOR ROBERT MARCHANTE

    But, Madam Secretary, today Maryland is filled with grief. 
And let me share it with you.
    We woke up this morning to a headline that says this. 
``Maryland National Guard Major Died in Afghanistan Shooting''. 
Major Robert Marchante was a Maryland National Guardsman who 
was 1 of 2 killed at the Interior Ministry. All of Maryland is 
in shock--not shock and awe, but shock and awful because of 
what happened to him.
    It seems that working in this room with another officer--
John Loftis--it appears that he received a shot in the head. We 
leave it to our military to do their forensic investigation. 
But regardless of how he was killed, he was killed.
    I am sorry about the inadvertent burning of the Koran. I 
can understand the passion about it. But passion and anger is 
not equivalent to assassination.
    So this is really sad because this man was a public school 
teacher. He was a physical education teacher. He was a big, 
bulky guy. He worked in the blue-collar schools in Baltimore 
County that you, yourself, have visited on occasions, like at 
Steelworker's Hall. And when he got ready to leave for this 
deployment, kindergarten children put together a photo album. 
And he sat in their classroom in those little chairs--this big, 
manly, vigorous guy.
    So when we say good-bye to him--it is his wife, his four 
children, his grandchild--but children in Maryland are 
affected. So you get how we are feeling pretty bad today.
    And my question is, ``What do I tell his family?'' What do 
I tell his family today? Was it worth it? Because they are 
angry. People in Maryland are angry. We went there with the 
best of intentions and out of need after we were attacked. You 
were the New York Senator. We remember those--the harsh reality 
of that brutal 9/11.
    But here we are, they are growing dope. Girls still can't 
go to school the way we would like to. There is corruption. And 
now, because of an inadvertent act, the relationship is so 
fragile there is this tumultuous thing.
    What do I tell this family? Was it worth it? When are they 
coming home? What would you say if you have to make the phone 
call that I am going to make this afternoon?
    Secretary Clinton. Well, Senator, first, I would express 
the deep condolences and concerns that I know you will, as 
someone who cares deeply about the people you serve. And there 
aren't any words that can tell a wife and four children and 
friends and colleagues why any kind of death in combat, in 
service to our country, is explicable.
    But I would also say that the United States did go to 
Afghanistan for a very clear purpose, rising out of the attacks 
that originated there. President Obama has set us on a path to 
transition out of Afghanistan. This is not an endless 
commitment that will take lives far into the future.
    But that we have both made progress on the principal reason 
we were there, security. Because of our platform and our 
presence in Afghanistan, we have been able to target 
terrorists, particularly top al Qaeda operatives, including bin 
Laden, in their safe havens, and we have made progress in 
helping the Afghan people.
    Is it what we would want? Is it anywhere near what someone 
living in Baltimore would expect from a government, from the 
daily life, the human rights? No, it is not. But there are more 
positive developments because of the sacrifice and commitment 
of our people, our men and women in the military, in the other 
aspects of civilian power.
    So I could never justify the death of any one person, but I 
can with a clear conscience say that the work we have done 
there has made America safer and has created the possibility 
for a better future for the Afghan people.
    Senator Mikulski. Thank you, Madam Secretary.
    I have other questions, but it is not a lot more than I can 
say today.
    Thank you very much, Mr. Chairman.
    Senator Leahy. Thank you.
    Senator Coats.
    Senator Coats. Thank you, Mr. Chairman.
    Madam Secretary, I have said this to you personally. I want 
to say it publicly. There are a lot of people on both sides of 
the aisle who respect all the hard work that you have put in as 
Secretary. It almost makes diplomacy during the cold war look 
easy, compared to the fires that are burning all across the 
world. Add to that the jet-hopping from place to place, and I 
am sure half the time you don't know what country you are in 
when you tuck yourself into bed at night, only to get up early 
in the morning.
    I think we all appreciate the enormity of the tasks that 
you have had to deal with over the past 3 years and appreciate 
your hard work and commitment to that.
    I was a little taken by the comments you made in your 
opening statement here, listing your five priorities. Your very 
first priority, that this request ``allows us to sustain our 
vital national security missions in Iraq, Afghanistan, and 
Pakistan. The tide of war is receding, and that results in 
significant savings.'' Well, it does because we are pulling our 
military out of both Iraq and Afghanistan, and that does 
achieve significant savings.
    But I mean, can we rest easy on that, as we watch what 
happens, listen to the news every day, and review the 
intelligence reports? We have got a cauldron of problems. All 
across North Africa, very tenuous situations.
    And I am just wondering, it can't be easy to sleep at night 
knowing that the responsibility, so much responsibility has 
been shifted to the Department of State to deal with security--
something that was extremely difficult and continues to be for 
the military. Hired contractors and minimal personnel at the 
Embassy and so forth just doesn't give me any kind of assurance 
that there is a brighter day ahead.
    When you add the Iranian issue with the Israeli concerns to 
the mix, I think we are looking at a lot of volatility and a 
lot of unexpected requirements for the United States, given our 
commitment to these various areas. So I just wonder if you 
would reflect on that and respond to that issue.
    Secretary Clinton. Well, Senator, you are right. It is not 
an easy time to be in either your position or mine, looking out 
at the world that is so rapidly changing. But I do believe that 
drawing down our troops in Iraq, in accordance with the 
agreement that was reached in the prior administration--as you 
recall, it was an agreement to have our troops out by the end 
of last year--focused everybody's attention, including the 
Iraqis', on the way ahead. There was no easy answer to whether 
it was going to work out well or not, but it was, from our 
perspective, necessary to keep faith with what the agreement 
had been.
    I also think, based on our conversations and agreements 
with the new Iraqi Government they are trying to balance in a 
very dangerous region themselves. They have expressed on 
numerous occasions their desire for United States presence, 
United States support, United States training, United States 
military equipment. So it is moving into what I call a more 
normal relationship. And that means that sometimes we will be 
satisfied, and sometimes we will be disappointed by what 
happens and what they do.
    Similarly, in Afghanistan, the decision by our NATO allies, 
which the United States fully supported, reached at Lisbon 2 
years ago, to begin a transition to end combat presence in 2014 
helped to increase the attention paid to training the Afghan 
security forces because, ultimately, this country has to be 
able to defend itself. And there has been a lot of progress 
made on that front.
    But you are right to say what are the questions, what are 
the concerns, what are the worries, because we evaluate them on 
a regular, ongoing basis, and it is hard to--it is hard to have 
any certainty about what is going to happen next because of the 
fast-changing transformation that is affecting this region.
    Senator Coats. Well, I thank you for your answer.
    I would just state to the chairman, I think we will be back 
talking about adjustments to this budget before we want to. I 
mean, the hope and promise of the future in a number of these 
areas isn't being borne out by the reality that is taking place 
right now. Hopefully, it will be better, but I have some real 
concerns about that.
    When I was out of the Senate, I co-chaired with the 
Bipartisan Policy Committee, along with former Senator Chuck 
Robb, some very, very intensive and detailed studies relative 
to the Iranian pursuit of nuclear weapons. I can't help but 
come to the conclusion, based not only on what we learned 
through that whole process, other things that I have learned 
since I have been back in the Senate, and what the Iranians 
themselves have acknowledged that they are doing, that we are 
very, very close, if we haven't already surpassed, the point of 
dealing with a situation that could be a total game changer for 
the Middle East.
    I am not asking you to respond to that. You responded to 
Senator Graham. But I think the questions he asked were very 
relevant, and I think the situation--from my standpoint is that 
we are trying to make the best out of a very bad situation, and 
while we are trying to do that, the clock is ticking toward a 
nuclear Iran.

    UNITED NATIONS EDUCATIONAL, SCIENTIFIC AND CULTURAL ORGANIZATION

    The last question I have, as my time is running out, on the 
UNESCO issue, you said there is no room for discretion. If 
there is no room for discretion, why is the $78 million 
requested in the budget? Is the administration looking for the 
Congress to repeal the current laws?
    Secretary Clinton. No, I think that we are wanting to be 
prepared about what might happen going forward. We remain 
committed to a peace process. We remain committed to 
negotiations between the parties. And we hope that there might 
be breakthroughs at some point this year.
    Senator Coats. Yes. Of course, we have been hoping for that 
for about 30 years.
    Secretary Clinton. Yes, we have. And I think we have to 
continue to hope for it because it is the best outcome for both 
Israel and the Palestinian people.
    Senator Coats. So if the administration is not really--I 
mean, if it is just a hope and a wish and a prayer, we might 
have $78 million available for us to shift to other functions. 
Is that correct?
    Secretary Clinton. Well, I think what--let us see, somebody 
just handed me a note, and it could be applied toward the 
UNESCO assessment, should the Congress pass legislation to 
provide authority to waive restrictions, which was debated 
within the Congress at the end of last year, on appropriations. 
So I think it was an effort to be prepared in the event that 
situations developed well in the Middle East, or the Congress 
decided to provide waiver authority.
    Senator Coats. But there is no request from the 
administration for the Congress to do that. Is that correct?
    Secretary Clinton. Not in--is there? Yes, I think there is. 
I think there is in the budget. Yes.
    Senator Coats. In the budget. But is there----
    Secretary Clinton. I think that what--honestly, Senator, 
what we are trying to do is to figure out how to represent the 
United States. I mean, it is, as the chairman points out, 
somewhat ironic that Israel continues to pay its dues to 
UNESCO.
    Senator Coats. How much do they pay? Do you know?
    Secretary Clinton. Oh, it is done on the basis of their 
budget and their size. So it is nowhere near what we pay.
    And much of what they support in UNESCO, which is why they 
continue to participate despite the association of the 
Palestinians, is to stand up for things we believe in, like 
Holocaust education, like preventing people from pursuing the 
designation of certain groups or institutions in a way that 
would be inimical to Israel's interests. And we are the ones 
who fought for years to get Israel into UNESCO.
    So we are in an odd position, to be honest.
    Senator Coats. Has Israel made a request to the United 
States that we fund this?
    Secretary Clinton. You know----
    Senator Leahy. We ought to have our own request, and not 
Israel's or any other country's request.
    Secretary Clinton. Yes. No----
    Senator Coats. No, I mean the implication here is that, 
well, since Israel is still funding it and participating in it, 
then that we ought to go ahead and do it.
    Senator Leahy. Well, we can't do it. Our law doesn't allow 
us----
    Senator Coats. Exactly.
    Secretary Clinton. No, we don't--we can't. We can't do it.
    Senator Coats. Exactly. So there is no waiver provision?
    Secretary Clinton. No.
    Senator Coats. It has to be--the law has to be repealed.
    Senator Leahy. That is right.
    Senator Coats. And it is unlikely that it probably will 
happen in this year, based on how I read the House of 
Representatives----
    Senator Leahy. Well----
    Senator Coats [continuing]. And the stalemate that has gone 
on. I was just wondering if the administration is asking us to 
go forward and----
    Senator Leahy. Well, we don't have to repeal it. We can 
provide a waiver. Some of us feel we should at least have a 
waiver in there because it looks rather foolish that we say we 
are doing this to support Israel, but Israel continues to fund 
UNESCO. And----
    Senator Coats. But if there is no room for discussion, how 
can we provide a waiver?
    Senator Leahy. Well----
    Secretary Clinton. So there could be a----
    Senator Leahy. By amending the law.
    Secretary Clinton. Yes.
    Senator Leahy. A waiver is a waiver. We would amend the law 
to add a waiver to it. We do this in a number of areas, as the 
Senator knows from his own experience here in the Senate and as 
an ambassador. We have done this to give discretion to both 
Republican and Democratic administrations in areas where they 
should have it.
    Secretary Clinton. Could I just add----
    Senator Leahy. I would say my own personal view, that I 
think it is somewhat incongruous to say we are doing this to 
show solidarity with Israel, and they say, ``Yes, okay, but we 
are going to stay.''
    Go ahead.
    Secretary Clinton. Well, look, I mean, we continue to 
discourage very actively and we oppose Palestinian membership 
in international organizations. That is our position.
    Senator Leahy. Which I do, too.
    Secretary Clinton. We work on it. We reach out to countries 
all the time.
    But there are costs to the United States. I mean, Senator 
Graham asked about the WHO. Suppose there is an outbreak of 
some kind of new flu, and we are out of it. I mean, this is 
just not as clear-cut as I wish I could say it is. Because our 
position is very clear. We oppose it. We are doing everything 
we can to prevent it. But there are some organizations, like 
the International Atomic Energy Agency, WHO, the Food and 
Agriculture Organization--a long list of them--where the United 
States has very real interests.
    And so, having a waiver, if our diplomacy were to fail and 
there was an offer of associate membership, it is not a 
recognition of statehood. That cannot be in any way bestowed. 
But they can become some sort of associate or even full member 
in an organization that we also have an interest in.
    I mean, I just think it is a more challenging set of 
questions than--nobody doubts our singular focus and support 
for Israel. That is clear beyond any reasonable doubt 
whatsoever. But even though we oppose, that doesn't mean we can 
stop other organizations and even our European friends from 
going forward.
    So it is just--I think it raises questions. And having a 
waiver that would be exercised under only the most serious 
consequences might be worth looking at.
    Senator Coats. Yes, it is a dicey issue, no matter what.
    Secretary Clinton. It is.
    Senator Coats. Thank you, Mr. Chairman.
    Senator Leahy. Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman. And I include 
myself in the Clinton fan club.
    Secretary Clinton. Thank you.
    Senator Lautenberg. And I say thanks for all the people 
that I talk to, bump into, and so forth, and Secretary 
Clinton's name comes up, they are all plaudits. Hillary, you 
are doing a great job, and we are all proud of you.
    Secretary Clinton. Thank you.
    Senator Lautenberg. Thank you very, very much.
    I want to ask kind of a philosophical question here. All of 
us are dismayed by what we see in Afghanistan. The brutality 
that exists there is shocking.
    And The New York Times now has taken to publishing pictures 
on the front page of the terrible deeds taking place there--a 
young woman being hauled out of her house by a bunch of men 
because her uncle did something. And the standards that we see 
in some of these countries are incomprehensible to those of us 
who--in this country, with all of our freedoms.
    What do we do about these things in our calculus, when we 
say, ``Look, we have got to defend the relationship with the 
country,'' to us and the bigger picture, the fact that, in 
Afghanistan, they behave so abominably compared to our 
standards--drugs that keep addiction going in our society, no 
central law and order programs.
    What do we do, Madam Secretary, about a situation that we 
see throughout the world, where you are forced to make contacts 
with people whose behavior is just, again, not to be 
understood?

                              HUMAN RIGHTS

    Secretary Clinton. Well, I share your concern, Senator. One 
only has to look back in the history of the 20th century to see 
behavior that was totally inexplicable, beyond the pale of 
anything that the human spirit or conscience could abide.
    I think we live with many different levels of human 
behavior regarding human rights, women's rights. It is not 
confined, by any means, to one country. It is, unfortunately, 
found in many parts of the world. But because we have invested 
so much in our efforts to try to help the people of 
Afghanistan, I think that it is understandable that you, your 
constituents, our media would be focusing on what is happening 
there.
    It is difficult to have a broader picture, but the lives of 
so many Afghans have been expanded, broadened, and improved in 
the last decade because of the efforts of the United States and 
our international partners. You are certainly not going to hear 
from me any conclusion that the country has been transformed. 
It is a short period of time in historical terms. But it is 
fair to say that progress has been made.
    And we have invested an enormous amount of blood and 
treasure in Afghanistan. We do have a stake in trying to help 
work toward the best possible outcome, and that is what we are 
doing now.
    We are working with our allies on the potential for a 
political resolution through a reconciliation process. We are 
working to provide greater support to the Afghan security 
forces so they can defend themselves. We continue to support 
many aspects of their social system, from education to health.
    So there have been a lot of improvements, but it is still 
quite difficult for many of us to see what still goes on in 
that society. But I want to put it in a broader context than 
just to focus on what is so distressing to us.
    Senator Lautenberg. Yes. It is difficult. And I am sure it 
causes you a lot of grief and worry, you are so close to the 
situation.

                            FAMILY PLANNING

    In recent years, congressional opponents of contraception 
have sought deep cuts to international family planning 
programs. What happens, Madam Secretary, if they succeed in 
cutting the family planning programs? What is the penalty? What 
is the cost of that in real terms?
    Secretary Clinton. Well, the cost is financial. The cost is 
in women's lives. The cost is to undermine what many of the 
very same opponents claim is their priority--namely, to prevent 
abortions--because we want to stay focused on improving 
maternal and child health. And there is no doubt at all that 
family planning services are absolutely essential to improving 
both maternal and child health.
    Working through our Government, with other governments, 
with NGOs, with expertise, capacity-proven track records, we 
have made a big difference in women's health. You know, global 
estimates, Senator, indicate that by helping women space births 
and avoid unintended pregnancies, family planning has the 
potential of preventing 25 percent of the maternal and child 
deaths in the developing world. Family planning is the best way 
we have to prevent unintended pregnancies and abortion.
    So I know that it is a very controversial issue, but 
numerous studies have shown that the incidence of abortion 
decreases when women have access to contraception. And 
therefore, I strongly support what this administration is doing 
in trying to provide the means to improve the health of women 
and children around the world.

                                 EGYPT

    Senator Lautenberg. The 2012 omnibus spending bill 
prohibits Egypt from receiving aid from us unless you certify 
that Egypt is meeting its obligations under the peace treaty 
with Israel. What is your assessment of Egypt's progress toward 
them?
    Secretary Clinton. There is no indication that any--there 
is any intention or action at this time to undermine the peace 
treaty. In fact, we hear of a continuing commitment by the 
authorities in Egypt. We consult closely, as you might expect, 
with our Israeli partners on this. So, at this time, there 
seems to be an ongoing commitment to the importance of the Camp 
David accords to Egypt.
    Senator Lautenberg. The--which of the surrounding 
countries, surrounding Iran, can we comfortably say that they 
are really doing what they can to help influence the other 
neighboring countries?
    When I was in Turkey a couple of years ago, I met with Mr. 
Erdogan, the President, and he declared that, well, Hamas was 
not a terrorist organization, is their civil service 
organization, and that Syria is their best friend. And I know 
they are unhappy about the flood of refugees that are flowing.
    But who is there that among--what about the Arab countries? 
Would they like to see action taken? They are under the same 
risk umbrella that Israel and any other countries are.
    Secretary Clinton. Well, I think, Senator, that we have 
been encouraged by the support we have received across the 
world, not just in the region, in the enforcement of the 
sanctions against Iran. We have had to go to a number of 
countries and point out businesses that operated within their 
boundaries, that needed to be reined in, and otherwise would be 
sanctioned if they didn't stop doing trade and commerce with 
Iran. We are getting everyone lined up better than I think some 
might have expected.
    I think also the P5+1, the permanent members of the 
Security Council plus Germany, are in the process of evaluating 
the Iranian response to the letter sent by Lady Ashton on 
behalf of the P5+1 to resume negotiations, and that includes 
Russia and China. We are in constant contact with our Arab 
friends in the gulf about the threats that they face, the need 
they have for defensive measures.

                          TURKEY VERSUS SYRIA

    And certainly, circumstances have changed in the last year. 
Turkey is leading the charge against Syria and Assad right now. 
Of course, they would have preferred to resolve matters 
peacefully, convince Assad not to be slaughtering his people. 
When that proved unsuccessful, they have been very committed to 
finding ways to support the Syrian people.
    So this is an ongoing consultation, Senator.
    Senator Lautenberg. May I ask one last question, Mr. 
Chairman? Fairly simple, this one.

                           PAN AM 103 BOMBING

    You testified last year that we have worked with the FBI 
and the Justice Department, on the continuing investigation 
into the Pan Am 103 bombing. Libya's ambassador to the United 
States has also assured me that his government will conduct a 
thorough investigation.
    Now, has any progress been made on the investigation of Pan 
Am 103 since--in the last year?
    Secretary Clinton. Well, I think it is fair for me to say 
that this is primarily a Department of Justice responsibility, 
but we have had intensive discussions with our counterparts in 
Libya. We have made it clear to them of the great importance of 
this state--of this case to the United States, our 
determination to bring those responsible to justice. And the 
investigation remains open. We are working to obtain new 
information.
    I think it is only in the last few months that there could 
even be any assurance that we would get answers, because of the 
conflict ending, this new government trying to get into 
operation. But I want you to know, because of your deep 
interest in this, Senator, this is always at the top of my list 
whenever I talk with any Libyans.
    Senator Lautenberg. Thank you.
    Senator Leahy. Senator Brown.
    Senator Brown. And I thank you very much, Secretary 
Clinton, for joining us and for your outstanding public service 
for so many years.
    I follow on Senator Lautenberg's question on Libya. This is 
the 40th anniversary of the Munich Olympics massacre, where 11 
Israeli athletes were killed. One of those athletes was an 
American citizen, David Berger from, I believe, Shaker Heights, 
Ohio, Cleveland area. I spoke with his 90-plus-year-old father 
last week.
    I know the Department is working to compensate victims of 
Gaddafi's terrorism. Walk me through where things are with 
getting compensation and accountability for David Berger and 
his teammates, if you would.
    Secretary Clinton. I may have to take that one for the 
record, Senator, because clearly, we are pursuing a lot of the 
cases that we believe can be traced back to the Gaddafi regime. 
Some of those cases have been settled, and therefore, there is 
no further litigation or negotiation to be pursued.
    I am not familiar with where the specific case that you 
just mentioned rests, so I will get you information for the 
record.
    [The information follows:]

    The Department of State extends its deepest sympathies to the 
family of David Berger and the other victims of the 1972 terrorist 
attacks in Munich. We are currently looking into the matter, and would 
be prepared to discuss appropriate measures with you or your staff at a 
future date.

    Senator Brown. And we will follow up on that----
    Secretary Clinton. Yes.
    Senator Brown [continuing]. With some of the questions I 
probably won't have time to ask today on Syria, Sri Lanka, and 
a couple other things.
    Secretary Clinton. Okay.

                       TRADE UNIONS/WORKER RIGHTS

    Senator Brown. At last year's hearing, you and I had an 
exchange about the role that trade unions played in the Arab 
Spring, especially in Tunisia and Egypt. You suggested that we 
should do more to support trade unions around the world, much 
like we did in the 1970s and 1980s with Lech Walesa and 
Poland's Solidarity movement.
    In China today, workers continue to suffer from poor work 
conditions. We have read about the--and talked about the 
700,000 workers for Foxconn, and those related, who make Apple 
computer products. And we hear much about many of these issues.
    A new generation of young migrant workers in China has 
grown more vocal in asserting their rights, including strikes 
at auto parts factories. While the auto industry and the auto 
rescue is working well in my part of the country--well beyond 
Ohio, but my part of the country, we know, in terms of auto 
parts, we have seen from 2000, from permanent normal trade 
relations until now, about an 800-percent increase in our trade 
deficit, just unilaterally or bilaterally with China, an 800-
percent increase in our trade deficit there.
    But more to the point, what is--what can the State 
Department do to help workers in China increase their capacity 
to organize and protect their rights? What potential do you see 
in China and our role for an increase--and our role 
contributing to increased democracy in the Chinese workplace?
    Secretary Clinton. Well, let me just make three quick 
points because this is a very important issue.
    As I said last year, we have upped our emphasis on labor 
issues in the State Department. We have beefed up the personnel 
and the attention we are paying to labor issues. We are more 
actively participating in international labor meetings because 
the United States believes that if we can put together a 
greater coalition of countries and trade unions who are 
concerned, we will have more impact.

                             WORKER RIGHTS

    Specifically with respect to China, the trends suggest that 
there will be increasing economic pressures on the Chinese 
business and government to be able to respond to working 
conditions, wages, and the like, and that if we just project 
out, a lot of that will come from people organizing. And we are 
very supportive of that. We think that workers organizing on 
behalf of themselves and having their voices heard is a 
critical component of real democratic development.
    Senator Brown. How does that manifest itself? If I am a 
Chinese worker that has come from the countryside, as many do, 
to work in an auto parts plant in Wuhan or Xi'an, how do I know 
that the U.S. Government really does care about that?
    Secretary Clinton. I am not sure you would because what we 
fund are lawyers who bring cases on behalf of people who aren't 
paid, who are made promises about working conditions that 
aren't fulfilled. It is a huge country, and I don't think it is 
particularly broadly known that we are doing what we can 
through our democracy and human rights work to zero in on 
working conditions in China and elsewhere.
    So I don't know that the worker you are talking about would 
know it. But we are helping to create a body of law and 
expectations that will, I believe, eventually filter down to 
even that worker. That there will be a greater awareness of 
people's rights, as we are now seeing emanating from the 
village democracy movements, where people are speaking out for 
themselves.
    Senator Brown. So talk to me for a moment along those same 
lines. When American elected officials in--or American 
officials, excuse me, meet with their Chinese counterparts, 
whether it is the President meeting with Vice President Xi 
last--a week or so ago, or when he met with a number of us in 
the Senate, are we bringing up--is the President, are you, or 
are other officials--not very many Senators are, frankly, and 
should be, in my view. But there are other things to bring up, 
too, so I am not sitting in judgment of my colleagues.
    But are we bringing up those issues of worker rights in 
these bilateral private meetings? Can you assure me that we 
are?
    Secretary Clinton. I can assure you that we are bringing up 
human rights in every meeting with any Chinese interlocutor. 
That includes freedom of religion, freedom of expression, 
assembly, association, which certainly includes labor rights, 
organizing rights.
    In our human rights dialogue, in our legal experts' 
dialogue, that is right up there with other areas of our 
concerns about human rights and their lack of definition and 
enforcement in China.
    Senator Brown. Okay. Thank you.
    And I urge you--and I know your sentiments, and I know you 
want to, and I urge you to continue that and encourage you to 
send that through the administration perhaps more than it has 
been.

                                SOMALIA

    Last question. I want to ask you about Somalia. Somalia is 
approaching 20 years as a stateless society in the Horn of 
Africa. It has become a target for those who want to cultivate 
vulnerable young people to a life of terrorism.
    Are you confident that the budget request gives you the 
tools needed to help in whatever way we can, especially if we 
see another famine next year like this year?
    Secretary Clinton. Well, I just attended a very well-
organized conference on Somalia in London that the UK 
Government put together. And I don't want to overstate it, but 
I think that we have a plan that is not just a U.S. plan, but 
an international plan.
    As you know, the United States is the largest humanitarian 
donor to the Horn of Africa region. That includes Somalia, 
where we invested $210 million in humanitarian assistance last 
fiscal year.
    We are encouraged at what we see in political development. 
We are encouraged in what we see as military success against 
al-Shabaab. The United States just supported an increase in 
African Union Mission to Somalia forces and funding that we are 
going to have to fund, to try to finish off al-Shabaab in 
Somalia. And I think our assistance is yielding results.
    Now our big challenge is on the political side. The 
transitional federal government (TFG) has been given until 
August of this year to meet certain internationally agreed-upon 
obligations--to have a constitution, to have new parliamentary 
elections for a smaller, hopefully more effective parliament. 
And we are putting great pressure on the existing TFG to 
fulfill those promises.
    So conferences can come and go, but I think this particular 
one was--set some very clear benchmarks on humanitarian relief, 
military security action, and political reform.
    Senator Brown. Thank you.
    I will have additional questions on the global questions 
and inquiries with you on the Global Fund and Sri Lanka and 
Syria.
    So, thank you, Madam Secretary.
    Secretary Clinton. Thank you, Senator.
    Senator Leahy. Senator Durbin.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Madam Secretary----
    Secretary Clinton. Hello, Senator.
    Senator Durbin [continuing]. It is good to see you.
    Secretary Clinton. Thank you.
    Senator Durbin. And thank you for what you are doing for 
our country.
    You have done two things recently that I want to make a 
comment on, I thought were very powerful and very important. 
Your statement about Russia and China failing to join us in the 
United Nations Security Council on what would have been a 
powerful statement against the killing, the wanton killing 
taking place in Syria was one of the best. There was no 
cloaking your feelings.
    You felt very strongly about those victims across Syria, 
and I think you were right to call Russia and China to task for 
what I consider to be an--I will say this--an irresponsible 
position they have taken when it comes to the Syrian conflict. 
Thank you for that.
    Second, the situation in Afghanistan with the 
unintentional, though controversial, destruction of the Korans 
put you and the President in an extremely difficult position. 
You had to make it clear that it was something that did not 
reflect the feelings or values of this country, and you did 
your best to calm down the situation, as did the President.
    I think that was what leadership is all about. And when 
several political voices this last Sunday raced to the Sunday 
shows to be critical of those statements, they ought to talk to 
the families of the men and women serving our country in 
Afghanistan, who want them to come home safely.
    What you said was the right thing for our country and the 
right thing for those families. So I want to thank you for both 
of those statements at the outset.

                                 HAITI

    May I speak to you for a moment about Haiti? Senator Leahy 
just returned with a delegation. I was there a few weeks ago. 
You have an abiding interest as Secretary of State and through 
your husband, the former President, and the work that he has 
done.
    I feel disappointment. Garry Conille, the Prime Minister 
for a few weeks only, is now gone, and President Martelly is 
looking for his fourth Prime Minister in the short period of 
time he has been there. There are so many things that need to 
be done in this impoverished country still recovering from an 
earthquake, but there is one in particular that I want to call 
your attention to.
    My impression in traveling around is, as you reported to 
Senator Brown, we do many good things around the world that the 
average person on the street never knows. We still do them 
because it is the right thing to do. There are things which we 
can and should do that really affect the hearts and minds of 
people.
    Port-au-Prince, an NGO named GHESKIO, G-H-E-S-K-I-O, a 
woman, Dr. Deschamps, takes me on a tour and points to a piece 
of machinery on the ground. And she says to me, ``This is our 
new well and water pump. We had to drill down 600 feet. We 
found clean, fresh water. We draw it to the surface, put it in 
a reservoir, treat it with chlorine, and provide clean drinking 
water to 120,000 people in Port-au-Prince.''
    And I said, ``Who paid for the well?'' She said, ``You 
did.'' The Paul Simon Water for the Poor Program, which is 
funded at a very modest level, thanks to Senator Leahy, but 
enough. For $25,000, this well with clean water helped this 
group protect more than 100,000 people from the threat of 
cholera.
    I said to President Martelly, you could do this all over 
Port-au-Prince, and we can help you. For modest amounts of 
money, we can provide clean drinking water, which is a basic, 
as you and I have discussed many times.
    Tell me, as you look at Haiti and things like this, what 
are we doing that not only makes a difference, but may be 
appreciated by the people who live there?
    Secretary Clinton. Well, Senator, thank you for your 
opening two comments. I greatly appreciate both of them. And 
thank you for asking about Haiti because we have been focused 
on Haiti even before the earthquake in this administration.
    And you know, we have made a considerable investment that 
has produced results for the people of Haiti. We are well aware 
of the challenges that remain. But your question really goes to 
the dilemma we face in trying to provide assistance that 
produces results and that people know we are doing.
    You know, we do a lot to help people all over the world, 
that water well that you are talking about. But I am still not 
satisfied that we do a very good job in conveying to the world 
what we do, what the American taxpayer pays for us to do. I am 
not satisfied. I think that there is so much that you can be 
proud of.
    And like you, I travel all over the place. I see the clean 
drinking water projects. I see the agricultural seed products. 
I see the maternal and child health clinic projects. I see all 
of this.
    But oftentimes, people don't know, in the country where we 
are helping them or in our own country what we are investing 
in. So there is a lot that we could do better, and we are 
working to try to improve that.
    Second, we are doing a lot to try to make our aid 
sustainable. And by that, I mean except for humanitarian 
emergencies, like after an earthquake or in the Horn of Africa 
with a famine, where we have to just come in and help save 
people's lives, we need to be asking ourselves, is what we are 
doing likely to be sustainable by our friends with whom we are 
partnering, either in their public sector or their NGOs?
    And we are moving very much toward country-owned, country-
directed aid. Well, that is kind of change for a lot of our 
folks.
    So there is an enormous amount of ferment going on in our 
development efforts, including with USAID, but not exclusively 
there because some other of our Government agencies contribute 
as well.
    Senator Durbin. I have one last question, and it relates to 
a speech which you gave many years ago as First Lady in Chicago 
at a dinner at the Hilton Hotel honoring our mutual friend Bill 
Brodsky. You had just returned from a trip to India, and you 
said something which has stuck with me ever since, in case you 
don't think you make an impression on people. You did.
    You said, ``If I go to one of the poorest countries on 
Earth and I can only ask one question to find out how they are 
doing and what their chances are, it would be this. How do you 
treat your women?''
    Secretary Clinton. Right.
    Senator Durbin. I remembered that, and I have asked that 
question wherever I have gone.
    And it led me to introduce legislation which has passed the 
Foreign Relations Committee twice and the Senate, which has 
been stalled in the House of Representatives, on the issue of 
child marriage.

                             CHILD MARRIAGE

    Secretary Clinton. I know. Thank you, Senator.
    Senator Durbin. And I just hope that you can, at the G8 
meeting or in other avenues, open up some conversation here.
    What happens to those poor little girls----
    Secretary Clinton. Mm-hmm.
    Senator Durbin [continuing]. Who become victims of a child 
marriage, it ruins their lives, and sometimes literally kills 
them with an early pregnancy they can't handle.
    Secretary Clinton. Right.
    Senator Durbin. So I hope you can join the voices that are 
on both sides of the aisle here that are promoting that 
legislation.
    Secretary Clinton. We strongly support it. We were deeply 
disappointed that it died in the House, for reasons that I 
don't think were directly relevant to the purpose of the bill. 
So we want to work with you and with a bipartisan coalition in 
the House to try to get it passed this year.
    Senator Durbin. Thank you.
    Senator Leahy. If I can take a chairman's prerogative here 
to praise Senator Durbin, who has been a----
    Senator Durbin. Take all the time you need.
    Senator Leahy [continuing]. Consistent voice on this and 
other issues that come also before the Judiciary Committee.
    But you, Madam Secretary, from your days as First Lady have 
been very consistent on this, and as a member of the U.S. 
Senate. You have continued as Secretary of State.
    I have to think that there are, as a result of some of the 
efforts that have gone on, there are young women who may never 
know you or Senator Durbin, or any of the rest of us, all they 
will know is their lives are better. I think that is what we 
strive for.
    If we don't do that, then we don't deserve the privilege we 
have as citizens of this country and, in our case, citizens who 
do not have to worry about those kinds of things.
    So I thank you both.
    Secretary Clinton. Thank you.
    Senator Leahy. Senator Landrieu.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman.
    And Madam Secretary, it is always wonderful to see you. And 
thank you for your leadership.
    And I also want to thank Senator Durbin and Leahy for their 
initiative on child marriage and want to join them in 
supporting that initiative.
    I also want to commend you for your work with the Director 
of USAID on your reform efforts for how we deliver foreign aid. 
I think it is a major departure, but an important departure, 
Mr. Chairman, that I am sure you are aware the Secretary and 
Dr. Shah have been developing, which is to purchase more of the 
supplies and goods from the countries that we are attempting to 
serve. Because it then has the added benefit of not only 
putting in the well, or building the hospital or the clinic, 
but you are also stimulating the local business and local 
entrepreneurship.
    Can you comment briefly about that initiative? And are you 
pleased with the way it is moving forward? Is there anything we 
can do to be more supportive?

              QUADRENNIAL DIPLOMACY AND DEVELOPMENT REVIEW

    Secretary Clinton. Well, Senator, first let me thank you 
for your very important focus on aid and particularly on 
everything that we are trying to do for children around the 
world.
    As part of our first-ever QDDR that I directed, we have all 
taken a hard look at how we can do our business more 
efficiently, produce better results in State and USAID. And 
under Dr. Rajiv Shah's leadership, USAID is moving forward on 
their agenda on how we can improve procurement, how we can 
improve the information technology platforms that USAID uses. 
In fact, how does USAID and State work closer together to 
eliminate duplication and redundancy so that our separate 
missions are not wasting money on things that are essentially 
just the logistical part of being out in the world.
    So I think that on these indicators--and I can get you a 
fuller response for the record--of procurement, shifting toward 
more locally purchased goods and services saves money and gives 
us, therefore, more bang for the buck in delivering the aid 
that we are looking for. Looking at how we deploy people is 
giving Administrator Shah more flexibility so that he can more 
quickly move people from location to location.
    Increasing the coordination between USAID and State, so 
that we are not reinventing the wheel every time there is an 
emergency. USAID leads on humanitarian emergencies. State leads 
on political conflict emergencies.
    So we are really trying to do what we do better. We think 
it is part of our obligation. And I am very proud of what USAID 
is doing.
    Senator Landrieu. Well, please give us any specific updates 
as you can and keep us posted. I particularly want to be 
supportive.

                          VULNERABLE CHILDREN

    Second question, on vulnerable children.
    Secretary Clinton. Mm-hmm.
    Senator Landrieu. As you know, several years ago--and 
Senator Leahy has supported this set-aside in the budget to 
focus on, and it was authorized, but the Senator also supports 
it--a couple of hundred million dollars for orphans and 
vulnerable children. And under your leadership and with the 
State Department and with this subcommittee, we have been 
trying to focus that money--which is a large amount, but small 
in relation to all of the PEPFAR money and others--on programs 
that can help better connect and serve children that are out of 
family care. And you agreed and spoke at the first conference 
directed.
    Can you give us a brief update about how the State 
Department or USAID can be a little bit more focused on trying 
to reach to those children who are just out of family care? 
They are either on the street, they are in institutions. How 
are we better connecting them to families, which every child 
deserves a permanent loving and protective family?
    Secretary Clinton. Well, you have been such a leader on 
this. And you know, what we are trying to do is, number one, 
work with other nations to do more themselves to take care of 
their vulnerable children. Because you are right. We have 
children in sweatshops. We have children on the streets. We 
have children being trafficked into brothels. I mean, we have 
terrible kinds of situations for too many vulnerable children 
around the world.
    So we are tightening laws and regulations. We are training 
workers, judges, and police officers to just get them to focus 
on their own children. Because no matter how generous we would 
want to be, we are just a small part of the solution.
    But with respect to what we are doing, we are working to 
improve adoption systems and out-of-home care for vulnerable 
children around the world. We had more than 9,000 children 
finding permanent homes through inter-country adoption last 
year. We know that is an important part of what we can do to 
help these vulnerable children.
    We have to make sure that there are no scandals associated 
with them, that you don't have child kidnappings and thefts and 
all the other terrible things that go along with it. So we are 
pushing hard for broad-based acceptance of the Hague Convention 
on Adoption.
    So we have a multi-pronged strategy, which you have helped 
us support by having the Congress be a partner, and we want to 
continue doing that.
    Senator Landrieu. Thank you.
    And my final question--I do want to mention Haiti, and the 
opportunity that I had to go down to Haiti about a year-and-a-
half ago. I look forward to getting briefed by the chairman on 
his recent visit and just want to encourage our work. I know it 
is difficult.

                             LATIN AMERICA

    My final question, though, is about Latin America. The 
budget, and the President has recommended--which is hard for me 
to understand, and I know all budgets are tight--a $92 million 
reduction for the Western Hemisphere.
    With the recent escalation of drug trafficking in Guatemala 
particularly, the devastation in El Salvador due to the recent 
disaster that happened there--an unnamed storm, but nonetheless 
delivered as much rain and devastation as a named hurricane 
would just recently.
    How are we justifying this reduction, and are you concerned 
about it? And what can we do to show our support for these 
emerging Latin American democracies that are so important?
    Secretary Clinton. Well, I think, Senator, here is a 
potentially good news story, just to a great extent.
    Our assistance in the hemisphere seeks to promote citizen 
security. We have three of the most violent--well, the three 
most violent countries in the world are in Central America. We 
want to help them continue their work to develop durable 
democratic institutions, encourage economic and social 
opportunity, and emphasize clean energy, as they try to link up 
all of their people with electricity.
    So the decrease in the fiscal year 2013 request reflects a 
trend toward lower costs--lower costs, first, because what we 
have learned is how to be more efficient in our security-
related institution building programs. We are focusing on fewer 
areas of development in USAID, in light of the overall economic 
progress in the hemisphere.
    So, for example, our request for citizen security programs 
is declining in part because two of our largest recipients--
Colombia and Mexico--are transitioning from periods of 
intensive capital investment--building police academies, 
building prisons, building courthouses--to equipment and 
training, and they are really looking at how they are 
sustainable. And I think this Congress should be very proud of 
the work we have done in Colombia and in Mexico over the last 
15 years.
    And we are also trying to be smarter about how we ask Latin 
America to help itself. We have some booming economies that are 
beginning to be aid donors themselves. So, for example, in 
Central American security, it has taken us some time, but we 
have invested heavily in diplomatic outreach to get Latin 
America, Canada, the European Union, specific European 
countries, all to work with us, so that we would leverage the 
resources we put in.
    So, I think, by and large, it is a good news story. But if 
there are specific areas that you remain concerned about, I 
would be very happy to know about that.
    Senator Landrieu. Thank you, Madam Secretary.
    Senator Leahy. Senator Hoeven.

                    STATEMENT OF SENATOR JOHN HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for being with us today. The 
first thing I would like to ask you about is the situation with 
our NGO workers in Egypt who have been detained because of a 
travel ban. I was recently there with Senator McCain and also 
Senator Lindsey Graham, our ranking member, and several other 
Senators.
    We had an opportunity to meet with the detainees. And of 
course, they are at the Embassy, our Embassy there. One of the 
detainees is from North Dakota. And so, I had an opportunity to 
visit with her, which I appreciated very much.
    We also met with the Muslim Brotherhood and the Freedom and 
Justice Party, the speaker of their parliament, and others. And 
actually, the day after we were there, the Muslim Brotherhood, 
Freedom and Justice Party, put out a statement that I thought 
was very helpful. And I am appreciative of Senator McCain and 
Senator Graham for leading that group over there to try to 
encourage that the travel ban be lifted.
    But it hasn't been. So I am very concerned. And I would 
just ask you to give me whatever update you can on your efforts 
to get our seven American NGO workers back here to the United 
States.
    Secretary Clinton. Well, first, Senator, thank you for 
going to Egypt. Thank you for traveling to these countries that 
are incredibly important to our future peace and security.
    We are engaged in very intensive discussions with the 
Egyptian Government about finding a solution. We have had a lot 
of very tough conversations, and I think we are moving toward a 
resolution. But I don't want to discuss it in great detail 
because it is important that they know that we are continuing 
to push them, but that we don't necessarily put it out into the 
public arena yet.
    So I will--now that I know one of the NGO workers is one of 
your constituents, we will stay in very close touch with you.
    Senator Hoeven. Well, I appreciate that. I appreciate your 
efforts. And again, I certainly want to do anything I can do to 
help, but certainly we want to do everything we can to see that 
our workers, our Americans, get home safe and sound.
    Secretary Clinton. Yes.
    Senator Hoeven. And of course, beyond that, we want to 
build a good relationship with this new democratic government 
in Egypt.
    So there is a lot at stake here, and I know you are hard at 
work on it. And I appreciate it very much and look forward to 
staying in close contact with you.
    The other item I wanted to bring up is the sanctions on 
Iran. My background is banking. And so, I understand when you 
have no access to funding, it puts a lot of pressure on you.
    Now, through the National Defense Reauthorization Act, 
which included the Kirk-Menendez amendment, we put sanctions on 
Iran's Central Bank. These are very effective. I mean, those 
sanctions basically provide, I guess is the way I should put 
it, that any country or company that tries to buy oil from Iran 
has to pay for it through Iran's Central Bank, and they can't 
do it and deal with the United States banking system.
    That is a powerful sanction. But it needs to be fully 
implemented, and we can't grant exceptions. And that is why 
Senator Graham and myself and others are sponsoring a 
resolution supporting the administration, and calling on them 
to fully implement that sanction and to not allow exceptions.
    I know that creates diplomatic pressure with friends like 
South Korea, with countries like India and others that buy oil 
from Iran. But this is our chance to really put pressure on 
Iran to stop their nuclear ambitions, short of other options, 
including, obviously, a military strike.
    I feel we need to impose those sanctions as aggressively as 
we can. I am asking you to do that. Would you please comment on 
that?

                             IRAN SANCTIONS

    Secretary Clinton. Well, we totally agree with you, 
Senator. And we are implementing the new Iran sanctions 
aggressively. The President issued an Executive order on 
February 6 that blocks assets under United States jurisdiction 
of all Iranian banks, also makes it clear that both the 
Departments of the Treasury and State are expected to enforce 
the sanctions absolutely.
    We have been traveling the world, high-level teams from the 
Departments of the Treasury, Energy, and State, to explain what 
the sanctions are to counterparts around the world. We are very 
frank in these discussions about the requirements of U.S. law.
    And we have seen a lot of action. A broad range of 
countries are making decisions to reduce their dependence on 
Iranian crude, unwind their dealings with the Central Bank of 
Iran.
    We are also pushing very hard to make it clear that we will 
help countries that have a significant dependence on Iranian 
crude to try to find alternatives. It is something that they 
have to look for. They can't just stop cold turkey, and not 
have anything fueling their economies. Some of our major--our 
friends who are major producers have set forth their 
willingness to try to make up the difference. So we have had a 
positive reaction.
    Just for your information, the EU member states--I mean, 
you take some of those countries were dependent up to 30, 35 
percent on Iranian crude--and Japan have been among the most 
visible. They have been taking extraordinary steps to try to 
comply with our sanctions and deny revenue to Iran.
    We have seen increasing difficulty by Iran in importing and 
exporting products. They cannot purchase third-party liability 
coverage for their vessels. So we have stopped them from being 
insured, which means they can't travel. So European--or travel 
with insurance. So European and Asian companies are actually 
moving more quickly in reducing their imports and their 
purchases than we thought they would be able to.
    So, we are just relentlessly pressing them, Senator. We are 
going to do the very best we can to help them.
    I would say that we have some unique situations. I mean, 
look at Japan, which lost so much of their electricity 
production because of the earthquake and the Fukushima nuclear 
power plant meltdown. They have been reducing their imports 
from Iran in the range of 15 to 20 percent since last year 
because we have been working with them and talking to them, and 
they are aggressively seeking out new suppliers. But they have 
got to find new suppliers.
    We have got some challenges there. Libya is not back up the 
way it needs to be. We are now sanctioning Syria. So their 
contribution is not what it needs to be. But I can assure you, 
we are working as aggressively as we can to try to meet these 
very tough sanction targets.
    Senator Hoeven. Mr. Chairman, I will just wrap up here with 
this comment.
    Again, thank you, Madam Secretary, for joining us this 
morning. We are working to help you in the Senate in terms of 
imposing those sanctions. That is our best shot to really apply 
pressure to the Iranian Government to stand down its nuclear 
ambitions, and we will continue to try to help make those 
sanctions as effective as possible.
    Secretary Clinton. Thank you, Senator.
    Senator Leahy. Thank you.
    I know the Secretary has to leave in just a couple of 
minutes, but I am going to yield first to Senator Graham, and 
then I have one last question.

                   FREE TRADE AGREEMENT WITH TUNISIA

    Senator Graham. Thank you, Mr. Chairman.
    And we are going to try to do this in 3 minutes. Okay?
    Tunisia. Do you support the efforts of trying to open up a 
dialogue regarding our free trade agreement with Tunisia?
    Secretary Clinton. I do support that. I know that----
    Senator Graham. That is good. That is enough.
    Secretary Clinton. Okay. All right.
    Senator Graham. All right. Do you support reprogramming 
money to help Tunisia get through their budget shortfall for 
the next 2 years?
    Secretary Clinton. I do support that.
    Senator Graham. And you will seek other countries to 
support Tunisia?
    Secretary Clinton. And we are doing that as you speak, Mr. 
Graham.

                                 EGYPT

    Senator Graham. Egypt. Do believe the cases against the NGO 
workers are legitimate?
    Secretary Clinton. No, I do not. Now----
    Senator Graham. Do you--good answer.
    Do you believe that it would be unsafe for our people to 
appear in Egyptian court, given the security environment that 
exists today in Egypt?
    Secretary Clinton. I don't want to go any further than I 
have in saying that----
    Senator Graham. Fair----
    Secretary Clinton [continuing]. We are hoping to resolve--
--
    Senator Graham [continuing]. Fair enough.
    Secretary Clinton [continuing]. These very soon.
    Senator Graham. I really believe that would be a mistake. 
And I understand where you are coming from.
    If you were asked today to certify Egypt as complying with 
all the conditions in the appropriations bill for receiving 
aid, could you do so?
    Secretary Clinton. I am not going to answer that either at 
this point----
    Senator Graham. Good enough.
    Secretary Clinton. Okay.
    Senator Graham. Okay. Egypt just needs to listen.
    Secretary Clinton. Yes.
    Senator Graham. That she is not saying yes.
    Okay. Afghanistan. Is it worth it for us to have a 
strategic partnership agreement? Is it in our national security 
interest?
    Secretary Clinton. It is absolutely in our national 
security.
    Senator Graham. And I hope and pray that Karzai understands 
that this is the last, best chance for Afghanistan to be stable 
and have a bright future, and take the administration up on 
this offer.
    Thank you very much for all you have done for our country.
    Secretary Clinton. Thank you, Senator.
    Senator Leahy. Thank you.

                         LEAHY/GRAHAM AMENDMENT

    Just to follow up on one thing that Senator Graham said. 
Does Egypt now realize that the Leahy-Graham amendment on Egypt 
is a reality?
    Secretary Clinton. I think they are coming to understand 
that, Mr. Chairman.
    Senator Leahy. Thank you.
    Secretary Clinton. It is.
    Senator Leahy. All our people who go over there to speak 
with them understand----
    Secretary Clinton. Yes, Sir.
    Senator Leahy [continuing]. That it is real. Because that 
was not always clear at the beginning.

                            LEAHY AMENDMENT

    I have one other question. We have the Leahy amendment, 
which prohibits aid to units of foreign security forces that 
violate human rights. It does have some strong supporters in 
the State Department, but it also has detractors. I often hear 
of efforts to narrowly interpret the law in a way contrary to 
its intent. In the past, we have had some Embassies that 
applied it only to funding for training and not for equipment, 
which would be a flagrant misreading of the law.
    Can you assure me that there is guidance to our U.S. 
Foreign Service officers, who are responsible for applying the 
law, that they will accurately reflect what we intend and what 
the law says.
    Secretary Clinton. Well, I believe that we do implement the 
Leahy amendment in a consistent way across the world. The 
vetting process requires that the Embassy, Bureau of Democracy, 
Human Rights, and Labor, the relevant regional bureaus all 
agree that a candidate either is or is not eligible for 
assistance, and that is what we are going to continue to do.
    Senator Leahy. Thank you.

    UNITED NATIONS EDUCATIONAL, SCIENTIFIC AND CULTURAL ORGANIZATION

    I should note, just to make sure we have it clear in the 
record, that while Israel will remain a member of UNESCO I am 
told they are not planning to make their assessed contribution 
this year. They also realize our law, which was done to support 
them contrary to our interests, is a law that provides no 
wiggle room.
    I would hope that we would at least be able to amend the 
law. I think it would be more helpful to Israel to amend the 
law to give you the same kind of waiver we have given past 
administrations for similar laws.

                               SRI LANKA

    I also want to commend you for your efforts to pursue 
accountability for the perpetrators of war crimes in Sri Lanka. 
I hope you will continue to support international efforts to 
bring the Sri Lankan war criminals to justice, even though 
their own courts don't.
    I will take that nod to be a ``Yes.''

                               LAND MINES

    Finally, the United States has completed its review on the 
use of antipersonnel landmines, something we haven't used in 20 
years. They're banned by 156 countries, including all our NATO 
allies. We spend a fortune cleaning up landmines every year. 
But we're treated as an outsider because we haven't joined the 
treaty.
    Do you know when a recommendation will go to the President 
on this?
    Secretary Clinton. I have been hoping that the process 
would be completed as soon as it could be. So far, that has not 
yet occurred.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Leahy. I see. Well, you and I will have more 
conversations on that.
    I will keep the record open until Friday for any further 
questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Patrick J. Leahy
    Question. Can we do more to engage with the Chinese on the whole 
range of issues, from climate change to human rights, piracy of 
intellectual property, and military cooperation?
    Do you agree that we should continue supporting partnerships 
between United States universities and nongovernmental organizations 
(NGOs) with counterparts in China to strengthen the rule of law and 
environmental health and safety in China?
    Answer. Building a positive, cooperative, and comprehensive 
relationship with China is an important part of the United States' 
reinvigorated engagement with the Asia-Pacific. In 2012, we will 
continue to deepen our bilateral engagement with China in a wide 
variety of areas, including human rights, intellectual property rights 
and rule of law, climate change and other environmental and health 
issues, and military-to-military dialogue.
    Specifically, we will continue to use forums such as the Strategic 
and Economic Dialogue, Strategic Security Dialogue, Human Rights 
Dialogue, Legal Experts Dialogue, Consultation on People-to-People 
Exchange, Joint Commission on Commerce and Trade (JCCT), JCCT IPR 
Working Group, Ambassador's IPR Roundtable, Joint Commission on Science 
and Technology Cooperation, EcoPartnerships Program, Ten-Year Framework 
for Cooperation on Energy and Environment, and more than 50 other 
ongoing regional and functional subdialogues we have with China to 
advance our interests, promote universal values, strengthen the 
international system that we have helped shape, and build our relations 
with an increasingly influential China.
    Partnerships between United States and Chinese universities, NGOs, 
and subnational entities are an increasingly vital part of the 
bilateral relationship. Not only do programs such as the U.S.-China 
EcoPartnerships and the 100,000 Strong Initiative enjoy broad support 
from both sides, they provide new mechanisms for strengthening China's 
institutions and introduce positive aspects of the United States to the 
next generation of China's social, educational, and political leaders. 
We also believe that it is vitally important to continue to support 
engagement between United States NGOs and universities and their 
Chinese counterparts through programs that advance the protection of 
human rights, the development of the rule of law and civil society, and 
the promotion of religious freedom in China. These programs offer low-
cost investments in reform that will offer long-term dividends for the 
United States. Furthermore, such engagement broadens understanding 
between our societies, empowers Chinese civil society organizations to 
advocate for their fellow citizens' rights, and promotes our strong 
interest in expanding peaceful and positive relations with China.
    It is only through increased connection at all levels that we can 
develop open and honest exchanges, build bilateral trust, reduce the 
risk of misunderstanding, and address areas of disagreement.
    Question. For fiscal year 2013 you are requesting $2.1 billion to 
house, protect, and support our diplomats and aid workers (in 
Afghanistan), and another $2.5 billion for programs. The total 
represents a $1.1 billion--or a 30-percent increase for the State 
Department and United States Agency for International Development 
(USAID) above the current level. Given our track record in Afghanistan 
where it seems that the more ambitious and costly our goals the worse 
the results, is it really responsible to spend all that money? With the 
latest fiasco with the Koran burnings, how are we going to have 
confidence that our investments can and will be sustained by the 
Afghans?
    Answer. The resources requested for fiscal year 2013 in Afghanistan 
will play a key role in ensuring Afghanistan never again serves as a 
safe haven to al Qaeda or other extremist groups. These funds are 
crucial to enable us to complete preparations for Afghanistan's 
assumption of full security control throughout its territory in 
December 2014.
    We continue to carefully assess the security situation in 
Afghanistan following recent violent incidents. However, these 
incidents have not prevented us from carrying out programs and 
implementing essential construction projects in Afghanistan. United 
States forces will remain in Afghanistan in fiscal year 2013 and 
provide the security support necessary to implement our plans.
    Foreign assistance resources will focus on building Afghan capacity 
to more effectively manage their own development and foreign operations 
resources will ensure a secure United States diplomatic and development 
presence appropriately sized to oversee our continuing robust 
cooperation with Afghanistan. In the last year, we've taken significant 
strides toward a secure and stable Afghanistan through gains on the 
battlefield, the end of bin Laden, and strong commitments by the region 
and international community to Afghanistan's future at the Istanbul and 
Bonn conferences. At the NATO Summit in Chicago later this spring, we 
hope to join with international partners to announce a plan to share 
the burden of training and equipping Afghan security forces to ensure 
Afghanistan's long-term stability. Since 2002, the Government of 
Afghanistan has made significant progress in terms of its fiscal 
sustainability and technical capacity to govern. The Government of 
Afghanistan's revenues have increased steadily over the last 5 years, 
including significant increases in collection of customs duties and 
fees for electricity. The government has also signaled its commitment 
to reform including through the adoption of a new economic strategy 
last year in Bonn, which sets specific objectives to combat corruption 
and improve governance. This is not to say there have not been 
challenges and setbacks. In spite of the challenges, we remain 
determined to meet our goal of transitioning security responsibility to 
the Government of Afghanistan by the end of 2014, which should result 
in a significant reduction in United States military spending.
    Our program in fiscal year 2013 will continue to improve project 
sustainability through capacity building to ensure Afghans can maintain 
past-investments into the future. Nowhere is this more evident than our 
investments in the infrastructure sector. In fiscal year 2013 our 
request for infrastructure decreases by 12 percent from fiscal year 
2012 and 31 percent from fiscal year 2011; our major focus is on 
increasing operations and maintenance capacity and sustainability as 
opposed to new construction projects.
    We are also seeking to improve sustainability by increasing the 
percentage of development projects implemented by the Government of 
Afghanistan. These on-budget projects give the Government of 
Afghanistan hands-on experience in managing their own development 
within tightly defined parameters and with close supervision by USAID. 
We also remain committed to support for the Afghanistan Reconstruction 
Trust Fund, and the related National Solidarity Program as a means to 
improve the capacity of the government to sustain the country's 
development.
    Development resources have allowed the United States to work in 
partnership with Afghans to make major improvements in health, 
education and economic growth, but more work is required to ensure 
Afghans can continue progress without outside help. Making key 
foundational investments now (including energy infrastructure, 
sustainable agriculture, and government economic capacity) is important 
in fostering a more sustainable and resilient economy.
    Fiscal year 2013 will be a critical year in establishing our 
enduring presence in Afghanistan in secure facilities that will permit 
our diplomatic staff to carry out programs and engage with Afghan 
partners after the security transition process is complete. In addition 
to Embassy Kabul, our plan is to establish platforms in Jalalabad in 
the east and Kandahar in the south in addition to the two current 
consulate locations in Mazar e Sharif and Herat. If facilities are to 
be ready in these locations in 2014, we must do much of the work to 
prepare them in 2013.
    Question. You are requesting more for military and economic aid for 
Pakistan than last year, even though our relations have grown 
progressively strained. The Pakistani military is deeply suspicious of 
the United States and is not cooperating fully with our efforts against 
al Qaeda and the Taliban. Our supply lines through Pakistan are not 
moving. Corruption is endemic. The Pakistani people are as virulently 
anti-American as ever. We need a constructive relationship with 
Pakistan, but business as usual is not the answer. Why are you 
proposing to provide another $2.2 billion for the same kinds of 
activities as in the past?
    In 2010, a video of Pakistani soldiers summarily executing 
suspected Taliban prisoners was posted on the Internet. General Kayani 
pledged to conduct an investigation, but since then we have heard 
nothing. This was not an isolated case of alleged war crimes by 
Pakistani soldiers. The Taliban has also summarily executed Pakistani 
police captives. Do you know if any Pakistani soldiers have been 
punished for these crimes?
    Answer. Despite recent challenges and tensions, our core national 
security interests in Pakistan are as urgent and compelling as ever, 
and we remain committed to a productive, respectful relationship with 
Pakistan. While Pakistan's Parliament is undertaking a review of the 
relationship, the results of which we expect to be issued in the coming 
weeks, we continue to engage with Pakistan on our key interests such as 
counterterrorism and achieving our goals in Afghanistan.
    Although similar to fiscal year 2012 funding levels, the fiscal 
year 2013 request represents a 25-percent decrease from fiscal year 
2012 request levels. It reflects resource and implementation 
constraints, while remaining sufficiently robust to send a consistent 
statement of our intention to continue cooperating with Pakistan on our 
joint interests, including building Pakistan's counterterrorism and 
counterinsurgency capacity to help disrupt, dismantle, and defeat al 
Qaeda.
    While the events of 2011 led to a downturn in our relationship, we 
have been consistent in our continued support of the Pakistani people 
and their democratically elected civilian representatives, not with the 
goal of winning a popularity contest, but because we take the long-term 
view. We think a stable, democratic, tolerant, prosperous Pakistan, 
which can provide alternatives to extremism for its population, is good 
for the security of the region and the national security of the United 
States. Civilian assistance is an important part of achieving that 
long-term goal. A goal we share with the Pakistanis is to continue to 
foster opportunities to move toward ``trade not aid'', and our fiscal 
year 2013 budget will help build trade and investment in Pakistan, 
which must ultimately drive Pakistan's growth and reduce its dependence 
on foreign assistance.
    There are serious governance and human rights problems in Pakistan 
and we continue to both report on and raise these with the government. 
In this particular case, in October 2010, Chief of Army Staff Kayani 
ordered a board of inquiry to investigate the video and the 
allegations. We continue to ask the Pakistani Government for the 
results of this investigation. However, to date, we have not been made 
aware of its findings.
    Question. The Leahy amendment, which prohibits aid to units of 
foreign security forces that violate human rights, has some strong 
supporters in the State Department and I want to thank you for some of 
the recent steps that have been taken to more vigorously implement and 
enforce the Leahy amendment. However, it also has its detractors, and I 
often hear of efforts to narrowly interpret the law in ways that are 
clearly contrary to its intent. Most importantly, I understand that 
many U.S. Embassies have required vetting of individuals to determine 
their eligibility under the Leahy amendment to receive U.S. training, 
but have not vetted their units which may have a history of human 
rights violations. Vetting units is a core concept of the Leahy 
amendment. It is against the law to provide any form of assistance--
training, equipment, or anything else--to any person who either belongs 
to a unit credibly alleged to be involved in gross violations of human 
rights or who personally is involved in such violations. Can you assure 
me that the guidance for every U.S. Foreign Service Officer who is 
responsible for applying the law will accurately reflect these core 
principles, and that top officials in the Department will be informed 
of the importance of fully implementing the law?
    I would also be grateful to have your assurance that foreign 
governments will be informed if assistance is being withheld from 
specific units under the Leahy amendment. As you know, this also is 
specifically required by the law.
    One important goal of the law is to end the impunity for members of 
foreign security forces who violate human rights. Consequently, the law 
also directs that the United States must offer assistance to help bring 
to justice individuals who have committed gross violations. Who within 
the Department is tasked to implement this legal requirement? What 
funds have been allocated to carry out this requirement of the law? Can 
you provide me any examples since the law was first enacted when the 
United States offered such assistance?
    Finally, I believe that the Leahy amendment and the reputation of 
the United States and of the Department of State have suffered because 
of the refusal by the Department to provide public information about 
how seriously the Department takes the law, how much effort it devotes 
to implement it, and how many cases are affected by the law. I 
understand that it may be important in rare cases to keep certain 
information confidential concerning the law in order to protect 
intelligence sources and methods. But many of the atrocities subject to 
the law are reported in news articles and other public sources. At a 
minimum, I would appreciate it if you would provide me--in 
nonclassified form--aggregate information about the implementation of 
the Leahy amendment over the last 12 months, including the following:
  --What is the Department's best estimate of how many times units or 
        individuals have been denied approval under the Leahy amendment 
        vetting process;
  --What is the Department's best estimate of the number of times that 
        a request for vetting was not finally approved either because 
        approval was denied or for any other reason; and
  --What is the Department's best estimate of the number of countries 
        in which a vetting request was denied or otherwise not approved 
        under the Leahy amendment.
    Answer. Please be assured that all levels of the Department 
involved in security assistance are well aware of the Leahy amendment 
and all Foreign Service Officers and others in the Department charged 
with implementing the law are aware of the requirements. As you know, 
the Department has established a robust vetting system called INVEST 
(INternational VEtting and Security Tracking) which is now in use by 
Embassies worldwide to conduct Leahy amendment vetting. By replacing 
the former cable-based process, the INVEST system has greatly 
facilitated efficient vetting of security force units and individual 
candidates nominated to receive State-funded training and assistance, 
as well as Department of Defense (DOD) training. The INVEST system 
includes detailed policy and procedural instructions for conducting 
vetting in compliance with the Leahy amendment. We have vetted in 
excess of 200,000 nominees since the system became fully operational in 
January 2011.
    If at any time during the vetting process we determine that a 
nominee cannot receive assistance because there is credible information 
of gross human rights violations, or incomplete information that 
prevents us from completing vetting on the nominee, the nominee is not 
approved for assistance. In these circumstances, the host country is 
asked to nominate a replacement candidate or to provide additional 
information to allow vetting to be completed.
    With respect to unit vetting, we understand that units or 
individual candidates from units credibly implicated in gross human 
rights violations cannot be provided assistance under the Leahy 
amendment. The Department is issuing additional guidance on this point 
that highlights the explicit provision in this regard recently added by 
section 620M(d)(5), and to ensure that all involved in the vetting 
process are aware of the unit vetting requirement.
    Regarding notification of host governments, we recognize on several 
fronts the value of conveying to partner governments when we have 
identified credible information of gross human rights abuses by its 
officials and seek to comply with this legal requirement. Embassies and 
senior level United States Government officials engage host governments 
at every opportunity to raise specific human rights concerns, and to 
offer assistance in bringing violators to justice.
    The Department does not have a specifically designated program to 
assist foreign governments in bringing individuals to justice, nor do 
we have funding set aside for this purpose. However, the Department 
does have more than 260 law enforcement and justice programs worldwide 
designed to enhance the rule of law, human rights, and good governance. 
As such, in some countries, such as Colombia, the Department supports, 
within the Prosecutor General's office, a specialized Human Rights Unit 
which identifies human rights violators and seeks to bring them to 
justice.
    In the past year, 1,766 individuals and units have been denied 
assistance or training due to credible information about gross human 
rights violations, or where vetting was suspended due to discovery of 
derogatory human rights information that could not be resolved before 
the training deadline. An additional 12,571 candidates did not receive 
assistance or training because they were submitted for vetting with 
insufficient information, additional requested information was not 
received in time, or they were not submitted in time to complete 
vetting. While the number of candidates not approved to receive 
assistance is important, it is also significant to note that, due to 
the broad awareness of the Leahy amendment, our Embassy staffs 
frequently work to prevent the nomination of units and individuals that 
are known to have credible information that implicates them in gross 
human rights violations, and where the host country has not taken 
effective steps to bring the responsible members to justice. In effect, 
this extends the effect of the Leahy amendment beyond those cases where 
assistance is denied by vetting.
    On occasion, derogatory information on issues that would not 
trigger the Leahy amendment surfaces and candidates are rejected as a 
matter of policy. In some instances, candidates are re-submitted at a 
later date with additional information and favorably vetted for follow-
on training or assistance. The INVEST system is set up so that if a 
candidate is not favorably vetted at all steps in the process, the 
candidate is not approved and the training or assistance is not 
provided. In the past year, candidates from 46 countries have not 
passed vetting and have thus been denied training or assistance.
         changing united states role in the asia-pacific region
    Question. Over the past couple of months you have made the point 
that as the United States withdraws and reduces its commitments in Iraq 
and Afghanistan, we must begin an increased and strategic investment in 
the Asia-Pacific region. I don't see this shift in focus reflected in 
the fiscal year 2013 budget request. What specific investments are you 
proposing?
    Answer. Looking forward to the next decade, we recognize no region 
will be more important to the United States than the Asia Pacific. 
Overall fiscal constraints in the foreign affairs budget have placed 
limits on our ability to increase direct State Department and USAID 
resources to the region in fiscal year 2013. However, we have been able 
to elevate our commitment to the region through a strategy that is 
multifaceted, involving close coordination with the full spectrum of 
interagency partners to make sure our diplomatic, defense, and 
development efforts are aimed at increasing U.S. investments in the 
region in key areas. Foreign assistance is but one aspect of our 
strategy to deepen our engagement with the region and the fiscal year 
2013 budget reflects strategic choices that must be made as the budget 
becomes more constrained. It is important to look at the whole picture 
of what we are sending to the region.
    Substantial Millennium Challenge Corporation compacts that were 
recently signed will bring more than $1 billion of American assistance 
to Indonesia and the Philippines in the next 5 years. In addition, we 
are substantially increasing our consular resources in the Asia-Pacific 
to address an unprecedented increase in demand for United States visas. 
This is not entirely evident in the East Asia and Pacific chapter of 
the fiscal year 2013 congressional budget justification, since the 
budget tables do not take into account fee-funded positions and 
expenditures, such as consular officers and some construction expansion 
projects. In China, we are expanding our consular presence at every 
single post, and visa issuances have more than doubled in the last 5 
years.
    Diplomatic efforts are also an essential part of our longstanding 
and ongoing engagement in the region. They are a critical component of 
how we pursue and achieve our strategic objectives, but are not 
captured by figures like development assistance dollars. For example, 
we successfully concluded our implementation review process for our 
major free trade agreement with Korea, which entered into force on 
March 15 of this year, and are now working aggressively on the Trans 
Pacific Partnership. Our enhanced engagement with Burma and our 
strategy to match ``action-for-action'' to encourage the country's 
reform process has already shown signs of progress including a 
substantial release of political prisoners. These efforts have already 
produced real results, such as new strategic dialogues across the 
region with emerging partners, strengthened alliances, and expanded 
engagement with the region's multilateral fora including the 
Association of Southeast Asian Nations (ASEAN) and the East Asia 
Summit, as well as deepening regional cooperation on a range of 
economic issues through Asia Pacific Economic Cooperation--which all 
work to advance U.S. interests.
    In addition, we have established the Lower Mekong Initiative with 
four nations sharing the Mekong, and launched the Indonesia 
Comprehensive Partnership and Partnership for Growth in the 
Philippines. The budget request reflects the administration's continued 
support for and commitment to these important initiatives.
    As part of the National Export Initiative and the new focus on 
economic statecraft, our diplomats are also helping United States 
companies learn about the massive infrastructure development 
opportunities in the ASEAN region, particularly Indonesia. We believe 
that our companies are best-placed to bring world-class capabilities 
and state-of-the-art technology toward this endeavor and in the process 
create jobs for Americans on the homeland.
    We remain more committed than ever to the region and to making sure 
America remains a leader in the Pacific arena.
    Question. I want to commend State Department for its efforts to 
pursue accountability for the perpetrators of war crimes in Sri Lanka. 
The Liberation Tigers of Tamil Eelam (LTTE) committed terrible 
atrocities, and we are all glad they are defeated, but the Sri Lankan 
army also violated the laws of war and thousands of civilians died as a 
result. Unfortunately, so far the Government of Sri Lanka has not 
punished anyone. Will you continue to call for international mechanisms 
to investigate these crimes and bring Sri Lankan war criminals to 
justice?
    Answer. We are deeply concerned about the events of the final 
months of the conflict, including reports that there could have been as 
many as 40,000 civilian deaths. We support a full accounting of, and 
accountability for, serious allegations of international humanitarian 
law and international human rights law violations that occurred in the 
final months of the conflict.
    The United States has maintained a consistent dialogue with the 
Government of Sri Lanka regarding the issues of reconciliation and 
accountability since the end of the conflict in May 2009, and is 
concerned that without genuine reconciliation and accountability, the 
country could return to conflict.
    The United States is supporting a resolution at the March UN Human 
Rights Council session that calls for action on important steps toward 
accountability and reconciliation, while expressing the international 
community's concern about delays on implementation of such measures. It 
also encourages the Government of Sri Lanka to communicate what it 
intends to do to implement the constructive recommendations of its own 
Lessons Learnt and Reconciliation Commission, advance reconciliation, 
strengthen democratic institutions, and address accountability.
    While domestic authorities have primary responsibility to ensure 
that those individuals responsible for violations of international 
humanitarian law and international human rights law are held 
accountable, international accountability mechanisms can become 
appropriate in circumstances in which a State is unable or unwilling to 
meet its obligations. The Government of Sri Lanka needs to demonstrate 
that it is able and willing to meet these obligations. If they do not, 
there will be growing pressure from the international community for an 
international accountability mechanism.
    Again, we support a full accounting of, and accountability for, 
serious allegations of international humanitarian law and international 
human rights law violations that occurred in the final months of the 
conflict.
    Question. The President issued an Executive order last month to 
improve visa and foreign visitor processing. I was glad to see this 
because we have been trying to get the Department to improve the 
tourist visa process for several years and included language in the 
fiscal year 2012 bill directing the Department to reduce visa wait 
times, particularly for citizens from China and Brazil and to improve 
the way the Department forecasts the demand for tourist visas.
    What is the status of the improvements that the Department is 
planning and implementing and have wait times gone down for Chinese and 
Brazilians who want to visit the United States? Are there any 
improvements that you want to make but can't and need the Congress' 
help?
    Answer. We are confident that we will meet the goals of the 
Executive order. Our ongoing efforts to increase staff, expand or 
improve existing facilities, and implement internal efficiencies are 
paying off. Interview wait times in China are currently under 7 days. 
Missionwide, wait times have averaged less than 30 days for all but 2 
of the past 18 months. In Brazil, wait times missionwide have fallen 
from more than 100 days to just weeks at some posts. The longest wait 
time in Brazil is less than 30 days, a significant accomplishment.
    Demand for visa services in China and Brazil continue to increase 
in 2012. Our consular sections accommodated 33 percent and 62 percent 
growth, respectively, in the first 4 months of this fiscal year, as 
compared to the same period last fiscal year. We expect demand to 
remain at these levels in Brazil, and to increase in China over the 
traditional spring and summertime ``high season'', as prospective 
university and college students begin to apply for visas. Staffing 
flexibility is critical to keeping interview wait times down during 
this period, and we are deploying the first group of limited noncareer 
appointment consular adjudicators in March and April 2012 to support 
the expected demand increase.
    Although we chiefly rely on our internal observations to predict 
future visa demand, we also consider the Department of Commerce's 
Forecast of International Travelers to the United States as a key 
indicator of potential demand for visa services among some of the 
fastest growing economies, including China and Brazil.
    We appreciate congressional interest in this topic and we value 
constructive congressional oversight of our visa function. As we are 
meeting the goals of the Executive order, we must not forget that every 
visa issuance decision is a national security decision, and that there 
will be visa adjudication cases for which additional review would be 
warranted.
    Question. The fiscal year 2013 budget request proposes a $226.9 
million cut in funding for refugee assistance and resettlement 
programs. Given what we know the needs are, how can we justify this?
    Answer. The President's fiscal year 2013 request includes $1.675 
billion for the Migration Refugee Assistance and the Emergency Refugee 
and Migration Assistance accounts. While this represents a decrease in 
funding available for humanitarian programs supported by these accounts 
in fiscal year 2012, it represents a $30.3 million increase from the 
President's fiscal year 2012 request for these accounts. This increase 
reflects the administration's ongoing commitment to humanitarian 
programs, while taking into account current budget constraints. The 
administration remains dedicated to providing robust support for 
humanitarian programs worldwide.
    Question. Has the Government of Israel obtained bulldozers or spare 
parts for bulldozers with Foreign Military Financing (FMF) assistance 
since January 2009?
    In April 2011, the State Department informed me that a foreign 
military sale (FMS) (IS-B-ZLT $24.5 million) of 33 nonarmored (plus an 
option for an additional 12) D9-R bulldozers was completed on July 27, 
2010 and that ``to date, the contract was awarded by the U.S. Army on 
December 15, 2010 with an estimated delivery date for all 33 of 250 
days (i.e., on or about 21 Aug 11)''. Were these bulldozers delivered 
as estimated in April 2011? For what purpose(s) were they provided? Is 
this information related to the contract still accurate today?
    When was the last sale of bulldozers or spare parts for bulldozers 
to Israel either through a direct commercial sale or under the FMS 
program, and for how many, what type, and for what purpose?
    Would bulldozers or spare parts for bulldozers transferred to 
Israel, either through direct commercial sales or under the FMS or FMF 
programs, be permitted to be used for Palestinian home demolitions 
under the standard conditions provided in section 505 of the Foreign 
Assistance Act? Have such transfers been subject to any restrictions on 
their use for Palestinian home demolitions? Have they been used for 
Palestinian home demolitions?
    Answer. Under FMS case IS-B-ZLT, Israel received 33 commercially 
configured, custom-built, nonweaponized, nonarmored Caterpillar D9R 
Bulldozers and associated tool sets, storage chests, diagnostic 
equipment, and spare parts. Israel procured these bulldozers under a 
contract awarded on December 15, 2010. As part of this case, the 
Government of Israel has the option of purchasing 12 additional 
bulldozers. It has not exercised that option to date.
    The bulldozers were shipped to Israel beginning on April 28, 2011, 
and ending on August 5, 2011. The spare parts, tools, and storage kits 
were delivered on September 23, 2011. The purpose of the bulldozers was 
to support the activities of the Israeli Defense Forces. The Israeli 
Ministry of Defense is the stated end user in this case.
    There are a number of general military applications for bulldozers 
including earthworks, digging moats, mounting sand barriers, building 
and demolishing fortifications and structures, recovering overturned or 
damaged armored fighting vehicles, clearing landmines, detonating IEDs 
and explosives, clearing terrain obstacles and opening routes for 
armored fighting vehicles and infantry.
    At this time, there are no open requests for bulldozers from 
Israel. The U.S. Government decided as a matter of policy in 2007 that 
due to earlier incidents of concern, if Israel wants to purchase 
bulldozers using FMF, Israel must use FMS channels and authorities. 
Israel can, however, use its national funds to purchase bulldozers from 
commercial sources worldwide.
    The sale of Caterpillar spare parts is done through FMS channels 
against a blanket open ended spare parts case on an as-needed basis. 
This ensures economies of scale based on high volume procurements for 
certain parts in DOD inventory.
    Although we are in contact with several Israeli NGOs and 
organizations like United Nations Office for the Coordination of 
Humanitarian Affairs that track Palestinian home demolitions, they do 
not appear to keep records of what type of bulldozer is used for each 
demolition, nor do we track individual bulldozers for each demolition, 
nor do we track individual bulldozers within the Israeli fleet. 
Therefore, we have no information as to whether bulldozers purchased 
with United States funds were used in home demolitions. We do note that 
the Road Map calls for Israel not to demolish homes or property as a 
punitive measure.
    Question. The Inter-American Commission on Human Rights and other 
human rights groups have denounced recent human rights violations in 
Bajo Aguan, Honduras. Has the United States Ambassador to Honduras made 
any public statements regarding such violations?
    The United States has provided training and support to the Honduran 
army's 15th Battalion in the past. Please describe the role of the 15th 
Battalion's role, if any, in the Bajo Aguan region. Are there any plans 
to provide assistance to this Battalion in fiscal year 2012 or fiscal 
year 2013?
    To which units of the Honduran army is the administration planning 
to provide assistance in fiscal year 2013, and for what purposes?
    Have any members of the Honduran police forces been arrested, 
charged, or punished for human rights violations in the Agu n region?
    Answer. The Department of State closely follows the land conflict 
in the Bajo Aguan region of Honduras. United States Ambassador to 
Honduras Lisa Kubiske has expressed concerns about the violence both 
publicly and in meetings with Honduran officials. In February, Deputy 
Assistant Secretary for Democracy, Human Rights, and Labor Kathleen 
Fitzpatrick visited Honduras, where she referenced the conflict in a 
public statement and raised the issue in private meetings with Honduran 
officials. In November 2011, the Department of State sent officials to 
the Bajo Aguan to meet with leaders of farm worker collectives, 
representatives of security forces, and landowners. The following 
month, Under Secretary for Civilian Security, Democracy, and Human 
Rights Maria Otero visited Honduras, where she met with Honduras' 
Secretary of State for Justice and Human Rights. The United States 
Government was pleased to see the February 2012 agreement, brokered by 
Honduran officials, to sell cultivated land to farm workers and address 
the root causes of the conflict.
    Contrary to reports from several human rights groups, the Honduran 
Army's 15th Battalion is not participating in the Xatruch II operation 
in the Bajo Aguan, designed to prevent confrontations between farm 
workers and private security guards. A DOD-funded U.S. Special Forces 
detachment assists in training members of the 15th Battalion in areas 
including medical care and marksmanship. All training activities 
emphasize the importance of protecting human rights.
    The United States Government provides security assistance to the 
Honduran armed forces to support its efforts to more effectively 
control its national territory, participate in peacekeeping operations, 
respond to natural disasters, and conduct search-and-rescue operations. 
In addition to the 15th Battalion, the United States Government 
provides training to the Honduran Army's 1st Special Forces Battalion, 
among other units. Consistent with the Leahy amendment and department 
policy, the Department of State conducts background investigations of 
potential recipients of security training from the Department of State, 
as well as from certain Department of Defense training programs, to 
ensure that they have not committed gross human rights abuses.
    Honduran authorities are investigating 11 police officers for 
alleged human rights abuses in the Bajo Aguan and the surrounding 
region. Four of those officers have been arrested, and an additional 
four are suspended pending completion of the police investigations.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
    Question. Madam Secretary, I appreciate the focus you have always 
given to Asia and the Pacific during your tenure. I commend the 
administration for its announcement earlier this year to shift the 
focus of United States foreign policy to Asia. Given this interest 
could you please elaborate on the strategy that the Department would 
like to pursue engaging our Pacific partners?
    Answer. Looking forward to the next decade, we recognize that the 
Asia-Pacific region will continue to increase in importance to the 
United States and we understand that our diplomatic presence and 
engagement should reflect the significance the region will have for our 
country. We are working smartly to elevate our commitment to the region 
through a strategy that is multifaceted, involving close coordination 
with the full spectrum of interagency partners to make sure our 
diplomatic, defense, and development efforts are targeted toward our 
highest priorities.
    The Pacific Island countries remain vital to U.S. interests due to 
our shared history, defense partnerships, commercial links, people-to-
people connections, and consistent alignment on key UN issues. I have 
met with Pacific Island leaders the last 2 years on the margins of the 
UN General Assembly to discuss issues of mutual concern and highlight 
our shared interests in working together.
    Our strong strategic position in the Pacific is the foothold for 
our pivot to the broader Asia-Pacific region. Increasingly, outside 
powers compete for regional influence. Our challenge in 2012 is to 
maintain our historical pre-eminence through increased high-level 
engagement, leveraging whole-of-government capabilities, and regional 
partnerships to deliver mutual benefits.
    Specifically, we look to implement a Pacific component to President 
Obama's strategic pivot that will promote democracy and good 
governance, sustainable economic development, regional trade and 
investment, and U.S. commercial interests, help with regional concerns, 
including climate change, energy, and health, and advance our security 
engagement in the Pacific. I look forward to working closely with you 
to secure congressional passage of the pending legislation to implement 
the results of the mandated 15-year Compact Review. Provisions of this 
legislation will help ensure that Palau achieves budgetary self-
sufficiency over time as it continues to stand with us as a staunch, 
dependable, and democratic ally.
    We look to underscore our commitment to the region and its 
institutional architecture through active engagement at the upcoming 
6th Pacific Leaders Meeting, the 50th anniversary of Samoan 
independence, the Pacific Island Forum, WWII 70th anniversary 
commemorations, and the second annual interagency Pacific island visit. 
We will continue working collaboratively to expand educational and 
health services, empower Pacific island women, build regional 
capacities, and strengthen trade and investment, including with the 
leaders of the Freely Associated States. In addition, we will build 
upon United States Agency for International Development (USAID) 
programs for climate change adaptation and health, seek ways to 
mitigate high-energy costs, and explore partnerships for addressing 
noncommunicable diseases in the region.
    Question. Madam Secretary, I was very impressed with the Asia 
Pacific Economic Cooperation (APEC) meeting last November in Hawaii. I 
wish to commend you and your Department for the hard work put into 
making it a tremendous success. I believe the meetings served as a 
wonderful opportunity to showcase the United States as a Pacific power. 
Since the success of APEC, I understand efforts are moving forward with 
the Trans-Pacific Partnership trade agreement. Would you please 
elaborate on other economic related initiatives the administration is 
undertaking to move forward in a complimentary manner to our security 
efforts?
    Answer. The United States has positioned itself to maintain its 
global leadership role in the 21st century. The world is changing, and 
security is increasingly shaped in financial markets, in agricultural 
trade, on factory floors, and in diplomatic negotiations. When people 
have food to eat, when their children have schools to attend, and when 
they live in a prosperous economy, people feel secure. This security 
extends beyond borders when stable economies engage, integrate, and 
cooperate to each others' mutual advantage. With this understanding, 
American power in the 21st century will also depend on our economy and 
on our trade. By promoting the development of next-generation economic 
rules of the road, we are working with our global partners toward the 
emergence of a stable, competitive, transparent, and balanced global 
economy.
    This work not only seeks to establish an open, free, transparent, 
and fair economic system in which American enterprise can prosper, but 
also promotes positive interactions between parties that might 
otherwise be suspicious of one another. By building a 21st century 
trade system based on competition, this process works against the 
development of conflicts rooted in economic inequity. The trust and 
interdependence that develop through economic engagement help secure 
the peace that is required for prosperity in the United States of 
America, and abroad.
    In 2011, APEC leaders committed to reduce significantly barriers to 
trade in environmental goods; adopt market-driven innovation policies; 
improve the regulatory environment; and launch the Policy Partnership 
on Women in the Economy as well as the Travel Facilitation Initiative. 
These measures represent progress on an agenda to improve sustainable 
economic growth and regional stability. By promoting an active and 
outcomes-focused APEC, the United States is working with partners to 
establish rules of the road for 21st century trade based on free-market 
principles and open competition. Through working with our neighbors in 
APEC, we are bringing our economies toward a harmonized system where 
American businesses can compete on a level field of play. This work is 
conducted through APEC in a nonbinding, consensus-based fashion that 
builds mutual understanding and interconnectivity between members and 
promotes positive interactions and signaling between economies as they 
develop increased ties and interconnectivity.
    Furthermore, we and our Trans-Pacific Partnership (TPP) partners 
are working hard to establish a high-standard regional free trade 
agreement that will similarly increase regional economic integration 
and reduce barriers to trade and economic growth. TPP negotiators made 
substantial headway during the 11th round of negotiations held in 
Melbourne, Australia in March. In April, a number of the issue working 
groups are holding intersessional meetings.
    We have also increased our economic engagement with Association of 
Southeast Asian Nations (ASEAN). President Obama was the first U.S. 
President to attend the East Asian Summit last year, and our first 
resident ambassador to ASEAN, David Carden, is now in place in Jakarta, 
Indonesia. ASEAN's goal to establish a fully integrated economic 
community by 2015 complements both our other economic initiatives as 
well as our security work: the link between the two is growing in Asia, 
where states increasingly view economic strength, rather than just 
military might, as a measure of power.
    We are increasing the role of the private sector in our 
engagements. The APEC Business Advisory Council and APEC CEO Summit are 
two such initiatives that are bringing businesses into the fold of 
trade policy. We are also meeting the President's goal to attract 
greater foreign direct investment as part of the SelectUSA initiative, 
with our missions overseas engaging directly with foreign companies 
looking to invest in U.S. cities.
    The Department has established a new ``Direct Line'' program to 
increase U.S. private sector access to our Embassies and consulates 
overseas in a way that will improve the Department of State's and the 
U.S. Government's responsiveness to stakeholder interests. The Direct 
Line program complements the President's National Export Initiative 
(NEI), which directs the State Department to use every asset available 
to expand American exports and, in turn, to create jobs.
    The President's NEI is leveraging our diplomacy to promote American 
jobs. As productivity rises, companies need fewer employees to meet 
their goals. Thus, in order to create more jobs, we have to expand our 
existing trade relationships and create new ones. That is why a broad 
cross-section of businesses, from high-tech companies to heavy 
equipment manufacturers to Montana grain growers, supported passage by 
the United States Congress of the trade promotion agreements with 
Colombia and Panama. They know that securing more favorable market 
access is essential to increasing our exports, jobs, and 
competitiveness. We're also building a 21st century smart border with 
Mexico that supports security and competitiveness on both sides. The 
bottom line is that geography matters. It is a comparative advantage to 
be embraced, and we neglect it at our own peril.
    Latin America is home to dynamic companies, entrepreneurs, and 
innovators who purchase technology and equipment and help drive 
competitiveness and innovation in American businesses. This is good 
news for the people of Latin America as well as for the United States. 
Our energy security depends on this hemisphere. Latin America alone 
accounts for approximately one-third of our imported oil, with Mexico 
our second-biggest supplier. So as we move toward a clean-energy 
economy, Latin America's role will have to grow. And already, we are 
working on renewable energy technology and resources with Mexico, 
Brazil, the Caribbean, and across the region, thanks in part to 
President Obama's leadership in launching the Energy and Climate 
Partnership of the Americas.
    Seven of the 10 fastest-growing economies in the world will be in 
sub-Saharan Africa, making sub-Saharan Africa the world's last economic 
frontier. We have a number of programs and initiatives in place to 
counter the perception that Africa remains a risky place for United 
States business, despite record rates of return over the past 5 years. 
The African Growth and Opportunity Act (AGOA) provides our best tariff 
treatment to goods coming from eligible African countries, and we use 
the annual AGOA Forum to discuss decreasing barriers to trade, 
increasing transparency, and fostering intra-regional trade. We are 
ramping up our work with Africa's regional economic communities in an 
effort to duplicate some of APEC's success in promoting regional trade 
and increasing the role of the private sector. This year's AGOA Forum 
will focus on energy and infrastructure, two key components of 
increasing economic growth. The State Department will also lead an 
interagency U.S.-Africa Business Conference to help United States and 
African companies in the energy, transportation, and water/sewage 
industries connect and form partnerships. With African companies 
providing local expertise and United States companies providing access 
to United States technology and capital, these partnerships help Africa 
realize desperately needed infrastructure improvements to sustain 
economic growth.
    The Partnership for Growth (PfG) program is a partnership between 
the United States and a select group of countries to accelerate and 
sustain broad-based economic growth. PfG involves rigorous joint 
analysis of constraints to growth, the development of joint action 
plans to address these constraints, and high-level mutual 
accountability for implementation. Two countries in sub-Saharan 
Africa--Tanzania and Ghana--have been identified as PfG countries. 
These are just a few of the initiatives in Africa we have dedicated to 
the pursuit of economic integration, food security, healthcare, and 
development, through which we will see economies grow and stability 
increase.
    In Europe, as tariffs have fallen in recent decades, nontariff 
measures or ``behind the border'' barriers to trade and investment have 
come to pose the most significant obstacles to our trade. Regulators in 
both the European Union (EU) and the United States aim for the same 
strong protections for the health and safety of our citizens, for our 
environment, and for our financial systems. But differing approaches to 
regulation and to the development of standards can create barriers and 
slow the growth of trade and investment. Reducing unnecessary 
differences can create opportunities. One way we are seeking to 
minimize the impact of unnecessary regulatory divergences on trade and 
investment is to examine closely our respective regulatory processes 
and to try to identify ways to make them more compatible and 
accessible. The Transatlantic Economic Council and the U.S.-EU High 
Level Regulatory Cooperation Forum have spurred new discussion on our 
respective approaches to risk analysis, cost-benefit analysis, and the 
assessment of the impact of regulation on trade.
    These initiatives represent the focus on economics, trade, and 
economic security that the Department of State has implemented across a 
large and diverse portfolio. This work positively enhances economic 
growth and security of the United States by building a sustainable, 
balanced, free, and fair global economic environment.
    Question. Secretary Clinton, the East-West Center was established 
by the Congress to promote education and cultural understanding between 
the United States and our neighbors in the Pacific. It puzzles me as to 
why the President's request once again results in a cut given the 
renewed focus on the Asia-Pacific region. The Center works to promote 
people-to-people connections and building the relationships that are so 
important to regional peace and stability. Other important programs 
promoting public diplomacy and exchanges, like the Mansfield Foundation 
and U.S.-Asia Institute were cut. I am interested in the reasoning 
behind this action and in light of the shift in strategic focus, and 
how the Department intends to achieve some of the same interactions 
these two institutions promote.
    Answer. Fostering strong relationships with the Asia-Pacific region 
in a wide variety of spheres is a very high priority for the Department 
of State. We continue to view the East-West Center as a key national 
resource for education and dialogue on critical issues of common 
concern and to foster people-to-people connections to promote regional 
peace and stability. The State Department has supported the work of the 
Mansfield Center for many years as well.
    During my tenure as Secretary of State, I have visited and spoken 
at the East-West Center and have met the Center's leaders as well as 
participants in its educational programs. I can personally attest to 
the Center's effectiveness and am committed to sustaining its work. 
Last year, I was pleased to appoint an exceptionally strong group of 
new U.S. members to the Center's Board of Governors. These five new 
appointees participated in the March 2012 meeting of the Board in 
Honolulu and are actively engaged in overseeing and supporting the 
Center's work. I am very optimistic about the knowledge, energy, and 
ideas that these distinguished individuals will bring to the Center in 
areas such as program development, alumni activities, financial 
administration, and fundraising.
    As you are well aware, the stringencies of the current budget 
environment have affected Federal agencies as well as nongovernmental 
organizations (NGOs), universities, and other institutions. We 
recognize that reductions in appropriated funding have required the 
East-West Center to make painful choices. The Center has been strategic 
and responsible in implementing spending reductions. The Center has 
also shown creativity and resourcefulness in competing for other 
funding, including from U.S. Government sources. A long-time recipient 
of cooperative agreement awards from State's Bureau of Educational and 
Cultural Affairs (ECA) for the U.S. South Pacific and U.S. Timor Leste 
Scholarship programs, the Center has also been selected through 
competition to receive awards for Student Leader Institutes and Citizen 
Exchanges projects from the ECA Bureau. The State Department also 
recently identified the Center as the appropriate U.S. institutional 
partner for a major new project focused on English language teaching in 
ASEAN countries, funded by the Government of Brunei, and has been 
coordinating closely with the Center on that activity. The Center has 
also received funding from our Embassy in Pakistan for journalism 
exchanges, reflecting its expansion of activity with South Asia. 
Recently, the Center won a grant from the National Endowment for the 
Humanities for Asian studies programs at U.S. community colleges, an 
important sector of U.S. higher education.
    Based on its sustained work in the area of outreach, development 
and alumni engagement, I understand that the Center is also seeing 
increases in private sector contributions. I am hopeful that the 
members of the Board of the Governors, together with the Center's 
management and staff, will be successful in continuing to diversify the 
Center's sources of financial support while maintaining robust and 
effective programming in its key areas of endeavor.
    With respect to the Mansfield Fellowship Program, funding has not 
been reduced for fiscal year 2013. The State Department continues to 
support the spirit of the Mansfield Program and is working to develop a 
more robust and higher impact exchange through more effective 
implementation of the allotted funding. We want to work with the 
Mansfield Foundation to explore new ways to promote two-way exchanges 
with Japan that support capacity building and the bilateral 
relationship.
    The State Department appreciates the work of the U.S.-Asia 
Institute to strengthen U.S.-Asia/Pacific relationships. The Institute 
has not been a recent recipient of funding from the Bureau of 
Educational and Cultural Affairs or the Bureau of East Asian and 
Pacific Affairs.
    Question. Our national security interests in the Pacific continue 
to grow, and the rise of China as a regional power concerns many 
people. The sea lanes and open waterways are increasingly important. I 
am interested to learn how the administration intends to engage with 
our partners in Southeast Asia, and in particular the Philippines?
    Answer. Our national security and economic interests in the Pacific 
continue to grow as the Asia-Pacific region increasingly becomes a key 
driver of global politics and commerce. As a Pacific nation and 
resident power, the United States has a national interest in freedom of 
navigation, the maintenance of peace and stability, respect for 
international law, and unimpeded lawful commerce in the region's 
maritime spaces. We share these interests with countries in the region 
and the broader international community.
    We engage closely with our allies and partners to reinforce these 
interests via the region's multilateral institutions. We believe by 
engaging with and strengthening Asia's architecture, the region's 
multilateral forums can more effectively reinforce the system of rules 
and responsibilities, including freedom of navigation, that form the 
basis of an effective international order. Since 2010, the United 
States has used the ASEAN Regional Forum in particular to advance a 
concerted, region-wide diplomatic effort to protect navigational rights 
and freedoms within the South China Sea. As half the world's merchant 
tonnage flows through this body of water, this was a consequential 
undertaking.
    Additionally, we are building our bilateral relationships with 
Asia-Pacific partners to help address areas of common interest, 
including enhancing our humanitarian and disaster relief capabilities 
and countering transnational maritime threats like piracy, illegal 
fishing, and environmental degradation. With the Philippines, a long-
time treaty ally, we are stepping up our bilateral engagement on a wide 
range of issues, particularly with regard to maritime security. Last 
summer, we provided a decommissioned United States Coast Guard cutter 
to the Philippines and intend to provide a second cutter in the coming 
months. We also conduct a wide range of joint training activities, 
including our 28th annual ``Balikatan'' (``Shoulder-to-Shoulder'') 
exercise taking place during April 2012, which will focus on disaster 
preparedness. As we move forward in our consultations with our 
Philippine allies, including the upcoming visit of their Foreign and 
Defense secretaries to Washington, we will discuss ways of further 
enhancing our robust cooperation through expanded joint trainings, 
increased United States ship and aircraft visits, and support for 
Philippine defense modernization.
    Question. Japan is one of our closest allies in the region, and 
last year the United States Government responded as a whole to the 
March 11, 2011, earthquake, tsunami, and subsequent nuclear emergency. 
I believe these efforts have reaffirmed the importance of our 
relationship with the Japanese. It is regrettable that our special 
relationship with Japan is now focused on the planned relocation of 
United States marines from Okinawa to Guam, and the challenges facing 
this agreement. In February, both governments announced in a joint 
statement the de-linking of the relocation being contingent on the 
construction of the Futenma Replacement Facility. In addition, the 
number of marines relocating to Guam was reduced and the balance of 
marines will be rotating throughout the region. I am interested in what 
your thoughts are about both governments moving forward on the 
relocation of United States forces, as well as the security cooperation 
between the United States and Japan.
    Answer. The United States-Japan Alliance remains indispensable to 
the security of Japan and the United States and to the peace, 
stability, and economic prosperity of the Asia-Pacific region in the 
21st century.
    The close and effective cooperation between Japan and the United 
States in response to the March 11, 2011, disasters demonstrated the 
special bond enjoyed by our two countries and contributed to the 
deepening of the Alliance.
    The United States conducted a strategic review of its defense 
posture in Asia in order to achieve a more geographically distributed, 
operationally resilient, and politically sustainable force structure in 
the region. Japan welcomes this initiative.
    As part of this effort our two governments are engaged in ongoing 
official discussions to adjust current United States posture plans set 
forth in the Realignment Roadmap, including the unit composition and 
numbers of marines moving from Okinawa to Guam. We are also discussing 
the delinking of both the movement of marines to Guam and resulting 
land returns south of Kadena from progress on the Futenma Replacement 
Facility.
    As our February 8, 2012 statement noted, the discussions between 
our two governments will continue over the weeks and months ahead. It 
is our hope to reach mutual understanding on these issues quickly to 
enable more focus on larger Alliance goals and objectives.
    We recognize the importance of the presence of United States forces 
in Japan, including in Okinawa, to maintain deterrence and strengthen 
Alliance capabilities in view of the current evolving regional security 
environment. We also are committed to reducing the impact of U.S. 
forces on local communities, including in Okinawa, to help ensure a 
sustainable United States military presence in Japan.
    We remain committed to the construction of the Futenma Replacement 
Facility at the Camp Schwab Henoko-saki area and adjacent waters. We 
believe that the current Futenma Replacement Facility plan is the only 
viable way forward.
    Both the United States and Japan agree that the development of Guam 
as a strategic hub, with an operational Marine Corps presence including 
marines relocated from Okinawa, remains an essential part of the 
Alliance's Asia-Pacific Strategy.
    We have made progress in a number of significant areas since the 
2006 Realignment Roadmap and are resolved to continue making progress 
toward realizing its objectives.
    The essential role of the Alliance is to maintain regional security 
and stability. To meet existing and emerging challenges, we continue to 
work to strengthen Alliance capabilities by adapting our cooperation, 
modernizing our forces, enhancing interoperability, and cooperating in 
the development of new technologies. As our two nations work to deepen 
and broaden cooperation, our shared values, democratic ideals, common 
interests, and respect for human rights and the rule of law remain the 
foundation of the Alliance.
    Our Alliance has never been more important or been faced with more 
significant challenges. Accordingly, both sides are committed to 
continuing to take steps to deepen the intensity of consultations and 
coordination on the full range of security, strategic, and political 
issues that face the region and the world.
    Question. The South and Western Pacific are also very important 
areas to the United States. The Department is engaged in diplomatic 
negotiations with Pacific Island countries on many levels including 
important fisheries-related treaties. Could you please provide an 
update on the status of those negotiations?
    Answer. The United States is currently engaged in negotiations to 
extend and amend the 1987 Multilateral Treaty on Fisheries with the 16 
Pacific Island Parties to the Treaty. After slow progress initially, 
recent sessions of the negotiations have been generally more positive. 
However, more work remains before an agreement is reached.
    An earlier sticking point was the Government of Papua New Guinea's 
May 2011 decision to withdraw from the Treaty. Had the Government of 
Papua New Guinea maintained that position, the Treaty would have ceased 
to have effect by its own terms in May 2012. However, the Government of 
Papua New Guinea announced in January 2012 that it would revoke its 
instrument of withdrawal from the Treaty, providing an additional year, 
until May 2013, to conclude the negotiations. This was a positive step, 
and concurrently negotiators made progress in narrowing differences 
between the two sides. Even so, much work remains and at the most 
recent negotiating round in February in Honolulu, the parties agreed on 
an accelerated timetable of meetings, with four negotiating sessions 
scheduled before the end 2012.
    At the February round the United States was able to further advance 
our understanding of the parties to the Nauru Agreement (PNA) Vessel 
Days Scheme. However, negotiators were not able to further narrow 
differences over the level of fishing opportunities afforded to the 
U.S. purse-seine fleet and the overall financial package due to 
linkages to the March 26-30 annual meeting of the Western and Central 
Pacific Fisheries Commission (WCPFC8) where regional levels of fishing 
effort and other conservation measures were to be discussed.
    At the WCPFC8 meeting, the members agreed to a new baseline for 
purse-seine fishing effort in waters under the national jurisdiction of 
the PNA. This outcome should allow the PNA to make more vessel days 
available to the U.S. fleet, which up to this point has been one of the 
major constraints to progress in these negotiations.
    The United States is looking ahead to the next session in June in 
Auckland, New Zealand, where, based on the outcomes of the WCPFC8 
meeting, we expect to be able to make more progress on the central 
issues.
    Question. The Pacific nations have seen an increased interest by 
China and others in ``big dollar'' diplomacy. Last summer you were very 
gracious to meet with me about the Compact of Free Association (COFA) 
and discuss the impacts of migrants on the State of Hawaii. I would 
appreciate learning about the Department's plan for diplomatic 
engagement with COFA countries, and how resources provided through the 
Compacts may be better directed to address some of their pressing 
needs. Additionally, in Public Law 112-74, the subcommittee included 
report language regarding COFA countries. Specifically, the Department 
was directed to work with through the U.S. Government's interagency 
process to help reduce the burden on affected jurisdiction. Could you 
please provide an update on this process?
    Answer. The Department of State is responsible for U.S. foreign 
relations with the Freely Associated States (FAS) and continues to 
coordinate closely with other Federal agencies, especially the 
Departments of the Interior, Defense, and Health and Human Services, on 
addressing pressing needs. The considerable financial assistance that 
we provide the FAS through our respective Compacts helps enable these 
countries to achieve budgetary self-sufficiency over time and continue 
to stand with us as staunch, dependable, and democratic allies. Through 
the Joint Economic Management Committee (JEMCO) meetings with the 
Government of the Federated States of Micronesia and the Joint Economic 
Management and Financial Accountability Committee (JEMFAC) meetings 
with the Government of the Republic of the Marshall Islands, the United 
States works collaboratively with the island governments to improve 
program and economic performance, specifically in the priority sectors 
of health and education. Similarly, with congressional enactment, the 
legislation approving the Palau Compact Review Agreement will require 
Palau to commit to economic, legislative, financial, and management 
reforms, such as the elimination and prevention of operating deficits 
and reductions in the national operating budget.
    We recognize the complexity of the impacts of the Compact and their 
cross-cutting implications for U.S. domestic programs and international 
relations. Both the FSM and RMI governments recognize the costs that a 
small percentage of their emigrating citizens place on the limited 
resources of U.S. jurisdictions where the migrants have settled in 
large numbers. The intent of the Compacts' immigrations provisions is 
to allow FAS citizens to work, study, and live in the United States as 
contributing members of the American community, as well as to bring 
their education and work skills back to the FAS to improve their 
economies. Many--if not most--migrants follow the intent of these 
provisions.
    We continue to work collectively through the interagency, including 
with the Departments of the Interior, Defense, Homeland Security, and 
Health and Human Services to encourage the FAS governments to 
proactively address this complex problem. On March 14, an inaugural 
Pacific Island Leaders Addressing Compact Impact (PILACI) meeting was 
convened by the United States Government in Guam, with representatives 
from the Departments of the Interior and State, including FAS 
Presidents, Governors of Micronesia and the affected jurisdictions, 
Federal agency representatives, and the three FAS ambassadors to the 
United States. Participants agreed on the need to respond to the 
Government Accountability Office's (GAO) call for better impact data. 
Representatives from Hawaii agreed to provide its reporting template, 
to be shared with Guam, Saipan and American Samoa, to see if the 
parties could agree on appropriate metrics to address the GAO's needs. 
Moreover, all FAS presidents expressed a willingness to assist the 
United States by collecting the data and helping to identify those with 
highly contagious diseases for ``no-fly'' listings.
    We will work together with the Department of the Interior to 
identify U.S.-based NGOs and organizations that have contributed or are 
currently contributing to the education and health fields in the FAS. 
Representatives from Guam noted the significant burden FAS citizens 
place on the criminal justice system--approximately 30 percent of 
prisoners serving time in Guam are FAS citizens. The Governor of Guam 
expressed an interest in repatriating ``minor'' offenders back to the 
FAS--the FAS presidents agreed to take a closer look at this issue. The 
next PILACI will convene in 6 months.
    My staff, the interagency, and our ambassadors in the FSM and RMI 
continue to urge both governments to direct human and financial 
resources to address the Compact impact challenges.
    Question. China's military rise in the region is both welcomed and 
watched with caution by many of our Asian partners. Over the last few 
years, we have grown more concerned by its assertive nature with regard 
to sea control and territorial disputes. Furthermore, it is North 
Korea's major trading partner and benefactor. China is also asserting 
itself around the globe, in particular, in Africa. In the United 
States, many people are concerned about the issue of currency 
manipulation and unfair trade practices. The administration should 
receive credit for its work to bring trade disputes before the World 
Trade Organization. Would you please provide your perspective on United 
States engagement with China on security, economic, and human rights 
issues?
    Answer. Developing positive and stable United States-China 
relations is in the interests of both countries, the Asia-Pacific 
region, and the world. We seek a positive, cooperative, and 
comprehensive relationship with China that brings concrete benefits to 
the American people and have said repeatedly that we welcome the rise 
of a strong, prosperous, and successful China that plays a greater role 
in world affairs. To these ends, the Obama administration is pursuing a 
three-pronged strategy for engagement with China.
    The first element of our approach to China begins with robust 
engagement across the Asia-Pacific region. A peaceful and prosperous 
region provides the best foundation to support strong and stable United 
States-China relations. We are therefore reinforcing our enduring 
alliances, reaching out to forge new partnerships with emerging powers, 
and strengthening the region's multilateral institutions.
    America has renewed and strengthened our bonds with our allies--
Japan, Republic of Korea, Thailand, Australia, and the Philippines--and 
we have deepened our partnerships with India, Indonesia, Vietnam, 
Malaysia, Singapore, and New Zealand. Meanwhile, we have passed the 
Korea-U.S. Free Trade Agreement and we continue to make progress in 
negotiating the Trans-Pacific Partnership to help create new 
opportunities for American companies and new jobs for American workers. 
We have also pursued unprecedented engagement in the East Asia Summit, 
the ASEAN Regional Forum, and other multilateral regional institutions. 
Taken together, America's renewed commitment to Asia provides a context 
and avenues for our engagement with China.
    The second element of our engagement strategy with China is to 
focus on building bilateral trust. We seek to build habits of 
cooperation that help us build mutual trust, manage disagreements, and 
prevent crises that might result from misunderstanding or 
miscalculation. We have established a historic level of high-level 
engagement with Beijing, including a record number of meetings between 
our presidents, and sustained interactions across our governments. A 
notable example of our efforts is the Strategic and Economic Dialogue. 
We have also launched a Strategic Security Dialogue with China to bring 
together senior civilian and military officials to address those issues 
that most threaten to undermine mutual trust and confidence in the 
relationship. We have continued the U.S.-China Legal Experts Dialogue 
to broaden and deepen understanding on issues related to the rule of 
law between our two governments.
    In addition, we have established a number of other functional and 
regional sub-dialogues, and we are looking to make progress this year 
on improving our military-to-military relations. Both President Obama 
and President Hu have stressed that a healthy, stable, and reliable 
military-to-military relationship is an important component of our 
overall bilateral relationship.
    Building trust, however, is not just a project for our governments. 
Our peoples must continue to forge new and deeper bonds as well. This 
is why we have launched the U.S.-China Consultation on People-to-People 
Exchange and public-private programs such as the 100,000 Strong 
Initiative that is sending more American students to China.
    The third element of the administration's engagement strategy is 
our commitment to expanding economic, political, and security 
cooperation with China. Our countries share a number of common goals 
and face a number of common challenges. We will continue seeking 
opportunities to work together across the array of international and 
regional issues, including the global financial crisis, international 
development, nuclear proliferation, piracy, climate change, and 
terrorism.
    On the economic front, we will continue to be assertive in securing 
the win-win economic relationship we can and should have with China. We 
want to engage in more trade and investment with China because we 
believe in the benefits that come with greater economic activity and 
healthy competition. But for it to be healthy, it has to be fair, 
rules-based, and transparent. So we will continue to urge China to make 
reforms, including allowing its currency to appreciate more rapidly; 
providing greater market access for American companies, goods and 
services; increasing intellectual property protection; and ending 
policies that discriminate against United States firms while unfairly 
favoring their Chinese competitors (particularly state-owned 
enterprises). We are also working to increase Chinese investment in the 
United States, which will generate more jobs for American workers.
    Finally, and crucially, the issue of human rights remains at the 
heart of American diplomacy and central to our engagement with China. 
In our discussions with Chinese officials, we reiterate our calls for 
the release of political activists imprisoned for exercising their 
universal human rights. We frequently urge China to address policies 
that have caused tensions in Tibetan and Uighur areas, resume 
substantive dialogue with the Dalai Lama or his representatives, 
protect the fundamental freedoms of expression, assembly, and religion, 
and uphold the rights of civil society actors to exist in a framework 
of the rule of law. We believe that when China fulfills its 
international obligations of respecting and protecting universal human 
rights, it will benefit the Chinese people, advance the long-term 
peace, stability, and prosperity of China, and ultimately enhance the 
United States-China relationship and China's role in the world.
    China today represents one of the most challenging and 
consequential bilateral relationships the United States has ever had to 
manage. The relationship does not fit neatly into black-and-white 
categories like friend or foe, and instead has elements of both 
cooperation and competition. United States engagement with China is 
therefore grounded in reality, focused on results, and true to our 
principles and interests.
                                 ______
                                 
                Question Submitted by Senator Tom Harkin
    Question. I very much applaud your efforts to strengthen 
independent civil society and nongovernmental organizations (NGO) 
around the world. Can you outline how the President's request will 
support the strengthening of democracy, human rights groups, and labor 
unions around the world both through funding by the State Department 
and U.S. Agency for International Development (USAID)? How are State 
and USAID strengthening worker rights in Arab Spring countries that 
have seen trade unions leading efforts for democratization?
    Answer. The President's request for fiscal year 2013 includes $2.84 
billion for State Department and USAID programs to strengthen 
democracy, human rights, and governance worldwide. Under this broad 
rubric, both the State Department and USAID plan programs to strengthen 
labor unions and worker rights.
    The State Department's programs focus on administration priorities 
to:
  --build trade unions' capacity to advocate for internationally 
        recognized worker rights and engage in collective bargaining;
  --enable trade unions to participate as informed, effective partners 
        in national policy decisions;
  --promote the institutions of social dialogue and the development of 
        modern industrial relations systems;
  --organize vulnerable workers, with particular emphasis on informal 
        sector workers, women, and youth.
    The State Department locates programs in priority countries chosen 
on the basis of:
  --the level of working conditions;
  --opportunity to drive sustainable change; and
  --alignment with broader U.S. policy priorities.
    The State Department encourages labor laws and practice to reflect 
internationally recognized standards, especially on freedom of 
association and the right to collective bargaining. Worldwide, the 
State Department's labor officers work across a range of issues to 
shape policies related to international labor affairs and support 
overall U.S. foreign policy. Among other things, they research and 
report on key labor issues, including worker rights and labor 
relations.
    The State Department supports worker rights in Arab Spring 
countries through a variety of programs. In Egypt and Tunisia, in 
particular, we are helping to:
  --increase awareness of fundamental labor rights;
  --organize vulnerable workers; and
  --strengthen the independence and representativeness of established 
        and new trade unions and their efforts to advocate for 
        increased freedom of association.
    Region-wide, we are helping build worker organizations' economic 
and legal literacy to enhance their ability to engage constructively in 
public policy debates.
    USAID supports administration priorities through its Global Labor 
Program (GLP), implemented by the Solidarity Center, which promotes 
international core labor standards, works to improve workers' access to 
justice, and supports independent, democratic labor unions and NGOs. 
The program has several innovative components including:
  --a global program for technical leadership with special focus on 
        rule of law:
    --gender equity;
    --global organizing;
    --the informal sector;
    --migration; and
    --trafficking in persons; and
  --regional programs to promote core labor standards in Africa, Asia, 
        Eastern Europe, and Latin America;
  --focused 5-year country programs in Ukraine, Georgia, Bangladesh, 
        Cambodia, South Africa, Liberia, Mexico, Honduras, and Brazil; 
        and
  --state-of-the-art monitoring and evaluation, including impact 
        evaluations of labor programming in three countries.
    USAID coordinates regularly on the GLP with the Department of State 
and Department of Labor.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. Madam Secretary: I want to express my gratitude for your 
work as First Lady, Senator, and now as Secretary of State on behalf of 
children living outside of family care. The mission of finding 
permanent families for children who have been orphaned, abandoned, or 
otherwise irrevocably separated from their parents, both domestically 
and internationally, has been dear to both of our hearts for some time 
now. I appreciate your presence at last year's the Way Forward Event 
and for Dr. Rajiv Shah's opening remarks (and your letter of support) 
at the first ever U.S. Government Evidence Summit on Protecting 
Children Living Outside of Family Care.
    While we all know instinctively that family care for children is an 
essential part of healthy development, the research truly indicates 
that young children, age 2 and younger, are best raised in families 
rather than in institutional care. The family is the basic unit 
necessary for a child's proper growth and development, and I believe 
that our country's aid to developing countries will be ineffective if 
it does not incorporate initiatives to strengthen child welfare systems 
to ensure bright futures for all children. For this reason, I am 
concerned that the President's fiscal year 2013 budget rarely addresses 
international assistance to strengthen child welfare systems in 
developing countries. It seems to me that United States Agency for 
International Development (USAID) and the Department of State have 
invested in strengthening health systems internationally, but there is 
little mention of programs specifically aimed at strengthening child 
welfare systems and their workforces.
    Do you believe that the fiscal year 2013 budget includes a 
sufficient emphasis on vulnerable children's issues and child welfare 
systems strengthening? Which Department of State and USAID programs 
provide technical assistance to developing governments so that they 
might do a better job of reuniting children with birth families or 
connecting orphaned children with foster or adoptive families?
    Answer. Thank you, Senator. You have been one of the Senate's 
greatest champions for vulnerable children, particularly children 
outside of family care. I appreciate your dedication to these children 
and your efforts to ensure that the U.S. Government is doing the most 
it can to improve the lives of children facing adversity globally.
    U.S. Government departments and agencies are doing good work on 
behalf of the world's most vulnerable children. More than 30 offices 
within seven departments--which include the Departments of Agriculture, 
Defense, Health and Human Services, Labor, State, the Peace Corps, and 
USAID--provided approximately $2.8 billion to implementing partners in 
fiscal year 2010 for 1,710 projects to assist vulnerable children and 
their families in 107 countries. USAID manages more than 65 percent of 
the U.S. Government's investment in programs for vulnerable children 
overseas.
    The largest single investment for orphans and vulnerable children 
is channeled through the President's Emergency Plan for AIDS Relief 
(PEPFAR), which includes a 10-percent earmark for orphans and 
vulnerable children--currently more than $300 million per year. 
Implemented primarily by USAID, this funding supports a range of child 
welfare and protection services, including prevention of and response 
to child abuse, exploitation, neglect and family separation, as well as 
poverty reduction, family strengthening, and efforts to ensure access 
to basic services, such as health, education, shelter, and legal 
protection. In fiscal year 2010, PEPFAR programs reached more than 3.75 
million orphans and vulnerable children.
    USAID's Displaced Children and Orphans Fund (DCOF) also plays a 
critical role in our efforts to help other nations to do more 
themselves to take care of their vulnerable children. With $13 million 
per year, DCOF provides technical assistance to benefit vulnerable 
children, especially children without or at risk of losing family care. 
In fiscal year 2011, DCOF programs reached 130,000 children and 
families. For example, DCOF support strengthened national child 
protection systems in Cambodia, Liberia, Ethiopia, and Guatemala. 
Programs in Moldova and Armenia enabled children to remain with their 
families by preventing children from being placed unnecessarily in 
institutional care. In Sri Lanka, 483 children from 64 targeted 
institutions (55 private children's homes and nine States' homes) in 
the three provinces were reunified with their families.
    Programs assisting highly vulnerable children are managed and 
implemented per legislation and agency mandates. However, regardless of 
the causes and consequences of their vulnerability, our programs must 
strive to build and strengthen sustainable child protection systems 
that effectively address the needs of all vulnerable children.
    Following the U.S. Government Evidence Summit on Protecting 
Children Outside of Family Care last December, U.S. Government 
interagency partners committed to developing whole-of-government 
guidance and strategy to better protect children in adversity, 
particularly those without family care. This strategy is in process and 
will be completed by July 2012. Our interagency strategy development 
team has my fullest support.
    I am also extraordinarily pleased that USAID has assigned a 
renowned expert in international child protection, Dr. Neil Boothby, as 
the U.S. Government Special Advisor and Senior Coordinator to the 
Administrator on Children in Adversity under Public Law 109-95: The 
Assistance for Orphans and Other Vulnerable Children in Developing 
Countries Act of 2005. I know that Dr. Boothby is fully committed to 
promoting comprehensive, coordinated and effective U.S. Government 
efforts on behalf of vulnerable children and their families.
    Question. The administration has said that it wants to make foreign 
aid more effective and efficient and has made some progress on this, 
particularly through the USAID Forward agenda. For example, I've been a 
supporter of procurement reform and was pleased to see that just this 
past month, USAID simplified its regulations so that the agency can 
support smaller businesses in the United States and abroad--supporting 
economic growth in areas that really need it--when buying goods and 
services.
    On procurement reform, what steps have been taken to help both 
small U.S. and developing country businesses know about and take 
advantage of these recent regulatory changes?
    Answer. On January 10, 2012, USAID published in the Federal 
Register (77 FR 1396) a revised, final regulation concerning source and 
nationality requirements for procurements. It became effective February 
6, 2012. The revised regulation:
  --authorizes procurements in the recipient and other developing 
        countries along with the United States, as the Congress 
        directed in the Foreign Assistance Act, via a new default 
        geographic code of 937;
  --eliminates the requirement to determine the ``origin'' of a 
        commodity--a difficult task in today's globalized economy--and 
        simplifying and clarifying source and nationality requirements 
        to restrict procurements from foreign government controlled 
        vendors; and
  --streamlines procedures, including those necessary to obtain a 
        waiver in the event goods or services are needed from any other 
        country or region.
    USAID provided a 45-day public comment period on the proposed rule. 
USAID received 16 external comments, including comments from USAID 
partners that have received USAID funding, trade associations that 
represent them, and other interested parties. Comments received were 
discussed and reflected in the publication of the proposed rule. USAID 
believes that input from small U.S. businesses were reflected in these 
comments.
    The revised regulation is a far-reaching step toward simplification 
of USAID's procurement procedures and toward achieving Agency 
Implementation and Procurement Reform Objective 2, Strengthening Local 
Civil Society and Private Sector Capacity, and Objective 4, use U.S. 
Government resources more efficiently and effectively. As part of our 
outreach to traditional USAID implementing partners, USAID held an 
informational briefing on the new regulation at Inside NGO in early 
February, and will be holding additional briefings on IPR Objective 2 
related reforms with InterAction and the Professional Services Council 
over the next few months. As the new regulation does not specifically 
target U.S. small businesses, USAID does not have outreach sessions 
specific to the regulation targeting that group.
    The USAID Office of Small and Disadvantaged Business Utilization 
(OSDBU), which spearheads IPR Objective 3, Increase Competition and 
Broaden USAID's partner base, provides various services to promote 
maximum practicable opportunities to U.S. small businesses. These 
include outreach sessions, counseling, monitoring planned procurements 
to identify potential small business opportunities, and a mentor/
protege program to aid in the development of small businesses to serve 
as potential prime or subcontractors. OSDBU also provides small 
business programs training to USAID acquisition personnel both in 
Washington, DC and at several overseas missions. Similarly, the Office 
of Acquisition and Assistance, which spearheads IPR Objective 4, has 
developed a USAID Partner Community Outreach Plan to improve our 
business communications and enhance access to information for new and 
existing partners.
    In the field, USAID has held a series of training/workshops on 
Local Capacity Development at the USAID missions in Senegal, Ghana, 
Haiti, Mozambique, Ukraine, Kenya, El Salvador, Thailand, Egypt, and 
South Africa, where USAID has trained U.S. Direct Hire and Foreign 
Service National (FSN) staff from more than 55 USAID missions on best 
practices for working directly with local organizations. The field-
trainings included information on the changes to source and nationality 
regulation, and how to hold industry and business days and other 
outreach events with local civil society and private sector entities to 
inform them about USAID programs and opportunities to participate in 
solicitations.
    Question. What else is the administration doing to ensure that more 
U.S. aid goes directly to or is channeled through foreign government 
and local civil society and private sector partners? What benchmarks or 
measures are employed to ensure that these aid recipients are using 
U.S. funds appropriately?
    Answer. On a global basis, USAID has established a target to 
obligate 30 percent of its USAID-managed assistance through local 
mechanisms--governments, NGOs and private firms--by 2015. This is a 
global target, and we recognize that each country situation is unique. 
USAID will track progress toward achieving this goal on an annual 
basis.
    USAID's policy for use of government-to government mechanisms (G2G) 
is prudent, reasonable, measured, phased, and based on a sincere desire 
to achieve sustainable development, to create a world in which 
governments chosen through their democratic means, deliver adequate 
goods and services to their people through transparent and accountable 
financial management systems. In order to do this in a responsible 
manner, USAID has developed a rigorous due diligence process called the 
Public Financial Management Risk Assessment Framework.
    The Framework involves a multi-stage process. The first stage is 
called the Rapid Appraisal. It covers issues affecting country-level 
fiduciary risk, such as country commitment to development, 
transparency, and accountability of public funds. The Rapid Appraisal 
also examines political or security factors that exacerbate fiduciary 
risk such as existence and quality of policies, legal and institutional 
framework, and systems. This appraisal provides USAID with a high-level 
snapshot of fiduciary risks associated with use of the country's public 
financial management (PFM) systems and helps inform the decision 
whether USAID should move forward and undertake a more rigorous, formal 
Stage 2 Risk Assessment. In Stage 2, USAID identifies, and where 
appropriate, proposes measures to mitigate fiduciary risks at the 
country, sector, or subnational government level. The identification 
process, usually outsourced to an international consulting or auditing 
firm, or a Regional Inspector General-certified local audit firm, 
includes professional examination of the actual PFM, including 
procurement and inventory management, systems. Such investigation 
includes limited testing at the transaction level and other 
investigatory techniques such as tightly focused interviews and 
documentation reviews to ensure that a comprehensive and detailed 
examination is completed. Mitigation measures resulting from this risk 
identification and investigation process can include requirements that 
government institutions meet specific operational standards prior to 
receiving fund advances or are subject to close program monitoring for 
viability and realistic planning.
    USAID is devoting significant management resources to 
implementation of the Framework. Professional full-time staff has been 
hired in several bureaus and in the Chief Financial Officer's office 
for quality assurance and technical support to the field. 
Implementation teams have been assigned by several regional and 
technical bureaus to manage the effort. USAID is conducting specific 
PFM and risk management training for implementation staff.
    In addition, USAID's new Country Development Cooperation Strategy 
and Project Design processes specifically incorporate consideration, 
but do not mandate use, of G2G mechanisms and direct implementation 
through local civil society and private sector organizations. Both the 
Framework and the new country strategy and project design guidance have 
been addressed in a coordinated and disciplined manner in recent 
meetings of Mission Directors, Mission Controllers, and Mission 
Contracting Officers in an effort to reach all levels with the message 
of risk management and sustainable development. USAID is developing 
specific guidance for evaluating G2G and direct implementation through 
local civil society and private sector organizations.
    For direct awards with local civil society and private sector 
organizations, USAID has held a series of field-trainings on Local 
Capacity Development at the USAID missions in Senegal, Ghana, Haiti, 
Mozambique, Ukraine, Kenya, El Salvador, Thailand, Nepal, Egypt, and 
South Africa, where USAID has trained US Direct Hire and Foreign 
Service National staff from more than 55 USAID missions on best 
practices for working directly with local organizations. USAID also has 
established a Washington-based Technical Assistance and Field Support 
Working Group to respond to field requests for local capacity 
development support.
    To ensure that more U.S. aid goes directly to local civil society 
and private sector partners, USAID has revised agency policy on the use 
of fixed obligation grants in order to provide field missions with a 
more flexible grant model to use with local civil society 
organizations. USAID also has sought and received legislative authority 
to limit competition for contracts with local organizations up to $5 
million provided that doing so would result in cost savings, develop 
local capacity, or enable USAID to initiate a program or activity in 
appreciably less time than if competition were not so limited. Finally, 
USAID has issued a revision to Assistance Exceptions to Competition 
Policy to reduce the documentation requirements for limited competition 
for assistance awards to local organizations, and to establish a new 
exception to competition for transition awards to local organizations 
that have been sub-recipients in the past.
    USAID is devoting significant management resources to ensure that 
U.S. aid that goes directly to local civil society and private sector 
partners is used appropriately. To that end, USAID has established 
Local Capacity Development Pilot Teams in Egypt, Kenya, South Africa, 
Peru, and the Philippines comprised of senior Foreign Service National 
staff and Junior Officers under the Development Leadership Initiative 
and led by experienced U.S. Direct Hire Foreign Service Officers in 
order to discern and disseminate best practices in working with local 
organizations. USAID also has been working closely with auditors from 
USAID Inspector General Office to develop a pre-award survey for use 
with local organizations and to revise the standard provisions for 
awards to local organizations to ensure that our requirements are clear 
and understandable.
    Question. Since 2004, the U.S. Government has disbursed close to $2 
billion to help children affected by HIV/AIDS fight the epidemic in 26 
countries through PEPFAR. In 2011, the State Department's Office of the 
Global AIDS Coordinator released results of an external review of 
PEPFAR's Orphans and Vulnerable Children (OVC) portfolio, and I was 
happy to read about the successes of these programs. For example, the 
report documents PEPFAR's intentions to empower more indigenous 
partners, moving away from the use of large international NGOs, 
universities, and private foundations as prime implementers (or prime 
partners) of programs, in order to ensure country ownership and 
ultimately, sustainability.
    Answer. PEPFAR continues to prioritize facilitating country 
ownership and sustainability through increasing use of local 
organizations as partners. PEPFAR prioritizes capacity-building of 
partner governments to strengthen the institutional response to the 
needs of children affected by AIDS. These are key elements of the 
transition toward a more locally led response.
    Significant efforts are under way through both international and 
local NGOs and partner governments to build local capacities through 
various activities, such as social welfare workforce strengthening 
(SWWS). Such systems strengthening efforts are best facilitated through 
government-to-government work and through international NGOs, Schools 
of Social Work and professional organizations that can facilitate 
cross-fertilization and learning among social welfare workforces across 
the world.
    Smaller indigenous organizations and the individuals who lead them 
have benefited significantly from the broader experience that these 
partnerships bring. In many PEPFAR countries, for example, 
opportunities for staff and volunteers to receive training (at 
certificate and degree level) in child and family welfare practice has 
dramatically increased due to such cross-border partnerships. 
Organizational capacity building, including mentorship and skills 
building in financial management and resource development, have also 
featured prominently in NGO-to-NGO partnerships aimed at ensuring civil 
society's long-term role in the response to children.
    Question. Can you give us a progress update on this transition from 
the use of larger, international organizations to more indigenous, 
local organizations as partners?
    Answer. A review of the current portfolio shows that 14 percent of 
all HKID funding in fiscal year 2011 went directly to local 
organizations as prime partners, and nearly one-third (51 out of 161) 
of all prime partners were local, as shown in the accompanying list. 
The awards listed include partner government ministries, as well as 
local NGOs, as both are essential to ensuring country ownership and 
sustainability. In addition, a large majority of awards to other 
partners include significant and strategic sub-awards to community and 
local organizations. To make it possible for more direct awards to such 
organizations going forward, PEPFAR is working to increase the number 
of organizations capable of handling U.S. Government funding directly, 
as described in the previous answer. It is essential for this 
transition to ensure that local organizations have the capacity to 
manage and utilize funds. Thus, awards to international NGOs include 
mandatory, significant work with local organizations to intensively 
build technical and management capacity, so they can successfully 
transition to managing larger awards.
    Question. What percentage of PEPFAR funds through the OVC portfolio 
(also known as HKID programs) are currently awarded to large 
international NGOs, universities, and private foundations versus 
smaller indigenous organizations?
    Answer. PEPFAR-implementing agencies hold partner contacts and, 
therefore, conduct all potential audits. The implementing agencies 
conduct audits per internal policies and procedures. Below are 
responses from the major PEPFAR-implementing agencies, per their 
protocols and the public availability of their audits:
  --Department of Defense (DOD) adheres to the single audit 
        requirements as stated in Office of Management and Budget (OMB) 
        Circular A-133, which governs audit requirements of grant 
        recipients. In a single audit, an independent auditor reviews 
        the programs and management practices. Audits are made public 
        via the Federal Audit Clearinghouse Web site.
  --U.S. Department of Health and Human Services (HHS)/Centers for 
        Disease Control and Prevention (CDC) requires all of its 
        grantees who expend $500,000 or more during their fiscal year 
        to provide an audit that is in accordance with Government 
        Auditing Standards, as specified in 45 CFR 74.26(d), as part of 
        the terms and conditions of the notice of grant award.
  --CDC actively tracks, monitors, and follows-up on the status of 
        PEPFAR audit submissions. CDC does not currently make public 
        the result of audit findings, but can provide copies of the 
        audit reports submitted by PEPFAR grantees.
    Question. Does PEPFAR audit all of the organizations that receive 
PEPFAR funds, including all sub-partners, and are these results made 
publicly available?
    Answer. USAID's Office of Inspector General (OIG) is responsible 
for conducting and supervising audits related to USAID's programs and 
operations, which includes activities funded by PEPFAR. USAID ADS 
Chapters 590-595 (available on USAID's public Web site) cover in detail 
the Agency's policy directives and required procedures for audits 
performed by USAID OIG. USAID OIG also has its own public Web site that 
contains a general overview of its operations (http://www.usaid.gov/
oig/index.html). Audit activities include performance audits of 
programs and management systems, financial statement audits required 
under the Chief Financial Officers Act, and financial-related audits of 
grantees and contractors.
    USAID conducts pre-award and postaward audits of activities 
conducted by our prime partners. Although USAID does not conduct direct 
audits of sub-partners, the Agency holds its prime partners responsible 
for all activities of their sub-partners. Pursuant to the PEPFAR 
Leadership Act, as amended, each year, USAID OIG participates in a 
coordinated interagency audit plan that covers PEPFAR. Here is the 
fiscal year 2012 plan: http://www.usaid.gov/oig/public/plans/
2012_Coordinated _Audit_Plan.pdf
    In accordance with the Inspector General Act, USAID OIG also 
submits a Semiannual Report to Congress (SARC): http://www.usaid.gov/
oig/public/semiann/semiannual_recent.htm.
    In addition, USAID OIG generally makes its program audit reports, 
including those related to the Agency's HIV/AIDS programs, available on 
its Web site at: http://www.usaid.gov/oig/public/public1.htm.
    PEPFAR activities conducted by USAID are also subject to reviews 
and audits by the Government Accountability Office (GAO). USAID's 
policy directives and required procedures for GAO audits are set forth 
in ADS 593. GAO's audit reports are also available to the public on the 
GAO Web site: www.gao.gov.
    Question. According to UNICEF, 64 percent of people in developing 
countries who are living with HIV/AIDS are female. How many of these 
smaller PEPFAR partner organizations are women-led and women-focused?
    Answer. It is not possible to provide a figure as to the share of 
PEPFAR OVC prime partners that are women-led and women-focused, since 
we do not collect that level of data. PEPFAR does work to ensure that 
its OVC programs are fully responsive to the special needs of the girl-
child. Efforts in this area include protection from violence and 
coercion, support for education and income generation, and addressing 
harmful male norms.
    Question. Within Central America, the deteriorating security 
situation threatens citizen safety. Narcotics traffickers continue to 
establish trafficking routes to and through the region. The continued 
expansion of national and transnational gangs creates communities of 
fear where illicit organizations are effectively in control. At a time 
when many of our regional partners are fighting a brutal battle in 
their countries against organized crime, the President's fiscal year 
2013 request recommends that the State Department make a $5 million cut 
from enacted fiscal year 2012 levels to the Central America Regional 
Security Initiative (CARSI). The President recommends that the 
International Narcotics Control and Law Enforcement Account 
appropriation to the Western Hemisphere be reduced by $92 million for 
fiscal year 2013. Can you please explain the President's logic in 
making such a sizeable reduction to this appropriation for the Western 
Hemisphere, when drug-related violence and narcotics trafficking is at 
an all-time high?
    Answer. We share your concern regarding the citizen security crisis 
in Central America, and the accompanying factors that bring violence to 
the region. The problem is large and complex, but the United States is 
committed to continuing to work with Central American governments, as 
well as other donor nations and institutions, to support the region's 
efforts to reverse the deteriorating state of citizen security.
    Through its programming and policy advocacy, CARSI seeks to reduce 
the region's levels of crime and violence, support prevention efforts 
for at-risk youth and those living in marginalized communities, and 
strengthen rule of law institutions. The Bureau of International 
Narcotics and Law Enforcement Affairs (INL) and USAID are implementing 
CARSI programs capable of being replicated or ``nationalized'' by host 
nations. Examples of this are Model Police Precincts, the opening of 
youth outreach centers and vocational training centers, and the 
development of ``Municipal Crime Prevention Strategies'' in communities 
at-risk. CARSI also supports border security professionalization, 
assistance for judicially authorized wire intercept programs, seized 
asset programs, and the training and vetting of specialized 
investigative units.
    Since fiscal year 2008, the United States has committed $361.5 
million to these efforts. The administration requested $100 million for 
CARSI for fiscal year 2012; however, we plan on allocating $105 million 
for CARSI (INCLE: $60 million; ESF: $45 million), pending final 
congressional approval. The administration's fiscal year 2013 request 
of $107.5 million will represent a 2.3-percent increase more than the 
fiscal year 2012 actual allocation for CARSI (INCLE: $60 million--no 
change; ESF: $47.6 million--5.7-percent increase).
    Citizen security is a priority for the people of Central America 
and the hemisphere. The administration's proposed fiscal year 2013 
$91.8 million reduction in Western Hemisphere INCLE funding largely 
accounts for the continuing transition of counternarcotics and rule of 
law programs to the Government of Colombia as it continues to build and 
strengthen its capacities, which reflects the success of United States 
assistance investments. In fact, Colombian capacity has reached the 
point where they are providing law enforcement training and assistance, 
in cooperation with the United States, in both Mexico and Central 
America. In Mexico, the fiscal year 2013 INCLE request decrease 
reflects a reorientation of efforts in Mexico from the acquisition of 
equipment to training, mentoring and capacity building, all of which 
are lower cost and provide long-term sustainability.
    Given the proximity of Central America to our own border, and the 
efforts of transnational trafficking organizations in Central America, 
Colombia and Mexico, we will continue our commitment to Central 
American and in the hemisphere to sustain our efforts and support our 
partners in addressing their most pressing citizen security, rule of 
law and prevention challenges.
    Question. The U.S. Congress voted to ban military aid to Guatemala 
in 1990 due to concerns regarding human rights abuses committed by the 
Guatemalan army. Today, the ban remains in place as a partial 
restriction that limits Foreign Military Financing (FMF) and 
International Military Education and Training (IMET) funding to the 
Army Corps of Engineers, the Navy and the Air Force, allowing only 
expanded IMET to the Guatemalan army. The fiscal year 2012 omnibus 
appropriations bill which passed through the Congress last December 
states that funding to the army will only be considered in fiscal year 
2013 if the army complies with a series of stipulations, including ``a 
narrowly defined mission focused on border security and external 
threats, cooperation with civilian investigations and prosecutions of 
cases involving current and retired officers and with the CICIG, and . 
. .  publicly disclosing all military archives pertaining to the 
internal armed conflict.'' Does the Department of State concur with 
these requirements and do you believe that the Guatemalan army is ready 
to receive regular IMET funding?
    Answer. In 2011, then-Guatemalan President Alvaro Colom formally 
requested the U.S. Congress eliminate restrictions it has placed on FMF 
and IMET funding for the Guatemala army. Newly inaugurated President 
Perez Molina has also expressed interest in having the current 
restrictions lifted, citing the need to increase the capacity of the 
Army in order to combat current security threats, including 
narcotrafficking. The Department of State has indicated to the 
Guatemalan Government that we are willing to discuss the restrictions 
on IMET and FMF funding. It is very early in the Perez Molina 
administration. We will need to thoroughly assess the military's 
commitment and progress with regard to human rights, internal reform, 
and other key issues, including the criteria identified in the 
conference report accompanying this year's appropriations act. The 
Department will continue to work with other U.S. Government agencies 
and the U.S. Congress to determine the way forward on this important 
issue.
    Question. We're witnessing one of the coldest winters on record 
across Europe and Central Asia, leading to a humanitarian crisis for 
already vulnerable populations such as women and children in 
Afghanistan and Pakistan. Tragically, the New York Times recently 
reported the deaths of at least 22 young children in Kabul's informal 
settlements and estimates that 144 per 1,000 children die due to poor 
conditions and cold weather in both formal and informal camps. The 
State Department estimates that there are close to 3 million Afghan 
refugees in Pakistan and Amnesty International reported that there are 
now 400 new Afghans internally displaced (IDP) as a result of conflict 
and natural disaster every single day, adding to a total population of 
half a million IDPs. Though your fiscal year 2013 budget increases 
funding to strengthen diplomatic capacity in the frontline states, 
funding is reduced for the humanitarian assistance programs that are 
critical when responding to crises of this nature and when driving 
longer-term, strategic development.
    Will you please clarify whether increased funding for frontline 
states, including the modest growth in foreign assistance funding for 
Afghanistan, will help make up for the 13-percent cut to programs 
funded through the Migration and Refugee Account? How will this affect 
the refugee response in Afghanistan and Pakistan? What specific 
programs funded through the Migration and Refugee Account will account 
for the cut?
    Answer. Maintaining support for humanitarian programs in South Asia 
is a priority for the Department. The President's fiscal year 2013 
request for the Migration and Refugee Assistance (MRA) account includes 
$107.8 million for humanitarian activities in South Asia, including 
those assisting Afghan refugees throughout the region. While this does 
reflect a decrease from what the Department expects to provide from the 
MRA account for programs in South Asia in fiscal year 2012, the fiscal 
year 2013 MRA request for South Asia actually reflects a slight 
increase from the President's fiscal year 2012 MRA request for South 
Asia of $106 million and what the Department programmed in fiscal year 
2011 (also $106 million).
    As the programs that the MRA account supports respond to ever-
changing humanitarian needs and are ongoing in areas that are often 
unstable and difficult to access, Department programming through the 
MRA account must remain as flexible as possible from year-to-year to 
meet humanitarian needs worldwide. As such, while needs for Afghan 
refugees will remain high in fiscal year 2013, it is yet unclear what 
particular programs within South Asia might receive reduced support as 
a result of decreased available funding. It is important to note that 
in addition to funds included in the fiscal year 2013 MRA request, the 
Department also expects to utilize some of the 2-year fiscal year 2012 
Overseas Contingency Operations (OCO) MRA funds to help meet gaps in 
assistance for Afghan refugees in fiscal year 2013.
    A significant portion of USAID's humanitarian assistance in 
Afghanistan is assisting people displaced in both formal and informal 
settlements. Providing assistance to IDPs has been a central component 
of USAID/OFDA's strategy since 2001. USAID/OFDA has funded programs 
that have specifically targeted IDPs and returnees, as well as programs 
that have targeted vulnerable populations. In response to the severe 
winter this year, USAID/OFDA mobilized partners Save the Children/U.S. 
and the International Organization for Migration (IOM) to provide cold 
weather-related emergency relief supplies, included blankets, winter 
clothing, shoes and shelter materials, to approximately 28,000 of the 
estimated 30,000 residents of the Kabul Informal Settlements (KIS). To 
quickly address humanitarian needs of newly displaced people, USAID/
OFDA supports the pre-positioning of emergency relief supplies in 
strategic locations throughout Afghanistan, which relief agencies draw 
upon when population displacement or other emergency needs occur, such 
as recent avalanches. USAID/OFDA's active programs addressing 
humanitarian needs in Afghanistan total more than $36 million, with 
$17.7 million already programmed in fiscal year 2012.
    Other nonhumanitarian funding for Frontline States included in the 
fiscal year 2013 request, while not directly targeted at immediate 
humanitarian assistance efforts, does continue to lay the groundwork 
for long-term sustainable economic development, improved governance as 
well as increased access to healthcare and education which will help 
the people, government, and regional partners resolve some of the 
issues driving the refugee crisis.
    Question. Can you also clarify whether the Middle East and North 
Africa Incentive Fund (MENA), created and designed in the fiscal year 
2013 President's budget request as ``incentivizing long-term economic, 
political, and trade reforms to countries in transition and to 
countries prepared to make reforms proactively'', will provide 
humanitarian aid in the region? Will monies allocated to the 
International Disaster Assistance and Migration and Refugee Assistance 
accounts now prioritize regions other than the Middle East and North 
Africa?
    Answer. The MENA-IF represents a new approach to the Middle East 
and North Africa through demonstrating a visible commitment to reform 
and to the region; tying assistance to reform agendas; and providing 
flexibility for contingencies in order to take advantage of new 
opportunities. To support this new approach, this Fund has broad 
authorities to allow the United States Government to better respond to 
political changes in the Middle East and North Africa and incentivize 
meaningful and sustainable political and economic reforms by tying 
these reforms to significant levels of U.S. assistance.
    The MENA-IF will address three types of needs:
  --Longer-term transition incentives;
  --Immediate transition/stabilization contingencies; and
  --Regional program platforms.
    The MENA-IF could potentially be used to fund humanitarian 
assistance within the context of immediate transition/stabilization 
contingencies. However, the MENA-IF is not designed to alter the 
prioritization processes of specific global accounts as funding 
decisions will be made on a case-by-case basis.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
    Question. Even as we watch the events across the Middle East, we 
must not forget that achieving peace between Israel and the 
Palestinians is critical to stability in the region. How do you plan to 
help get the parties to resume direct negotiations to move the peace 
process forward?
    Answer. We continue to believe that direct negotiations are the 
only way to make progress toward achieving the two-state solution. The 
Jordanians hosted several rounds of discussions in January between the 
Israeli and Palestinian negotiators. We were encouraged by the 
atmosphere of the talks, which were generally positive. We are now 
consulting with the Quartet, Jordan, and other international partners 
to find ways to continue these talks. The biggest challenge will be 
building trust between the parties. Last September, the Quartet put 
forward a framework that presents a negotiating alternative. Both sides 
have told us that this is their preferred path, but both sides must 
take steps to improve the climate. The Quartet Principals plan to meet 
in New York in March, to discuss Jordanian Foreign Minister Judeh's 
efforts to bring the parties together. The Quartet Principals will hold 
a meeting in April to discuss next steps toward implementing their 
September statement. Recent unrest in East Jerusalem and the West Bank, 
and Gaza rocket attacks underscores the importance of the parties 
continuing their dialogue; a political vacuum only increases the risk 
of heightened tension and instability on the ground, which both parties 
want to avoid.
    Question. In 1989, I wrote a law--known as the Lautenberg 
amendment--that has helped hundreds of thousands of victims of 
religious persecution escape and come to the United States to live in 
freedom. What will be the impact on persecuted religious minorities 
around the world--particularly in Iran--if this law is not renewed?
    Answer. If the Lautenberg amendment is not renewed, the impact on 
religious minorities would be limited to those from Iran and the former 
Soviet Union who are not otherwise able to meet the United States 
definition of a refugee contained in the Immigration and Nationality 
Act that is applied to other refugees admitted to the United States. 
The reduced evidentiary standard contained in the Lautenberg amendment 
currently benefits certain religious minorities from Iran and the 
former Soviet Union. Individuals who are members of religious groups, 
including those who are members of religious minorities, from any 
country who cross an international border are eligible to seek the 
protection of the United Nations High Commissioner for Refugees 
(UNHCR), which may include resettlement to a third country, including 
the United States, if it is determined to be the best durable solution 
for an individual applicant.
    In addition to those Iranian religious minorities who take 
advantage of the direct application program that the Department of 
State operates in Austria, many Iranians who have suffered persecution 
in their home country, including religious minorities, seek protection 
in Turkey. For many years, the Government of Turkey has proven to be a 
strong partner in refugee protection, and UNHCR has referred thousands 
of Iranians, including religious minorities, for third country 
resettlement. Since 2006, the United States has admitted more than 
5,500 Iranian refugees from Turkey for permanent resettlement. Non-
renewal of the Lautenberg amendment would not have an impact on UNHCR's 
referrals of persecuted Iranian religious minority refugees in Turkey.
    Question. What impact do you believe the treatment of United 
States-based democracy and human rights workers in Egypt will have on 
United States-Egypt relations moving forward? What is the State 
Department doing to ensure nongovernmental organizations (NGO) can 
continue to effectively operate in Egypt?
    Answer. We continue to be deeply concerned about the operating 
environment for NGOs in Egypt in light of the Egyptian Government's 
investigation into foreign funding of these organizations and the 
criminal charges filed against Egyptian, American, and European NGO 
staff. Although some NGO staff facing these charges were able to depart 
Cairo, we have not shifted our attention away from this issue. We 
remain fully engaged and consistently press the Supreme Council of the 
Armed Forces (SCAF) at the highest levels to drop criminal charges and 
allow NGOs in Egypt to operate without undue state interference. We 
have also emphasized to new members of parliament the importance, as 
part of Egypt's democratic transition, of revising the Egyptian legal 
framework regulating NGOs, which does not meet international standards 
for respecting freedom of association. As Egyptians look toward an 
elected president taking power in July 2012, we plan to continue these 
conversations on the legal reforms necessary to ensure a thriving 
Egyptian civil society. In addition, we will continue to look for ways 
to use our assistance to support a pluralistic civil society, 
particularly as we begin conversations with emerging leaders in 
parliament about our future assistance relationship with Egypt.
    Question. The 2010 State Department Quadrennial Diplomacy and 
Development Review (QDDR) incorporated an unprecedented emphasis on 
gender integration in foreign policy programs, recognizing it as a key 
approach for effective development. How does the fiscal year 2013 
budget further this emphasis on gender integration?
    Answer. As you note, the QDDR commits the Department of State and 
the U.S. Agency for International Development (USAID) to elevating 
investments in women and girls and to ensuring that gender issues are 
addressed throughout the program cycle and in all bureaus and missions. 
These are important objectives in their own right, and are also 
powerful catalysts for economic growth and human development. Global 
challenges, including transitions to peace and democracy, global 
health, climate change and food security, cannot be solved without 
explicit recognition of the different roles and contributions of women 
and men.
    USAID has formulated a new policy on Gender Equality and Female 
Empowerment, updating a 30-year-old policy. In March, we intend to 
issue the first-ever secretarial policy directive on promoting gender 
equality. Both policies contain specific steps to ensure that State and 
USAID advance the status of women and promote gender equality in policy 
development, strategic planning, budgeting and programming, monitoring 
and evaluation, and management and training practices.
    The fiscal year 2013 budget includes estimates by operating units 
that $1.68 billion will be attributed to support gender equality in 
foreign assistance:
  --$301 million in activities primarily targeted at gender equality 
        and/or women's empowerment;
  --$1.231 billion in activities in which gender equality or women's 
        empowerment is one component of a larger set of activities; and
  --$147 million to address gender-based violence, which includes 
        activities aimed at preventing and responding to gender-based 
        violence that results in physical, sexual, and psychological 
        harm to either women or men.
    Detailed budget information is available in the Selected Key 
Interest Areas--Gender of the fiscal year 2013 Foreign Operations 
Budget request (http://www.state.gov/documents/organization/185014.pdf 
on page 306).
                                 ______
                                 
              Questions Submitted by Senator Sherrod Brown
    Question. You are requesting $10.9 million for Sri Lanka in 
Development Assistance and $6.6 million in International Military 
Education and Training and $350 million in Foreign Military Financing 
(FMF). Has the Sri Lankan Government has proven it deserves this 
funding considering the lack of effort to include the innocent Tamil 
population in a multicultural society following the civil war. Can you 
provide more detail on these requests?
    Answer. The Department requested $10.9 million in Development 
Assistance, $626,000 in International Military Education and Training 
(IMET), and $450,000 in FMF for Sri Lanka in fiscal year 2013.
    Development Assistance.--Sri Lanka is still recovering from nearly 
three decades of conflict. U.S. Government assistance supports that 
transition through development and stabilization efforts. As Sri Lanka 
moves beyond the conflict, the United States Government is committed to 
helping communities return to normalcy as quickly as possible. Programs 
target ethnic minorities and religious groups in the Eastern and 
Northern Provinces. Foreign assistance includes support for:
  --counterterrorism activities and secure border trade;
  --advocacy for human rights;
  --strengthening of democratic institutions; and
  --stabilization and revitalization of the economies of the East and 
        North.
    Although economic growth in Sri Lanka has been strong, that growth 
is not equitably spread across the East and North, where the majority 
of Tamil and Muslim communities are settled. Reintegrating these 
communities into the economic fabric of Sri Lanka is a necessary 
component of reconciliation, and a key goal of United States Agency for 
International Development's (USAID) economic assistance to Sri Lanka. 
Likewise, good governance programs focus on the sub-national level to 
create responsive democratic structures in communities of formerly 
displaced residents in the East and North.
    Foreign Military Financing and International Military Education and 
Training.--The United States has focused its military engagement on 
activities that support our security interests, impart professionalism, 
and promote respect for human rights. Sri Lanka is a capable and 
willing partner in maritime security and peacekeeping. It is 
strategically located along the busiest shipping lanes in the Indian 
Ocean; actively combats violent extremism, trafficking, and piracy; and 
is one of the largest contributors to United Nations peacekeeping in 
the world. The United States' modest FMF program in Sri Lanka will 
support our shared security interests by increasing Sri Lanka's ability 
to patrol and monitor its waters. Through the IMET program, Sri Lankan 
officers will be able to participate in professional military education 
courses in the United States, where they will learn alongside American 
officers and be exposed to United States military norms and practices.
    The United States has engaged only cautiously with the Sri Lankan 
military since the end of the civil war in May 2009 because of our 
expectation that the Government of Sri Lanka must first hold 
accountable those individuals who violated international humanitarian 
law and international human rights law during the conflict. The 
administration has carefully calibrated the U.S. military engagement 
strategy to reflect security objectives as well as progress in 
advancing human rights, reconciliation and accountability. Before we 
deepen our engagement, the Government of Sri Lanka must make meaningful 
progress on promoting human rights, revitalizing democratic 
institutions and practices, respecting international humanitarian law, 
and ensuring accountability for past and ongoing abuses.
    Question. The budget request will allow the United States to meet 
its $4 billion pledge to the Global Fund for tuberculosis (TB). That is 
great. However round 11 funding will be limited to existing countries 
in the programs and no new until as late as 2014.
    Do we need a ``new pledge''?
    Answer. For continued progress on AIDS, TB, and malaria, the world 
needs a robust, functioning Global Fund. This year's request of $1.65 
billion will allow the administration to fulfill its historic pledge to 
seek $4 billion (fiscal years 2011-2013) for contribution to the Global 
Fund. The U.S. Government remains committed to this pledge and to the 
Fund. One important reason is because each $1 the U.S. invests in the 
fund leverages $2.50 from other donors. An increased U.S. investment at 
this time is crucial for increasing the commitment of others to meet 
our shared responsibility.
    Question. Do we need to revisit how we approach the Global Fund in 
light of these developments?
    Answer. The November 2011 changes in the Global Fund's financial 
situation prompted its board to focus available resources on the 
continuation of ongoing programs while the Fund transitions to a new, 
more flexible, and sustainable approach. In accordance with its new 5-
year strategy, the Global Fund will move away from project-based, 
rounds-based funding to a more predictable funding model. It will work 
with partner countries to identify and finance high-impact, evidence-
based interventions grounded in countries' national disease strategies.
    The Global Fund has the necessary resources and remains on track to 
support more than $8 billion in grant renewals and new grant 
commitments between now and the end of 2013. These commitments will 
allow countries to continue and, in many cases, continue to scale up, 
successful and ambitious programs to fight AIDS, TB, and malaria. The 
Global Fund will remain a major financing mechanism for the fight 
against the three diseases. Efficiencies that have been achieved in the 
past three funding rounds and in other areas will allow several 
countries to increase the number of patients receiving AIDS or 
tuberculosis treatment. Thus more people--not fewer--will receive 
access to these services in the coming 2 years. The board took several 
steps to make resources available to support grant renewals, 
outstanding round 10 grant commitments, and the continuation of 
essential prevention, treatment, and care services. The Global Fund has 
instituted eligibility and prioritization policies that better target 
resources to countries with the greatest need and least ability to pay. 
In addition, new counterpart financing requirements ensure that 
recipient countries contribution a significant and growing share of 
resources to their disease response. The Strategy 2012-2016 and 
Consolidated Transformation Plan, both strongly supported by the United 
States, will both facilitate this transition to greater country 
ownership and increase the impact of Global Fund grants.
    Question. Which investments will do the most over the long term to 
promote and achieve our global health objectives? Are we reaching the 
right balance?
    Answer. We believe the fiscal year 2013 budget request strikes the 
right balance between bilateral and multilateral investments--both have 
critical roles to play. To fight AIDS, the U.S. bilateral program 
cannot meet the challenge alone, and is most effective with a robust 
Global Fund. This year we have a unique opportunity to ensure the 
bilateral program continues to meet the President's goals while also 
strengthening our most critical donor partner in the global AIDS 
response--the Global Fund.
    President's Emergency Plan for AIDS Relief (PEPFAR) and the Global 
Fund have developed and expanded over the past several years, at the 
country level, they have become interdependent in terms of 
implementation and achieving success. If either the Fund or PEPFAR 
bilateral are under-resourced, there will be negative repercussions for 
both programs that will threaten our ability to achieve a sustainable 
response. The United States continues to work to increase collaboration 
between PEPFAR and Global Fund-financed programs on the ground to reach 
more people in more countries with higher-quality services and directly 
leverage the results of the Global Fund.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
    Question. What programs are being conducted by the State Department 
and the United States Agency for International Development (USAID) to 
encourage United States businesses to invest in Libya?
    Answer. Promotion of United States economic interest is a key 
priority for the State Department, and given that the Libyan Government 
has stated their country is ``open for business'', particularly for 
those countries that supported the revolution, the Department--in 
coordination with the interagency--has focused on identifying 
opportunities to encourage United States businesses to invest in Libya 
and aligning United States Government resources to support these 
potential investments.
    State Department Economic Bureau Assistant Secretary Fernandez and 
United States Ambassador to Libya Gene Cretz hold monthly conference 
calls with United States businesses to discuss opportunities and share 
advice for investment and trade in Libya. Each call discusses a 
different sector for potential United States investment. The last two 
calls were devoted to the security and healthcare sectors, 
respectively. Assistant Secretary Fernandez is also leading a United 
States trade delegation to Libya in late April, which is being 
organized by the U.S.-Libyan Business Association. In January, Libyan 
business leaders visited the United States. Reverse trade delegations 
from Libya to the United States are also being planned by both U.S. 
Trade and Development Agency (USTDA) and Embark, which will focus on 
sectors ranging from transportation to energy. The monthly conference 
calls with U.S. business and the trade missions have been met with 
great enthusiasm by both American business and the Libyans and will 
continue for the foreseeable future.
    Recognizing early on the immense potential for United States trade 
and investment in Libya, the Department prioritized posting a 
commercial officer to Tripoli. He is funded by the Department's Bureau 
of Conflict and Stabilization Operations but is an employee of the 
Department of Commerce. His responsibilities include:
  --meeting regularly with U.S. businesses;
  --facilitating meetings between United States business 
        representatives and the Libyan Government and private-sector 
        leaders; and
  --reporting on the general investment and trade climate in Libya.
    As part of the $25.6 million in fiscal year 2011 Middle East 
Response Fund (MERF) assistance to Libya, the Department has allocated 
approximately $3 million to USTDA for an economic growth and trade 
facilitation program. More specifically, USTDA will partner with Libyan 
leaders to identify vital reconstruction and human capacity building 
projects for Libya, which will provide strategic opportunities for the 
implementation of United States goods, services, and technologies. The 
program will fund various activities including feasibility studies, 
pilot projects of United States technology and technical assistance, 
reverse trade missions, and training symposia.
    Promoting joint United States-Libya public-private partnerships 
will be integral to United States Government assistance programs, 
particularly in public health and higher education. USAID is providing 
$2 million to assist the Libyans in building the capacity of their 
medical rehabilitation centers to better treat the war wounded. USAID 
will use this project to leverage much larger investments from the 
Government of Libya which should create opportunities for the 
Government of Libya private sector to sell medical equipment and 
technology to Libya. During his visit to Washington in early March, 
Libyan Prime Minister el-Keib specifically requested the Secretary's 
support in facilitating linkages between United States and Libyan 
higher education institutions. The Government of Libya is interested in 
funding scholarships for young Libyans to pursue university education 
and vocational training in the Government of Libya. Since the Prime 
Minister's visit, the Department in coordination with Embassy Tripoli 
has begun developing a joint Libyan-U.S. Higher Education Task Force 
that will identify opportunities for scholarship programs with United 
States institutions of higher education and promote partnerships with 
United States academia and job-training centers and Libyan 
institutions. The Department is also funding the Aspen Institute to 
bring a delegation of U.S. university and community college officials 
to Tripoli to discuss partnership opportunities. The commercial officer 
at Embassy Tripoli is facilitating a similar trip in April for two 
United States vocational training consortia, MUCIA and TEEX, to meet 
with Libyan officials on possible educational exchanges.
    The Libyan diaspora is a deeply committed, yet largely untapped, 
source of innovative, entrepreneurial solutions to poverty and economic 
development in Libya. USAID is working with the African Diaspora 
Marketplace, a public private partnership with Western Union, which 
seeks to boost economic opportunity in Africa by providing United 
States-based diaspora entrepreneurs seed capital ($50,000) and 
technical assistance through a business plan competition that will help 
start or expand businesses in all regions of Africa. These businesses 
will help create jobs, generate income, and provide needed services in 
the countries where they work.
    Question. What steps are the State Department and Department of 
Defense (DOD) taking to recover Libyan Man-Portable Air Defense Systems 
(MANPADS)? What is being done to ensure weapons don't find their way 
into Gaza or other conflict areas?
    Answer. The Department of State has allocated $40 million to date 
to assist Libya in securing and disabling weapons stockpiles, 
particularly MANPADS. To date this support has underwritten surveys of 
more than 1,500 bunkers at 134 Ammunition Storage Areas (ASAs) by 
Libyan-led inspection teams. Thus far these teams have helped to 
identify, recover, and secure approximately 5,000 MANPADS and 
components.
    The work to secure and recover Libya's weapons stockpiles is a 
long-term effort. Now that we have completed our initial rapid sweep 
across the country, we are entering what we call phase 2. This involves 
helping the new Libyan Government conduct a full inventory of all 
weapons stockpiles, as well as assisting them to improve border 
security to help detect and interdict illicit activity.
    The Department continues to engage with countries in the region to 
provide information on the potential proliferation dangers, offer 
assistance with border security, and advise on potential steps to 
improve aviation security. We are supporting Libya's neighbors to take 
steps to prevent illicit arms flows, particularly to interdict the 
transport of MANPADS across borders. The MANPADS Interagency Task 
Force--which includes representatives from the Departments of State, 
Defense, and Homeland Security, among others--has visited Algeria, 
Mali, Niger, Chad, Mauritania, Egypt, Morocco, Tunisia, Israel, and the 
headquarters of the African Union. These visits have facilitated the 
exchange of ideas and the coordination of action on the situation in 
Libya, and have assisted efforts to strengthen border and airport 
security and reduce proliferation across the region. Additionally, the 
Departments of Defense and State are working with many partner 
countries in the region to build capacity in critical areas such as 
counterterrorism and border security.
    The participation of key U.S. Government agencies on the 
Interagency MANPADS Task Force allows for close internal coordination 
in developing approaches, implementing assistance, and engaging 
governments through appropriate channels. This has resulted in both 
policy and programs that are synchronized and that ensure our resources 
have a targeted and efficient impact to confront the MANPADS threat.
    The U.S. Government is also working closely with a group of allies 
and partner countries that are committed to mitigating the MANPADS 
threat. We greatly appreciate the pledge from the United Kingdom for at 
least <brit-pound>1.33 million pounds sterling ($2.1 million USD) along 
with a team of technical experts to support and coordinate MANPADS-
specific activities. We also commend Canada for their pledge of $1.6 
million Canadian ($1.61 million USD); the Netherlands for their 
contribution of 900,000 Euros ($1.2 million USD); Germany for their 
contribution of 750,000 Euros ($980,000 USD); France and Italy for 
their significant contributions, and other allies and partners who have 
contributed to this effort.
    Question. What programs are being considered to support training of 
Libyan militias into regular military and police forces, and which 
countries will be involved in providing such training?
    Answer. In support of the transitional Government of Libya we are 
exploring targeted training programs to consolidate Libya's 
revolutionary fighters into regular military and police forces in 
coordination with the UN Support Mission in Libya (UNSMIL) and 
international partners. There were an estimated 200,000 revolutionary 
fighters during the revolution. The Government of Libya and UNSMIL 
report that Libya's Warrior Affairs Committee has registered 148,000 
fighters to date. Assisted by the international community, the 
Government of Libya has announced a 3-year plan to integrate 25,000 
revolutionaries into their regular military and 25,000 into their 
police forces. The remaining revolutionary forces will be reintegrated 
into civilian life through initiatives to develop small and medium 
enterprises, or through new educational and training opportunities.
    Police Forces.--The international community has taken significant 
strides in leading the training efforts for the new Libyan police 
forces. We anticipate Jordan will sign a memorandum of understanding 
(MOU) with the Ministry of Interior (MOI) to train 10,000 new police 
cadets in basic police curriculum. Turkey has signed an MOU to train 
for 750 Libyan officers. In addition to the 750, Turkey has agreed to 
provide courses in VIP protection, document verification, incident 
response, and hostage recovery. Italy has offered courses in crowd/riot 
control, investigation techniques, human rights training for police 
managers, and maritime security. Kuwait has delivered fire-fighting 
vehicles and ambulances to the MOI and Ministry of Health. The United 
Kingdom and Germany are working together on forensic training and the 
EU is conducting a border management assessment to redevelop Libya's 
border management capacity.
    Military Forces.--The Libyan Ministry of Defense (MOD) has launched 
an assistance coordination mechanism to keep track of assistance to the 
armed forces, avoid duplication, and identify gaps. The French have 
conducted joint maritime training with the Libyan Navy. Qatar has 
committed to MOD assistance, most recently by building a Joint Crisis 
Management Coordination Center for the Government of Libya and 
international community as a resource for police, the armed forces, or 
border security. The United Arab Emirates (UAE) military has presented 
several assistance proposals to the Government of Libya, including 
rebuilding training facilities in Libya, but has not received any real 
engagement or response to date.
    We are preparing to implement targeted training programs to augment 
the Government of Libya and international efforts. In chronological 
order, beginning in late March we will deploy a security sector 
transition coordinator to U.S. Embassy Tripoli who will coordinate our 
border security and MOI training efforts. In April, we will deploy a 
team from the Bureau of International Security and Nonproliferation, 
Office of Export Control Cooperation, to conduct a 1-week training of 
Libyan MOI, MOD, and customs officials who will be leading the efforts 
to develop and integrate Libya's border security forces. We are 
planning to offer the Defense Institution Reform Initiative (DIRI) 
program to Libyan Prime Minister el-Keib during his March 2012 visit. 
If accepted by the Government of Libya, DIRI will provide a team of 
experts, to advise the MOD on rightsizing their security forces and 
integrate rebel fighters into the Libyan armed forces. Over the summer 
we will send an assessment team from our Bureau of Counterterrorism to 
scope training programs on Anti-Terror Assistance.
    Question. Last year, the Congress directed the State Department to 
assist American victims of Libyan terrorism regarding the use of the 
frozen assets of former Libyan dictator Muammar Gaddafi for 
compensation. As you are aware, it is possible that the compensation 
fund for American victims of Libyan terrorism established pursuant to 
the Libyan Claims Resolution Act could have a shortfall. Please 
describe efforts the Department is undertaking to:
  --establish contingency plans in the event of a shortfall;
  --engage in state-to-state negotiations with the new Libyan 
        Government to ensure American victims of Libyan state-sponsored 
        terrorism receive full compensation in accordance with awards 
        set forth by the Foreign Claims Settlement Commission; and
  --use assets belonging to Muammar Gaddafi, the Gaddafi family and 
        advisors currently under U.S. control to compensate these 
        American victims of terrorism.
    Answer. The Department believes that it is premature to determine 
whether there will be a shortfall in settlement funds. The Foreign 
Claims Settlement Commission (FCSC) is still in the process of 
adjudicating and, in some cases, establishing the appropriate levels of 
compensation for many of the claims that were referred to it as part of 
the Libya claims program. The FCSC must be allowed to complete more of 
this work before a projection regarding the sufficiency of settlement 
funds can be made. In the event of a shortfall, the International 
Claims Settlement Act of 1949 establishes that each claimant who 
receives an award from the FCSC will receive a pro rata share of the 
available settlement funds up to the full amount of that award.
    Regarding possible state-to-state negotiations, the 2008 U.S.-Libya 
Claims Settlement Agreement provided for the ``full and final 
settlement'' of terrorism-related claims against Libya and its public 
officials in exchange for the $1.5 billion settlement amount. Given the 
terms of this agreement, there does not appear to be a legal basis for 
seeking additional compensation from the Government of Libya at this 
juncture. Doing so could well undermine our efforts to secure 
compensation for other U.S. nationals through similar claims 
settlements with other governments in the future.
    Furthermore, frozen Gaddafi family assets would not be an 
appropriate source of additional funds for these claims, which the 
United States has already settled through the 2008 U.S.-Libya Claims 
Settlement Agreement. This would similarly undermine the United States' 
ability to conclude similar claims settlements on behalf of U.S. 
nationals in the future. Moreover, those Gaddafi family assets that are 
in the United States have been frozen pursuant to legally binding U.N. 
Security Council Resolutions. Those resolutions indicate that any 
frozen assets shall be used for the benefit and in accordance with the 
needs and wishes of the Libyan people. If the United States were to 
unilaterally decide on an alternative disposition of these assets, it 
would undermine our ability to obtain similar U.N. action in the future 
and could expose the United States to claims under international law.
    In any event, we are not aware of any Gaddafi family member 
interest in the assets that comprise the amounts reported publicly by 
the Office of Foreign Assets Control (OFAC) as blocked pursuant to the 
Libya sanctions program. We understand that the only property reported 
to OFAC as blocked pursuant to Executive Order 13566 that might contain 
an interest of a Gaddafi family member is nonliquid property regarding 
which valuation would be difficult to ascertain and that may have no 
significant value.
    Question. How is the administration preparing for the potential 
influx of refugees from Syria to neighboring countries, and what 
funding is contained in the fiscal year 2013 budget request to address 
this potentially significant humanitarian crisis? Do you have an 
estimate of the number of Syrians that may seek refuge in Jordan, and 
what impact might these refugees have on Jordan's economic and 
political stability?
    Answer. The United States is providing more than $10 million in 
humanitarian assistance to support those affected by the violence in 
Syria, including those who have fled to neighboring countries. This 
assistance includes $3.5 million to the United Nations High 
Commissioner for Refugees (UNHCR); $3 million to the International 
Committee of the Red Cross (ICRC); $3 million to the World Food Program 
(WFP); and support for other international nongovernmental partners 
(NGOs).
    Assistance through UNHCR, ICRC, and NGOs is delivering critical 
medical services and supplies, food, water, blankets, hygiene kits, 
heaters, and winter clothing to displaced and conflict-affected 
Syrians. This funding will also provide support for host families who 
are sheltering displaced Syrians within Syria and in neighboring 
countries.
    United States efforts also include bolstering existing regional 
stockpiles of humanitarian supplies and equipment to be delivered to 
those Syrian communities in greatest need. These stockpiles of food and 
other emergency relief supplies are a result of the growing 
international effort to rush humanitarian aid into Syria to alleviate 
the suffering of vulnerable communities as access and conditions allow.
    U.S. Government humanitarian assistance has been provided from the 
Migration and Refugee Assistance and International Disaster Assistance 
accounts. In coordination with other donors, the Department of State 
and USAID will continue to ensure our partners have the support they 
need in fiscal year 2012 and fiscal year 2013 to maintain these 
critical humanitarian operations from these and other accounts, as 
needed.
    The Government of Jordan has stated that up to 80,000 Syrians have 
entered Jordan since the unrest in Syria began in March 2011, though 
the vast majority have not requested or required humanitarian 
assistance. The Government of Jordan, in partnership with a range of 
United Nations agencies, is providing protection and assistance to 
about 10,000 displaced Syrians (4,205 of whom are currently registered 
with UNHCR) in the form of food, shelter, healthcare, and education. 
While the State Department does not have an estimated number of Syrians 
that may seek refuge in Jordan, we expect that the numbers will 
continue to climb while the violence in Syria is ongoing.
    The Government of Jordan has engaged in contingency planning for 
increased outflows of Syrians, and is coordinating with the United 
Nations and other international humanitarian partners to prepare for 
increased needs. United States Government officials meet regularly with 
Jordanian Government officials, humanitarian partners, and 
beneficiaries to assess the effectiveness of the international 
community's humanitarian response, as well as to plan for a range of 
contingencies as the situation in Syria continues to evolve.
    Jordan has been a generous host to a number of refugee communities, 
including Palestinian and Iraqi refugees. That said, it is important to 
note that Jordan could face a serious domestic political challenge if 
large numbers of Palestinian refugees from Syria begin to cross the 
border. The international community will support Jordan's efforts to 
manage the influx of displaced persons from Syria by providing adequate 
protection and assistance to this vulnerable population in order to 
minimize the impact on Jordan's political and economic stability.
    Question. The fiscal year 2013 budget request includes $250 million 
in economic assistance and $1.3 billion in military aid for Egypt. 
Given the Minister of International Cooperation's complicity in the 
crackdown on civil society, will the State Department continue to 
coordinate U.S. assistance through that ministry? What other options 
exist for the delivery of United States economic assistance for Egypt 
that excludes the Ministry of International Cooperation?
    Answer. The Supreme Council of the Armed Forces has pledged to hand 
over power to an elected president by July 1, who will govern alongside 
the two houses of parliament elected earlier this year. We will discuss 
fiscal year 2012 and future Economic Support Funds with this new 
government in order to support Egypt's democratic transition. Our 
diplomacy, public messaging, and assistance are all designed to support 
the aspirations of the Egyptian people for a democratic future and 
promote respect for human rights.
    Question. Would you support enlarging the authority of the Special 
Inspector General for Iraq to examine how United States economic 
assistance for Egypt has been used over the past 5 years by the 
Ministry of International Cooperation?
    Answer. We believe that the USAID Inspector General is fully 
capable of evaluating past and future United States assistance to 
Egypt.
    Question. What are the administration's plans for future democracy 
and governance programs for Egypt?
    Answer. We continue to view a robust and pluralistic civil society, 
credible elections, broad-based participation in political life, 
protection of universal human rights, and the development of 
representative institutions as central to a successful democratic 
transition in Egypt. We believe our democracy and governance programs 
in these areas can make a positive difference for Egyptians.
                       tunisia's budget shortfall
    Question. Does the Government of Tunisia seek budget support from 
the United States, and for what purposes? What level of funding for 
such support is being contemplated?
    Answer. While the January 2011 revolution favorably reset Tunisia's 
political calculus, the abrupt change of power, followed by domestic 
and regional security and labor-related unrest, shook investor 
confidence, caused tourism revenues to plummet and truncated 
remittances from Libya, dealing the Tunisian economy a significant 
blow. The fiscal deficit has widened, particularly as tourism revenues 
have plummeted and tax revenues have been impaired by disruptions to 
production in Tunisia's interior due to strikes and civil disturbances. 
Tunisia's Government passed a 2012 budget on December 31, which 
reflected the priorities of the previous interim government. The 
current government will incorporate its own priorities by enacting a 
2012 budget supplement, which has been approved within cabinet and went 
to the Constituent Assembly in early April. As a result of this budget 
supplement, the Tunisian Government is now projecting a budget deficit 
of 6.6 percent of gross domestic product (GDP) (approximately $3.1 
billion). The government faces $1.6 billion in external debt service in 
2012 ($1.2 billion in principal and $0.4 billion in interest) or about 
3.4 percent of GDP.
    The Tunisian Government has officially requested a budget support 
loan from the African Development Bank (AfDB), but must negotiate 
conditions on the loan. AfDB staff do not envision any projects in the 
next several months. If it were to agree to provide a budget support 
loan and design a reform matrix (with the World Bank and European 
donors, as in 2011), the AfDB would not disburse any monies until late 
2012. In addition, Qatar, the World Bank, and Agence France Development 
(AFD) pledged to provide budgetary support to Tunisia in 2012.
    Tunisia's economic challenges are peaking at the same time that the 
Tunisian people are more empowered to demand more from their 
government. Tunisia has fewer resources with which to increase spending 
temporarily to stimulate economic growth and support the social 
programs upon which the Tunisian public relies. Without short-term 
intervention, Tunisia's economic recovery may be impaired by continued 
domestic instability and further loss of investor confidence. A strong 
U.S. commitment of immediate bilateral support--particularly if it 
unlocks additional financial support from other sources--will help 
Tunisia fill this void.
    Tunisia's successful democratic transition is critical for U.S. 
interests in the region, and will send a signal to others undergoing 
their own transitions. The Government of Tunisia has made clear to 
several senior United States officials, including congressional 
delegations, the need for immediate financial assistance to address 
Tunisia's critical budgetary shortfall and help them through their 
current difficult period of transition. Given the importance of 
demonstrating strong immediate United States support for Tunisia and 
the nature of the economic problems to be addressed in Tunisia, we 
propose to use the cash transfer to pay eligible external debt to 
international financial institutions. Our plan is to deliver this 
assistance by paying $100 million worth of the debt the Tunisians owe 
to the World Bank and the African Development Bank. This will free up 
funds in their own budget for other priority activities in support of 
their new democracy. This will also assure accountability and 
transparency.
    supporting tunisia's financial needs--update on loan guarantee 
                               agreement
    The United States plans to provide some relief for Tunisian 
budgetary pressures by using $30 million legislatively authorized for a 
sovereign loan guarantee. A bilateral guarantee could leverage a $400-
650 million borrowing instrument, assuming a 5-year maturity and 100-
percent guarantee of principal and interest, which may change based on 
Tunisian preferences. However, the Tunisians have indicated that they 
want a longer maturity, which would decrease the leveraging effect of 
our loan guarantee to between $250-$500 million. We are discussing with 
the Tunisians the possibility of combining with the World Bank for a 
hybrid guarantee that could increase the program to approximately $750 
million, assuming a 10-year maturity with 100-percent guarantee of 
principal and interest. Provided the Tunisian Government is ready to 
make the requisite decisions, we plan to sign an agreement by May, 
which is possible regardless of whether Tunisia prefers a bilateral or 
hybrid guarantee.
                   $100 million cash transfer option
    The United States Government could provide a $100 million cash 
transfer to the Government of Tunisia for short-term fiscal relief as 
the Tunisian Government manages the next phase of Tunisia's democratic 
transition and attempts to undertake foundational economic reforms. 
From a foreign policy perspective, a cash transfer for Tunisia would 
demonstrate the United States' support for Tunisia's democratic 
transition. Structured appropriately, a bilateral cash transfer 
agreement would permit us to align United States action squarely behind 
the stabilization of the Tunisia economy and provide a quick-impact 
cash infusion to the Government of Tunisia in the near term and allow 
the United States to take a leadership role and persuade other donors 
to provide similar assistance. Within Tunisia, a cash transfer would 
help the Tunisian Government weather the current fiscal storm. Tunisia 
aims to ameliorate postrevolution social demands through public 
spending until the economy recovers, despite flagging fiscal revenues. 
The Tunisian Government believes this approach is essential to 
consolidating political reforms as it battles a high rate of 
unemployment. We would provide the $100 million cash transfer grant in 
a single tranche, with disbursement before the end of the first half of 
U.S. fiscal year 2012.
    In general, cash transfers can be designed in different ways 
depending on the objectives of the program. We considered three 
different approaches:
  --paying debt owed to international financial institutions (IFIs), 
        such as the World Bank and African Development Bank;
  --paying for commodity goods; and
  --paying commercial debt.
    We chose the first option because of its speed, transparency, and 
accountability.
    Question. What steps can be taken to restore some semblance of 
stability and safety in the Sinai? What can be done to ensure that the 
Sinai doesn't become a haven for terrorists, including al Qaeda?
    Answer. Improving security in the Sinai is a complex issue that 
calls for engagement on many fronts. We are encouraged by the fact that 
the Egyptian Government has undertaken counterterrorism operations in 
the area and announced the formation of a Sinai Development Authority 
to address security challenges. However, more can be done to encourage 
and support development for residents of the Sinai, the absence of 
which is the root cause of crime and unrest. We will continue to engage 
with the Egyptian Government at the highest levels on this issue to 
convey the importance of restoring security to the Sinai, while also 
offering our support. In addition, we look forward to working with 
Egypt's next elected government on solutions to this important issue.
    Question. Do you believe the Multinational Force and Observer (MFO) 
should remain in the Sinai? Should it be expanded?
    Answer. The current context of unprecedented and fast-paced 
regional change has shown that the MFO's role is more important than 
ever to promoting continued confidence between the two Treaty of Peace 
parties, Egypt and Israel, and to offering the parties concrete 
mechanisms to manage jointly and effectively their response to the new 
security challenges. The MFO has played an important role for decades 
in promoting peace and stability in the region and continues to have 
the strong support of the United States, Egypt, and Israel. 
Unprecedented Egyptian military deployments into the Sinai, as agreed 
upon by the parties, have resulted in significant additional 
verification work for the MFO and its Civilian Observer Unit. Any 
changes to the MFO's mission must be formally requested by the Treaty 
parties. With respect to civilian and military personnel levels, the 
MFO has indicated to the Treaty parties and to the United States that 
it does not at present seek any increase in present staffing.
    Question. The fiscal year 2013 budget request includes $770 million 
for a new Middle East and North Africa Incentive Fund (MENA-IF) to 
address myriad challenges arising from political transitions in those 
regions.
    Why do we need this fund when account structures already exist to 
respond to crises--including fiscal year 2013 requests for the Complex 
Crises Fund ($50 million); International Disaster Assistance ($960 
million); Office of Transition Initiatives ($57.6 million); Global 
Contingency Fund ($25 million); and Conflict Stabilization Operations 
($56.5 million)?
    What countries do you expect to benefit from MENA-IF, and what 
types of programs will be supported?
    Do you support the use of these funds to address economic needs in 
the region, including in Israel, should military action be undertaken 
to address the Iran nuclear issue?
    Answer. The MENA-IF represents a new approach to the Middle East 
and North Africa through demonstrating a visible commitment to reform 
and to the region; tying assistance to reform agendas; and providing 
flexibility for contingencies in order to take advantage of new 
opportunities. To support this new approach, this Fund has broad 
authorities to allow the U.S. Government to better respond to political 
changes in the Middle East and North Africa and incentivize meaningful 
and sustainable political and economic reforms by tying these reforms 
to significant levels of U.S. assistance.
    While contingency/response funds are available for rapid responders 
to deploy and support new initiatives, these accounts are not 
structured to provide long-term funding or be used to incentivize 
reforms. Additionally, using global funds as a major source of response 
to the Arab Spring carries opportunity costs for these global programs, 
and risks reducing the U.S. Government's ability to respond to other 
needs around the globe. While these accounts have provided funding to 
Middle East contingencies this year, it was at a great opportunity cost 
to operations in other areas.
    For purposes of MENA-IF planning, the following countries are 
included:
  --Algeria;
  --Bahrain;
  --Egypt;
  --Iran;
  --Jordan;
  --Kuwait;
  --Lebanon;
  --Libya;
  --Morocco;
  --Oman;
  --Qatar;
  --Saudi Arabia;
  --Syria Tunisia;
  --UAE;
  --West Bank/Gaza; and
  --Yemen.
    Funding programs in Israel or Iraq is not contemplated except to 
the extent that regional initiatives may touch on these countries. 
Specific projects will depend on the countries involved; however, 
initiatives should address the following key priorities:
  --Political, economic, and judicial/rule of law reforms that protect 
        and promote human rights, political participation, democratic 
        institutions, independent civil society, and quality under the 
        law; that advance progress in meeting citizen demands for 
        political participation; and that create conditions for 
        economic growth, primarily through strengthened international 
        trade and investment and by fostering a more vibrant private 
        sector.
  --Security sector reforms that emphasize civil-military boundaries, 
        protection of human rights, and security that serves to protect 
        people--not authoritarian regimes; and
  --Regional integration and trade promotion reforms that would reduce 
        trade barriers and allow implementation of the President's 
        Trade and Investment Partnership Initiative for the Middle 
        East.
    Question. The Secretary of State's comments in the November 2011 
edition of Foreign Policy outlines the administration's strategic 
``pivot'' to the Asia-Pacific region: How is the ``pivot'' evidenced in 
the fiscal year 2013 budget request?
    Answer. Looking forward to the next decade, we recognize no region 
will be more important to the United States than the Asia Pacific. 
Overall fiscal constraints in the foreign affairs budget have placed 
limits on our ability to increase direct State Department and USAID 
resources to the region in fiscal year 2013. However, we are working 
smartly to elevate our commitment to the region through a strategy that 
is multifaceted, involving close coordination with the full spectrum of 
interagency partners to make sure our diplomatic, defense, and 
development efforts are targeted toward our highest priorities. Foreign 
assistance is but one aspect of our strategy to deepen our engagement 
with the region.
    The efforts of our diplomats are an essential part of our 
longstanding and ongoing engagement in the region. They are a critical 
component of how we pursue and achieve our strategic objectives, but 
they are not fully captured by statistics. For example, we successfully 
concluded our implementation review process for our free trade 
agreement with Korea, which entered into force on March 15 of this 
year, and are now working aggressively on the Trans Pacific 
Partnership. Our enhanced engagement with Burma and our strategy to 
match ``action-for-action'' to encourage the country's reform process 
has already shown signs of progress including a substantial release of 
political prisoners. This type of work does not have a price tag that 
accurately reflects its true value.
    These efforts have already produced real results, such as new 
strategic dialogues across the region with emerging partners, 
strengthened alliances, and enhanced engagement with the region's 
multilateral fora including the Association of Southeast Asian Nations 
(ASEAN) and the East Asia Summit, as well as deepening regional 
cooperation on a range of economic issues through APEC. In addition, we 
have established the Lower Mekong Initiative with four Southeast Asian 
countries sharing the Mekong, and launched the Indonesia Comprehensive 
Partnership and Partnership for Growth in the Philippines. The budget 
request reflects the administration's continued support for and 
commitment to these important and often new initiatives.
    We have also coordinated closely with our interagency partners to 
significantly increase assistance to the region. Substantial Millennium 
Challenge Corporation compacts that were recently signed will bring 
more than $1 billion of American assistance to Indonesia and the 
Philippines in the next 5 years.
    We are substantially increasing our consular resources in the Asia-
Pacific to address an unprecedented increase in demand for U.S. visas 
throughout that region. In China, we are expanding our consular 
presence at every single post, and visa issuances have more than 
doubled in the last 5 years.
    As part of the National Export Initiative and the new focus on 
economic statecraft, our diplomats are helping U.S. companies learn 
about the massive infrastructure development opportunities in the ASEAN 
region, particularly Indonesia. We believe that our companies are best-
placed to bring world-class capabilities and state-of-the-art 
technology toward this endeavor and in the process create jobs for 
Americans on the homeland.
    Question. What additional steps is the State Department considering 
to upgrade the United States presence in Burma in light of expanded 
engagement, and how will the appointment of a U.S. Ambassador impact 
the responsibilities of the Special Envoy?
    Answer. In response to recent signs of political and economic 
opening, our ``action-for-action'' strategy aims to support those who 
pursue reform and to encourage further reforms in Burma. Following a 
substantial release of political prisoners in January, the President 
announced that the United States would upgrade diplomatic ties by 
exchanging Ambassadors. This action will enable us to strengthen our 
ongoing high-level dialogue with senior government officials and pro-
democracy groups, deepen and establish long-term ties with the Burmese 
Government and people, and identify new possibilities to support the 
reform process.
    We expect our Ambassador, once nominated by the President and 
confirmed by the Senate, to work in close coordination with the Special 
Representative and Policy Coordinator for Burma. There are several 
instances where the United States has diplomatic representation in 
country at the Ambassadorial level and Ambassadorial rank 
representatives who work in Washington and play a key coordinating role 
with the international community.
    The upgrade in diplomatic ties will also advance our efforts to 
sustain reform, including supporting the efforts of international 
financial institutions to conduct assessment missions and provide 
limited technical assistance to assist Burma with prioritizing and 
sequencing its poverty alleviation and development needs. We have also 
taken steps to resume counternarcotics cooperation, to restart 
humanitarian cooperation with a World War II remains recovery program, 
and to invite Burma into the Lower Mekong Initiative. We also continue 
to seek ways to expand United States assistance for microfinance and 
health activities in Burma. In response to increased desire to develop 
civil society, we are renovating our American Center in Rangoon to 
increase its capacity for outreach and identifying ways to enhance our 
education and exchange programs to increase our people to people 
activities. We will consider further actions following the April 1 by 
elections, which serves as the next major benchmark for measuring 
progress on reform in Burma.
    Question. What are the anticipated costs of sustaining the Afghan 
army and police following the withdrawal of United States forces, and 
is this a cost that the State Department will be responsible for 
bearing?
    Answer. As the lead United States agency for security matters in 
Afghanistan, the Department of Defense is working with the Government 
of Afghanistan and the international community to analyze Afghanistan's 
post-2014 security needs, including the size and estimated cost of an 
effective Afghan National Security Force (ANSF). We understand that 
analysts are predicting some decline following the current build-up to 
a ``surge'' force of 352,000 army and police, but the precise size of 
Afghan forces will ultimately be conditions-based, responsive to the 
needs of the Afghan people, and sustainable. The United States 
Government has not yet decided whether to recommend changing the 
current model of the Department of Defense leading the training and 
funding of the ANSF. As transition progresses, we will continue to 
assess whether and at what point the Department of State would take on 
a role in funding the ANSF and will be sure to closely coordinate with 
the Congress on any request.
    Question. The Afghan Government has made a request that the United 
States turnover all detainees currently at Parwan prison by March 7. In 
your assessment, does the Afghan Government have the capability to 
process the 3,088 prisoners currently at Parwan prison?
    Answer. In partnership with President Karzai and the Afghan 
Government, the United States completed a crucial milestone in our 
transition to Afghan lead when General Allen co-signed a memorandum of 
understanding on detention operations with Afghan Defense Minister 
Wardak on March 9. This agreement will transfer detention facilities in 
Afghanistan to Afghan control over the next 6 months, under guidelines 
designed to ensure an orderly, secure, and humane hand over of 
responsibility. We refer you to the Department of Defense on specific 
questions related to the Detention Facility in Parwan.
    Question. What is the status of the funds allocated for the 
Afghanistan Rule of Law Coordinator? Has it made a difference in 
streamlining the process and, if so, how?
    Answer. The Interagency Rule of Law (IROL) team has been actively 
engaged in the programming of $25 million of fiscal year 2011 funding 
dedicated to the Embassy's Ambassador-level Coordinating Director for 
Rule of Law/Law Enforcement (CDROLLE) programs. Working with USAID and 
INL, they set objectives, and identified potential programs where these 
funds could further key policy goals. This approach capitalizes on the 
strengths and flexibility, and management oversight of teams in place. 
The Embassy's Ambassador-level CDROLLE is shaping programs to meet our 
U.S. Government rule of law objectives and the $25 million has proven 
to be a manageable sum to further our efforts.
    The CDROLLE at Embassy Kabul, currently Ambassador Stephen 
McFarland, has policy direction over all State rule of law funding and 
sets guidance for these programs. The CDROLLE signs off on all new 
rules of law programming efforts, and frequently conducts site visits 
to provide oversight. The legislation has helped make clear that all 
rule of law programming must be coordinated under Ambassador 
McFarland's authority.
    USAID reprogrammed $7 million to launch a grants solicitation for 
rule of law and anti-corruption proposals. In addition, $2 million was 
set aside--$1 million each from USAID and INL--for a new quick-impact 
``Access to Justice'' grants program. This new small grants program 
will provide CDROLLE with a flexible, quick-impact grants capability, 
responsive to immediate and longer-term needs in support of improving 
access to justice, building judicial capacity, addressing gender-
specific legal problems, and empowering civil society. INL is working 
with the IROL and the Provincial Reconstruction Team (PRT) rule of law 
advisors to identify rule of law needs at the sub-national level and 
will develop programs for its $16 million allocation.
    CDROLLE has managed to tap into the talent within the Embassy in 
open discussions, and to go out to the field where rule of law advisors 
from State, USAID, and the military can provide direct inputs on 
project ideas, priorities, and field needs. Even though the answers 
varied considerably from province to province, USAID and State's INL 
bureau working together with CDROLLE have been able to modify and to 
adjust their programming to take those inputs into consideration. 
Moreover, this process is strengthening the interagency, whole-of-
government approach and is providing the CDROLLE with greater insight 
and involvement into INL and USAID programs.
    Rule-of-law priorities under discussion include support for legal 
education (with priority to students--the next generation--over 
existing justice sector personnel); building civil society capacity in 
anti-corruption (shifting the focus of funding from prosecutions to 
oversight); pilot projects for alternatives to incarceration; 
improvements to access to justice, particularly for women; increasing 
legislative reform efforts to include a multitiered approach to 
addressing deficiencies in penal and commercial laws; broadening legal 
awareness; increased funding to the CDROLLE ``Access to Justice'' 
grants program; and ensuring adequate monitoring and evaluation of all 
efforts.
    Question. Additionally, what is the State Department's assessment 
of the IROL training that is currently being offered by the Rule of Law 
Collaborative at the University of South Carolina under contract with 
the Judge Advocate General office?
    Answer. The training offered by the Rule of Law Collaborative 
provides several advantages to the United States Government. First, it 
provides a forum for rule of law program officers to network with each 
other, share programming ideas, and reflect on lessons learned. Second, 
it provides basic legal familiarity courses particularly for program 
officers who may have a generalist background in foreign affairs, but 
not in rule of law programming. Third, it introduces ideas and people 
from the wider legal development community to government program 
officers, ensuring that they are familiar with current standards, 
ideas, and practices.
    Question. The DOD contract with the Rule of Law Collaborative runs 
out in August 2013.
    Given the scheduled draw-down of United States forces in Iraq and 
Afghanistan and regime changes occurring in the Middle East and North 
Africa, does the State Department appreciate the value and utility of 
continuing interagency rule of law training and programming currently 
being supported by DOD, and is the State Department capable of leading 
such effort in the future? What would be the most effective funding 
mechanism to support interagency rule of law coordination and training 
programs under the auspices of the State Department?
    Answer. The Department of State greatly appreciates the value of 
the Rule of Law Collaborative and the role it plays in fostering 
interagency cooperation and education. The Department looks forward to 
continuing current discussions with the subcommittee on the best 
mechanism for engagement with the Collaborative upon the completion of 
the DOD contract.
                              south africa
    Question. The fiscal year 2013 budget request includes $459 million 
for HIV/AIDS programs in South Africa.
    What is the plan for graduating South Africa from this assistance, 
and who will pick up the costs (the South African Government or 
multilateral institutions, such as the Global Fund)?
    What other countries receiving U.S. assistance to combat HIV/AIDS 
are expected to graduate within the next 5 years?
    What communications strategy exists to highlight the success of 
U.S. foreign assistance in these countries?
    Answer. Progress in South Africa exemplifies the second phase of 
President's Emergency Plan for AIDS Relief (PEPFAR), with its emphasis 
on sustainability and country ownership. The South African Government 
has provided significant support for the HIV response exemplified by 
the fact that they have always purchased the antiretroviral drugs for 
their HIV treatment programs. However, in recent years, the South 
African Government further ramped up its investment in its national 
HIV/AIDS response to $1.1 billion in 2011, with a commitment to 
increase its funding to $1.3 billion in 2012. Along with this increase 
in funding, the South African Government will also assume increased 
direct responsibility for implementation of the national HIV response. 
As South Africa steps up its financial and political commitment to the 
HIV/AIDS response, PEPFAR's role will shift from directly funding 
treatment of patients to primarily supporting health systems and 
providing technical assistance. Over the next 5 years, we anticipate a 
gradual step-down in United States funding as care and treatment 
programs are transitioned into the primary healthcare system and 
managed and funded by South Africa. Successful management of this 
transition will mean more comprehensive and efficient healthcare for 
all South Africans. The South African Government and United States 
Government will work together to communicate the benefits of these 
shifts, highlight the continued rapid scale-up of the national HIV and 
tuberculosis (TB) response, maintain a high-quality continuum of care, 
and ensure that all patients continue to receive care and treatment 
services without interruption. The two governments are now in 
negotiations around a Partnership Framework Implementation Plan (PFIP), 
which will define opportunities and timeframe to decrease PEPFAR 
investments in care and treatment programs where the South African 
Government is able to take on a greater financial burden, as well as 
specific capacity-building activities necessary to support this 
transition.
    Global Fund resources also contribute to the transition. PEPFAR 
provided a one-time $120 million investment for antiretroviral (ARV) 
commodity/procurement assistance over fiscal year 2009 and fiscal year 
2010 to help supplement the national supply in the face of drug 
shortages and planned scale-up. This bridge funding was structured to 
allow South Africa time to strengthen national procurement systems and 
the pharmaceutical supply chain. The South African Government's new 
tender to procure drugs resulted in more than a 50-percent reduction in 
the cost of ARV drugs. Contributions from the Global Fund will help to 
ensure that financial resources are available to capitalize on these 
cost savings and allow the South African Government to put more South 
Africans on treatment. Two-thirds of the $303 million Round 10 Global 
Fund grant is dedicated to the purchase of pharmaceuticals, and it will 
supply about 10 percent of the total expenditure for ARV drugs.
    Our transition plan in South Africa will be linked to the South 
African Government increasing management of the prevention and 
treatment of HIV/AIDS and will include close collaboration with other 
donors and institutions like the Global Fund to continue to reduce 
costs and increase the impact of financial commitments. While United 
States Government funding will gradually step-down, the overall funding 
for HIV in South Africa will be stable or increasing, primarily through 
South African Government resources. This will be an important success 
story in the development of country-led responses to the HIV pandemic.
                                botswana
    Botswana and Namibia are examples of other countries that are 
expected to take on a greater portion of their own HIV response in the 
coming years, allowing the United States Government to focus resources 
on a more limited technical support role while continuing to meet 
established goals. Since PEPFAR made initial investments in Botswana in 
2003, the Government of Botswana has consistently increased its 
political and financial commitment to addressing the HIV/AIDS epidemic. 
Since PEPFAR's inception, the Government of Botswana has taken over a 
growing share of previously PEPFAR-supported treatment activities, such 
as purchasing all antiretroviral drugs. The Government of Botswana is 
now taking on even more treatment costs with its move to treatment 
below a CD4 count of 350 in April 2012, while PEPFAR will provide 
technical assistance with provider training and lab capacity.
    The PEPFAR Botswana team, together with the Government of Botswana, 
is developing a transition plan that focuses on reducing the U.S. 
Government investment in direct service delivery for care and treatment 
and Prevention of Mother to Child Transmission (PMTCT) and increasing 
investment in providing technical assistance to the Government of 
Botswana. The capacity of Botswana to continue services for care and 
treatment and PMTCT is strong, and the overall funding available for 
the HIV response in country will likely remain stable due to the 
continued commitment of the government. As the United States Government 
and the Government of Botswana continue to dialogue about the 
transition of programs to national funding, the PEPFAR Botswana team 
will monitor the quality of services provided to ensure that Batswana 
infected and affected by HIV/AIDS continue to receive high-quality 
services.
                                namibia
    The Government of the Republic of Namibia currently contributes 50 
percent of financing for the national HIV/AIDS response, and has 
committed to increasing its financial contribution to 70 percent of the 
costed need by 2015/2016. As articulated in the Partnership Framework 
between the United States Government and Government of the Republic of 
Namibia, over the next few years the U.S. Government will move away 
from direct support of service delivery to increased provision of 
technical assistance. Of particular importance, the Government of the 
Republic of Namibia has agreed to absorb many U.S. Government-funded 
healthcare worker positions into the public health system. In addition, 
the Government of the Republic of Namibia will fully fund the purchase 
of commodities for HIV services. Discussions continue around the rate 
at which overall U.S. Government financial investments will decrease 
over the next 5 years. The decline in U.S. Government spending will be 
carefully monitored to ensure the quality of services remains high.
   president's emergency plan for aids relief communications strategy
    PEPFAR is a major asset to U.S. public diplomacy efforts worldwide 
and specifically in countries where PEPFAR invests. In the majority of 
PEPFAR countries, an interagency PEPFAR communications working group 
composed of implementing U.S. agencies convenes to strategically 
publicize and promote PEPFAR programs under one U.S. Government 
umbrella. PEPFAR communications strategies vary at the country level, 
but overall seek to highlight key programmatic messages to inform 
partner governments, the development community in that country, and 
foreign publics on HIV/AIDS services supported by the U.S. Government 
and their successes. As shifts in available PEPFAR funds are made, U.S. 
Government communicators will convey them. Yet most importantly, 
communicators will have an opportunity to showcase the strides made and 
the lives saved.
                             food security
    Question. The fiscal year 2013 budget request includes $1 billion 
for the Feed the Future Initiative, which seeks to improve agriculture 
productivity through research, innovation and development, and to 
improve farmer access to markets and nutrition.
    What portion of the budget request will support the use of 
genetically modified seed, and what impact would the use of such seed 
have on food productivity in Africa?
    Answer. The fiscal year 2013 budget request for agricultural 
research under Feed the Future (FTF) does not explicitly delineate 
planned activities based on the use of genetic engineering. However, 
historical (pre-FTF) obligations for agricultural research and 
development activities using genetic engineering are $13.8 million, 
$16.5 million, and $14.9 million in fiscal year 2011, fiscal year 2010, 
and fiscal year 2009, respectively. These amounts represent 16, 26, and 
24 percent of the total agriculture and development budget in fiscal 
year 2011, fiscal year 2010, and fiscal year 2009, respectively.
    Genetic engineering specifically, and more broadly biotechnologies, 
have significant roles in increasing agricultural productivity and 
resilience, particularly in light of climate change and the need to 
improve the nutritional value of staple foods. It is one tool among 
many that we must deploy to improve productivity in a time of declining 
resources. Consequently, U.S. agencies are working with countries to 
develop genetically engineered plant varieties that address 
agricultural challenges for which conventional approaches have been 
unsuccessful, partnering with both the public and private sector to 
ensure equitable access to technologies developed using biotechnology, 
and helping partner countries develop science-based biotechnology 
regulations to ensure product safety and efficacy.
    U.S. Government-funded research to unlock the potential of 
biotechnology, both through genetic engineering and other biotechnology 
techniques, is underway in several countries, including the development 
of:
  --Disease-resistant bananas in Uganda;
  --Virus-resistant cassava in Kenya and Uganda;
  --Insect-resistant cowpeas in Nigeria and Ghana; and
  --Nitrogen-efficient maize and rice, and salt-and drought-tolerant 
        rice in sub-Saharan Africa.
    On the regulatory side, USAID supports the Program for Biosafety 
Systems (PBS), which is managed by the International Food Policy 
Research Institute. PBS has contributed to the passage of biosafety 
laws in Kenya, Nigeria, and Ghana, along with the first-ever field 
evaluations of genetically engineered crops in Uganda and Nigeria, all 
of which pave the way for the adoption and commercialization of biotech 
crops in those countries.
    The Department of State and USAID will continue the support 
highlighted above through the fiscal year 2013 Feed the Future budget 
request of $142 million for agriculture research and development. Of 
the requested amount, USAID plans to provide more than $10 million to 
promote the role of biotechnology in increasing agriculture 
productivity.
    Question. What are the major obstacles to the use of genetically 
modified seed and what incentives can the U.S. develop for encouraging 
the use of such seed in Africa?
    Answer. Misinformation about biotechnology--the claim that it is 
inherently harmful--is a key obstacle. There continue to be 
misperceptions about the safety of products derived from modern 
biotechnology. This has led some policy makers in Africa to be hesitant 
in adopting the technology. Overcoming the reservations of policy 
makers about the potential risks of biotechnology, including concerns 
about the impact on trade, is perhaps our greatest challenge. 
Inadequate public awareness about the potential benefits of 
biotechnology in enhancing food security, improving livelihoods, and 
mitigating climate change is another barrier.
    Going forward, the absence of enabling environments, such as 
biotechnology laws and regulatory systems that would allow needed 
investments in the technology, will likely be the most significant 
barriers. With the enactment of biotechnology laws and establishment of 
regulatory systems, a significant amount of capacity building and 
resources would also be needed in Africa to conduct science-based risk 
assessments for biotech products and crops in the pipeline. Without 
such systems in place to either adopt the technology or to authorize 
the importation of biotech products in an expeditious fashion, trade 
disruptions occur and farmers and industry are not incentivized to 
produce biotech crops.
    Ultimately, individual African governments will have to make the 
decision to accept and adopt biotechnology for the good of their 
people; we are seeing some signs that biotechnology is slowly gaining 
acceptance in Africa. Prior to the 2008 food price crisis, many African 
countries were reluctant to consider biotech crops for fear of losing 
access to important international markets, particularly in Europe where 
opposition to biotechnology is strong. Increasingly, however, African 
countries are making decisions based on their own domestic needs. In 
addition, scientists are developing more staple crops, such as cassava 
and sorghum, which meet African needs but do not raise trade concerns.
    The United States Government aids African governments interested in 
developing biotechnology to develop science-based, transparent 
regulatory systems and to build research capacity, while conducting 
outreach programs to increase awareness about the use of biotechnology 
as a tool to achieving greater food security. In fiscal year 2012, the 
Department of State, in consultation with other agencies, has 
identified seven African countries--Ghana, Nigeria, Kenya, Tanzania, 
Malawi, Mozambique, and Uganda--to focus its biotech outreach efforts 
where we believe the necessary local policy conditions exist for the 
adoption of biotechnology. We will utilize the Department's Biotech 
Outreach Funds to advance this effort, in coordination with and in 
support of ongoing USAID and USDA biotech-related activities.
    Question. How is the Feed the Future Initiative coordinated with 
the work conducted by other organizations, specifically the Gates 
Foundation?
    Answer. Central to Feed the Future efforts is a partner country-
driven approach to addressing the root causes of hunger and poverty. 
Recognizing that agriculture depends on the strength of a range of 
institutions working and investing together, building new markets and 
supply chains, sustainably taking new initiatives to scale and 
improving global economic potential, we are leveraging the private 
sector, philanthropic and NGOs, and diaspora communities as we work 
with host-country partners in a comprehensive way to address global 
food security needs.
    Specifically, USAID works closely with the Gates foundation through 
both joint funding and complementary programs in agricultural research. 
Some examples include jointly supported efforts in developing cassava 
varieties resistant to devastating viruses in Africa through 
biotechnology, promoting and adapting conservation agriculture for 
climate resilience in South Asia under the Cereal Systems Initiative 
for South Asia, and training the next generation of female agricultural 
scientists under the Agricultural Women in Agricultural Research and 
Development program. In addition, USAID and the Gates foundation are 
two of the largest donors to the Consultative Group on International 
Agricultural Research centers and actively participate in the 
governance of the system. Our investments to support the African-led 
Partnership for Aflatoxin Control in Africa are also complemented by 
support for aflatoxin control in Africa through the Gates Foundation 
and the UK's Department for International Development. These 
investments fall in line with the Comprehensive Africa Agriculture 
Development Program's priority of making aflatoxin control central to 
improved food security in Africa.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
    Question. In your view, should United States policy allow Iran to 
become a nuclear threshold state?
    Do you consider ``containment'' to be a viable United States policy 
with regard to the Iran and its nuclear program?
    How would you define failure in the administration's current Iran 
policy?
    In your view, can the United States allow Iran to acquire a nuclear 
weapons capability?
    Answer. The administration has been unequivocal about its policy 
toward Iran. A nuclear-armed Iran would be counter to the national 
security interests of the United States, and we are determined to 
prevent Iran from acquiring a nuclear weapon. This is a top national 
security priority for the Obama administration, and our dual track 
strategy of pressure and engagement is aimed at preventing such a 
destabilizing development. We must also counter Iran's destabilizing 
actions in the region and beyond, including Iran's sponsorship of 
terrorist organizations. We must also spare no effort to advance 
America's broader interests in democracy, human rights, peace, and 
economic development throughout the region. Containment would not allow 
us to achieve these broad goals.
    Question. On December 31, 2011, President Obama signed the fiscal 
year 2012 National Defense Authorization Act (NDAA) into law, including 
the Menendez-Kirk amendment (section 1245) imposing sanctions against 
the Central Bank of Iran (CBI). In its implementing rule, the 
administration gave you broad discretion to define a country's 
``significant reduction'' in crude oil purchases from Iran and to grant 
exceptions to sanctions related to petroleum transactions.
    Can you provide a detailed description of the State Department's 
efforts in working with our international partners--particularly China, 
India, and Turkey--to ensure their compliance with CBI sanctions? What 
has been their response thus far?
    Answer. This administration has applied unprecedented economic 
pressure on Iran through a whole-of-government effort, to force its 
government to return to the negotiating table, and prove the exclusive 
peaceful nature of its nuclear program.
    Since the enactment of the NDAA for fiscal year 2012, the State 
Department has engaged in an extensive diplomatic campaign, and 
numerous administration officials have travel led across the globe, to 
urge states to reduce their imports of oil from Iran and end their 
transactions with CBI, as well as to implement their own national 
measures against Iran.
    Our efforts have had significant success. In fact, we worked 
closely with the European Union and welcome their January 23 decision 
to ban all new contracts for, among other things, the import, purchase, 
or transport of Iranian crude oil by its member states, and to impose 
sanctions on Bank Tejarat and CBI. We have also engaged Japan in 
constructive discussions on the implementation of these sanctions, in a 
spirit of very strong cooperation. We have had productive discussions 
with many other countries, including Turkey and India, to explain the 
law, urge them to reduce their oil imports, and underscore the 
importance of diversifying their energy supplies.
    Furthermore, we have engaged China, at every opportunity, to 
discuss the implementation of the NDAA sanctions, urge its government 
to significantly reduce its imports of Iranian crude, and press its 
companies not to ``backfill'' the business of other firms that have 
taken the responsible course and departed Iran's energy sector.
    Question. Section 7041(a) of the fiscal year 2012 Consolidated 
Appropriations Act (Public Law 112-74) stipulated that no aid shall be 
provided to the Government of Egypt unless that government is committed 
to ``holding free and fair elections; implementing policies to protect 
freedom of expression, association, and religion, and due process of 
law.''
    In light of the recent actions by the Egyptian Government with 
regard to the trial of foreign nongovernmental organization (NGO) 
employees, including American citizens, do you believe that Egypt 
currently meets the requirements under Public Law 112-74?
    Do you believe the United States should provide assistance to an 
Egyptian Government that does not comply with the Camp David Peace 
Accords?
    What is the administration's policy toward the Muslim Brotherhood 
and the Salafists now positioned to control Egypt's parliament? What 
can we do to ensure the current round of elections will not be Egypt's 
last?
    Answer. Egypt has made important progress in its transition by 
holding credible parliamentary elections and preparing for presidential 
elections in advance of the commitment by the Supreme Council of the 
Armed Forces to hand over power to a civilian president by the end of 
June. We remain deeply concerned about ongoing human rights abuses and 
restrictions on civil society, and we continue to urge the Egyptian 
Government to drop its charges against Egyptian and international NGO 
staff and revise laws on association to meet international standards 
and to respect the right of all people to associate freely.
    With regard to freedom of expression, we are encouraged by the 
proliferation of Egyptian media outlets and the use of social media 
over the last year, but we remain concerned about the government's 
detentions of bloggers and journalists by military prosecutors. 
Although the military lifted the emergency law except in cases of 
``thuggery'', this exception is so broadly defined that the law has the 
potential to limit full freedom of association and expression.
    With respect to freedom of religion, we remain concerned about the 
continuing lack of accountability for many incidents of sectarian 
violence that have occurred before and after the revolution. Egypt has 
made some strides, notably through the passage of anti-discrimination 
amendments to the penal code, but more needs to be done to protect 
religious freedom.
    The Egyptian Government has reaffirmed its intent to uphold the 
1979 Egypt-Israel Peace Treaty, and both sides have a profound interest 
in maintaining it. In the event that circumstances change, we retain 
the flexibility to make adjustments to our assistance program at any 
time. We will continue to emphasize in our discussions with Egypt's new 
and emerging leaders that it is in Egypt's strategic interest to 
continue to abide by the treaty obligations.
    Egyptians have elected new representatives to both houses of 
parliament. We are committed to engaging with the full spectrum of 
Egypt's parliamentarians, whether they are Islamists or secularists, 
and building a partnership with Egypt's next government. In doing so, 
we will continue to stress our support for democratic principles, 
including the rights of women and religious minorities, and a 
commitment to nonviolence and regional peace and security.
    Our diplomatic outreach and assistance to Egypt during this 
critical period is designed to facilitate Egypt's successful transition 
to a civilian, democratic government that meets the aspirations of 
Egyptians. We will continue to engage with the Egyptian Government, 
members of civil society, the business community, and our international 
partners to support a truly democratic and lasting system of government 
in Egypt.
    Question. Japanese media reported that the United States Government 
administration would grant Japan an exception to petroleum-related 
sanctions based on an 11-percent reduction in Japanese crude oil 
purchases from Iran--is this correct? If not, what threshold will you 
define as qualifying for the ``significant reduction'' requirement?
    Answer. The Departments of Energy, State, and the Treasury have 
sent teams of senior-level officials all over the world for frank 
discussions on the sanctions provisions in the NDAA for fiscal year 
2012.
    While we cannot detail here our specific discussions for reasons of 
confidentiality and regard for proprietary information, we've had 
positive responses from a number of countries. Japan, despite hardships 
and the loss of energy capacity after Fukushima, reduced significantly 
its imports of crude oil from Iran in the second half of 2011. Japan's 
oil industry has aggressively sought out new suppliers as an 
alternative to Iran. In a different set of circumstances, the European 
Union took legally binding action to reduce its crude oil imports from 
Iran to zero. That helps illustrate why it is in our best interest to 
engage each country on actions it can take, and not present a level 
that could understate what is possible.
    Decisions on what constitutes having ``significantly reduced'' in 
terms Iranian crude oil purchases will require renewal every 180 days.
    Question. From a diplomatic perspective, how do you set one 
threshold of ``significant reduction'' for one country and set another 
threshold for a second country?
    Answer. We look at a number of sources of information in 
considering whether a country has ``significantly reduced'' its volume 
of crude oil purchases from Iran.
    For example, we may take into account for how much crude oil a 
country consumes in the aggregate and how much comes from sources other 
than Iran. By way of illustration, a country which consumes 100,000 
barrels per day of oil from Iran out of a total crude consumption of 1 
million barrels per day has more scope for quick reductions than a 
country for which Iran is a more significant--or even the sole--
supplier. Our goal is for countries to demonstrate significant and 
sustainable reductions in crude oil imports from Iran, recognizing that 
the means used to achieve this outcome may vary based on individual 
circumstances.
    Question. Section 7041(e) of Public Law 112-74 prohibits aid to the 
Lebanese Armed Forces (LAF) if the LAF ``is controlled by a foreign 
terrorist organization'' and stipulates that fiscal year 2012 funds 
only be available ``to professionalize the LAF and to strengthen border 
security and combat terrorism.''
    In your view, what influence does Hezballah have on the LAF?
    How would you assess the progress of the LAF's training and 
performance?
    Answer. While we continue to have concerns about Hezballah's 
influence within the body politic, we do not believe this government to 
be ``Hezballah-run'', nor do we assess that Hezballah wields any 
meaningful influence over the LAF. Currently, Hezballah holds 2 out of 
30 cabinet seats--the same number it held in the previous government of 
Saad Hariri. In fact, Prime Minister Najib Mikati and his centrist 
allies in the cabinet have been successful in maintaining the 
government's commitment to Lebanon's international obligations, despite 
pressure from Hezballah and other pro-Syrian factions within Lebanon to 
do the opposite.
    We carefully watch for any attempt by Hezballah, Syria, or Iran to 
establish influence over the LAF. To date, the LAF has resisted these 
efforts and prioritizes its relationship with the United States. The 
LAF's Commander, General Jean Khawagi, reports to the Lebanese Cabinet 
and to the Prime Minister and is independent of any specific political 
faction in Lebanon.
    United States security assistance in Lebanon is targeted at 
building the LAF's professionalism and capacity as it relates to three 
specific goals:
  --implementing UN Security Council Resolution 1701 to ensure 
        stability south of the Litani river;
  --maintaining internal security and preventing a violent spillover 
        from Syria; and
  --combating terrorism.
    With the support of United States assistance and training, the LAF 
maintains a presence in all areas of Lebanon, including Southern 
Lebanon and the area south of the Litani (as called for by UN Security 
Council Resolution 1701).
    Recent examples of successful LAF operations include effective 
counter-rocket patrols south of the Litani, which led to the arrest of 
rocket-firing perpetrators in December 2011; the dismantling of a large 
narco-terrorism ring in late February 2012; and a series of low-scale, 
pre-emptive counterterrorism operations since last year which have 
prevented al Qaeda from gaining a foothold in Lebanon. On February 12, 
2012, the LAF mounted a major operation to intervene and stop a 
sectarian clash in the Northern Lebanese city of Tripoli. LAF units 
were able to interpose themselves between combatants, stop the 
fighting, and made a number of arrests and seizures of weapons.
    Furthermore, the LAF continues to cooperate with United Nations 
Interim Force In Lebanon to maintain stability along the blue line 
between Lebanon and Israel. The LAF's commitment to maintain stability 
was on display when it prevented violence by Palestinian groups during 
the June 5, 2011 ``Naksa day'' protests.
    As we have briefed in the past, the LAF maintains an impeccable 
end-use record; there is no evidence that any U.S. assistance has been 
transferred to Hezballah or other unauthorized users. The Department of 
State will continue to implement end use monitoring, vetting, and other 
existing safeguards designed to minimize the risk that Hezballah or 
other terrorist organizations will benefit from U.S. assistance 
activities.
                               next steps
    Question. What are the next steps in United States policy toward 
Syria?
    Would you support providing direct United States assistance to 
Syrian opposition groups, including self-defense aid to the Free Syrian 
Army?
    Answer. The United States is taking concrete action along three 
lines:
  --providing emergency humanitarian relief to the Syrian people;
  --ratcheting up economic and diplomatic pressure on the regime; and
  --encouraging the opposition to unite around a platform of outreach 
        to Syria's minorities and peaceful, orderly political 
        transition.
    We are continuously consulting with the like-minded partners on 
ways to pressure the regime to end violence and enable a political 
process to move forward. Moreover, we have built an international 
coalition dedicated to the same goals and methods, one that has been on 
display in the United Nations (UN) General Assembly and the recent 
Friends of the Syrian People conference.
    On February 24, the United States along with 60-plus members of the 
Friends of the Syrian People made commitments to get humanitarian aid 
to the suffering Syrian people, to increase diplomatic pressure and 
tighten sanctions on Asad and his regime, to strengthen the transition 
planning of the opposition, and to support the efforts of United 
Nations envoy Kofi Annan and the Arab League (AL) to end the violence 
and begin a true dialogue that will lead to the change the Syrian 
people deserve. Since the inaugural meeting, the European Union 
announced its 12th round of sanctions against the Asad regime, which 
were expanded on February 27 to include Syria's central bank and trade 
in precious metals and diamonds. Joint UN/AL Special Envoy Kofi Annan 
announced plans to travel to Damascus to meet with the Asad regime and 
will present a proposal to end violence and unrest in Syria, increase 
access for humanitarian agencies, release detainees, and start an 
inclusive political dialogue. It is not clear that he will be able to 
make progress. Russian Foreign Minister Lavrov intends to meet with the 
AL's Syria Committee on March 10. We look forward to advancing these 
goals at the next Friends of the Syrian People meeting in Turkey.
    On the humanitarian front, the Friends of the Syria People meeting 
resulted in pledges of tens of millions of dollars in humanitarian 
assistance for the Syrian people. Although United Nations 
Undersecretary General for Humanitarian Affairs and Emergency Response 
Coordinator Valerie Amos was not granted authorization to travel to 
Syria in late February, we have urged Syrian authorities to grant 
immediate and unfettered access as soon as possible. As part of its 
ongoing emergency food operation targeting 100,000 conflict-affected 
individuals in Syria, since February 20, the World Food Program has 
delivered 16,850 family food rations--sufficient to feed approximately 
84,000 people for 1 month--to Syrian Arab Red Crescent (SARC) 
warehouses in 11 governorates. The SARC had distributed more than 7,000 
WFP food rations to beneficiaries in 11 designated governorates, 
although several of the worst-affected areas within the governorates 
remain inaccessible due to insecurity. The Organization of Islamic 
Cooperation also announced that Syrian authorities had granted the 
group permission to send humanitarian aid to Syria.
                           arming opposition
    We have not seen our role to date as one of injecting arms and 
munitions into Syria or encouraging others to do so. As I have said, 
``There is every possibility of a civil war. Outside intervention would 
not prevent that--it would probably expedite it. As you try to play out 
every possible scenario, there are a lot of bad ones that we are trying 
to assess.''
    We have been very resistant to the idea of pouring fuel onto the 
fire ignited by the Asad regime. Rather, we have defined our role 
largely in terms of encouraging a peaceful transition by working to 
isolate this outlaw regime diplomatically, crimping its cash flow, and 
encouraging the opposition to unite around a platform of outreach to 
Syria's minorities and peaceful, orderly political transition. 
Moreover, we have built an international coalition dedicated to the 
same goals and methods, one that has been on display in the UN General 
Assembly and the recent Friends of the Syrian People conference.
    For now, we assess that a negotiated political solution is still 
possible and is the best way to end the bloodshed and achieve a 
peaceful transition to democracy, but as the Secretary recently said in 
London, ``There will be increasingly capable opposition forces. They 
will, from somewhere, somehow, find the means to defend themselves as 
well as begin offensive measures.''
    Question. Do you find it inconsistent that as Russia continues to 
supply the Assad regime with weapons, the United States Government 
continues to do business with Russian state arms company 
Rosoboronexport?
    Answer. We have voiced our concerns about Russian weapons sales to 
Syria repeatedly, both publicly and through diplomatic channels with 
senior Russian officials. Last August, Secretary Clinton publicly urged 
Russia to cease arms sales to Syria. We will continue to press Russia 
on any activities that contribute to the Syrian regime's violent 
crackdown or threaten regional stability.
    The Mi-17 helicopter purchase effort, conducted directly through 
Rosoboronexport, is critical to building the capacity of the 
Afghanistan security forces. This in no way excuses Rosoboronexport for 
its activities with Syria, but our acquisition of these helicopters is 
part of our ongoing strategy to hand over the security of Afghanistan 
to its people. For additional specific questions regarding U.S. 
contracts with Rosoboronexport, I must refer you to the Department of 
Defense.
    Question. Given Russian support for Assad's brutal attacks against 
the Syrian people, would you now agree that the administration's push 
to provide Russia access to sensitive United States missile defense 
data and technology was misguided?
    Answer. The administration is extremely disappointed that the 
Russian Federation vetoed our attempts to pass a United Nations 
Security Council resolution condemning the situation in Syria. We have 
voiced our concerns about Russian weapons sales to Syria repeatedly, 
both publicly and through diplomatic channels with senior Russian 
officials. Nevertheless, cooperation between the United States of 
America and the Russian Federation is necessary for many security-
related issues.
    Like previous Republican and Democratic administrations, this 
administration is committed to missile defense cooperation with Russia. 
The United States continues to assess what information it would be in 
our interest to share with Russia and others regarding the capabilities 
of United States missile defense systems. This assessment will affect 
information shared directly, during tests, and in any future 
cooperation. It is administration policy that the United States will 
only provide information to Russia that will facilitate enhance the 
effectiveness of our missile defenses.
    We will not provide Russia with information about our missile 
defense systems and capabilities that would in any way compromise our 
national security. We will, however, continue to press Russia on any 
activities that contribute to the Syrian regime's violent crackdown or 
threaten regional stability.
    Question. The conference report to Public Law 112-74 mandates that 
the Government Accountability Office (GAO) produce a report to the 
Appropriations Committees of the House of Representatives and the 
Senate outlining the steps that would be required to transition 
services currently provided in the West Bank by the United Nations 
Works and Relief Agency (UNRWA) to the Palestinian Authority (PA).
    Answer. The State Department regularly cooperates with GAO in its 
efforts to respond to congressionally mandated reporting requirements, 
and we will offer our complete cooperation in response to the 
conference report request for the GAO to conduct an assessment of the 
ability of the PA to assume responsibility for any of the programs and 
activities conducted by UNRWA in the West Bank and the actions that 
would be required by the PA to assume such responsibility. The U.S. 
Government has extensive oversight of UNRWA and uses every mechanism 
possible to enhance due diligence on U.S. funds provided through the 
organization. United States Agency for International Development 
(USAID) is currently working with GAO on its audits concerning fiscal 
year 2010 and fiscal year 2011.
    UNRWA has the sole United Nations mandate to assist Palestinian 
refugees until there is a resolution to the Israeli-Palestinian 
conflict. UNRWA's mandate is governed by the UN General Assembly. UNRWA 
provides essential humanitarian and education support to refugees in 
the PA-controlled West Bank that is beyond the financial and 
organizational capacity of the PA at present. We look forward to the 
day that UNRWA is no longer needed, but this need will continue until 
there is a resolution to the Palestinian refugee question in the 
context of a negotiated peace.
    Question. Will you commit to providing the GAO complete cooperation 
and access to information needed to fulfill this mandate, including 
information related to the PA's accounting and payment systems?
    The State Department has posted copies of its 2010, 2011, and 2012 
Framework for Cooperation between UNRWA and the Government of the 
United States of America on the State Department's Web site. The 
Frameworks can be accessed at http://www.state.gov/j/prm/releases/
frameworknew/index.htm. Upon request, we would be happy to brief the 
Senator or interested staff in additional detail on other relevant 
agreements or documents between UNRWA and the Government of the United 
States of America.
    Question. Can you provide my office with copies of all frameworks, 
agreements, understandings, or contracts signed and/or agreed to 
between UNRWA and the Government of the United States of America for 
all years since 1950?
    Who was responsible for negotiating the Framework for Cooperation 
between UNRWA and the Government of the United States of America for 
2011, who will be responsible for negotiating the next framework for 
cooperation and when will the next framework be signed?
    Answer. The Bureau of Population, Refugees, and Migration (PRM) 
leads the annual framework negotiations with UNRWA for the Department 
of State, in consultation with State Department colleagues. The 2012 
Framework for Cooperation was signed on December 16, 2011, by PRM 
Acting Assistant Secretary David Robinson and UNRWA Commissioner 
General Filippo Grandi. A copy of this Framework is available on the 
State Department's Web site. The 2012 Framework is effective January 1, 
2012 through December 31, 2012. Negotiations for the 2013 Framework 
will begin in August 2012.
    Question. Pursuant to report language in Public Law 112-74, how 
does the State Department plan to prioritize the protection of 
vulnerable ethno-religious minorities in Iraq, specifically the Chaldo-
Assyrian communities in the Nineveh Plains?
    Would you support the establishment of an autonomous region in the 
Nineveh Plains consistent with Article 125 of the Iraqi constitution?
    Answer. Security for Iraq's minority communities is a high priority 
for the United States Government. We continue to work with the 
Government of Iraq and Iraq's religious and ethnic minority communities 
to address the challenges faced by these communities in Iraq.
    The Government of Iraq provides security for churches and has hired 
members from Iraq's minority communities to serve in the Government of 
Iraq's Facilities Protection Services (FPS), which is charged with 
protecting religious entities in Iraq. Hiring of minority FPS officers 
was a request of the minority communities and we have been pleased to 
see the Government of Iraq maintain its commitment to this issue as 
well as provide increased protection during Christian holidays. Through 
the Department's Iraq Police Development Program (PDP), United States 
trainers and advisors work with Iraq's Interior Ministry to improve 
internal security in a manner that is consistent with international 
policing and human rights and support efforts to build a police force 
that is inclusive of all Iraqis.
    Article 125 of the Iraqi Constitution ``guarantees the 
administrative, political, cultural, and educational rights of the 
various nationalities, such as Turkomen, Chaldeans, Assyrians, and all 
other constituents.'' Some minorities refer to ``administrative'' 
rights as the right to create an autonomous region, or province, for 
minorities in Iraq. The United States Government believes the creation 
of an autonomous region for minorities in Iraq is a sovereign issue for 
minority communities and the Government of Iraq to decide. The 
Department notes that the position within the communities on the 
creation of an autonomous region remains divided.
    To encourage Iraq's minorities to work together on issues of common 
interest, the Department has supported the U.S. Institute of Peace 
(USIP) in the creation of a ``Minorities Caucus'' within Iraq's Council 
of Representatives to provide legislative training and capacity 
development to enable Caucus members to speak with one voice to the 
highest levels of the Iraqi Government. The Caucus has been able to 
promote minority rights through legislation. USIP's Rule of Law program 
also established the Alliance of Iraqi Minorities, a network of 10 
minority NGOs and more than 30 leading activists equipped to provide 
input on minority concerns to local and national government officials.
    Moving forward, we will continue to support Iraqi-led initiatives 
to help create conditions for Iraq's minorities to remain in Iraq.
    Question. In response to my October 2011 letter regarding perimeter 
protection of United States facilities in Iraq, the State Department 
wrote that ``with the exception of two temporary facilities, all sites 
in Iraq under Chief of Mission Authority . . . meet or exceed 
requirements established by the Overseas Security Policy Board 
(OSPB).''
    How many temporary facilities that the State Department will 
operate have been (or are being) constructed in Iraq? Can you identify 
temporary facilities that do not meet the required OSPB standards? Have 
you investigated and identified why these facilities do not meet these 
standards and what alternatives exist to ensure that these requirements 
are met?
    Answer. How many temporary facilities that the State Department 
will operate have been (or are being) constructed in Iraq?
    The Department maintains seven temporary compounds in Iraq:
  --Baghdad Policy Academy Annex (BPAX, formerly Joint Security Station 
        Shield);
  --Embassy Annex Prosperity;
  --Baghdad Diplomatic Support Center (BDSC, formerly Sather Airbase);
  --Consulate General Basrah;
  --Consulate General Erbil (Ankawa);
  --Consulate General Kirkuk; and, Erbil Diplomatic Support Center 
        (EDSC).
    Can you identify temporary facilities that do not meet the required 
OSPB standards?
    At the time of the Department's response to Senator Kirk's October 
2011 letter, three \1\ Department of State temporary facilities--BPAX, 
Embassy Annex Prosperity, and BDSC--had pending waivers to OSPB and 
Secure Embassy Construction and Counterterrorism Act of 1999 (SECCA) 
standards. Subsequently, Embassy Annex Prosperity has been granted a 
waiver.
---------------------------------------------------------------------------
    \1\ The Department's previous response referred to two facilities. 
This was an oversight.
---------------------------------------------------------------------------
    In addition, we are in various stages of requesting waivers and/or 
exceptions for Consulates General in Erbil, Basrah, and Kirkuk, and 
EDSC.
    Question. Have you investigated and identified why these facilities 
do not meet these standards and what alternatives exist to ensure that 
these requirements are met?
    Answer. All Department facilities throughout Iraq are subject to 
OSPB (12 FAH-6 H-114.4) policies and SECCA requirements. The need to be 
mission-capable by a certain date, on a given site, and with due 
attention to the cost of these temporary sites meant that in some cases 
compliance with one or more standards was not possible. The Department, 
therefore, utilized exception and waiver procedures. Waivers and 
exception packages identify the deficiencies for each site and allow 
the Department to give careful consideration to operating in a facility 
that does not meet OSPB or SECCA standards. This is done by evaluating 
the risks, and deciding when security considerations permit the 
standards to be waived in a particular case.
    Where OSPB and SECCA standards could not be met, the following 
mitigation strategies were utilized as temporary measures for temporary 
facilities:
  --Overhead protective systems are in place at BPAX, BDSC, and 
        Consulate General Basrah. These systems result from a threat-
        driven initiative by Post, rather than a regulatory 
        requirement.
  --T-Walls backed by Jersey barriers to meet anti-climb and anti-ram 
        requirements are in place or being installed for perimeters at 
        EDSC, Prosperity, BPAX, BDSC, Consulate General Basrah, and 
        Consulate General Erbil.
  --T-Walls for side-blast mitigation around offices and living spaces 
        are used at EDSC, Prosperity, BPAX, BDSC, and Consulate General 
        Basrah. As stated in the Department's response to Senator 
        Kirk's October 2011 letter, T-Walls provide limited blast 
        mitigation. The Department worked to transfer the majority of 
        these barriers from the Department of Defense to stretch 
        limited financial resources and be good stewards of public 
        monies while meeting the need for expediency in a contingency 
        operating environment.
  --Robust perimeter guard towers are employed at all Department of 
        State sites, except Consulate General Erbil and EDSC. These 
        towers are a DS-supported initiative in response to the 
        evaluation of potential threat rather than to a regulatory 
        standard. The Department continually monitors the risk levels, 
        the mitigation strategies in place, and any change in the 
        expected length of occupancy of these temporary facilities. If 
        additional measures are required, including full compliance 
        with the applicable standards where possible, we will act.
    Question. As required by section 7046(c) of Public Law 112-74, are 
you prepared to certify that Pakistan is ``not supporting terrorist 
activities against United States or coalition forces in Afghanistan'' 
or ``cooperating with the United States in counterterrorism efforts 
against the Haqqani Network''?
    Answer. I do not want to presuppose or prejudice the findings of 
any certification review, but I assure you that we will diligently and 
thoroughly consider the certification requirements set forth in the 
statute and all the relevant facts when determining whether Pakistan is 
cooperating with the United States against the Haqqani Network.
    Question. What steps is the administration taking to press Turkey 
to end its blockade of Armenia and to normalize relations without 
preconditions?
    Answer. The Obama administration strongly supports the efforts of 
Turkey and Armenia to normalize their bilateral relations. The United 
States maintains an ongoing dialogue with Turkish and Armenian 
officials at all levels on these issues, and we will continue to 
support the courageous steps taken by individuals in Armenia and Turkey 
to foster a dialogue that acknowledges the history they share in 
common.
    The U.S. Government also supports a number of track II initiatives 
to enhance people-to-people connections, building a foundation for 
reconciliation on which our foreign policy goal of peace, stability and 
normalization can grow. Our Embassy in Ankara supported youth 
leadership seminars with Armenian, Turkish, and American participants; 
university exchanges have focused on tourism development; and English 
teacher training has examined the role of language to promote cross 
cultural ties. The USAID mission in Armenia funded a large Armenia-
Turkey project implemented by the Eurasia Partnership Foundation from 
2010 to 2012, and plans to continue supporting cross-border programs in 
the coming fiscal year. Our Embassy in Yerevan supported a multi-
national youth orchestra for cultural dialogue through music. Both 
Embassies provide small grants to local NGOs and alumni of U.S.-funded 
exchange programs to support cross-border reconciliation projects.
    Question. On December 13, 2011, the House of Representatives 
unanimously passed a resolution calling on Turkey to return Christian 
churches and properties (H. Res. 306).
    What efforts has the administration undertaken in this regard and 
what has been Turkey's response? Are you satisfied with the response?
    Answer. The return of the property of minority religious 
communities in Turkey is an important goal of this administration, and 
we have repeatedly raised this issue with Turkish officials at the most 
senior levels. Religious minority groups continue to face challenges in 
Turkey, but we are encouraged by the concrete and important steps the 
Government of Turkey has recently taken to address historical 
grievances and promote religious freedom.
    In August 2011, for example, Prime Minister Erdogan issued a decree 
allowing religious minorities to apply to reclaim churches, synagogues, 
and other properties confiscated 75 years ago. Several properties have 
already been returned to the 24 minority religious community 
foundations which have applied thus far. In November 2010, the 
Government of Turkey returned the Buyukada orphanage to the Ecumenical 
Patriarchate, in line with a ruling by the European Court of Human 
Rights. Separately, speaking to the press on the issue of the re-
opening of Halki Seminary, Deputy Prime Minister Bozdag said in 
February the government would ``support such a move.'' He went on to 
say, ``The main debate is on the status of the school; it is not about 
permission.'' We will continue to urge the Government of Turkey to 
follow through on this commitment.
    The redrafting of Turkey's constitution also represents a 
significant development for Turkey's minority religious communities. 
Parliament speaker Cemil Cicek has reached out to Orthodox, Jewish, 
Armenian, and Syriac leaders during this process. On February 20, the 
Ecumenical Patriarch was invited to address the Turkish Parliament for 
the first time in the history of the republic. In his address he 
acknowledged ongoing challenges when it comes to religious freedom in 
Turkey, but also noted the positive changes taking place when he 
remarked, ``Unfortunately, there have been injustices toward minorities 
until now. These are slowly being corrected and changed. A new Turkey 
is being born.''
    We welcome these positive steps but also recognize that more needs 
to be done. This administration will continue to monitor Turkey's 
progress closely, in consultation with the religious communities 
affected, urging the Government of Turkey to return all properties 
confiscated from minority religious communities to their rightful 
owners.
    Question. As you know, there have been increasing ceasefire 
violations in Nagorno Karabakh (NK), most recently resulting in the 
death of an Armenian soldier. Azerbaijani officials have continued to 
make aggressive statements that undermine stability in the region, 
including threats made in March and April 2011 to shoot down civilian 
aircraft over NK. Last month, President Aliyev said, ``It's not a 
frozen conflict, and it's not going to be one.'' In light of these 
developments, is it your view that the Government of Azerbaijan 
continues to meet all conditions for a waiver under section 907 of the 
FREEDOM Support Act, including that aid to Azerbaijan ``not undermine 
or hamper ongoing efforts to negotiate a peaceful settlement between 
Armenia and Azerbaijan''?
    Answer. Armenia and Azerbaijan have expressed support for the 
Organization for Security and Co-operation in Europe (OSCE) Minsk Group 
process to achieve a peaceful resolution of the Nagorno-Karabakh 
conflict. In a joint statement with Russian President Medvedev in Sochi 
in January 2012, Presidents Aliyev and Sargsian committed to accelerate 
reaching agreement on the Basic Principles, which provide a framework 
for a comprehensive peace settlement. As a co-chair of the OSCE Minsk 
Group, the United States remains committed to assisting the sides in 
the Nagorno-Karabakh conflict to reach a lasting and peaceful 
settlement. To this end, the United States calibrates its assistance to 
ensure that it is not usable in an offensive operation against Armenia 
or Azerbaijan, does not affect the military balance between Armenia and 
Azerbaijan, and does not undermine or hamper ongoing efforts to 
negotiate a peaceful settlement between Armenia and Azerbaijan. The 
United States most recently exercised its authority to waive section 
907 of the FREEDOM Support Act on February 10, 2012.
    Question. On January 26, 2012, you stated that the Armenian 
genocide is ``a matter of historical debate.'' Do you believe that the 
administration's current policy that fails to recognize the Armenian 
genocide serves to promote reconciliation in the region and speak 
clearly to America's moral principles and values?
    Do you stand by your 2008 statement that, ``[T]he horrible events 
perpetrated by the Ottoman Empire against Armenians constitute a clear 
case of genocide,'' and that ``[o]ur common morality and our nation's 
credibility as a voice for human rights challenge us to ensure that the 
Armenian genocide be recognized and remembered by the Congress and the 
President of the United States''?
    Answer. The United States recognizes the events of 1915 as one of 
the worst atrocities of the 20th century. Every April 24 the President 
honors the victims and expresses American solidarity with the Armenian 
people on Remembrance Day. We mourn this terrible chapter of history 
and recognize that it remains a source of great pain for the people of 
Armenia and of Armenian descent, and for all those who believe in the 
dignity and value of every human life.
    The President has said in his April 24 Remembrance Day statements 
that the achievement of a full, frank, and just acknowledgement of the 
facts of what occurred in 1915 is in all our interests. He also has 
said that the best way to advance that goal is for the Armenian and 
Turkish people to address the facts of the past as a part of their 
efforts to move forward. He strongly supports the efforts of Turkey and 
Armenia to normalize their bilateral relations. The President believes 
that together, Armenia and Turkey can forge a relationship that is 
peaceful, productive, and prosperous. We believe that full 
normalization of relations between these two neighbors is important for 
the future of both countries and for stability in the region.
    Question. Do you support any official restrictions on 
communication, contacts, travel, or other interactions between United 
States and Nagorno Karabakh Government officials?
    Answer. As a co-chair of the OSCE Minsk Group, the United States 
remains committed at the highest levels to assisting the sides of the 
Nagorno-Karabakh conflict to achieve a lasting and peaceful settlement. 
We continue to engage leaders in order to reach agreement on a 
framework for such a settlement, which then can lead to a comprehensive 
peace treaty. No country, including Armenia, recognizes the self-
declared independence of the so-called ``Nagorno-Karabakh Republic.'' 
However, the U.S. Co-Chair of the Minsk Group travels regularly to 
Nagorno-Karabakh to meet with the de facto authorities there, as part 
of the overall effort to engage all the populations that have been 
affected by the conflict.
                                 kosovo
    Question. According to USAID, ``Kosovo is the youngest country in 
Europe with more than 50 percent of Kosovars aged 25 or younger. The 
growing youth population that is unemployed (estimates range from 50 to 
75 percent), disengaged, and disconnected is emerging as an urgent 
issue for the newly independent state.'' In an effort to foster 
stability and economic development, would you support prioritizing 
United States assistance for Kosovo with a focus on education? Can you 
please provide an update on your efforts in regard?
    Answer. The U.S. Government supports a wide range of programs 
designed to create economic growth and long-term, sustainable 
opportunities, including in the fields of education and workforce 
capacity development. Both State and USAID recognize that professional 
and vocational education is key to stability and growth in Kosovo and 
throughout the region.
    USAID has supported the basic education sector in Kosovo by 
engaging in activities in learning assessment, curriculum and 
professional development, including the introduction of technology in 
math and science, and management capacity, consistent with the Kosovo 
Ministry of Education's reform strategy. As a result of a strong 
partnership USAID developed with the Government of Kosovo, United 
States Government funding for basic education in Kosovo was not 
allocated after fiscal year 2011, as the Government of Kosovois now 
contributing resources in order to meet program objectives in this 
sector.
    Higher education funds support results-oriented programs to address 
specific issues related to human resource development and higher 
learning. Our assistance is aimed at supporting the development of 
Kosovo's educational institutions, particularly those that will have a 
direct impact on Kosovo's economic growth and democratic stability.
    USAID and State are reviewing options to expand financial support 
for bilateral educational exchanges between Kosovo and United States 
universities and colleges. USAID is currently engaging in feasibility 
analysis to determine the needs of strategically selected Kosovo higher 
education institutions in priority developments areas. The assessment 
will also address institutional partnerships, faculty exchanges and 
student scholarships, as these contribute to building and strengthening 
Kosovo's development institutions and societal transformation.
    We anticipate that USAID will make specific recommendations to the 
State Department no later than summer 2012 on a plan for expanded 
support for higher education in Kosovo.
    Question. When do you expect the joint State-USAID Partner Vetting 
System (PVS) pilot to become fully operational?
    Answer. State and USAID will jointly deploy the five-country 
vetting pilot. Both organizations needed to undertake a series of 
regulatory actions and system modifications to begin to vet in the 
pilot countries, and in accordance with the fiscal year 2012 
Appropriations Act language, intend to deploy the pilot prior to 
September 30, 2012.
    Question. Would you support expanding PVS globally?
    Answer. The countries selected for the pilot represent a range of 
risks, and are located where both State and USAID have comparable 
programs. The pilot program is intended to generate information so that 
State and USAID can ``test'' certain assumptions related to the use of 
vetting and risk assessment tools as a means to prevent funding and 
support of terrorist organizations. State and USAID will collect and 
analyze information during the pilot to determine the costs and 
benefits of this type of vetting. This evaluation will include 
analyzing whether vetting is successful in preventing the funding and 
support of terrorist organizations; what the level of risk is for such 
funding without vetting; and what impact vetting has on the efficient 
and effective implementation of United States foreign assistance 
programs. At the conclusion of the pilot program, State and USAID will 
determine whether it is appropriate to implement a partner vetting 
system more broadly, and/or make changes to the risk-based model it 
employs.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
                                 egypt
    Question. What impact would cutting all United States foreign aid 
to Egypt have on our relationship? Do we know if United States aid is a 
condition for Egypt's continued adherence to the Camp David Accords?
    Answer. Cutting all United States foreign aid to Egypt would 
severely hamper our ability to protect vital national security 
interests in the region and support a successful transition to 
democracy in Egypt. As we begin a new chapter in our relationship with 
an elected Egyptian Government, our assistance demonstrates continued 
commitment to the United States-Egypt strategic partnership that has 
been a linchpin of regional peace and security for more than 30 years. 
In this vein, our Foreign Military Financing (FMF) supports our 
critical partnership with Egypt on regional security, counterterrorism, 
and efforts to stop arms smuggling. FMF also allows Egypt's military to 
maintain its readiness and interoperability with United States forces, 
which is essential for effective cooperation on regional threats.
    Since 1975, our economic assistance has made a transformative 
impact on the lives of Egyptians by supporting advances in a wide range 
of fields, including education, healthcare, agriculture, 
entrepreneurship, and governance. Our Economic Support Funds also play 
an important role in promoting economic growth and fiscal stability in 
Egypt, which in turn helps ensure that Egypt can establish stable 
democratic institutions. Ending economic assistance to Egypt would cast 
doubt on our support for this transition and damage our relationship 
with the Egyptian people.
    Although much of our bilateral assistance has been provided since 
the Treaty of Peace between Egypt and Israel, the United States is not 
a party to the treaty and is not obligated to provide continued 
assistance to Egypt. Our security and economic assistance is designed 
to promote stability, democracy, and economic prosperity--interests the 
United States shares with Egypt.
    Question. Now that United States nongovernmental organizations 
(NGO) are no longer operating in Egypt, what kinds of channels does the 
United States have to positively impact Egypt's democratic transition?
    Answer. Despite the Egyptian Government's investigation into 
foreign funding of NGOs, NGOs continue to operate in Egypt in a variety 
of roles supported by donors from around the world, including the 
United States. Many Egyptian NGOs continue to perform work that 
promotes human rights and holds the Egyptian Government accountable; 
for example, throughout Egypt's parliamentary elections, dozens of 
Egyptian NGOs organized networks of election ``witnesses'' who were 
deployed to make sure the vote was fair and transparent.
    However, we remain deeply concerned that the Egyptian Government 
continues to pursue criminal charges against the staff of National 
Democratic Institute, International Republican Institute, Freedom 
House, the International Center for Journalists, and the Konrad 
Adenauer Foundation; Egypt's laws on associations and their 
implementation appear contrary to Egypt's international obligations and 
commitments regarding human rights and fundamental freedoms. We will 
continue to register these concerns and defend publicly and privately 
the critical role civil society plays in any successful democracy.
    We will also continue to employ all the tools at our disposal to 
support Egypt's democratic transition. Our diplomacy, public messaging, 
and assistance are all designed to support the aspirations of the 
Egyptian people for a democratic future and promote respect for human 
rights, and we will seek to support the voices of those Egyptians who 
are pressing for positive change. The Supreme Council of the Armed 
Forces has pledged to hand over power to an elected president by July 
1, and we expect a democratically elected civilian to take power on 
that date.
    In anticipation of this new government, we have also begun engaging 
extensively with Egypt's newly elected parliamentarians, presidential 
candidates, and other rising political leaders. In all of these 
conversations, we have emphasized the importance of respecting 
democratic institutions and the universal human rights of all Egyptian 
citizens, including freedoms of expression, association, and religion.
    Question. Given the increasingly chaotic situation on the Sinai 
Peninsula, it appears the Egyptian Government is incapable for the 
moment of guaranteeing the stability of that region. What kinds of 
things can the United States be doing to positively impact the Sinai 
area, and can that be accomplished with directed security assistance?
    Answer. Improving security in the Sinai is a complex issue that 
calls for engagement on many fronts. We are encouraged by the fact that 
the Egyptian Government has undertaken counterterrorism operations in 
the area and announced the formation of a Sinai Development Authority 
to address security challenges. However, more can be done to encourage 
and support development for residents of the Sinai, which is the root 
cause of crime and unrest. We will continue to engage with the Egyptian 
Government at the highest levels on this issue to convey the importance 
of restoring security to the Sinai. In addition, we look forward to 
working with Egypt's next elected government on solutions to this 
important issue.
                                  iran
    Question. Is containment of Iran's future nuclear threat a real 
option for U.S. national security? If not, is there any real option 
outside of prevention?
    Answer. The administration has been unequivocal about its policy 
toward Iran: A nuclear-armed Iran would be counter to the national 
security interests of the United States, and we are determined to 
prevent Iran from acquiring a nuclear weapon. This is a top national 
security priority for the Obama administration, and our dual-track 
strategy of pressure and engagement is aimed at preventing such a 
destabilizing development. As we have said, however, no options are off 
the table.
    Question. During this hearing last year, we discussed the option of 
using funds from the Middle East Partnership Initiative (MEPI) to 
assist groups looking to make Iran a more pluralistic society. Has the 
State Department begun using MEPI funds for this purpose?
    Answer. The State Department is not using MEPI funding to support 
Iran projects.
    However, since 2004, the State Department has used a different 
appropriation to help Iranian civil society make its voice heard in 
calling for greater freedoms, accountability, transparency, and rule of 
law from its government.
    Additional information about Iran programming is available to you 
and your staff in a classified briefing.
    Question. What kinds of diplomatic initiatives is the 
administration taking with regard to some of our more reluctant 
international partners on sanctions? Russia, China, India?
    Answer. The administration has held very candid conversations about 
implementing sanctions with a number of countries, including China, 
India, and Russia. As I have testified, countries in a number of cases, 
both in government and business, are taking actions that go further and 
deeper than their public statements might indicate.
    In the cases of China, India and Russia, all three share our goal 
of preventing Iran from acquiring a nuclear weapon and we have worked 
with each on this objective, both bilaterally and in multilateral fora.
                                pakistan
    Question. What overall direction is the United States relationship 
with Pakistan heading right now? How does ongoing United States foreign 
assistance contribute to that trend?
    Answer. Despite challenges in the bilateral relationship, the 
United States and Pakistan recognize that it is in both of our 
strategic interests to continue a meaningful engagement. At this time, 
Pakistan's Parliamentary Committee on National Security is conducting a 
review of the bilateral relationship. The completion of the 
Parliamentary Review will offer an important opportunity to refocus our 
engagement to ensure that it is enduring, strategic and defined more 
clearly. The United States respects Pakistan's sovereignty and desires 
to achieve a more balanced relationship, in part through this Review.
    Both Pakistan and the United States share an interest in ensuring a 
stable, tolerant, democratic and prosperous Pakistan. Our civilian 
assistance programs, focused primarily on five priority sectors of 
energy, economic growth (including agriculture), stabilization of the 
tribal border areas, education, and health, with a cross-cutting focus 
on helping Pakistan strengthen civilian governance, help support that 
objective. As such, civilian assistance has continued uninterrupted 
throughout recent challenges in the relationship. By working with the 
Pakistani Government and non-governmental institutions to strengthen 
the country's economy, governance, and capacity to deliver public 
services, we make Pakistan a stronger partner for bilateral 
cooperation. In the long-term, we seek to support Pakistan's economy 
with an emphasis on trade over aid.
    Counterterrorism and counterinsurgency remain primary United States 
national security interests in Pakistan. Our security assistance 
programs continue to focus on strengthening Pakistan's capabilities in 
counterterrorism and counterinsurgency, and on promoting closer 
security ties with the United States. Since May 2011, the 
administration has slowed some of our security and military assistance, 
reflecting the reality that some of these programs are tied to the 
level of cooperation in our overall relationship. We continue to 
calibrate and review the delivery of security assistance to ensure that 
it is in line with our shared objectives and based upon Pakistan's 
cooperation. We are looking at ways to adjust our programs to ensure 
they continue to meet our national security objectives.
                                 russia
    Question. The U.S. Congress may face a critical decision this year 
as it considers the idea of allowing Russia Permanent Normal Trade 
Relations to comply with commitments under the World Trade Organization 
(WTO). Because the United States already consented to Russia's joining 
the WTO before the Congress could act, this decision is now just about 
whether or not United States companies can take advantage of WTO rules 
in Russia. Why did the United States consent to allow Russia to join 
the WTO before the Congress could properly consider this important 
issue, especially during a time when so many of Russia's other actions 
are challenging to basic tenets of U.S. policy?
    Answer. Today, the United States has few effective tools to resolve 
issues with Russia when United States exporters of goods and services 
are adversely affected by actions of the Russian Government. When 
Russia is a member of the WTO, Russia will be subject to the same rules 
that other WTO members must comply with, as well as additional 
commitments that we negotiated over nearly two decades to address 
United States trade concerns. WTO members, including the United States 
if Permanent Normal Trade Relations are extended to Russia, will have 
recourse to WTO dispute settlement procedures to address any 
noncompliance on Russia's part. The United States made no new 
commitments or concessions to Russia to achieve this situation.
    During the negotiations, State, United States Trade Representative 
(USTR), and other agencies consulted closely with several congressional 
committees on the terms and timing for Russia's accession to the WTO. 
Before joining the consensus among WTO members to invite Russia to join 
the WTO, we discussed the terms for accession and the need to invoke 
the provisions of the WTO agreement that prevent application of the 
Agreement between the United States and Russia until we withdraw our 
invocation of that provision. One of the strengths of the WTO is that 
members have taken a pragmatic approach and avoided taking actions for 
nontrade reasons.
    We are sensitive to the need for the Congress to consider all 
aspects of our relationship with Russia and are willing to discuss 
these issues with you and your colleagues as we work together on steps 
that will allow us to reap the benefits of an improved trade 
relationship with Russia and find ways to persuade Russia to change 
other actions and policies.
    Question. After the largest default in history 11 years ago, 
Argentina effectively turned its back on more than $81 billion in 
international bonds. Many of these bonds were issued under U.S. law. 
More than 100 United States court judgments have ordered Argentina to 
fulfill its debt obligations to United States creditors, but Argentina 
has not complied. Is the State Department taking any steps to protect 
the interests of these U.S. creditors?
    Answer. On the margins of the Cannes G-20 Summit in November, 
President Obama discussed with President Fernandez de Kirchner the need 
for Argentina to normalize its relationship with the international 
financial and investment community, and he urged Argentina to take 
concrete actions with respect to repayment of outstanding arrears and 
complying with final and binding arbitral awards. Senior State 
Department officials and others in the administration have followed up 
with Argentine officials to reinforce the President's message.
    We believe it is in the mutual interest of Argentina and the United 
States, that Argentina resolves its longstanding obligations to 
creditors and arbitral award holders. Failing this, Argentina's access 
to United States financial markets remains sharply curtailed.
    By meeting its obligations to creditors and investors, Argentina 
would send a strong signal that it welcomes and encourages foreign and 
domestic investment that is crucial for the sustained economic growth. 
Argentina's arrears to United States Government agencies total about 
$550 million, and U.S. Government effort, including the Paris Club of 
official creditor nations, is appropriately focused on recovering full 
payment on these loans extended on behalf of American taxpayers. We 
also continue to use every opportunity to urge Argentina to resolve the 
claims of private American bondholders and investors
    In meeting its obligations to creditors and investors, Argentina 
will send a strong signal that it welcomes and encourages foreign and 
domestic investment that is crucial for the sustained economic growth.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
    Question. The Senate Appropriations Committee's report to accompany 
the fiscal year 2012 State, Foreign Operations, and Related Programs 
bill noted the historic flooding which occurred along the Souris River 
in 2011. The Committee recommended ``that the Department of State 
request that the International Joint Commission, through the 
International Souris River Board, review ``Annex A'' of the 1989 
bilateral agreement for Water Supply and Flood Control in the Souris 
River Basin and identify revisions to improve bilateral flood control 
efforts.'' Please provide an update about the State Department's 
efforts to start a process of revising ``Annex A.''
    Answer. At the International Joint Commission's (IJC) International 
Souris River Board's last meeting on February 22, 2012, the Board 
approved establishing a Task Team to lead the review of Annex A of the 
1989 agreement. The Board currently is developing a Terms of Reference 
for the Task Team. Once it is constituted, the Task Team will develop a 
proposal to the IJC's International Watersheds Initiative to support 
the review of the annex.
    Question. What is the administration's message to the pro-democracy 
movement in Iran as we apply sanctions to the regime?
    Answer. As we've moved to levy more extensive sanctions against 
Iran, we have made clear to the Iranian people that these steps emanate 
from our deepening frustration with the choices made by the Iranian 
regime. Our message to the Iranian people and the pro-democracy 
movement is that the regime should be held accountable for the 
suffering it has brought upon the country through the choice it has 
made at the expense of the Iranian people. The President has continued 
to reiterate that Iran faces a choice (most recently in the State of 
the Union Address):

    ``Let there be no doubt: America is determined to prevent Iran from 
getting a nuclear weapon, and I will take no options off the table to 
achieve that goal. But a peaceful resolution of this issue is still 
possible, and far better, and if Iran changes course and meets its 
obligations, it can rejoin the community of nations.''

    I have also expressed support for the Iranian people, noting our 
efforts to counter the Iranian regime's efforts to place an electronic 
curtain around the Iranian people. As a part of a promise to the 
Iranian people that we will counter the regime's electronic curtain, 
the Department of State continues to work with the Department of the 
Treasury to publicize clarifying guidance regarding the exportation to 
Iran of software and services that will empower ordinary Iranians to 
communicate with others outside Iran.
    We will also continue to speak out against Iranian human rights 
abuses and work through multilateral for a to ensure that Iranian 
voices are heard.
    As we continue to amplify this message, we hope that more and more 
Iranians will understand that the United States seeks deeper 
connections with the Iranian people that create new possibilities for 
mutual understanding.
    Question. What does the fiscal year 2013 budget request do to 
support the advancement of democracy, human rights, and the rule of law 
in Iran?
    Answer. Since 2004, the State Department and USAID have prioritized 
the advancement of democracy, human rights, and the rule of law in Iran 
by supporting projects to help Iranian civil society amplify its voice 
in calling for greater freedoms, accountability, transparency, and rule 
of law from its government.
    Our fiscal year 2013 budget request seeks to continue supporting 
similar initiatives that promote access to new media, encourage freedom 
of expression, strengthen civil society capacity and advocacy, and 
increase awareness of and respect for human rights, the rule of law, 
good governance and political competition.
    Additional information about Iran programming is available to you 
and your staff in a classified briefing.

                          SUBCOMMITTEE RECESS

    Senator Leahy. And we are just about on time.
    Thank you, Madam Secretary.
    Secretary Clinton. Thank you very much, Mr. Chairman.
    [Whereupon, at 12:02 p.m., Wednesday, February 28, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2013

                              ----------                              


                       WEDNESDAY, MARCH 14, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:08 a.m., in room SD-226, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy and Graham.

           UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

STATEMENT OF RAJIV SHAH, M.D., ADMINISTRATOR

             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Good morning Dr. Shah and thank you for 
being here. We will be discussing the U.S. Agency for 
International Development's (USAID) budget.
    It has been a little more than 2 years since you became 
USAID Administrator, and I know you had to start addressing the 
serious cultural and programmatic problems you inherited that 
have plagued USAID for years. You have plenty to be proud of. 
USAID's programs have helped to improve agricultural 
productivity, rather than countries having to import food. 
USAID has increased the enrollment of girls in schools, which 
is extremely important. USAID has also saved countless lives 
from malaria and other diseases.
    We also understand that in any bureaucracy as large as 
USAID change doesn't come easily, and so while you have made 
progress there is a long way to go.
    We included several provisions in the Department of State, 
Foreign Operations, and Related Programs bill last year to 
support USAID's procurement reform.
    We have asked USAID for recommendations of other ways the 
Congress could amend the Federal acquisition regulations. I 
have said to you privately and publicly that I am concerned 
that a few large U.S. contractors and nongovernmental 
organizations (NGOs) obtain the majority of USAID funding.
    Eight years ago, the Congress created the Development 
Grants Program, a small fund to support innovative proposals 
including small, mostly local NGOs. But I see what happens so 
often, USAID has taken a good idea and either failed to 
implement it or redesigned it in such a way that it thwarts our 
intent.
    I think you have to fundamentally reform the way USAID does 
business. If the changes we have asked for simply end up 
shifting a whole lot of money to big contractors in developing 
countries, that is not the reform we seek.
    A related concern is sustainability of USAID's programs. 
The World Bank recently analyzed the sustainability of 
nonsecurity assistance in Afghanistan. They estimated that by 
2014 between $1.3 billion and $1.8 billion will be needed just 
to maintain and operate the programs that are currently 
underway.
    The majority of our assistance programs are funded by 
USAID. There is just no way at all that an impoverished, 
corrupt government--and the Karzai government is corrupt--can 
come up with that kind of money, even if it wanted to. This 
concern is not limited to Afghanistan. Sustainable development 
became a popular slogan a decade or so ago, but we need more 
than slogans.
    I think a lot of what USAID does is well-intentioned, but 
not sustainable. We hear of programs that are not pursued 
because program officers are afraid to try something new and 
may fail, and I understand that. But if USAID is unwilling to 
try new things, we simply end up continuing to fund projects 
that produce mediocre results.
    Your budget requests include disproportionate amounts for 
Afghanistan and Iraq. That is wishful thinking.
    Billions of people today live in conditions that would be 
condemned if they were animals living in the United States. Yet 
these are human beings. Corrupt leaders plunder their 
countries' natural resources as though they were their personal 
bank accounts while their people scavenge for food.
    We are racing toward 9 billion people in the world. The 
demand for food, water, land, and electricity outstrips supply. 
We see what may be coming, and these are all things that you 
know as well as I, and you see them every day.

                           PREPARED STATEMENT

    We want to hear from you, but first, of course, from 
Senator Graham, who I should point out has followed the 
tradition of this subcommittee where both the chairman and 
ranking member have worked very closely together, just as 
Senator Gregg and I did and Senator McConnell and I did when 
each one of us was either chairman or ranking member.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Welcome Dr. Shah and thank you for being here. This morning we will 
discuss the United States Agency for International Development's 
(USAID) budget request for fiscal year 2013.
    It has been a little more than 2 years since you became USAID 
Administrator and began to address the serious cultural, management, 
and programmatic problems you inherited that have plagued USAID for 
years.
    We appreciate your efforts. You are taking steps to improve 
efficiency and reduce costs, which are reflected in your budget 
request. USAID also has plenty to be proud of thanks to investments 
that have improved agricultural productivity, increased the enrollment 
of girls in school, and saved countless lives from malaria and other 
diseases--to name just a few examples.
    We also recognize that, as much as we wish it were otherwise, as 
with any large government bureaucracy, change does not come easily at 
USAID. In fact, I would say that after 2 years and lots of hard work, 
you are at first base.
    Last year we included several provisions to support USAID's 
procurement reform. We have also asked for recommendations of other 
ways the Congress could amend the Federal acquisition regulations, if 
they impose onerous or unnecessary requirements on USAID.
    I have long voiced my concerns with the way a few large U.S. 
contractors and nongovernmental organizations (NGOs) obtain the vast 
majority of USAID funding. Years ago I created the Development Grants 
Program, a small fund to support innovative proposals of small, mostly 
local NGOs. But USAID has done what it does too often--take a good idea 
and either fail to implement it or redesign it in such a way as to 
thwart the original intent.
    I hope you can tell us what you expect from the changes to USAID's 
procurement process, because they need to fundamentally reform the way 
USAID does business. If these changes just end up shifting resources to 
big contractors in developing countries that is not the reform we seek.
    Another concern is the sustainability of USAID projects. The World 
Bank recently analyzed the sustainability of nonsecurity aid in 
Afghanistan and estimated that by 2014 between $1.3 and $1.8 billion 
will be needed just to maintain and operate the programs that are 
currently underway. The majority of those programs are funded by USAID.
    There is no way that impoverished, corrupt government can come up 
with that kind of money even assuming it wanted to.
    This concern is not limited to Afghanistan. ``Sustainable 
development'' became a popular slogan a decade or so ago, but slogans 
don't get you very far. USAID does a lot of good, but I worry that too 
much of what USAID does, while well-intentioned, is not sustainable.
    We also hear of innovative projects that USAID has not pursued 
because program officers are afraid to try something new and fail. I 
understand that, but we need to balance accountability of taxpayer 
dollars with a willingness to try promising new approaches to 
development. It may make less fiscal sense to continue funding projects 
that produce mediocre results, than it does to fund new ideas even if 
it means taking some risk.
    Your fiscal year 2013 budget request for USAID operating expenses 
and programs totals slightly less than what was enacted for fiscal year 
2012, including disproportionate amounts for Afghanistan and Iraq 
which, in my view, are more a reflection of wishful thinking than what 
can be effectively used.
    Today, we face similar fiscal challenges as we did last year. To 
those who think this budget is some kind of luxury or charity we can't 
afford, I would say take a look at the world around us.
    Despite progress in many countries, billions of people live in 
conditions that would be condemned if they were animals living here, 
while corrupt leaders plunder the country's natural resources as if it 
were their personal bank account. As the Earth's population races 
toward 9 billion and the demand for food, water, land, and electricity 
outstrips supply, it does not take a rocket scientist to foresee what 
the future may hold.
    We ignore these forces at our peril, and while USAID cannot 
possibly solve these problems alone we need to get the most for our 
money. I want us to work together to bring about the kind of 
transformative changes at USAID that this country, and the world, 
needs.

    Senator Leahy. Senator Graham.

                  STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Thank you, Mr. Chairman.
    That is very true. I have enjoyed working with you and your 
staff. And you know, being the ranking Republican, talking 
about foreign assistance is not popular, in general, but I 
think very necessary. And I just want to say I think you have 
done a great job.
    I think USAID is changing for the better, that you have 
thought outside the box, that your cooperation with the 
military in Afghanistan evolved over time to where USAID 
actually coordinates with it. Our civilian-military partnership 
in Afghanistan is as good as I have seen it. We are making sure 
that the dollars we spend on the USAID side fits into the 
strategy to withdraw and transition.
    In Iraq, I share Senator Leahy's concerns. I just--I am not 
so sure that the security footprint in Iraq can be maintained 
by a civilian contractor force, and I am very worried about the 
ability to get the dollars out the door into the hands of 
people and transform the country because of lack of security. 
And I couldn't agree with Senator Leahy more. We are going to 
have to redesign our footprint in Iraq.
    But as far as Africa is concerned, I really enjoyed my 
visit over there a month or so ago. I met your people on the 
frontlines. Between President Clinton and President George W. 
Bush, we have done a very good job.
    And I know Senator Leahy has been supportive of trying to 
get dollars from the American taxpayer to do three things--
create a counterweight to China. China is all over the 
continent of Africa, and their desire to help the people, I 
think, is secondary to their desire to own the resources that 
the people have.
    I do worry about safe havens for al Qaeda and other 
terrorist organizations developing in Africa. And the third 
thing is that make sure that our money is being spent to create 
economic growth in the future for American companies. We have a 
lot of efforts going on in Africa to deal with AIDS and malaria 
and other diseases where we have a transition plan.
    I want people to understand that the foreign aid budget is 
about 1 percent of the total budget and that under 
Administrator Shah's guidance and Secretary Clinton, we are 
trying to find ways to transition. It is not an endless, 
perpetual amount of money being spent to combat AIDS and 
malaria. We are creating systems that can be sustained in 
Africa by local governments, by the national governments.
    I applaud your efforts to come up with a transition plan. 
Some places would be quicker than others, but there is a desire 
to build people up so they can help themselves.
    On food security and agriculture development, I really 
applaud your efforts to try to get the Europeans to be more 
reasonable when it comes to the use of hybrid seeds and other 
farming techniques that will allow Africa to double or triple 
their food production, just by using modern farming practices. 
Your association with ONE, the Gates Foundation, and faith-
based organizations are the way to go.
    There is a lot of goodwill from the American people, apart 
from their Government. There are a lot of churches involved in 
Africa, a lot of private foundations all over the continent 
that are delivering quality services, and I want to make sure 
that we partner with the private sector in an appropriate way.
    As far as Afghanistan, sustainability is a question, but I 
think General Allen has a good military plan to withdraw. And 
post-2014, I do believe it is in our national security 
interest. The foreign assistance account is a tool to be used 
to protect America.
    There are many ways to protect this country. Sometimes it 
is military force, but it doesn't have to be that way all the 
time. Sometimes it is just helping the population with 
devastating problems like AIDS and malaria, building up a 
relationship with younger people which is going to take more 
than 1 day.
    And the chairman is right. The Karzai government is very 
difficult to deal with. Corruption is rampant. But having been 
there about a dozen times, I can tell you there is a new 
generation coming through the system that will have a different 
attitude about Afghanistan. This is going to take a while.
    People from age 25 to 45 have been mentored by our 
military, by our civilians, and there are better days ahead in 
Afghanistan. We are just going to have to push through and get 
a new generation of leadership, and it does matter what happens 
in Afghanistan.
    I worry tremendously about Pakistan. Pakistan, to me, is 
the place most likely to fall if we don't get it right in 
Afghanistan, and I look forward to hearing from Administrator 
Shah about what we can do in Pakistan with a deteriorating 
relationship.
    When it comes to Egypt, I want to be involved and be 
helpful, but the Egyptian parliament has made some statements 
that I would say at best are unnerving. And they have got to 
decide what they want to be. If you want to be a country that 
tears up the treaty with Israel and brings disdain upon the 
Israeli people and basically go back into the darkness in terms 
of the way women live and minorities in Egypt, that will be a 
choice you will make, and the price will be heavy for the 
future of the Egyptian people.
    You can have Islamic conservative governments. That is 
totally understandable to me. But those governments have to 
reach out not only to their neighbors, but the world at large 
and so that win foreign partnerships.
    So I think you have done a very good job. We can always do 
better, but I look forward to hearing from you about what we 
can do to help you and all those in your care and guidance.
    So, thank you and to those people who are out front in Iraq 
and Afghanistan and other places, I know you are accepting 
personal danger, but you are doing a good job for the country.
    Senator Graham. Thank you.
    Senator Leahy. Please go ahead, Dr. Shah.

                 SUMMARY STATEMENT OF RAJIV SHAH, M.D.

    Dr. Shah. Thank you, Chairman Leahy, Ranking Member Graham, 
members of the subcommittee.
    I am honored to join you to discuss the President's fiscal 
year 2013 budget request for USAID. I would like to start by 
thanking Senator Kirk and wishing him a continued speedy 
recovery. He has been someone who has spent time with me and 
has significantly supported our efforts and our agenda and our 
reforms.
    Chairman Leahy, Ranking Member Graham, on behalf of our 
agency, I really do want to thank you for the tremendous 
support and guidance you have offered to our agency and our 
efforts.
    Senator Leahy, you have, as you continue to do today, 
challenged us to reform the way we do business, to expand the 
way we think about development, to be open to new partners, 
innovations, and new ways of solving traditional development 
problems. We have tried to heed that call and, I believe, have 
made real progress, and we will continue to stay very focused 
on that agenda.
    Senator Graham, you have challenged us to work more 
effectively with our military partners, with the private 
sector, with the American public, including faith-based 
organizations. I think in all of those areas, we have taken and 
made real strides and will continue to stay committed to that 
path of engagement and cooperation.
    Two years ago, President Obama and Secretary Clinton called 
for elevating development as part of America's national 
security strategy and foreign policy approach. This required us 
to be more effective and responsive in a broad range of 
priorities.
    Frontline states, such as Afghanistan, Pakistan, and Iraq; 
quickly reacting to the political transitions in the Arab 
Spring; expanding our engagements in a concerted and forceful 
way with the private sector in order to enable them to be a 
counterweight to the way China and others engage in places like 
Africa; and to focus on delivering core results in our basic 
areas of business.
    Avoiding food insecurity and hunger; helping to improve 
health, in particular helping children survive; expanding 
access to water and sanitation and education to kids who are 
vulnerable; and responding to humanitarian and complex crises. 
And all the while staying focused on gender issues and on 
expanding the access to basic democratic governance and human 
rights.
    The President's fiscal year 2013 budget request enables us 
to implement an ambitious set of reforms we call USAID Forward. 
We have prioritized and focused and concentrated in many 
different parts of our overall portfolio.
    In global health, we have reduced the number of places 
where we will work on maternal health from 64 to something 
closer to 40 and concentrated resources in the 24 countries 
where we think we can get the most lives saved for the dollars 
we invest.
    In ``Feed the Future'', our signature food security effort, 
we have closed programs in Kosovo, Serbia, and Ukraine so we 
can reinvest resources in places like Tanzania, where we are 
seeing improved new seed varieties rapidly increase food 
production and a pathway to end child hunger and malnutrition.
    With guidance from the Quadrennial Diplomacy and 
Development Review and Presidential Policy Directive on Global 
Development (PPD), our budget prioritizes this set of basic 
reforms. We have taken the call to be more innovative in our 
programs. We have launched grand challenges in development that 
have helped us reach thousands of new partners and seek 
innovative new proposals to lower the cost of saving lives at 
birth or come up with new ways to use technology to ensure that 
all children have the opportunity to read and achieve basic 
literacy outcomes.
    In those two grant programs alone, we have literally 
reached more than 1,100 new partners who have sent in proposals 
and who we can now work with and engage with. We have launched 
the Development Innovation Ventures Fund, a portfolio of 
innovative investments, more than one-half of which use clear, 
randomized control methodologies, which is the gold standard to 
evaluate outcomes so we can study and learn from small and 
focused investments.
    We have put in place a new evaluation approach that has 
been recognized by the American Evaluation Association as the 
gold standard across the Federal Government, and they have, in 
fact, encouraged other agencies to adopt some of the principles 
and operational approaches we have put into practice.
    But most important, we are trying aggressively to change 
the way we partner, to partner more directly and in a more 
collaborative way with institutions of faith that do incredible 
work around the world, to focus on exactly what Senator Leahy 
mentioned, reforming how we do procurement to work with local 
institutions, including setting specific targets across our 
more than 80 missions to ensure that we move resources to the 
most efficient opportunities we have.
    This work, taken together, allows us to concentrate on some 
of our specific priorities, and I would like to spend a moment 
to just articulate what they are.
    First, we continue to maintain a priority for the frontline 
states and to expand our work in the Arab Spring. I look 
forward to being able to discuss some of the efforts we are 
making in those areas, but they are, I believe, responsive to 
the guidance and dialogue we have had over the past 2 years in 
that respect.
    Second, we are focused on global health. At $7.9 billion, 
this is the single largest item in the foreign assistance 
budget. This budget, we believe, will allow us to make and live 
up to the President and Secretary's extraordinary commitments 
in this space: to expand the PEPFAR program to treat 6 million 
patients, thanks to a significant reduction in the cost of 
treatment; to expand our efforts to save children's lives by 
pulling together the incredibly effective President's Malaria 
Initiative with a number of other programs designed to improve 
nutrition and child survival, especially in the first 48 to 72 
hours of life; and by focusing on seeking efficiencies in our 
maternal health programs so we could expand services while 
lowering costs.
    Next, our priority is food security. This budget includes 
significant resources for the President's ``Feed the Future'' 
program. We continue to believe that food security is a 
national security priority, and we believe we saw that come 
together just these past 6 months in the Horn of Africa, where 
the worst drought in more than six decades affected more than 
13 million people.
    USAID led a significant humanitarian response across 
international partners, feeding more than 4.6 million 
individuals and saving countless lives in the process. But we 
know that it is more efficient and more effective to help 
countries transition from food aid to being able to grow their 
own food, have their own modern food systems and agricultural 
systems, and achieve self-sufficiency.
    In the 20 Feed the Future priority countries, we have seen 
agricultural productivity go up at more than 8 times the rate 
that we see it in the rest of the world, with a 5.6-percent 
improvement in agricultural food production on an annual basis 
in those 20 countries.
    We believe those kinds of results will help move hundreds 
of millions of kids out of poverty and hunger over time if we 
stay focused, we partner with the private sector, we use new, 
effective, and proven technologies, and we bring our capacity 
to measure results and ensure that progress is being made 
especially for women, who continue to provide most of the labor 
in these farm economies.
    Finally, I would like to conclude with a thank you to our 
staff. Our teams work incredibly hard and take extraordinary 
risks. Those risks have been quite visible in recent weeks in 
Afghanistan, as our staff and our partners, many of whom work 
directly with counterparts in the Afghan Government and with 
civil society organizations, have had to take on new 
precautions to protect themselves.
    But we also have colleagues taking risks in all parts of 
the world. And just this morning, I got an email from one of 
our Foreign Service nationals who works in Zimbabwe to support 
democracy and civil society organizations in that difficult 
environment.
    He takes tremendous personal risks every day in order to 
just come to work, but he sent a note that said that he does 
this because he genuinely believes that the efforts we make are 
helping to make the world fairer and more just for his children 
and all of our children.

                           PREPARED STATEMENT

    And it is really that spirit that motivates our staff, that 
motivates our teams, and that has led to a tremendous amount of 
commitment to this set of reforms that we have discussed and to 
these priorities. And I look forward to taking your questions.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Rajiv Shah, M.D.
    Thank you Chairman Leahy, Ranking Member Graham, and members of the 
subcommittee. I am honored to join you to discuss the President's 
fiscal year 2013 budget request for the United States Agency for 
International Development (USAID).
    Two years ago, President Obama and Secretary Clinton called for 
elevating development as a key part of America's national security and 
foreign policy. Through both the Presidential Policy Directive on 
Global Development and the Quadrennial Diplomacy and Development 
Review, they made the case that the work USAID's development experts do 
around the globe was just as vital to America's global engagement as 
that of our military and diplomats.
    The President's fiscal year 2013 budget request enables USAID to 
meet the development challenges of our time. It allows us to respond to 
the dramatic political transformations in the Middle East and North 
Africa. It helps us focus on our national security priorities in 
frontline states like Afghanistan, Iraq, and Pakistan. And it 
strengthens economic prosperity, both at home and abroad.
    This budget also allows us to transform the way we do development. 
It helps countries feed, treat, and educate their people while 
strengthening their capacity to own those responsibilities for 
themselves. It helps our development partners increase stability and 
counter violent extremism. It supports those who struggle for self-
determination and democracy and empowers women and girls. And it helps 
channel development assistance in new directions--toward private sector 
engagement, scientific research and innovative technologies.
    I want to highlight how the investments we make in foreign 
assistance help our country respond to our current challenges, while 
delivering results that shape a safer and more prosperous future.
 efficiency, trade offs, and u.s. agency for international development 
                                forward
    While foreign assistance represents less than 1 percent of our 
budget, we are committed to improving our efficiency and maximizing the 
value of every dollar. American households around the country are 
tightening their belts and making difficult tradeoffs. So must we.
    Even as we face new challenges around the world, our budget 
represents a slight reduction from fiscal year 2012.
    We've prioritized, focused, and concentrated our investments across 
every portfolio. In global health, we propose to close out programs in 
Peru and Mexico as those countries take greater responsibility for the 
care of their own people.
    We've eliminated Feed the Future programs in Kosovo, Serbia, and 
Ukraine and reduced support to Europe, Eurasia, and Central Asia by 
$113 million to reflect shifting global priorities and progress over 
time by some countries toward market-based democracy.
    And we're keeping our staffing and overall administrative costs at 
current levels, even in the midst of a major reform effort. It is 
through that effort that I spoke about last year--USAID Forward--that 
we've been able to deliver more effective and efficient results with 
our current staffing profile and operating budget.
    Our budget prioritizes our USAID Forward suite of reforms.
    That funding allows us to invest in innovative scientific research 
and new technologies. Last year, our support of the AIDS vaccine 
research through President's Emergency Plan for AIDS Relief (PEPFAR) 
led to the isolation of 17 novel antibodies that may hold the key to 
fighting the pandemic. And we're working with local scientists at the 
Kenyan Agricultural Research Institutes to develop new drought-
resistant seed varieties of sorghum, millet and beans, as well as a 
vitamin-A rich, orange-fleshed sweet potato.
    It helps us conduct evaluations so we know which of our development 
efforts are effective and which we need to scale back. The American 
Evaluation Association recently cited our evaluation policy as a model 
other Federal agencies should follow.
    It allows us to partner more effectively with faith-based 
organizations and private companies. In fact, the Organization for 
Economic Co-operation and Development recognized USAID as the best 
amongst peers in driving private sector partnerships and investment.
    And through our procurement reform efforts, among the most far-
reaching and ambitious across the Federal Government, we are 
aggressively seeking new ways to work with host country partners 
instead of through more costly consultants and contractors. This effort 
will make our investments more sustainable and hasten our exit from 
countries, while cutting costs.
    For instance, in Afghanistan, we invested directly in the country's 
Ministry of Health instead of third parties. As a result, we were able 
to save more than $6 million.
    That investment also strengthened the Afghan health ministry, which 
has expanded access to basic health services from 9 percent of the 
country to 64 percent. Last year, we discovered the true power of those 
investments; Afghanistan has had the largest gains in life expectancy 
and largest drops in maternal and child mortality of any country over 
the last 10 years.
    In Senegal, we are working with the government--instead of foreign 
construction firms--to build middle schools at a cost of just $200,000 
each. That helps strengthen the government's ability to educate its 
people, but it is also significantly more cost effective than enlisting 
a contractor.
    When we do invest money in partner governments, we do so with great 
care. Our agency has worked incredibly hard to develop assessments that 
make sure the money we invest in foreign governments is not lost due to 
poor financial management or corruption.
    With your continued support of this effort, we can expand our 
investments in local systems while building the level of oversight, 
accountability, and transparency that working with a new and more 
diverse set of partners requires.
    The Working Capital Fund we've requested would give us a critical 
tool in that effort. The Fund would align USAID's acquisition and 
assistance to USAID's program funding levels through a fee-for-service 
model, so that our oversight and stewardship is in line with our 
program and funding responsibilities. The result will be improved 
procurement planning, more cost-effective awards, and better oversight 
of contracts and grants.
  supporting strategic priorities and strengthening national security
    We will continue to support the growth of democracies around the 
world, especially in the Middle East and North Africa where the 
transformative events of the Arab Spring are bringing down autocratic 
regimes and expanding freedom.
    State and USAID have requested $770 million for a new Middle East 
and North Africa Incentive Fund to respond to the historical changes 
taking place across the region. The Fund will incentivize long-term 
economic, political, and trade reforms--key pillars of stability--by 
supporting governments that demonstrate a commitment to undergo 
meaningful change and empower their people. State and USAID will 
continue to play a major role in helping the people of this region 
determine their own future.
    In Iraq, Afghanistan, and Pakistan USAID continues to work closely 
with interagency partners including the State and Defense departments, 
to move toward long-term stability, promote economic growth, and 
support democratic reforms. Civilians are now in the lead in Iraq, 
helping that country emerge as a stable, sovereign, democratic partner. 
Our economic assistance seeks to expand economic opportunity and 
improve the quality of life throughout the country, with a particular 
focus on health, education and private sector development. With time, 
Iraq's domestic revenue will continue to take the place of our 
assistance.
    In Afghanistan, we've done work to deliver results despite 
incredibly difficult circumstances. We established our Accountable 
Assistance for Afghanistan--or A3--initiative to reduce subcontracting 
layers, tighten financial controls, enhance project oversight, and 
improve partner vetting. And with consistent feedback from the Congress 
we are focusing on foundational investments in economic growth, 
reconciliation and reintegration and capacity building, as well as to 
support progress in governance, rule of law, counternarcotics, 
agriculture, health, and education. We continue to focus on the 
sustainability of these investments so they ultimately become fiscally 
viable within the Afghan Government's own budget.
    In Pakistan, our relationship is challenging and complex, but it is 
also critical. Our assistance continues to strengthen democratic 
institutions and foster stability during a difficult time. Crucial to 
those efforts is our work to provide electricity. Over the last 2 
years, we've added as many as 1,000 megawatts to Pakistan's grid, 
providing power to 7 million households. We've also trained more than 
70,000 businesswomen in finance and management and constructed 215 
kilometers of new road in South Waziristan, expanding critical access 
to markets.
                      the global health initiative
    Thanks in large part to the bipartisan support we've had for 
investments in global health, we're on track to provide life-saving 
assistance to more people than ever before. Although this year's budget 
request of $7.9 billion for the Global Health Initiative is lower than 
fiscal year 2012 levels, falling costs, increased investments by 
partner governments, and efficiencies we've generated by integrating 
efforts and strengthening health systems will empower us to reach even 
more people.
    That includes PEPFAR, which will provide life-saving drugs to those 
around the world afflicted with HIV and expand prevention efforts in 
those countries where the pandemic continues to grow. We can expand 
access to treatment and lift a death sentence for 6 million people in 
total without additional funds.
    We're also increasingly providing treatment for pregnant mothers 
with HIV/AIDS so we can ensure their children are born healthy. And 
because of breakthrough research released last year, we know that 
putting people on treatment actually helps prevention efforts--
treatment is prevention. All of these efforts are accelerating progress 
towards President Obama's call for an AIDS-free generation.
    Our budget request also includes $619 million for the President's 
Malaria Initiative, an effective way to fight child mortality. In 
country after country, we've shown that if we can increase the use of 
cheap bed nets and anti-malarial treatments, we can cut child death--
from any cause, not just malaria--by as much as 30 percent. In 
Ethiopia, the drop in child mortality has been 50 percent.
    Last year, we commissioned an external, independent evaluation of 
the Presidential Malaria Initiative's performance. That report praised 
the Initiative's effective leadership for providing ``excellent and 
creative program management''.
    And we will continue to fund critical efforts in maternal and child 
health, voluntary family planning, nutrition, tuberculosis and 
neglected tropical diseases--cost-effective interventions that mean the 
difference between life and death.
                            feed the future
    Last year, the worst drought in 60 years put more than 13.3 million 
people in the Horn of Africa at risk. Thanks to the humanitarian 
response led by the United States--and the investments we made in the 
past to build resilience against crises just like these--millions were 
spared from the worst effects of the drought.
    But as is well known, providing food aid in a time of crisis is 7 
to 10 times more costly than investing in better seeds, irrigation and 
fertilizers. If we can improve the productivity of poor farmers in 
partner countries, we can help them move beyond the need for food aid. 
And we can prevent the violence and insecurity that so often 
accompanies food shortages.
    That's why we are requesting $1 billion to continue funding for 
Feed the Future, President Obama's landmark food security initiative. 
These investments will help countries develop their own agricultural 
economies, helping them grow and trade their way out of hunger and 
poverty, rather than relying on food aid.
    The investments we're making are focused on country-owned 
strategies that can lift smallholder farmers--the majority of whom are 
women--out of poverty and into the productive economy. All told, the 
resources we're committing to Feed the Future will help millions of 
people break out of the ranks of the hungry and impoverished and 
improve the nutrition of millions of children.
    We're also leveraging our dollars at every opportunity, partnering 
with countries that are investing in their own agricultural potential 
and helping companies like Walmart, General Mills, and PepsiCo bring 
poor farmers into their supply chain.
    These investments are working.
    In Haiti--where we continue to make great strides thanks to strong 
congressional support--we piloted a program designed to increase rice 
yields in the areas surrounding Port-au-Prince. Even while using fewer 
seeds and less water and fertilizer, Haitian farmers saw their yields 
increase by almost 190 percent. The farmers also cut 10 days off their 
normal harvest and increased profit per acre. Today, that program is 
being expanded to reach farmers throughout the country.
    These results complement our work to cut cholera deaths to below 
the international standard. And we worked with the Gates Foundation to 
help nearly 800,000 Haitians gain access to banking services through 
their mobile phones.
    And in Kenya, Feed the Future has helped more than 90,000 dairy 
farmers--more than a one-third of whom are women--increase their total 
income by a combined $14 million last year. This effort is critical, 
since we know that sustainable agricultural development will only be 
possible when women and men enjoy the same access to credit, land and 
new technologies.
    Overall, since we began the initiative in 2008, our 20 target 
countries have increased their total agricultural production by an 
average of 5.8 percent. That's over eight times higher than the global 
average increase of 0.7 percent.
                          building resilience
    We all know that a changing climate will hit poor countries 
hardest. Our programs are aimed at building resilience among the 
poorest of those populations.
    By investing in adaptation efforts, we can help nations cope with 
these drastic changes. By investing in clean energy, we can help give 
countries new, efficient ways to expand and grow their economies. And 
by investing in sustainable landscapes, we can protect and grow 
rainforests and landscapes that sequester carbon and stop the spread of 
deserts and droughts.
    That work goes hand-in-hand with our efforts to expand access to 
clean water to people hit hard by drought. In 2010 alone, those efforts 
helped more than 1.35 million people get access to clean water and 2 
million people access to sanitation facilities. Increasingly, we're 
working with countries to build water infrastructure and with 
communities to build rain catchments and wells to sustainably provide 
clean water. We're currently in the process of finalizing a strategy 
for our water work designed to focus and concentrate the impact of our 
work in this crucial area.
                        strengthening education
    Last year, we made some critical decisions about how we strengthen 
global education. Since 1995, USAID's top recipients have increased 
primary school enrollment by 15 percent. But even as record numbers of 
children enter classrooms, we have seen their quality of learning 
sharply drop. In some countries, 80 percent of schoolchildren can't 
read a single word at the end of second grade. That's not education; 
it's daycare.
    The strategy we released last year will make sure that our 
assistance is focused on concrete, tangible outcomes like literacy. By 
2015, we will help improve the reading skills of 100 million children.
                               conclusion
    Thanks to these smart investments, every American can be proud that 
their tax dollars go toward fighting hunger and easing suffering from 
famine and drought, expanding freedom for the oppressed and giving 
children the chance to live and thrive no matter where they're born.
    But we shouldn't lose sight that these investments aren't just from 
the American people--as USAID's motto says--they're for the American 
people. By fighting hunger and disease, we fight the despair that can 
fuel violent extremism and conflict. By investing in growth and 
prosperity, we create stronger trade partners for our country's 
exports.
    And above all, by extending freedom, opportunity and dignity to 
people throughout the world, we express our core American values and 
demonstrate American leadership.
    Thank you.

    Senator Leahy. Thank you very much.
    I have met many of these dedicated people in places all 
around the world where often times they are working under very 
difficult circumstances.
    I noticed it was reported today that Thomas Lubanga, who is 
a rebel leader in Congo, had been captured, tried, and found 
guilty of outrageous crimes. Last week, 50 million people 
watched a YouTube video about Joseph Kony and the Lord's 
Resistance Army (LRA), who terrorized civilians in Central 
Africa for two decades.
    About 12 years ago, Tim Rieser from my staff went to Uganda 
to see what kind of aid we could bring to families whose lives 
were destroyed by Joseph Kony. You have been providing 
humanitarian aid to the victims, including the families and 
children who were abducted.
    USAID and State have expanded an early warning radio 
network for vulnerable communities. The Leahy War Victims Fund 
has been used to provide artificial limbs, wheelchairs, and so 
on. So we have been doing a lot for years, long before 
attention was brought to this, and I included up to $10 million 
for these programs in the last appropriations bill.
    I understand the administration supports expanding the 
State Department's Rewards for Justice program to cover war 
criminals like Joseph Kony. What do you plan to do with the 
2012 funds that we provided you?
    Dr. Shah. Well, thank you, Sir, for the question. I want to 
thank you for your incredible leadership on this issue for a 
much longer period of time than well before YouTube was even in 
place.
    And the Leahy War Victims Fund is one of the many tools 
that you have encouraged us to deploy over the past two decades 
to address this challenging issue including--the other tools 
include the international disaster assistance account and the 
development assistance account, both of which we have deployed 
aggressively over the last decade to try to meet needs that are 
created by an incredibly unjust situation.
    The video to which you referred has been seen by so many 
people, and it does highlight the basic actions and approach of 
LRA. Our approach has been to focus on humanitarian relief and 
recovery in places like Northern Uganda, which are now cleared 
in some degree of the LRA.
    We have seen internally displaced persons return to their 
communities, and we support those returns, providing people 
opportunities for education, employment, to re-enter their own 
economy, mostly by supporting agriculture, which is the primary 
economy in Northern Uganda.
    But we also know that there are efforts that need to be 
made in the Central African Republic, in the Democratic 
Republic of Congo, in South Sudan. And in those areas, we have 
expanded our efforts to support recovery, offering psychosocial 
support for children, offer humanitarian assistance ranging 
from food and water and other basic necessities, but also cash 
for work opportunities to be engaged in short-term employment, 
creating roads and helping their economies get back together.
    We remain very, very focused on this issue, and I just want 
to thank you and our partners, partners like Catholic Relief 
Service that is reaching 24 communities in South Sudan. 
Partners like Vodacom that are helping to establish cell towers 
that will enable a greater degree of protection.
    The program you mentioned around expanding radio access and 
programming to help warn communities ahead of time and a whole 
range of other activities, some of these things take some 
learning, as we are trying a lot of new things in order to 
offer protection to the population and to meet needs 
thereafter.
    Senator Leahy. Keep me posted on this, and please know that 
it is a priority and has been a priority for some time.
    We watch our children playing safely at playgrounds--it 
used to be my children, now my grandchildren. It is hard to 
conceive of something like that happening.
    Over the years, American taxpayers have provided tens of 
billions of dollars in economic aid to Egypt for programs 
administered by USAID. Very few Egyptians seem to know this. It 
has come out, in the last year especially, that apparently year 
after year the money was channeled through Egyptian Government 
ministries for programs that corrupt Egyptian officials took 
credit for.
    Now we see anti-Americanism rampant in Egypt. I agree with 
the comments Senator Graham made about Egypt earlier.
    We have seen the same thing in Pakistan after billions of 
dollars in United States aid went there. We are giving billions 
of dollars to these countries, but the American people who are 
paying for it often get no credit for it. A lot of it is 
siphoned off by corrupt officials. How do you respond?
    Dr. Shah. Well, I think our focus has been ensuring that 
the investments we make generate results. And I just want to 
start by saying that whether it is Egypt or Pakistan, I think 
when the American people see the actual results--28 percent of 
irrigated farmland in Egypt was created by USAID partnership, 
the water and sanitation system in Cairo, the number of girls 
in school, and a 30-year externally validated health student 
that showed the gains in women's health because of our 
partnerships. That said, it is critical that those gains are 
made more visible to people in the countries.
    That is why we are working more directly with civil society 
organizations and with local organizations. That is why we 
recently looked at just what our USAID press presence is in 
Pakistan and found that every month there are about 1,000 
references to USAID that are mostly positive in the news. That 
is often not enough to overwhelm the broader context, but----
    Senator Leahy. We should follow up on that because, as 
Senator Graham also said, getting foreign aid bills passed is 
not the most popular thing back home.
    The Budget Control Act of 2011 includes automatic 
reductions in mandatory and discretionary spending beginning in 
2013 if an additional $1.2 trillion in deficit reduction is not 
enacted by January 15, 2013.
    If no legislation is passed before 2013, the Congressional 
Budget Office estimates the fiscal year 2013 discretionary 
funding levels would be reduced by 7.8 percent. I understand 
the amount of the final reduction would be determined by the 
Office of Management and Budget using its own estimates.
    What is going to be the impact of a 7.8 reduction in 
USAID's fiscal year 2013 budget for operations and programs, 
and what preparations are you taking in the event this 
mandatory reduction is implemented?
    Dr. Shah. Well, thank you for the question.
    In terms of what impact a reduction like that would have 
is, as we have discussed previously, it would essentially shut 
down our ability to implement the reforms we are putting in 
place. USAID today has a $70 million per full-time equivalent 
(FTE) contract oversight capacity. The standard across the 
Federal Government is $35 million per FTE.
    We have been trying to build up our staff, our contracts 
officers, our procurement capacities, taking in consideration 
the recommendations of the wartime contracting commissions and 
what we have learned about what it takes to implement serious 
accountability to hold our partners to account and to ensure 
that we are more directly engaged with the local institutions 
that you spoke about earlier, Sir. And our ability to do those 
types of things in an environment where we are cutting staff 
and presence and resources by that percentage would be severely 
impeded.
    On the program side, the programs that would be most 
affected, I fear, are the ones that we all believe deliver some 
of the most extraordinary results. Efforts like our Global 
Health and our Feed the Future priorities since those have been 
the ones that have been the areas of most recent investment 
focus and growth.
    And so, we are working hard to come up with contingency 
plans, but we are also hopeful that scenario will not come to 
pass and believe that it would be inefficient if it did.
    Senator Leahy. Well, I hope it doesn't come to pass. As a 
bumper sticker slogan, talking about these kind of cuts sounds 
great. It can be very popular, especially in a Presidential 
election year. The reality is something else, so that is why I 
raise it.
    Senator Graham, please.
    Senator Graham. Well, I want to echo what you said about 
sequestration. It is the dumbest way in the world to achieve 
savings. It will decimate the military, $600 billion on top of 
the $480 billion we are trying to reduce spending by over the 
next decade. It is a blind hatchet approach to try to get our 
budget in balance.
    You may not know the answer to this, but you can get it to 
us later. Of all the USAID programs from around the world, you 
know, every dollar that you are responsible for, what 
percentage of the Federal budget would you think that would 
equate to?
    Dr. Shah. Well under, I think State and USAID together----
    Senator Graham. No, just USAID.
    Dr. Shah [continuing]. Is right around 1 percent, and USAID 
is about one-half of that total budget, even less than one-
half. So it would be probably less than one-half a percentage 
point.
    Senator Graham. Okay. Let us talk about that one-half a 
percentage point and what we get for it. In terms of China and 
Africa, what is your assessment of the Chinese involvement in 
the continent of Africa?
    Dr. Shah. It has been--the defining trend in Africa over 
the last decade has been a rapid increase in Chinese investment 
and subsidy for Chinese companies to invest. Most of those 
investments appear to be focused on resource extractive 
industries, and not all of them have followed, as you would 
imagine, the international norms and standards around 
transparency, around anti-corruption, around ensuring that 
benefits accrue to local populations.
    The United States continues to be tremendously popular, and 
it is----
    Senator Graham. Can I just stop you there?
    Dr. Shah [continuing]. In Africa because of our work.
    Senator Graham. In Ghana, I think we had an 80-something-
percent approval rating. And when I went all over Africa, the 
Chinese presence was dominant. Would you agree they are making 
a play for the continent of Africa, the Chinese?
    Dr. Shah. Absolutely.
    Senator Graham. They are trying to basically gather up the 
natural resources of a continent blessed with a lot of natural 
resources, and they are doing it in a way, don't you think, 
Administrator Shah, that instead of focusing on the population, 
making sure they can benefit from these resources, they are 
using some unsavory tactics, to say the least. Do you agree 
with that?
    Dr. Shah. Absolutely. Absolutely.
    Senator Graham. Eighty-five percent of the people in 
Tanzania, I was told, have no access to power from a grid or 
running water. Is that correct?
    Dr. Shah. I believe so.
    Senator Graham. Okay. But all of them have cell phones. 
Just about everybody I met had a cell phone, but no running 
water, no power. The continent of Africa is underpowered. Is 
that fair to say?
    Dr. Shah. Absolutely.
    Senator Graham. So one of the benefits of our engagement in 
Africa, helping people and trying to make the governments more 
responsible, responsive to the people is that somebody is going 
to provide the resources to help the whole continent achieve 
power, right?
    Dr. Shah. And coupled with African investment itself, yes.
    Senator Graham. So I would like that to be the United 
States, not China. There is so much business to be done in 
Africa between a continent and the United States on the food 
side. What opportunities exist for American companies to be 
involved in agricultural development in Africa? Is that a good 
business opportunity?
    Dr. Shah. I personally believe it is probably the best 
agricultural business opportunity that exists over the course 
of 20 or 30 years. We have done a lot at USAID to work better 
with business and to let American businesses be part of 
partnerships that help to tap into an African common market 
that is----
    Senator Graham. Will that create jobs here at home?
    Dr. Shah. They absolutely do, including our programs, for 
instance, in Ethiopia with Pepsi that now are trying to reach 
30,000 chickpea farmers, efforts to help United States 
entrepreneurs create and sell innovations like solar-powered 
flashlights to rural communities. Many of those are the 
innovative business models of the future, and either U.S. firms 
and entrepreneurs will be part of that large common market as 
it evolves, or we will cede that ground to others.
    Senator Graham. Is it fair to say 10, 15, 20 years ago that 
AIDS was rampant throughout the continent about to take out an 
entire generation of people, women and children?
    Dr. Shah. Certainly, and I think people saw that the 
structure of the epidemic specifically killed people who were 
in their productive earning years and, therefore, had outsized 
and destructive effects on the economies in Africa.
    Senator Graham. And mother-to-child AIDS growth was 
phenomenal. The children would be infected at birth. Is that 
correct?
    Dr. Shah. Yes. It was one of the leading causes of child 
infection and then morbidity.
    Senator Graham. Well, between Presidents Clinton, Bush, and 
Obama, how would you rate our efforts to control mother-to-
child AIDS transmission, and generally, are we turning a corner 
when it comes to AIDS in Africa?
    Dr. Shah. We are. And in fact, both the President and 
Secretary have made the commitment to ensure that our 
leadership continues to deliver in the future a generation free 
from AIDS. Today, we have a global commitment to completely 
eliminate mother-to-child transmission so no child is born with 
AIDS.
    That means treating pregnant women and----
    Senator Graham. What kind of results are we getting?
    Dr. Shah. Extraordinary results in that program. It is 
called Preventing Mother-to-Child Transmission. That is a 
highly efficient way to eliminate transmission to children.
    Senator Graham. I had a chance to go and see the program in 
action in Ghana and Tanzania and South Africa, and I was just 
astounded what a little bit of money can do spent well.
    On the malaria side, what kind of progress are we making to 
address this really devastating disease?
    Dr. Shah. Yes. I think the recent external data reviews of 
the malaria program have shown that it is by far the most cost-
effective way to save a child's life on the planet.
    Senator Graham. Now the Gates Foundation and ONE and other 
organizations, they are doing things apart from the U.S. 
Government. Is that correct?
    Dr. Shah. They are, but also in partnership with us. And 
through a unique partnership with the Gates Foundation and 
others called the Global Alliance for Vaccines, we were able to 
lower the cost of new vaccines by 70 percent and expand access.
    Senator Graham. Well, I am going to invite you to Clemson 
University, where they have a logistics graduate degree 
program, and they are coming up with a way to deliver vaccines 
in a more-efficient way, the actual delivery of vaccines to the 
people who need them.
    And we have a rule of law center we are developing at the 
University of South Carolina Law School, and I know USAID is 
very involved in rule of law development, particularly in 
developing frontline state nations. We will invite you down to 
look at that program.
    And Don Gressett, who served as a detailee, has been really 
great. So thanks for his services.
    Now when it comes to Iraq, I think Senator Leahy and I 
share a concern. How many people do you have in Iraq?
    Dr. Shah. Well, if you include our Foreign Service 
nationals, it is more than 100. If you look at just U.S. direct 
hires, it is closer to 40.
    Senator Graham. Okay. How much money are you intending to 
spend on Iraq?
    Dr. Shah. I would have to check the exact number. I think 
it was around $200 or $250 million.
    Senator Graham. What is the security environment like there 
now?
    Dr. Shah. I am sorry. The number for fiscal year 2013 is 
$263 million. The security environment is challenging. It is 
more challenging today than it was 6 months ago, and of course, 
as we are having this transition, we are also seeking and have 
been on a path of transition of the USAID programs. Iraq, 
increasingly and appropriately, is taking on more of the costs 
of implementing these programs themselves.
    Senator Graham. Right. I just want to echo what Senator 
Leahy said. I think our footprint in Iraq is too big. Fourteen 
thousand contractors providing security, most of the money goes 
to security, not to the actual training of the police and other 
programs. And we are just going to have to re-evaluate that in 
light of the changes.
    Now when it comes to Afghanistan, how many people do you 
have in Afghanistan?
    Dr. Shah. More than 400.
    Senator Graham. Okay. How would you evaluate the people 
that you interact with, younger people in Afghanistan? Do you 
have any insight to share with the subcommittee about what you 
see on the ground in terms of younger Afghan partners?
    Dr. Shah. Sure. Sir, I think that my interactions with our 
partners who fit that description are, of course, self-selected 
to be more creative, entrepreneurial, and capable. We have been 
impressed with the capacity of some of those individuals to 
lead efforts on behalf of their country.
    Some are in ministries, ministries like the Ministry of 
Agriculture, that have implemented to great success a program 
that is funding small- and medium-sized agricultural 
entrepreneurs that will largely be the source of economic 
growth for the next 5 to 6 years.
    Senator Graham. Senator Leahy mentioned something I think 
is very true. If you are an American out there and you are 
spending all this money on Afghanistan, you see the cross being 
burned and the President being burned in effigy, that is 
certainly not reassuring.
    But is there another side to Afghanistan? Are there things 
that do not make it on TV that we should know about and maybe 
be encouraged about?
    Dr. Shah. Well, there is that other side. There is this 
other side that is focused on the results that we have seen 
over the last decade. The largest reductions in maternal 
mortality anywhere on the planet, more than 7 million kids in 
school, 35 percent of whom are girls, whereas there were none 
in school previously. Ten or so percent annualized growth rate, 
and more than 1,800 kilometers of road that were created to 
support that economic growth, more than tripling energy access 
to the population and the business population.
    Those types of gains are critical to success, but the 
challenge going forward and as it has been the President's 
policy and what something USAID has really led on is ensuring 
that we make the shift to efforts that can be sustained over 
the long run.
    Senator Graham. Right. And we have a transition plan to put 
Afghans in control of Afghanistan. Is that correct?
    Dr. Shah. We do on the military side. We absolutely do on 
the development program side. I issued a sustainability 
guidance last year. We reviewed more than 65 programs. We found 
more than 20 that failed the sustainability review and 
restructured those programs to be more aligned.
    Senator Graham. I think that has been a great breakthrough, 
and I don't want to take too much more of your time here.
    Now this Joseph Kony that Senator Leahy spoke about, who 
is--I don't know how you would describe him other than just the 
worst of humanity. Is the Taliban in the same league as this 
guy?
    Dr. Shah. The things we have seen Joseph Kony do are 
brutal. The things that we have seen at different points in 
history the Taliban do are also very, very challenging. The 
thing that we stay very focused on as a development agency is 
ensuring that we build the basis for a sustainable, inclusive, 
and stable society. And that is why when there were no girls in 
school, now having millions of girls in school is such an 
important accomplishment that absolutely needs to be sustained.
    It is why, as we go forward with the President's policy to 
achieve a political and military strategy that allows us to 
bring troops home, we are very focused on protecting women's 
rights and protecting girls in particular and ensuring that we 
continue to support civil society and women leaders in 
Afghanistan, many of whom have done just extraordinary things 
in partnership with us over the last few years.
    Senator Graham. Well, thank you for your service and to all 
those under your command. You have done a great job.
    Thanks.
    Dr. Shah. Thank you.
    Senator Leahy. Here in this subcommittee we have supported 
USAID's procurement reform. We included several provisions in 
the fiscal year 2012 bill, including 2-year availability for 
operating funds, funding increases for procurement staff and 
training, and authority for USAID to limit competition to local 
organizations for awards less than $5 million.
    We supported USAID's effort to change its internal 
procurement policies. Your budget request proposes additional 
legislative changes and funding. What would they do beyond what 
we have already done?
    Dr. Shah. Well, first, thank you, Senator, for your 
extraordinary and specific support for procurement reform and 
for ensuring that America has a development agency that is 
capable of delivering value for every tax dollar that is spent 
in trying to make the world a better place.
    That is really what this procurement reform is about. In 
this budget, we request a working capital fund to ensure that a 
small percentage of allocated resources go in a dedicated way 
to building out the contracting capacity and the capacity for 
oversight and accountability so that we continue to make the 
transition from very costly and sometimes Western-dominated 
implementation mechanisms to local institutions.
    Because ultimately, our goal is to build capacity, not 
dependence. And ultimately, our goal is to identify those local 
leaders who have to have their own ownership of success, as 
opposed to doing things for them. And that takes effort. It 
takes doing risk assessments of local organizations to ensure 
we can protect taxpayer dollars.
    It takes a more active on the ground presence to make sure 
we are combating corruption and ensuring that money is not 
lost. It takes extra effort to monitor and evaluate programs so 
that we can guarantee that every major investment will have an 
externally valid evaluation public within 3 months of 
completion.
    Senator Leahy. Let me give you an example of where I think 
you can look. There is a small NGO working in an impoverished 
country, a place where most people have no access to modern 
healthcare. They have a corrupt and repressive government, but 
this small NGO has been implementing successful programs to 
diagnose and control malaria for 20 years.
    The Congress asked USAID to do more in this area. You 
solicited proposals. Somehow this local NGO was cut out of the 
picture, and two large U.S. NGOs were selected. One has 
experience in malaria but has never worked in the country. The 
other has worked in the country, but not on malaria.
    I am just wondering why we fund big NGOs that have no track 
record in a country if we have a small NGO that has a good 
track record?
    Dr. Shah. Well, honestly, Sir, we got here over decades. 
The agency over two decades has experienced 60-percent staff 
attrition and a 300-plus-percent increase in its programmatic 
responsibilities, most notably in dangerous, wartime 
environments in Iraq and Afghanistan.
    The combination of those two things led to contracting out 
of way too many core functions. Designing programs, searching 
for partners, engaging directly with local staff, learning 
about what is working, what is not working, using those 
learnings to then make changes and to insist on, document, and 
report on actual results. That is the basis of the USAID 
Forward reforms, but they are contingent upon our ability to 
rebuild the balance and rebuild our core staffing.
    I thank you personally for the support for the development 
leadership initiative and for the new Foreign Service officers 
and procurement officers we have been able to hire. And I can 
assure you that we have focused those additional energies and 
resources on precisely this challenge.
    Under the procurement reform, we will go from approximately 
9 percent in 2009 to approximately 30 percent in 2015 in terms 
of our total programmatic allocations to local institutions. 
And we are doing that in a careful, measured way.
    Every one of our countries has specific targets for helping 
to achieve that global aspiration. And when we get there, we 
will be a much more nimble, much more-efficient enterprise.
    Senator Leahy. It worries me and it is symptomatic of other 
places, and there is not a limitless amount of money. For 
Afghanistan, Pakistan, and Iraq, the President's fiscal year 
2013 budget request for USAID operations is $331 million, plus 
$84 million in overseas contingency operations funding.
    That is a 35-percent increase from 2011. It is a larger 
percentage every year of your total operating budget. The 
operating budget in fiscal years 2011 and 2012 for these 
countries was 17 percent of USAID's operating budget. For 
fiscal year 2013, the budget request is 22 percent of the 
total.
    We provided this administration and the one before it 
billions of dollars for Afghanistan. Think about what will 
happen when the funding tap dries up. You have issued a report 
on guidance and sustainability of assistance for Afghanistan, 
but your total request for fiscal year 2013, $1.85 billion, is 
only $87 million less than the fiscal year 2012 estimate.
    How is that sustainable? I acknowledge in many areas the 
Afghans have moved forward, but with a corrupt, anti-American 
Government, but are we approaching a point where all of USAID 
is going to be in Afghanistan, Iraq, and Pakistan?
    Dr. Shah. No, Sir. I don't believe we are. I believe that 
in Afghanistan, we, as USAID, are a small part of the 
investment this country has made in lives and in dollars. We 
are very, very small in comparison to the overall military 
expenditure. But we are a big part of helping to create the 
conditions that will allow our troops to come home safely and 
quickly.
    In order to live up to that mission, we have had to more 
than triple our staffing in Afghanistan to implement a program 
we call the A-Cubed, or Accountable Assistance for Afghanistan 
effort. We have had to go to 100-percent local cost accounting. 
We have had to do much more monitoring and evaluation and a 
significant number of program redesigns to ensure that we have 
a more-effective focus on sustainability.
    In just the last few years, we have seen Afghan Government 
revenues from local collections, customs collections, and 
collecting revenue related to energy more than triple. That is 
a trend that we need to absolutely stay focused on in order to 
ensure there is some degree of sustainability for the gains 
that we have all seen.
    Going forward, our focus will be sustainability, revenue 
collection, economic growth that is based in the agriculture 
and food sector for the next 5 to 7 years and the mining sector 
beyond that. And we believe we are putting forth budgets that 
will help lay the groundwork for that and allow the American 
people to save 10, 20 times the proposed expenditure because of 
our ability to draw down our troops.
    Senator Leahy. I supported our mission to go into 
Afghanistan because the mission was defined as to capture or 
kill Osama bin Laden. That was 10, 11 years ago. Shortly after 
that time, he apparently left Afghanistan and went elsewhere. 
We have been there ever since, and it is almost as though we 
overlook the fact, and I hate to use the term, but it is 
``mission accomplished''. We got Osama bin Laden.
    We have long since been supporting extensive nation-
building. Perhaps I can be convinced it can succeed. I haven't 
been yet.
    Let me ask you one last question and then yield back to 
Senator Graham. For several years, USAID has been implementing 
a program, which was begun by the Congress, which funds 
partnerships between United States universities and NGOs with 
counterparts in China to strengthen the rule of law and 
environmental health and safety.
    I have met some of the Chinese participants in this 
program.
    They are impressive and courageous people. They are 
standing up for environmental health and safety in China. This 
is not the safest thing to do. Some Members of the House have 
held up this funding on the ground that the Chinese Government, 
not USAID, should pay for it and it somehow hurts American 
businesses.
    Actually, I think it helps to level the playing field. 
American companies are contributing funds to support it. How do 
you feel about this program?
    Dr. Shah. Well, Senator, the fiscal year 2013 budget 
request does not include any funds for the Chinese Government. 
Our request is focused on assistance to Tibetan communities and 
to address the threats that may emanate from China with respect 
to pandemic diseases in a partnership with the Centers for 
Disease Control (CDC).
    So that is what we believe the priority is and believe 
that, in fact, we have gone even farther and worked through 
entities like the Global Fund to try and create a situation 
where China is no longer necessarily a recipient of funds, but 
is more of a global donor to those types of mechanisms that 
help effectively prevent disease spread.
    Senator Leahy. So you don't think there should be these 
partnerships between United States universities and NGOs in 
China to strengthen the rule of law in environmental health and 
safety?
    Dr. Shah. No, Sir. We do. I was just highlighting that 
those are not programs that run through in any way the Chinese 
Government. That they support----
    Senator Leahy. I understand that.
    Dr. Shah[continuing]. NGOs outside of the government. 
Sorry.
    Senator Leahy. Well, I am confused. Are you in favor of 
these programs or not?
    Dr. Shah. So I would have to come back to you on the 
specific program. I know that our efforts have supported NGOs 
in areas like human rights and rule of law outside of those 
efforts.
    Senator Leahy. Can you get back to me within 1 week?
    Dr. Shah. Absolutely.
    Senator Leahy. Sometimes when we ask these questions, they 
go--not just to you, but to everybody else--they go into some 
kind of a dark hole and with a feeling that perhaps there is a 
limited attention span on the part of some of us in the 
Congress. On this matter, I have a long attention span.
    So if you could get back to me within 1 week?
    Dr. Shah. We certainly will. And let me also say we do 
support these efforts. I just want to come back with something 
more specific. But we will do that within 1 week.
    [The information follows:]
    United States Agency for International Development Programs To 
        Strengthen Rule of Law and Environmental Safety in China
    The United States pursues a long-term strategy vis-a-vis China to 
protect and promote U.S. national interests and values. United States 
Agency for International Development's (USAID) fiscal year 2013 budget 
request is limited to funds for activities that preserve the distinct 
Tibetan culture and promote sustainable development and environmental 
conservation in Tibetan communities through grants to U.S. 
organizations, and for health programs to address pandemic diseases.
    With regard to your question about partnerships between United 
States universities and nongovernmental organizations (NGOs) to 
strengthen rule of law and environmental safety in China, consistent 
with congressional intent, USAID has operated programs since 2006 that 
focus on activities in environmental, administrative and criminal law, 
energy use and management, and regional trafficking in endangered 
species.
    These programs address development challenges that have regional 
and international reverberations for U.S. communities and companies.
    For example, USAID environmental law programs include:
  --The U.S.-China Partnership for Environmental Law strengthens and 
        improves China's environmental regulatory system through 
        partnerships involving United States and Chinese universities, 
        government agencies, and NGOs. The program works through 
        collaborative partnerships and training for lawyers, scholars, 
        law students, judges, regulators, and lawmakers.
  --USAID works with the Institute for Sustainable Communities, a U.S. 
        NGO, to establish environmental health and safety (EHS) 
        academies to train factory managers (paid for by trainees or 
        Chinese employers) to improve environmental safety practices 
        for Chinese workers and communities. EHS academies help ensure 
        that Chinese factories comply with international standards; 
        they help to level the playing field for U.S. companies and 
        reduce air pollution that reaches U.S. shores.
    Mr. Chairman, partnerships do not stop with NGOs and universities. 
USAID programs in China have leveraged important contributions--
financial and technical--from U.S. companies including General 
Electric, Honeywell, Wal-Mart, Alcoa, and Pfizer. GE alone has 
contributed more than $2.8 million for USAID's China programs. The EHS 
academies program plans to become fully self-sustaining and serves as 
an example of initial USAID seed funding that leads to sustainable, 
long-lasting impact.

    Senator Leahy. Thank you.
    Senator Graham.
    Senator Graham. Thank you.
    And these hearings are very informative and helpful, and I 
will give you my 2 cents worth about Afghanistan. I agree with 
Senator Leahy on a lot in this effort to craft a foreign 
operations account that is more focused on results, that allows 
us to transition to country control, no matter where we are at.
    But I have always believed that we are fighting an idea, 
not just a person, that killing bin Laden is a great 
accomplishment for the United States. President Obama deserves 
a lot of credit for making, I think, a very tough call.
    But we don't want to make him larger in death than he was 
in life, and the way I think we have become safe in the war on 
terror is not just killing the leaders of terrorist 
organizations, but empowering those who would fight these guys 
in their own backyard if they could. So I have come to conclude 
that about 80 percent of the people in Afghanistan have 
absolutely no desire to go back to Taliban control because it 
was a miserable life.
    You couldn't do anything other than what they told you you 
could do, and from a woman's point of view, it was just 
barbaric. And from the average young person's point of view, it 
was a miserable existence, and they have had a taste of it, and 
they don't want to go back.
    The problem is capacity. You have got to have capacity to 
meet will. That is why I think we can be successful in 
Afghanistan because, based on my view of the country, there is 
a lot of will to change Afghanistan. The problem is that their 
government, as Senator Leahy says, is very dysfunctional. This 
is trying to create a democracy out of 30 years of chaos is 
difficult.
    But when it comes to Afghanistan, how many times have you 
been, Director Shah?
    Dr. Shah. Well, Senator, I believe we met for the first 
time out there, and I appreciated that opportunity. I don't 
know, four, five, six? I would have to----
    Senator Graham. Is it your sense that the people of 
Afghanistan, as a collective body, want to move forward?
    Dr. Shah. That is my sense, of course.
    Senator Graham. Okay. And I believe it is in our national 
interest that they move forward. Any place they can move 
forward where the Taliban used to reign is a good deal. Places 
going back into Taliban control after an effort to squash them 
is probably not the right signal to send to Iran and other 
places.
    But let us talk about Egypt. The Arab Spring to me is a 
defining opportunity for change in the Arab world, and people 
mentioned Egypt to me, and Senator Leahy and I are very much 
concerned about what is going on in Egypt right now. And I had 
high hopes for the Arab Spring.
    The fact that Islamic conservatism is on the rise when you 
displace secular dictatorships is of no surprise to me because 
religious people were pretty suppressed in Libya, Tunisia, and 
Egypt. But what does concern me is the attitude that is 
emerging in some sectors of the political space in Egypt about 
the way to move forward.
    What advice would you give this subcommittee about how to 
engage Egypt and the Arab Spring in general?
    Dr. Shah. Well, thank you, Senator. Thank you for your 
recent efforts in Egypt to help advance our approach.
    You know, USAID has played a major role in Eastern Europe 
during political transitions and transformations and learned 
that it takes both time and persistence. There will be ups and 
downs along the way. And it takes flexibility, flexibility to 
invest in creating capable political processes in engaging 
beyond Government-to-Government engagements, but with local 
civil society.
    In supporting the private sector so there is a more dynamic 
set of opportunities----
    Senator Graham. Is that why we need to make sure you have 
democracy assistance, development programs in the USAID budget?
    Dr. Shah. That is, Sir. I think those programs have been 
uniquely important in this setting. This budget also has a 
request for a $770 million Middle East Incentive Fund that we 
intend----
    Senator Graham. Can I just point out to the subcommittee 
how important that fund is? Tunisia is, I think, one of the 
better stories in development and progress stories. They have a 
budget shortfall of about $1 billion. This fund you just 
acknowledged is trying to do a loan guarantee program so they 
can borrow money.
    Do you know the status of that? Are you familiar with that 
at all?
    Dr. Shah. I am. I am not sure of the immediate status of 
that, but we have been pursuing a number of efforts there, 
including helping to set up an enterprise fund. And this budget 
includes a request for that. And a number of other efforts we 
have taken to build public-private partnerships with 
information and communications firms to create more jobs.
    Senator Graham. Well, I know the subcommittee here is 
trying to reprogram $100 million--I can't remember from what 
account--to create a fund to challenge the rest of the world to 
invest in it as kind of a transition to your program, where we 
can come up with about $1 billion to help the Tunisians get 
through a budget shortfall.
    They seem to be very focused on reforming their economy, 
privatizing industries, and making a more free market situation 
in Tunisia. So I just want to let you know that I think the 
subcommittee on both sides would be very interested in trying 
to create some short-term assistance for Tunisia.
    What is your view of Tunisia? How does it seem to be going?
    Dr. Shah. Well, I had the opportunity to visit Tunisia and 
a number of the senior administration officials have. We are 
very optimistic about and President Obama and Secretary Clinton 
have directed us to really do everything we can to be helpful 
through this transition. They are, as you mentioned, putting in 
place tough, but important reforms to enable entrepreneurs to 
start businesses easier, to access capital more effectively.
    They have the potential to provide information technology 
services to the region and including some of the southern 
European countries. And so, they have benefited from 
partnerships we have helped establish with Microsoft and Cisco 
and others that will help employ more Tunisian youth.
    And we have helped their local civil society organizations 
create processes----
    Senator Graham. I think they want a free trade agreement 
with the United States. Is that----
    Dr. Shah. I am sure they do.
    Senator Graham. Yes, and I think that is encouraging. So I 
just want to echo what you are saying about Tunisia. I think we 
have a good strategy, but it is imperative that we deliver 
quickly when it really does matter. We have got to get these 
loan guarantees, agreements done so they can--people are 
hopeful. They are ready for change, and the government has got 
to deliver.
    And Tunisia has got an Islamic conservative coalition, but 
they seem to be embracing free-market economies and tolerance 
for minorities. So anything we can do in Egypt, Tunisia, and 
Libya, let us do.
    So thank you. If there is anything else the subcommittee 
can do to help be engaged in the Arab Spring, let us know 
because every 6,000 years you get a chance for democracy in 
Egypt. I hope it doesn't pass. I hope we don't fail, and I hope 
more than anything else, the Egyptian people do not fail on a 
chance to start over.
    And one last thought about Egypt. The parliament has said 
some things that are very chilling. It is probably more 
symbolic than it is substantive. But I think Senator Leahy and 
I, one Republican and one Democrat from different political 
spectrums and perspectives, really do want to engage the world 
in a constructive fashion. But we are not going to throw good 
money after bad.
    And if we are not welcome and if people don't want our 
assistance, we are not going to force it on them. So I hope we 
can find a way to make Egypt a showcase of what can happen when 
people have free choices to make.
    So thank you very much and continue the good work.
    Dr. Shah. Thank you.
    Senator Leahy. Thank you. I concur with that, too.
    The thing is we all want you to be successful everywhere 
you are. We also know that we only have a certain amount of 
money available and a certain number of people. We also realize 
that each country is different.
    Egypt, I think, is very important to that part of the 
world. They will have to decide what kind of government they 
want. I get frustrated when I see one more government that 
might become a theocracy. We have to watch it carefully.
    I was in Cuba a couple of weeks ago, and USAID has 
democracy and human rights programs there. Some have been 
controversial here in the Congress. Certainly they create a lot 
of controversy in Cuba. We all want to see a democratic Cuba 
where human rights are respected.
    I am one who feels, and in fact I have said this to Fidel 
and Raul Castro personally, that in some ways our embargo has 
been one of the best things going for them. They can have a 
failed economic and political system and blame it on us. What 
we get out of it, of course, is looking foolish to the rest of 
the world that a nation as powerful as the United States 
maintains an embargo on a country that poses no threat to us.
    I don't know what benefits there are, but we have what we 
have. If USAID has programs in Cuba that break Cuban laws, even 
though they may be laws you and I would totally disagree with, 
there are consequences.
    I do not agree with the kind of censorship that goes on in 
Cuba. I do not agree at all with their restrictions on the 
Internet and travel. I am not suggesting otherwise. I don't 
agree with what they do there, but neither do I agree with what 
we do with the embargo.
    Alan Gross, who is a USAID contractor, has served 2 years 
as a prisoner in Cuba for implementing a USAID program. The 
Cubans agree that he is not a spy, that he is not anything 
other than a USAID contractor. But his case has become an 
obstacle to progress on some issues between the United States 
and Cuba.
    Have you reviewed the program that he was involved with? 
Many of us will continue to work to get him released and back 
to his family. Have you considered expanding into areas in Cuba 
like private sector development?
    Dr. Shah. Thank you, Senator.
    First, thank you for mentioning Alan Gross' case and for 
your personal efforts to help him seek freedom and be free from 
his current situation.
    Senator Leahy. Senator Coons of Delaware and I met with 
him, and then I personally raised his case with President Raul 
Castro, the Foreign Minister, and the head of their National 
Assembly.
    Dr. Shah. Well, we very much appreciate those efforts. The 
State Department is leading our efforts to try to negotiate his 
release and has been very focused on that. We have also taken 
some special measures to support his family through what is a 
very difficult situation.
    We have reviewed that case, and based on that review and a 
more comprehensive review of our efforts, we have presented a 
budget request for $15 million this year that we believe is 
consistent with our law. It is consistent with basic 
international human rights conventions. And it is focused on 
those areas where we think our partners are going to be able to 
implement some of these programs.
    With respect to expanding efforts to private sector 
development, we are currently restricted from pursuing broad 
expansions in those areas. And I am very focused on making sure 
that if we are putting resources into something, we are 
confident the conditions are in place to deliver results. And 
it probably goes without saying under current circumstances, it 
seems that is not particularly the case in this situation.
    Senator Leahy. Does that include private sector 
development? I met with a number of people in Cuba including, 
ironically enough, representatives of foreign companies. These 
companies were from Germany, Canada, France, Mexico, and 
elsewhere. They all say with unity ``Please keep your 
embargo.'' They want to keep the United States out of Cuba 
while they get a foothold.
    They say it with only a little bit of a smile. But there is 
some private sector development in Cuba. Certainly not what you 
and I would want, but it is a change from just a few years ago.
    Will you look at whether that is an area we could expand 
into?
    Dr. Shah. We will certainly look into that and look forward 
to learning more about your views from your trip and who you 
met with and what your opinions are based on that.
    Thank you.
    Senator Leahy. I also went to Haiti. I have been there a 
number of times. I know you have. I wanted to see the progress 
that was made in downtown Port-au-Prince. It was different than 
it was a year ago. The progress is still slow, but it is more 
encouraging.
    I met with President Martelly. In past times when I have 
been there, I have heard over and over from people that they 
want a government that cares more about the Haitian people than 
it does about itself, and maybe they have that now. I hope they 
do. I look at all the lost opportunities after the earthquake 
when the government could not or would not even respond, though 
there was an enormous amount of aid available to make life 
better for so many people there.
    One thing that goes way beyond even housing or any other 
issues is the possibility of cholera. I am told that the danger 
remains high, and of course, if it were to happen there, it 
could spread to a number of other countries. The Dominican 
Republic, of course, as it is on the same island, but also 
Jamaica, Mexico, Brazil, and so on.
    Do you think the Haitians are prepared to respond to 
another cholera epidemic?
    Dr. Shah. Senator, I appreciate your raising Haiti. I think 
the progress has been extraordinary, given the circumstances, 
and we all want to see things move faster, but take some 
encouragement from what is happening in agriculture and 
establishment of improvements in education, improvements in 
access to mobile banking services and other types of 
innovations there, and some of the bigger private investments 
that are creating jobs in the industrial park in the north and 
hotel construction in Port-au-Prince.
    You mentioned President Martelly, and we continue to work 
closely with him, hope he will appoint a new Prime Minister 
soon because that is a critical position for our partnership.
    Senator Leahy. Incidentally, we urged him to move as 
quickly as he could on that.
    Dr. Shah. Great. And with respect to cholera, we were the 
major partner in rapidly moving resources to make sure that 
rural communities in particular had clean water, had access to 
medical services, oral rehydration, and brought the cholera 
disease, the case fatality rate down to I believe it is now 0.4 
or 0.5, which is below--or 0.04, which is below the--no, I am 
sorry, 0.4 or 0.5, which is below the 1 percent, which is the 
international target.
    Of course, if there is a new expansion or epidemic of 
cholera, that would place a tremendous amount of strain on 
their already-strained health services capacity. In the last 
situation, it was really the United States, USAID, and the CDC 
working together to address and tamp down cholera.
    And I suspect if it were to--if it were to go out and 
become an epidemic again, it would again require a significant 
external response in order to quickly save children's lives.
    Senator Leahy. I have talked with our ambassador there who 
is a very, very good ambassador, but he is about to leave and 
going to Dubrovnik, as I understand. It is something we may 
want to keep watching.
    Let me add one last thing on Feed the Future, and you have 
given more personal attention to that than anybody has. The 
administration has requested $1 billion in fiscal year 2013 as 
part of that initiative. The first page of the Feed the Future 
Web site says USAID is going to help tackle global food 
security. Nobody would disagree with that as a goal.
    We have provided more than $2 billion for these programs. 
Is this a 3-, 5-, or a 10-year initiative? How will we know 
that we are succeeding, and what is the timeframe that you see?
    Dr. Shah. Well----
    Senator Leahy. Incidentally, I support you on this. I just 
want to know how we measure success.
    Dr. Shah. Thank you, Senator.
    I think success for our Feed the Future partnership with 
countries and governments is measured in a number of ways. 
First, we need to make sure that other countries are also 
living up to the commitments that were made in 2009 at the 
L'Aquila summit. The United States is living up to them, and we 
are holding others to account in a very transparent and public 
way.
    Second, this initiative is in part different because we 
asked more of our partners. We said we will do business 
differently, partner with the private sector, measure results, 
invest in local institutions. But we want to see the kind of 
policy reforms that will generate extraordinarily effective 
results.
    And so, we continue to work on that aspect of the effort, 
and that is a critical ingredient. But the third and most 
important piece is we are measuring outcomes. So I can tell you 
today that the agricultural productivity growth rate in the 
countries where we are working is I think it is 5.6 percent, 
which is higher than the international average, which is 0.7 
percent.
    That is because we are investing in new technologies. We 
are working with women farmers. We are measuring outcomes. We 
have put in place a women's empowerment index, which for the 
first time across all partners will measure whether women are 
getting benefits from these programs, report on that in a very 
transparent way, and allow us to program against it.
    And most importantly, we measure the actual outcomes we 
care about, families that move out of poverty and children who 
are malnourished chronically, and we are starting to see 
reductions there. And my recent favorite example is Bangladesh, 
which for the first time certain parts of Bangladesh are 
becoming self-sufficient in rice. And that is leading to 
improved outcomes for children's nutrition.
    Senator Leahy. Years ago, I was chairman of the Senate 
Agriculture Committee, and I tended to upset some of the 
agriculture lobbies here in the United States because I was 
urging that we help countries grow their own food rather than 
buy it, especially when it means buying food in the United 
States and shipping it there. Some in the farm lobby loved 
that, of course, because it gave them a market.
    I remember there were a couple of places in Africa that I 
visited where they could raise food, but the market for it was 
20 miles away, and the condition of the roads was so poor it 
would take 2 or 3 days to travel that 10 or 20 miles. Of 
course, for perishable produce, this didn't work.
    Why don't we spend some money--we don't have to build the 
George Washington Parkway--to build a road like the dirt road 
that I live on in Vermont, where they could actually go 25, 35 
miles an hour and bring the food in an hour's time to market. 
That is just one example.
    Keep me posted what you are doing on food security. I 
applaud you for it.
    Dr. Shah. May I make a comment, Senator?
    Senator Leahy. Sure.
    Dr. Shah. You know, we agree entirely. I believe it is 8 to 
10 times less costly to help countries achieve food security 
and sustainability on their own self-sufficiency, as opposed to 
providing food aid during emergencies. Well, of course, we are 
always going to be there when people are struggling.
    Senator Leahy. Well, you have a tsunami. You have an 
earthquake. No country can move it as quickly and easily as we 
can.
    Dr. Shah. That is right.
    Senator Leahy. I want people to have the ability during 
normal times to be able to produce their own food.
    Dr. Shah. Absolutely. The other thing I would say, Sir, is 
that Feed the Future is a partnership across the entire Federal 
Government, and Secretary Tom Vilsack and the Department of 
Agriculture has been a major partner, working with us to 
improve phytosanitary standards in Central America so food can 
enter into Wal-Marts, value chains there, which is helping to 
move thousands of farmers out of poverty.
    We have partnered to address wheat rust, which is a disease 
in wheat that is starting to expand in Eastern Africa and 
threatens the food supply there, but could easily threaten the 
food supply anywhere else in the world. And our partnerships 
are helping to create international research efforts that are 
very modern and very effective and, ultimately, offer very 
direct protections for American farmers as well.
    The food supply is just much more interconnected today than 
it ever has been.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Leahy. A stable food supply will bring countries 
that much further toward having a stable government and 
democracy.
    I will keep the record open for 1 week for the submission 
of written questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Patrick J. Leahy
               afghanistan, pakistan, and iraq operations
    Question. The President's fiscal year 2013 budget request for 
United States Agency for International Development (USAID) operations 
in Afghanistan, Pakistan, and Iraq operations total $331 million, 
including $84 million in Overseas Contingency Operations funding. This 
is 35-percent higher than fiscal year 2011. Not only does the cost for 
USAID operations in these three countries continue to rise, it is 
becoming a larger percentage of USAID's total operating budget. In 
fiscal year 2011 and 2012 the operating cost for these countries was 17 
percent of USAID's total operating budget, and in fiscal year 2013 the 
cost is 22 percent of the total.
    How does this make sense given all the obstacles to implementing 
sustainable programs in these countries, and the pressing needs in so 
many other parts of the world?
    Answer. The fiscal year 2013 budget request for the Frontline 
States of Afghanistan, Pakistan, and Iraq reflects the level needed to 
maintain current on-going operations in countries critical to our 
national security. The fiscal year 2013 Operating Expense (OE) request 
for these countries is based on the most recent projections for 
security and other operational conditions and is not a result of new 
programs or staffing increases above approved levels. Since USAID's 
overall fiscal year 2013 OE request is a relative straight line of the 
fiscal year 2012 appropriation, as security and other operating costs 
increase in the Frontline States it takes up a larger percentage of the 
USAID's total operational budget. As an agency, we have made the 
necessary trade-offs to fully support operational requirements in 
countries that are critical to our national security.
    Development assistance to Afghanistan and Pakistan remains a 
critical component to supporting our core U.S. national security 
objective to disrupt, dismantle, and defeat al Qaeda, as well as to 
deny safe haven to it and its affiliates in the region. The fiscal year 
2013 OE request for Afghanistan and Pakistan reflects the cost of 
implementing and providing proper oversight of the program funds 
appropriated in prior years. We must provide and maintain a high level 
of oversight in order to prevent waste, fraud, and abuse. Given a 
vastly improved recruiting and hiring process it was only this fiscal 
year that USAID reached the full approved civilian surge level of 333 
OE funded American staff on the ground in Afghanistan. As a result of 
reaching the full approved staffing level this year, the fiscal year 
2013 budget request represents the first time USAID has fully budgeted 
for the civilian surge for an entire fiscal year. The full approved 
staff level of 333 OE-funded Americans includes a tripling of oversight 
staff, contract officers, comptrollers/financial management officers, 
and lawyers. We have also increased the number of field officers 
outside of Kabul, all of whom are working to improve project 
performance and oversight of U.S. taxpayer funds. USAID, working with 
State and the National Security Council-coordinated interagency 
process, is in the process of determining the most-effective transition 
of staff levels in fiscal year 2013 and 2014 ensuring that the staffing 
levels support the overall transition and the administration's civilian 
assistance objectives.
    In Pakistan, the staffing levels reflect the tripling of assistance 
since fiscal year 2008 in support of our core objectives in the region. 
We have increased the number of critical oversight staff (i.e., 
contracting officers, financial management officers, and lawyers). The 
increased number of United States staff also reflects United States 
presence in the Consulates in Lahore, Karachi, and Peshawar in order to 
increase the oversight and effectiveness of assistance program 
implementation. As assistance levels have tripled since fiscal year 
2008, we have doubled the number of United States direct hire and 
Pakistani staff over that same period in order to improve oversight. 
USAID's operational costs are increasing as the embassy and USAID 
address security concerns and other operational challenges.
    Based on the most recent projection for operations in the current 
fiscal year as reported in the Congressional Budget Justification 
(CBJ), USAID operating requirements in fiscal year 2012 were revised 
downward from $75.3 to $53.8 million. For fiscal year 2013, the budget 
request for Iraq is $66.2 million, which accounts for USAID now paying 
life-support costs for mission personnel through the Department of 
State's International Cooperative Administrative Support Services 
(ICASS) program, the costs of and estimates for which can vary 
frequently. However, USAID's actual operating costs for fiscal year 
2014 are likely to continue trending downward due to both operational 
efficiencies and changing circumstances on the ground in Iraq.
                       afghanistan sustainability
    Question. For years this administration and the one before it has 
provided billions of dollars in aid to Afghanistan with little thought 
for how the programs would be maintained once the funding tap dries up. 
I was encouraged that in June 2011, USAID announced its ``Guidance on 
Sustainability of Assistance for Afghanistan''. Yet your total budget 
request for the Economic Support Fund for Afghanistan for fiscal year 
2013--$1.85 billion--is only $87 million les than the current fiscal 
year 2012 estimate. Given how Afghanistan looks today I do not consider 
$1.85 billion a ``sustainable'' level. How has this guidance influenced 
USAID's programs?
    Answer. The Administrator's Sustainability Guidance is reflected in 
the significant changes in programming that we have undertaken in 
Afghanistan. A major phase of the interagency sustainability review of 
USAID's Afghanistan program recently concluded. USAID also conducted 
the sustainability review in consultation with the Afghan Government 
and in collaboration with other donors.
    While the overall level of spending in fiscal year 2013 is roughly 
in line with the fiscal year 2012 enacted level, that funding level is 
consistent with U.S. Government and expert views, including those of 
the World Bank, as to what is necessary to lay a foundation for an 
economically sustainable, post-transition Afghanistan. As a result of 
USAID's sustainability review, the country program is focused on 
fostering economic growth; enabling increasingly effective governance; 
and fostering a more resilient and capable population able to advocate 
for government services. If funding were to decline dramatically in 
fiscal year 2013, we believe there would be negative effects on both 
the transition in 2014 and on the viability of the gains in civilian 
development.
    Consistent with the principles of sustainability, USAID will 
continue to increase the proportion of its on-budget assistance to the 
Afghan Government, contingent upon the proper oversight and requisite 
safeguards, while drawing down investments in less sustainable forms of 
assistance.
    USAID will also continue the next phase of the sustainability 
review with the Afghan Government to ensure that programming reflects 
shared priorities, and that programs not addressing core objectives are 
phased down, eliminated, or assumed by other donors. For instance, the 
economy of Afghanistan lacks trained and skilled workers. Therefore, 
our assistance will increasingly focus on higher education and 
vocational training to ensure Afghanistan has the workforce required to 
grow its economy over the critical transition years.
    We are also focusing on strengthening government capacity to 
maintain roads, bridges, schools, and other infrastructure built over 
the last 10 years, rather than continuing to build new infrastructure. 
We are targeting economic growth and agriculture investments towards 
provinces where economic zones can generate the greatest number of 
private sector led business and job growth. In addition, we are 
reorienting our ``clear/hold'' stabilization programing from 17 
provinces down to the 9 that are most critical for the 
counterinsurgency effort. Finally, we are focusing our efforts in 
health and basic education on consolidating and maintaining the gains 
that have been made in these sectors rather than on expansion.
                                pakistan
    Question. Since 9/11 we have spent billions of dollars in Pakistan. 
Most has been military aid, but several billions have been for 
humanitarian and development programs administered by USAID. Yet the 
Pakistani people's view of the United States does not seem to have 
improved at all. In fact it may be worse.
    Are the programs we are funding in Pakistan sustainable; what are 
you doing to strengthen civilian democracy in Pakistan and with what 
results; and why has all this aid had so little impact on the 
Pakistanis' opinion of the United States?
    Answer.
                 sustainability and civilian democracy
    After a careful review of the Pakistan assistance portfolio during 
the first half of 2011, we have determined that it remains in the 
United States interest to continue to provide civilian assistance which 
addresses the priorities of the Pakistani people and their 
democratically elected representatives. Continuation of civilian 
assistance remains an important tool to furthering our objective of 
building more capable civilian state institutions, fostering economic 
growth, and building non-state institutions that can serve as checks on 
political and military power. It also demonstrates United States 
staying power in the region by empowering the middle class and other 
drivers of long-term change in Pakistan. Despite challenges, over the 
long-term, a tolerant, democratic, and economically stable Pakistan 
both benefits the Pakistani people and advances United States national 
security, as well as security in the region.
    Our approach of providing a substantial percentage of the country 
program in the form of local direct assistance contributes to 
sustainability by strengthening the capacity of those ministries of the 
Government of Pakistan, in provincial government, and in other 
important entities with whom we work, such as the FATA Secretariat. 
Similarly, our work with Pakistani nongovernmental organizations (NGO) 
builds capacity and sustainability in civil society. For example, we 
have worked closely with the FATA Secretariat to strengthen their 
financial management and procurement mechanisms, but more broadly 
strengthen their ability to communicate with constituents and be more 
responsive to the people of the FATA. Another example is our work in 
Sindh Province. USAID will be helping the Sindh Department of Education 
manage resources and monitor school construction. This is essential to 
ensuring results can be maintained and local governments can become 
responsible for service delivery.
    Beyond governmental capacity-building, our multi-sectoral strategy 
aims to build long-term sustainability within important sectors, such 
as the energy sector. The U.S. Signature Energy Program in Pakistan has 
invested in policy reform, capacity building and efficiency 
improvements to reduce power losses and increase revenues, as well as 
targeted infrastructure investments to increase electricity generation. 
This effort has yielded significant results. By the end of 2013, these 
investments will have added 900 megawatts (MW) of power to the grid, 
including the completion of the Gomal Zam Dam in South Waziristan, one 
of Pakistan's restive tribal areas. Going forward, we will continue to 
support infrastructure projects but, complementing those infrastructure 
programs, U.S. efforts will also help GOP institutions build the 
capacity needed to manage the power sector effectively and implement 
policy reforms that will strengthen commercial performance in the 
short-term and increase access to power in the mid- to long-term. These 
efforts will be undertaken through ongoing technical assistance and 
implementation of improved commercial operation of power distribution 
companies and demand-side load management initiatives.
    We will also continue important cross-cutting activities that 
strengthen governance, transparency, and gender equality through 
programs such as the Political Parties Development Program, the Anti-
Fraud Hotline, and the Gender Equity Program.
    In addition, we are working to expand the ability of civil society 
to engage in government oversight and policy advocacy, combat 
corruption, improve the status of women, and address the pressing needs 
of communities. For example, the Political Parties Development Program 
will work to improve the democratic performance of political parties to 
strengthen their ability to address constituent needs and grass-roots 
concerns by helping parties conduct their own research, analysis, and 
training for the formulation of increasingly responsive and informed 
platforms and policies, as well as implement internationally recognized 
standards for internal democracy and transparency. This work builds on 
previous USAID investment in Pakistan's democracy and governance that 
continues to provide long-term sustainable benefits. For example, 
USAID's prior work with the Election Commission of Pakistan, including 
improving and updating Pakistan's voter registry, will be essential to 
the integrity and legitimacy of upcoming general elections that are due 
no later than May 2013. Those elections would mark the first civilian 
transfer of power in Pakistan's history.
                             public opinion
    Pakistani public opinion of the United States has historically been 
extremely low for a variety of reasons. During 2011, several events 
occurred--Wiki Leaks, the Raymond Davis incident, May 2, and the 
November cross-border incident--that have provided further challenges 
to the effort to improve Pakistani public opinion of the United States.
    We have continued to implement a strong branding policy in 
Pakistan, as detailed in a briefing provided for your staff last year. 
In 2012, USAID will focus efforts on raising Pakistani awareness of 
United States assistance. A recent USAID-funded study suggests that 64 
percent of Pakistanis are not aware of USAID at all and 86 percent are 
not aware of specific USAID projects.
    While USAID does not anticipate that increased awareness of United 
States civilian assistance will dramatically change historic trends in 
Pakistani public opinion of the United States, we believe increased 
awareness can have a long-term impact on public opinion. Past 
experience shows that greater awareness of U.S. civilian assistance 
does help improve overall perceptions of the United States.
    Accordingly, USAID is working closely with the Embassy Islamabad 
Public Affairs Section to positively message United States civilian 
assistance and increase Pakistani public awareness. The USAID mission 
in Pakistan has contracted with one of Pakistan's leading media groups 
to design and implement integrated information campaigns, primarily 
using television and radio as a vehicle. USAID runs a weekly Urdu 
language radio show that features USAID projects in Pakistan and is 
broadcast across 70 percent of the country. We have also created a 
series of documentaries about our projects, which are being broadcast 
on local TV stations. Additionally, USAID has engaged a local research 
company to conduct public opinion research that will be used to inform 
our strategic communications efforts and evaluate its effectiveness.
    While our relationship with Pakistan is complex, Pakistan's future 
remains vital to our national security and regional interests. As 
challenging as the last year has been, we have many shared interests, 
and it is important we continue to find a way to act on those 
interests, even as we work through difficult issues.
                     cuts in global health funding
    Question. The President proposes to cut funding for the neglected 
tropical disease program from $89 million in fiscal year 2012 to $67 
million in fiscal year 2013. These diseases afflict the poorest people 
in the world. I am told that more than 532 million neglected tropical 
disease treatments have been distributed in 21 countries since fiscal 
year 2006, but this cut would cause a sharp drop in the number of 
people treated and in the number of countries served. The President 
also proposes to cut funding for maternal and child health by $27 
million, and for malaria programs by $31 million. We have worked hard 
for years to build up these programs. Why do these cuts make sense?
    Answer. In light of the constrained fiscal environment, USAID made 
difficult decisions in the development of the fiscal year 2013 budget.
    For the Neglected Tropical Disease (NTD) program, USAID remains 
committed to the control of NTDs and the advances made by this program 
and will strategically plan resources to ensure the greatest outcomes 
of the funding provided for this purpose.
    USAID's NTD program has expanded from five countries, when the 
program began in 2006, to 20 countries in 2012. To date, the program 
has delivered more than 500 million NTD treatments to 200 million 
people. Documentation of control and elimination of the targeted 
diseases on a district-level basis is now underway. In order to 
continue toward national level control and elimination, USAID will 
continue to prioritize those countries closest to elimination.
    USAID's NTD program leverages billions of dollars' worth of 
pharmaceutical donations each year. Pharmaceutical partners have 
significantly increased their donations because of the demand USAID's 
support for treatment programs has created. USAID will continue to 
advocate for other partners to increase their support and commitments 
to NTDs so the gains made to date are not lost and we can continue to 
maximize the leverage from these pharmaceutical partners.
    Every year in developing countries, 7.6 million children younger 
than age of 5 die, two-thirds of which are preventable. USAID goals are 
to reduce under-5 mortality by 35 percent and maternal mortality by 30 
percent across assisted countries. Substantial mortality reduction for 
mothers and children in the developing world is the result of a 
strategic use of resources from donors, governments, and families 
themselves. Mortality reductions are achieved by USAID investments in 
maternal and child health (MCH), malaria, nutrition, and family 
planning programs. USAID's maternal and child health resources are 
focused in the 24 MCH priority countries under the Global Health 
Initiative, which account for more than 70 percent of under-5 
mortality.
    In fiscal year 2013, USAID will expand investment in vaccines 
through our contribution to the Global Alliance for Vaccines and 
Immunization (GAVI Alliance), where the U.S. Government will take 
advantage of the ability to leverage resources from other donors and 
increase the effectiveness of this investment. Immunization programs 
presently prevent approximately 2.5 million under-5 deaths each year. 
By expanding the coverage of existing vaccines and introducing new 
immunizations, we believe we can save the lives of 4 million children 
over just the next 5 years. To do this, we need to deliver routine 
vaccines in new combinations, as well as introduce new vaccines against 
childhood killers, which includes acute respiratory infections and 
diarrheal disease to all children, and especially hard to reach 
children who are presently not receiving any vaccinations. The impact 
of the new pneumococcal conjugate vaccine, which protects against acute 
respiratory infections, could reduce the deaths from childhood 
pneumonia by up to 500,000 every year. Similarly, the rotavirus vaccine 
that combats diarrhea could save 300,000 children who die every year 
from extreme diarrhea.
    Fiscal year 2012 increases in funding for the President's Malaria 
Initiative (PMI) have allowed for the expansion of activities and 
geographic coverage within both Nigeria and the Democratic Republic of 
the Congo (DRC), which together account for almost one-half of all 
malaria cases in Africa, while maintaining coverage and sustaining 
gains in the remaining PMI countries. Further expansion of program 
activities in Nigeria and the DRC will be possible with the fiscal year 
2013 budget request level. PMI will continue to collaborate closely 
with other donors and partners to seek cost savings and sustain the 
gains achieved in focus countries.
               joseph kony and the lord's resistance army
    Question. Your fiscal year 2013 budget request does not mention the 
Lord's Resistance Army (LRA) or anything about implementing the LRA 
Disarmament and Recovery Act. Is that an oversight? What more could be 
done to help Kony's victims recover, to support the early warning 
network and the disarmament and reintegration of former LRA combatants, 
especially child soldiers?
    Answer. While a specific LRA line item is not included in the 
fiscal year 2013 budget, USAID will continue to assist those affected 
by the LRA in Uganda, the Central African Republic (CAR), the 
Democratic Republic of the Congo (DRC), and South Sudan with 
humanitarian and development assistance in fiscal year 2013. USAID's 
fiscal year 2013 CBJ includes approximately $82 million for 
reintegration, recovery and development of conflict-affected 
populations in Northern Uganda, including 1.8 million people who had 
been displaced by the LRA. USAID's fiscal year 2013 budget request also 
includes funding for development programs in South Sudan, a portion of 
which will be in LRA-affected areas (the southwestern region of the 
country) and could benefit individuals affected by LRA violence. USAID 
assistance in Western Equatoria State includes construction of feeder 
roads that will enable agricultural products to get to market, market 
electrification assistance, basic education services, primary 
healthcare delivery, English language instruction via radio programs, 
technical assistance to improve the quality of the water supply in the 
area, and fertilizer and seed distribution programs.
    USAID will continue to utilize humanitarian assistance funds to 
address emergency needs in the DRC, CAR, and South Sudan related to the 
impact of LRA violence, including food security, economic recovery, 
health and protection assistance, as well as continuing reintegration 
assistance for children formerly abducted by the LRA. USAID, in 
conjunction with the Department of State's Bureau for Population, 
Refugees, and Migration (PRM) will continue to monitor the humanitarian 
needs of LRA-affected communities and deliver needs-based humanitarian 
assistance throughout the region. In addition, we have launched a new 
Counter-Trafficking in Persons policy and are elevating our focus on 
trafficking in and around conflict areas; we will be particularly 
focused on the DRC.
    Question. How do you regard the potential for social media to 
inform the public and rally support in response to crises--whether to 
stop the effects of climate change, punish war criminals in Sri Lanka, 
or some other compelling issue?
    Answer. USAID recognizes that social media is a proven catalytic 
force in global politics and requires timely, consistent, and relevant 
communication to be effective. Social media has great potential to both 
inform the public and rally support around a cause, and when harnessed 
correctly, positions USAID to be truly effective in engaging directly 
with myriad development stakeholders. In times of immediate crisis, 
like natural disaster or conflict situations, user-generated social 
media content often provides the world with the first glimpses of the 
disaster. These on-the-ground testimonials can be vital in rallying 
support for direct action, thus resulting in a timelier and ultimately 
more-effective response to distressed areas.
    With longer-term crises, like famine, drought, or public health 
issues, a more measured and intentional approach can and should be 
taken. Social media provides a streamlined, yet far reaching, avenue 
for engaging the public in the places where they both consume and share 
content within their immediate circles of influence and beyond. A 
strong social media campaign can leverage the critical opportunity to 
reach not only our natural audiences, but their extended audiences as 
well. The primary key to that virality is providing timely and relevant 
content of a quality that is worth sharing.
    To that end, USAID partnered with the Ad Council in September 2011 
to raise awareness of the serious plight of more than 10 million people 
who have been at risk from the famine, war, and drought affecting the 
Horn of Africa. Through this partnership, USAID produced several public 
service announcements (PSAs), which featured celebrities, professional 
athletes and well-known personalities, and have aired nearly 20,000 
times, reaching an audience of more than 45 million people. These same 
PSAs garnered more than 150 million forward actions through Facebook, 
Twitter, email, and YouTube, and increased attention to and support for 
the efforts to ameliorate the situation in the Horn of Africa.
    Internationally, USAID's missions utilize various social media 
platforms with increasing regularity, and within the last year, USAID 
has seen an exponential increase specifically with engagement via 
Facebook and Twitter accounts. Recognizing the need to engage with 
development stakeholders in a meaningful way through the social media 
realm, USAID is actively working toward institutionalizing demonstrated 
successes and best practices by supporting its missions' use of these 
platforms. Further, the State Department (Embassy Public Affairs 
Sections) and USAID (Communications Offices) work together in the field 
to improve their communications collaboration and develop cohesive 
strategies that incorporate USAID outreach efforts, leverage different 
networks, and reach relevant target audiences. This information is also 
shared with the USAID Washington Social Media team to further promotion 
via domestic audiences.
                       development grants program
    Question. I started the Development Grants Program (DGP) several 
years ago to provide a relatively small amount of money--$45 million 
out of a total Development Assistance account of more than $2 billion--
to provide small NGOs with grants of less than $2 million for 
innovative proposals. The purpose was to support mostly local NGOs that 
cannot compete for big USAID grants. Unfortunately, USAID did not 
implement the program as intended.
    One of the key goals of your procurement reform is to be able to 
support more grants to smaller NGOs. But given your track record with 
the DGP, it is hard to be optimistic. Why can't these DGPs be made 
available for projects in any sector--agriculture, environment, 
education, democracy and governance, water and sanitation, you name 
it--at any USAID mission that receives a proposal that qualifies?
    Answer. In its first 3 years of programming, the DGP has been 
successful at broadening the USAID partner base by providing direct 
grants to 38 small U.S. private voluntary organizations and 104 small 
local NGOs, the majority of which had not received any prior direct 
USAID funding. In addition to providing small grants, the program 
continues to provide capacity building to strengthen the organizations 
and provide critical program support to missions.
    DGP is valued by missions and has become an important way that 
missions directly engage with small nontraditional partners that have 
access to underserved communities. In many instances, DGP relationships 
have grown into long-term partnerships supporting core mission goals.
    In Zambia for example, under the DGP, a local NGO implemented a 
Water and Sanitation program in schools which increased sustainable 
access to safe drinking water and sanitation facilities, improved 
hygiene, and addressed environmental issues that impacted education 
quality and learner performance. The structured and consistent support 
to the local NGO under the DGP resulted in effective planning, 
implementation and monitoring of activities as well as a strong 
collaboration and positive working relationship with government 
officials, schools, communities and other key stakeholders. Valuing the 
local NGO's reach into the most rural communities, the mission, with 
its own funds, more than doubled the size of the award to the 
organization and now considers them as a strong development partner in 
its Water and Sanitation program.
    All of USAID's programs must address the balance between 
development priorities and budget realities. In the context of the DGP, 
USAID finds that mission capacity to program through local 
organizations and a greater number of smaller partners is increasing to 
meet the same goals. Further, unlike the first 3 years of programming 
in which all of the DGP funds were encumbered with sector directives, 
in fiscal year 2012, more than one-half of the appropriated funds will 
not be required to be used with specified sectors.
                                 haiti
    Question. Some public health experts say the international response 
to the cholera epidemic was fraught with problems, the incidence of 
cholera in some parts of Haiti today remains among the highest in the 
world, the danger of another cholera epidemic in Haiti is high, and the 
country is far less prepared to respond than it was a year ago. If 
cholera were to spread to Jamaica, Mexico, or Brazil, it could be 
disastrous. How do you respond to these concerns? Do you believe the 
United States Government's support for cholera management in Haiti is 
sufficient to prevent another epidemic; and, if so, why?
    Answer. Experts view the rapid spread of cholera within the 
region--with the high mortality rates seen during the early onset in 
Haiti--as highly unlikely, in large part, because sanitation systems 
are more advanced, and access to healthcare is greater.
    As the rainy season approaches, our focus continues to be on 
supporting the Haitian Government in the prevention and treatment of 
cholera. The U.S. Government has integrated cholera response into our 
long-term health programming, ensuring that we are helping to combat 
the disease as long as it continues to threaten the country. The United 
States Government has also taken precautions by prepositioning cholera 
response commodities throughout Haiti. Though spikes in cases are 
possible with the onset of the rainy season, the fact that the case-
fatality rate has remained less than 1 percent for several months is 
good indication that people understand what to do when symptoms occur 
and that the system itself is able to manage the cases that occur.
    Since the cholera epidemic began a year-and-a-half ago, USAID has 
provided cholera treatment through our health service delivery sites, 
which provide access to care for approximately 50 percent of the 
Haitian population. Today, the U.S. Government continues to manage the 
epidemic primarily through our basic health services. All sites in 
USAID's network are capable of treating new cholera cases. All staff 
are appropriately trained, and commodities such as oral rehydration 
salts and IV fluids are on hand to treat patients.
    In addition, the U.S. Government continues to support improvements 
in access to safe drinking water, improved sanitation, and hygiene for 
the people of Haiti, as these represent long-term solutions to the 
cholera epidemic and to many other public health problems that hinder 
the health of the Haitian people and the development of the Haitian 
nation. To date, the U.S. Government has spent more than $73 million to 
fight cholera in Haiti.
                protecting forests and indigenous people
    Question. Last year, we transferred the position of Advisor for 
Indigenous People from the State Department to USAID. Do you know if a 
search is underway to fill that position? It is important because USAID 
gets involved in everything from building roads to logging in tropical 
forests which directly impact indigenous people, and their governments 
often run roughshod over their rights and territories. We are seeing 
that today in Peru, where the Amazon is being carved up for oil, gas 
and logging concessions, and I want to be sure there is a person at 
USAID with authority who indigenous people have access to who will look 
out for their interests.
    Answer. USAID shares your commitment to elevating the interests of 
indigenous peoples, which are currently integrated into many areas of 
programming, including land tenure and property rights, forestry and 
biodiversity, resource governance, rule of law, human rights, and 
community health programs.
    With respect to the position of the Advisor for Indigenous Peoples 
Issues, which was transferred to USAID with the passage of the fiscal 
year 2012 appropriations bill, we are working at the highest levels of 
USAID to determine the appropriate scope of duties for this position, 
its optimal home within the organization, and associated resource 
requirements. We look forward to consulting with your staff to move 
this forward as expeditiously as possible.
                           evaluation policy
    Question. USAID adopted a new evaluation policy in January 2011 
which changed the requirements for evaluating the effectiveness of 
USAID projects and programs. I agree that the way USAID evaluates the 
effectiveness of its programs needs to be more credible, but I worry 
that the emphasis on quantitative analysis is overly-simplistic and 
focuses on short-term impact, rather than longer-term outcomes which 
can be influenced by many factors. I am not sure your results will be 
accurate. How do you respond?
    Answer. USAID's Evaluation Policy has been recognized by the Center 
for Global Development for ``fostering a new culture, of transparency 
and learning.'' The American Evaluation Association has also cited the 
policy as a model other Federal agencies should follow. USAID's 
Evaluation Policy was created to recommit USAID to ``obtain systematic, 
meaningful feedback about the success and shortcomings of its 
endeavors'', and this includes stronger quantitative and qualitative 
analysis. The Policy does not place an emphasis on quantitative 
analysis to the exclusion of other methods. Rather it requires that 
USAID-funded evaluations use methods that generate the highest quality 
and most-credible evidence that corresponds to the questions being 
asked, taking into consideration time, budget, and other practical 
considerations. Given the nature of development activities, both 
qualitative and quantitative methods yield valuable findings, and a 
combination of both is often optimal.
    To ensure that USAID's evaluations address longer-term outcomes, 
evaluation requirements are written into the guidance for the missions' 
Country Development Cooperation Strategies (CDCS). Missions identify 
longer-term outcomes of the USAID country program in the CDCS and 
specify indicators to routinely track change and evaluation questions 
to be addressed over the period of the strategy. In addition to the 
CDCS, evaluation is integrated throughout the USAID Program Cycle, 
which includes long- and medium-term outcomes and includes developing 
and implementing policies and strategies, project design and 
implementation, performance monitoring, and learning from experience to 
improve development outcomes and inform resource requests.
    The Evaluation Policy and USAID's efforts to build evaluation 
capacity, particularly in missions, to conduct high-quality evaluation 
will lead to increasingly accurate, unbiased, relevant, and transparent 
evaluations. USAID is investing in classroom training in evaluation 
methods for staff, creating tools, and resources to guide staff and 
partners, and providing direct technical assistance to staff engaged in 
evaluation design and management. USAID's Bureau for Policy, Planning 
and Learning and USAID technical and regional bureaus are working on 
the sectoral and multi-country learning that complements mission 
evaluations and tracks longer-term outcomes. For example, the new 
Center for Democracy, Human Rights and Governance has established the 
Evaluating Democracy and Governance Effectiveness initiative; a 
comprehensive, long-term program to measure the impact and 
effectiveness of various approaches to democratic development and 
incorporate the findings into USAID policies and programs through 
outreach, training, and field support.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
    Question. Dr. Shah, I commend the U.S. Agency for International 
Development (USAID) in its efforts to improve the delivery of foreign 
assistance in more-efficient ways. With the President's announced shift 
in our national security strategy to focus more on the Asia-Pacific 
region, would you please elaborate on enhancements, new areas of 
interest, or ways USAID will strengthen its work in the region?
    Answer. USAID has responded to the administration's focus on the 
Asia-Pacific region by enhancing existing programs, expanding into new 
areas of focus and strengthening our collaborative work in the region. 
We will work with Asian countries facing management, governance, and 
social challenges that impede progress and growth. USAID will enhance 
key bilateral relationships, such as those in the Philippines and 
Indonesia, where U.S. Government partnership agreements are elevating 
broad based, inclusive economic growth as development priorities.
    In Burma, where emerging reform presents a new opening, United 
States Government officials have been able to travel to Burma to meet 
with government officials and civil society to determine the country's 
development needs. On April 4, 2012, following Burma's successful by-
elections, USAID announced the re-establishment of an in-country USAID 
mission in Rangoon as part of the United States Government's commitment 
to support the Burmese people, reform-minded governmental officials and 
other Burmese leaders who are seeking constructive engagement to 
advance reform in the country.
    USAID Forward and Procurement Reform policies are changing the way 
we conduct business--broadening our collaborative partner base and 
making it easier for small businesses, local institutions, and other 
donors to partner with us. As two examples:
  --USAID's work with Association of Southeast Asian Nations Dialogue 
        partners supports regional program coordination, climate change 
        initiatives, disaster management and regional trade; and
  --USAID efforts promote important multi-donor and multilateral 
        coordination on issues such as the development of hydro-power 
        on the Mekong River.
    Question. Senate Report 112-85, the Senate's State, Foreign 
Operations, and Related Programs Appropriations Act for fiscal year 
2012, which was referenced in the Consolidated Appropriations Act, 
House Report 112-331, directed the Secretary of State to follow 
guidance included in Senate Report 112-74 related to the Compact of 
Free Association (Compact) agreements with the Federated States of 
Micronesia, the Republic of the Marshall Islands (RMI), and the 
Republic of Palau. It also directed the Secretary to work within the 
U.S. Government interagency process to address the domestic impacts of 
Compact migrants on affected jurisdictions. Could you please explain 
what, if any, involvement and role USAID has in this process?
    Answer. USAID is responsible for United States disaster assistance 
and reconstruction services in the RMI and the Federated States of 
Micronesia (FSM), which the United States Government is obligated to 
provide as stipulated in the Compact. While our disaster response and 
reconstruction program does not directly address the domestic impacts 
of Compact migrants, it does support these countries' ability to 
anticipate and mitigate the effects of natural disasters. Our efforts 
help reduce the number of Compact citizens who will have to migrate to 
the United States due to disasters.
    Question. With respect to the Compact countries, currently, the 
Departments of the Interior and State participate in the Joint Economic 
Management Committee and Joint Economic Management and Fiscal 
Accountability Committees to strengthen the management and 
accountability of assistance provided to Compact countries. This 
involves a review of the development plans and other planning and 
budget documents of the governments, as well as monitoring the progress 
being made toward sustainable economic development and budgetary self-
reliance. USAID's mission is development assistance to countries for 
the purpose of helping them gain stability and sustainability. I 
believe this is an area USAID's experience and technical expertise 
would be invaluable, and would be interested to learn what involvement 
USAID may have in this process and what it might be able to lend to the 
Departments of the Interior and State.
    Answer. USAID has more than 50 years of experience in partnering 
with governments to build sustainable institutional capacity in 
developing countries. We have developed technical expertise in 
improving governments' capacity to formulate and implement economic 
development plans; improve fiscal stability; reinforce anticorruption 
measures; and strengthen rule of law. While USAID's program is limited 
to disaster assistance in the RMI and FSM, we welcome opportunities to 
share our technical expertise in other areas critical for the Compact 
countries' sustainable economic development.
    When the Federal Emergency Management Agency (FEMA) of the 
Department of Homeland Security was responsible for disaster assistance 
under the Compact, that FEMA's role was restricted to disaster relief 
and reconstruction. USAID is now able to fulfill the U.S. Government's 
obligations under the Compact, while helping to strengthen each 
country's capacity for disaster mitigation, response, recovery, and 
reconstruction at both national and community levels. USAID will work 
with the Departments of the Interior and State to ensure our programs 
are complementary in building sustainable institutional capacity.
    Question. I am interested in learning what USAID's plans are for 
development assistance in the larger context of the South and Western 
Pacific, and what it is currently undertaking in this key strategic 
area.
    Answer. USAID seeks to play a key role in deepening U.S. Government 
engagement in the Pacific region. Our programs in the Pacific are 
regionally focused, but target South and Western Pacific countries, 
including Papua New Guinea (PNG), RMI, FSM, Kiribati, Nauru, Palau, 
Samoa, Solomon Islands, Fiji, Vanuatu, and Tonga.
    The value of U.S. Government presence is magnified by our programs' 
focus on issues that pose the greatest socio-economic threat to the 
Pacific island countries:
  --Mitigating the negative impacts of global climate change in a 
        region that is among the most vulnerable in the world to the 
        adverse effects of climate change, but least able to respond;
  --Addressing the impact of HIV/AIDS in PNG, which suffers from the 
        highest HIV/AIDS epidemic rate in the Pacific; and,
  --Strengthening democratic institutions in PNG and Fiji, where 
        democracy is still fragile.
    To further maximize the impact of our programs, USAID:
  --Collaborates and leverages the funding of key donors in the region, 
        including Australia, New Zealand, and Japan and other 
        multilateral organizations such as the United Nations, the 
        World Bank, and Asian Development Bank;
  --Supports key regional institutions; and
  --Forges greater synergy and unity of effort among the different U.S. 
        Government agencies working in the region for a more-effective 
        ``whole-of-government'' approach that makes the best use of 
        limited resources.
    The opening of USAID's satellite office in Port Moresby, Papua New 
Guinea in October 2011 is a recent example of increased U.S. engagement 
in the region. USAID's presence has contributed to expanding the U.S. 
Government's outreach and diplomatic capacity in the region.
    Question. Would you please tell me what USAID's plan for economic/
development assistance is for the country to the Philippines?
    Answer. A team of economists from the United States and the 
Philippines analyzed and identified the country's most binding 
constraints to growth. To ensure the Government of the Philippines 
ownership of the new approach, the analysis was a collaborative effort 
and included development objectives outlined in the Philippines 
Development Plan (PDP), 2011-2016. The PDP is a document developed by 
the Government of the Philippines that closely aligns with the United 
States' 5-year strategy from 2012-2016. Under the new strategy, USAID 
will focus on two key areas to address economic/development assistance 
in the Philippines:
  --regulatory reform; and
  --fiscal space
areas identified as among the most critical constraints that prevent 
the Philippines from realizing its full economic potential.
    The United States Government supports the Government of the 
Philippines measures to reduce the cost of doing business, improve the 
investment climate, ensure that import regulations are science-based, 
and ease restrictions on market entry. Rule of law and judiciary 
reforms will support these critical initiatives. The Government of the 
Philippines has committed to streamlining business procedures 
(predictability, reliability, and efficiency) at national and local 
levels to reduce the country's cost of doing business and they have 
committed to improving the overall investment climate through 
regulatory reforms. The Government of the Philippines is pursing 
implementation of the Anti-Red Tape law and a Philippine Business 
Registry system to establish an on-line system for national business 
registration.
    Improving fiscal space is the second key area on which USAID will 
work. Low government revenue due to a narrow tax base and ineffective 
expenditure management, caused in part by favoritism in government 
contracting, inhibit growth. Through this strategy, programs will 
address inefficient revenue generation, strengthen tax collection 
enforcement and improve expenditure management of the Government of the 
Philippines agencies.
    Question. In your testimony, you spoke about the focus being given 
to North Africa and the Middle East, especially following the 
revolutions in the region early last year. How does USAID plan to 
sustain its various assistance, economic and reform oriented, while 
shifting focus to the Asia-Pacific region and maintaining the current 
operational tempo in Iraq and Afghanistan?
    Answer. In North Africa and the Middle East, USAID will remain an 
active and sustained partner as the region transforms. As the U.S. 
Government shifts focus to the Asia-Pacific, we are utilizing our 
resources differently. Through innovation and reinvention, USAID will 
expand focus to the Asia-Pacific while sustaining our current efforts 
elsewhere. In October 2011, USAID opened an office in Port Moresby, 
Papua New Guinea, to manage programs throughout the Pacific Islands. 
Additionally, USAID will re-open its mission in Rangoon to better serve 
the nascent democratic process in Burma and provide increased oversight 
to our on-going programs.
    USAID is in the midst of finishing a comprehensive portfolio review 
in Afghanistan. Last June, Administrator Shah issued Sustainability 
Guidance that mandates all programs in Afghanistan be reviewed and 
adjusted to ensure they are implemented with the driving principles of 
accountability, sustainability, and social and gender inclusion, and 
that they be implemented in partnership with the Afghan government. 
Allocation of aid resources will increasingly be based on maximizing 
capacity-building initiatives and development impacts as aid budgets 
shrink to enable a viable Afghan transition.
    USAID's projects in Iraq transitioned from stabilization assistance 
to development assistance beginning in 2009. The State Department, 
USAID, and our other U.S. Government partners continue to meet the 
challenge of operating successfully in a dynamic environment while 
still maintaining the safety of our personnel by:
  --Contracting third-party monitoring and evaluation specialists who 
        have greater access to project sites, are less limited by 
        security concerns, and possess local knowledge.
  --Employing local Iraqi professionals to provide an additional layer 
        of oversight and greater access to project sites, 
        beneficiaries, and counterparts.
  --USAID employs more than 1,100 implementing personnel in Iraq, 
        nearly 1,000 of whom are local Iraqi employees, or 90 percent.
    Question. The American Schools and Hospitals Abroad (ASHA) program 
is very important to assisting our friends and partners overseas. I 
have been very supportive of ASHA in the past, in particular its work 
in Israel. Would you please explain how much an average ASHA grantee 
receives, and how many grantees ASHA supports? Finally, I have 
supported efforts by the Israel Center for Excellence in Education 
(ICEE) in the past, and I understand they have benefited from ASHA 
support many years ago. Dr. Shah, would you please explain how the 
grant process has changed over the years, and if ICEE submitted a grant 
application, I would be interested in learning about its current 
status.
    Answer. USAID's ASHA program administers a worldwide grant program 
that reflects both the pioneering spirit and the generosity of citizens 
of the United States. USAID appreciates your past and future support of 
the program, including its work in Israel.
    In order to ensure an equitable distribution of ASHA funds to 
entities whose proposals best support the program's objectives, ASHA 
conducts a fair and competitive process in order to allocate grant 
funds each year. On average, ASHA receives approximately 80-100 
applications in response to the annual Request for Applications. Of 
that number, 25-35 new grants are awarded annually. The individual 
grant awards range from $150,000 to $2,000,000.
    USAID/ASHA has recently modified the grant process in the last year 
by utilizing www.grants.gov as the means to post its Request for 
Applications. fiscal year 2012 funding requests are currently being 
reviewed by a USAID Technical Evaluation Committee, and it is 
anticipated that final agency recommendations will be made in June or 
July 2012.
    ICEE did not submit an application for this past grant application 
cycle, which ended October 31, 2011. We appreciate your show of support 
and encourage ICEE to apply to the upcoming grant application cycle, 
which will be available on www.grants.gov in June or July 2012.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin
    Question. While I commend the efforts being made by the United 
States Agency for International Development (USAID) to cut waste in the 
delivery of its assistance, I wish to assure that we maintain a broad 
connection between democracy and labor rights groups in the United 
States with their counterpart partners in developing nations. This is 
especially important when we want to promote such groups around the 
world, often in countries where direct associations with the U.S. 
Government is problematic. Can you tell me how USAID is balancing the 
important role these intermediary organizations play with its efforts 
at greater localization of assistance contracts?
    Answer. USAID will continue to offer significant support to 
international democracy and labor rights groups, particularly as they 
support local counterpart organizations.
    The connection between local organizations in developing countries 
and democracy and labor organizations in the United States is supported 
through the Agency's guidance regarding incorporation of Local Capacity 
Development into USAID project designs. Building strong partnerships 
between local and American organizations that respond to similar 
issues, or have similar organizational missions, can facilitate the 
emergence of stronger promotion of democracy and labor rights. 
Considering the potential value of such relationships is part of 
appropriate project design, and is reinforced through the guidance that 
is shared with missions.
    This is especially true in the area of international labor rights 
programming. USAID supports U.S. intermediary organizations, like the 
Solidarity Center and the International Labor Rights Fund, in order to 
leverage specialized expertise to strengthen unions and labor rights 
nongovernmental organizations (NGOs) in developing countries and 
connect them to the global labor movement. A good example of this is 
USAID's $37.5 million Global Labor Program (GLP) Leader with Associates 
Award, a 5-year program with the Solidarity Center that is currently 
active in nine countries and four regions (Africa, Asia, Latin America, 
and Eastern Europe). Due to the Solidarity Center's successful capacity 
building of local unions and labor rights NGOs, this support helps 
prepare the type of local organizations that USAID seeks to strengthen 
through local capacity development and localized assistance contracts. 
USAID recognizes that support to U.S. intermediaries like the 
Solidarity Center and the International Labor Rights Forum, a 
consortium partner in USAID's Global Civil Society Strengthening 
Program, is important to this effort.
    USAID also promotes democracy groups in developing countries by 
encouraging USAID missions to incorporate them into the monitoring and 
evaluation of USAID programs that use partner country systems, thus 
bringing a more-sustainable form of accountability to developing 
country governments. This is reflected in USAID's policy on the use of 
partner country systems.
    Question. I very much applaud your efforts to strengthen 
independent civil society and NGOs around the world. Can you outline 
how the President's budget request will support the strengthening of 
democracy, human rights groups, and labor unions around the world 
through funding by USAID? How is USAID strengthening worker rights in 
Arab Spring countries that have seen trade unions leading efforts for 
democratization?
    Answer. The President's budget request for fiscal year 2013 
includes $2.84 billion for State Department and USAID programs to 
strengthen democracy, human rights and governance worldwide. Under this 
broad rubric, both the State Department and USAID will plan programs 
to:
  --ensure free and fair elections;
  --promote freedom of association and strengthen civil society 
        organizations;
  --support human rights organizations in their monitoring and advocacy 
        efforts; support independent media; and
  --strengthen labor unions and worker rights.
    USAID's programs promote freedom of association, working to ensure 
that NGO laws provide an enabling environment for a vibrant, 
independent civil society sector. USAID also builds the organizational 
capacity of NGOs to advocate on behalf of constituents, influence 
policy dialogues, and hold governments accountable for their 
performance. In the Middle East, USAID's programs focus on empowering 
new actors, including women, youth, minorities, and other communities 
that have been excluded from political and economic power.
    USAID support for workers' rights revolves around the GLP, 
implemented by the Solidarity Center, which promotes international core 
labor standards, works to improve workers' access to justice, and 
supports independent, democratic labor unions and NGOs.
    USAID has workers' rights programs in Ukraine, Georgia, Bangladesh, 
Cambodia, South Africa, Liberia, Mexico, Honduras, Brazil, Peru, 
Colombia, Kyrgyzstan, and Vietnam. While USAID does not have specific 
programs focusing on workers' rights in the Middle East and North 
Africa, the Department of State's Bureau for Democracy, Human Rights 
and Labor is supporting independent trade unions in Egypt. USAID 
coordinates its programming closely with the Department of State.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                          vulnerable children
    Question. In just 9 days, the inspirational video created by the 
American nongovernmental organization Invisible Children--which focuses 
on Lord's Resistance Army (LRA) leader Joseph Kony--has attracted more 
than 78 million views on YouTube and generated hundreds of thousands of 
dollars in donations on its release day alone. Louisiana constituents, 
particularly younger Louisianans, have been contacting my office 
nonstop in support of the ``Kony 2012'' movement with phone calls and 
emails. Though the size of the LRA is dwindling and Joseph Kony is now 
thought to be operating from the Congo or the Central African Republic 
(CAR), some 440,000 Ugandans have been displaced by the conflict--most 
of them children.
    Do you mind detailing the United States Agency for International 
Development's (USAID) support for these conflict-affected children and 
former child soldiers in Uganda?
    Could you explain USAID's efforts to restore the livelihoods of 
conflict-affected children? Is there a focus on reconnecting these 
children with the families from which they were kidnapped?
    Answer. USAID has been heavily engaged in addressing the needs of 
LRA-affected communities since the late 1980s, when USAID began 
providing humanitarian assistance in Northern Uganda. Although the 
threat of the LRA has shifted from terrorizing communities in Northern 
Uganda to CAR, the Democratic Republic of Congo and South Sudan, USAID 
remains committed to addressing the needs of affected populations, 
including children, in Uganda. In fiscal year 2011, USAID provided 
approximately $102 million in assistance to Northern Uganda. The needs 
of children, women, and other vulnerable groups are addressed through 
programs that promote reconciliation, restore livelihoods and rebuild 
the region. USAID programs do not isolate child soldiers, but rather 
integrate them and their unique needs into our programs designed to 
promote reconciliation. By linking the specific needs of formerly 
abducted persons with those of their communities, USAID ensures a 
whole-of-community approach that addresses both the short- and long-
term needs of conflict-affected children and former child soldiers. 
USAID programming to support conflict-affected children and their 
communities in Northern Uganda include:
  --psychosocial support;
  --vocational and leadership training;
  --peace education;
  --livelihoods training and agricultural extension;
  --community consensus-building; and
  --provision of family support social services.
    As the needs in Northern Uganda have evolved from short-term, 
quick-impact transition initiatives to longer-term development, USAID 
has transitioned its work in Northern Uganda to address these long-term 
issues. As an example, the Supporting Access to Justice, Fostering 
Equity and Peace program is a new 5-year program that continues peace 
and reconciliation efforts in LRA-affected areas and proactively 
addresses emerging development issues and conflict drivers, such as 
land disputes and government service delivery.
    USAID began transitioning from providing emergency food assistance 
to internally displaced persons (IDPs) in the camps to supporting the 
return of IDPs to their former homes. Since 2006, USAID/FFP has 
provided more than $100 million in title II Development Food assistance 
benefiting 87,000 families in 21 districts in Northern Uganda. This 
assistance has included:
  --support for increased agriculture production;
  --HIV/AIDS awareness;
  --infrastructure development;
  --maternal and child health and nutrition; and
  --water, sanitation, and hygiene.
                           procurement reform
    Question. The administration has said that it wants to make foreign 
aid more effective and efficient and has made some progress on this, 
particularly through the USAID Forward agenda. I've been a supporter of 
procurement reform and was pleased to see that just this past month, 
USAID simplified its regulations so that the agency can support smaller 
businesses in the United States and abroad--supporting economic growth 
in areas that really need it--when buying goods and services. The 
President's fiscal year 2013 budget requests that $16 million be 
appropriated to the USAID operating expenses account to support the 
USAID Forward agenda, and particularly procurement reform. The request 
notes that several new civil service positions are needed to implement 
procurement reform to develop smaller contracts appropriate for partner 
country systems.
    What other local procurement activities are envisioned by this $16 
million?
    Answer. The $16 million identified in the President's fiscal year 
2013 budget for procurement reform includes $13 million in fiscal year 
2012 appropriated operating expenses (OE) and $3 million in the fiscal 
year 2013 appropriation. Per the fiscal year 2012 statement of managers 
provision that at least $25 million of the appropriation be made 
available for procurement reform in fiscal years 2012 and 2013, the $13 
million reflects the carryover funding for fiscal year 2013 activities. 
Hence, only $3 million for 16 new civil service positions for 
procurement reform is requested for appropriation in fiscal year 2013.
    With the additional funding, USAID will be able to field more 
acquisition personnel to support the increased local procurement 
activities and related local capacity development interventions. 
Additional work includes the need to complete pre-award surveys for 
local organizations that have never had a direct award with the U.S. 
Government, assess the capacity development needs of the organizations, 
and provide capacity-building support to ensure accountability for U.S. 
taxpayer funds and compliance with U.S. law and policy requirements.
    Question. Additionally, what steps have been taken to help both 
small U.S. and developing country businesses know about and take 
advantage of these recent regulatory changes?
    Answer. USAID has increased and focused its outreach efforts to 
both small U.S. and developing country businesses to inform them of the 
Implementation and Procurement Reform Initiative and opportunities for 
direct and indirect partnership implementing USAID-managed development 
resources. For U.S. small businesses, USAID's Office of Small and 
Disadvantaged Business Utilization (OSDBU) conducts on-going outreach 
activities at both USAID-sponsored events and external small-business 
conferences. These outreach efforts provide forums for OSDBU to counsel 
U.S. small businesses seeking contracting opportunities at USAID. In 
fiscal year 2012, OSDBU will take part in more than 25 small-business 
outreach events, including hosting the 5th Annual USAID Small Business 
Conference. This conference provides a forum for U.S. small businesses 
to hear from senior USAID leadership and program officials regarding 
IPRI and future contracting opportunities at USAID. Additionally, OSDBU 
conducts periodic Vendor Day sessions with all categories of U.S. small 
businesses.
    For developing country business, the Agency's Partner Community 
Outreach Plan, available at http://www.usaid.gov/business/
USAIDPartnerCommunityOutreach
Plan.pdf, provides guidance to USAID personnel on outreach to new and 
existing partners. Missions have started holding ``Industry Days'' and 
``Pre-solicitation Conferences'' and inviting local organizations to 
participate. For example, the USAID mission in Rwanda recently held a 
``How to Do Business with USAID'' for potential local applicants for a 
health award solicitation. The USAID mission in Philippines held 
similar events for solicitations in the Economic Growth and Democracy 
and Governance sectors. In Egypt, the USAID mission held a series of 
outreach events attended by more than 1,400 people to learn about the 
process for submitting applications under an Annual Program Statement. 
As part of a series of field-based Local Capacity Development training/
workshops, USAID personnel have been trained on mapping local civil-
society and private-sector organizations to identify prospective local 
partners and assess their capacity to implement activities. Missions 
are encouraged to invite prospective local partners to ``Partner 
Exchange Days'', which provide opportunities for prospective 
implementation partners to provide feedback on project designs and 
identify potential partnerships, and ``Pre-Proposal Conferences'', 
which provide information on upcoming solicitations, and invite local 
organizations to participate.
                            central america
    Question. Within Central America, the deteriorating security 
situation threatens citizen safety. Narcotics traffickers continue to 
establish trafficking routes to and through the region. The continued 
expansion of national and transnational gangs creates communities of 
fear where illicit organizations are effectively in control. At a time 
when many of our regional partners are fighting a brutal battle in 
their countries against organized crime, the President's fiscal year 
2013 budget request recommends that the State Department make a $5 
million cut from enacted fiscal year 2012 levels to the Central America 
Regional Security Initiative (CARSI). The President recommends that the 
International Narcotics Control and Law Enforcement Account 
appropriation to the Western Hemisphere be reduced by $92 million for 
fiscal year 2013. Can you please explain the President's logic in 
making such a sizeable reduction to this appropriation for the Western 
Hemisphere, when drug-related violence and narcotics trafficking is at 
an all-time high?
    Answer. We share your concern regarding the citizen security crisis 
in Central America, and the accompanying factors that bring violence to 
the region. The problem is large and complex, but the United States is 
committed to continuing to work with Central American governments, as 
well as other donor nations and institutions, to support the region's 
efforts to reverse the deteriorating state of citizen security.
    Through its programming and policy advocacy, CARSI seeks to reduce 
the region's levels of crime and violence, support prevention efforts 
for at-risk youth and those living in marginalized communities, and 
strengthen rule of law institutions. The Bureau of International 
Narcotics and Law Enforcement Affairs (INL) and USAID are implementing 
CARSI programs capable of being replicated or ``nationalized'' by host 
nations. Examples of this are Model Police Precincts, the opening of 
youth outreach centers and vocational training centers, and the 
development of ``Municipal Crime Prevention Strategies'' in communities 
at-risk. CARSI also supports border security professionalization, 
assistance for judicially authorized wire intercept programs, seized 
asset programs, and the training and vetting of specialized 
investigative units.
    Since fiscal year 2008, the United States has committed $361.5 
million to these efforts. The administration requested $100 million for 
CARSI for fiscal year 2012; however, we plan on allocating $105 million 
for CARSI (INCLE: $60 million; ESF: $45 million), pending final 
congressional approval. The administration's fiscal year 2013 budget 
request of $107.5 million will represent a 2.3-percent increase more 
than the fiscal year 2012 actual allocation for CARSI (INCLE: $60 
million--no change; ESF: $47.6 million--5.7-percent increase).
    Citizen security is a priority for the people of Central America 
and the hemisphere. The administration's proposed fiscal year 2013 
$91.8 million reduction in Western Hemisphere INCLE funding largely 
accounts for the continuing transition of counternarcotics and rule of 
law programs to the Government of Colombia as it continues to build and 
strengthen its capacities, which reflects the success of United States 
assistance investments. In fact, Colombian capacity has reached the 
point where they are providing law enforcement training and assistance, 
in cooperation with the United States, in both Mexico and Central 
America. In Mexico, the fiscal year 2013 INCLE budget request decrease 
reflects a reorientation of efforts in Mexico from the acquisition of 
equipment to training, mentoring and capacity building, all of which 
are lower cost and provide long-term sustainability.
    Given the proximity of Central America to our own border, and the 
efforts of transnational trafficking organizations in Central America, 
Colombia and Mexico, we will continue our commitment to Central 
American and in the hemisphere to sustain our efforts and support our 
partners in addressing their most pressing citizen security, rule of 
law and prevention challenges.
    Question. The U.S. Congress voted to ban military aid to Guatemala 
in 1990 due to concerns regarding human rights abuses committed by the 
Guatemalan army. Today, the ban remains in place as a partial 
restriction that limits Foreign Military Financing (FMF) and 
International Military Education and Training (IMET) funding to the 
Army Corps of Engineers, Navy and Air Force, allowing only Expanded 
IMET to the Guatemalan army. The fiscal year 2012 omnibus 
appropriations bill, which passed through the Congress last December, 
states that funding to the Army will only be considered in fiscal year 
2013 if the Army complies with a series of stipulations, including ``a 
narrowly defined mission focused on border security and external 
threats, cooperation with civilian investigations and prosecutions of 
cases involving current and retired officers and with the CICIG, and . 
. . publicly disclosing all military archives pertaining to the 
internal armed conflict.''
    Does USAID concur with these requirements and do you believe that 
the Guatemalan army is ready to receive regular FMF and IMET funding?
    Answer. The Department of State has indicated to both the current 
and past Guatemalan governments that we are willing to discuss the 
United States congressional restrictions on IMET and FMF funding for 
the Guatemalan army, and we have encouraged the Guatemalans to discuss 
the restrictions with Members of Congress. While it is early in the 
Perez Molina administration, going forward we will thoroughly assess 
the military's commitment and progress with regard to human rights, 
internal reform, and other key issues, as outlined in the manager's 
report accompanying this year's appropriations act. The Guatemalan 
military is responsive to civilian political authorities, it has a 
human rights and international humanitarian law training program, and 
has provided key complementary support to law enforcement as part of 
Perez Molina's strategy to improve citizen security. The Guatemalan 
military is also continuing to work with representatives of the Central 
American archives to explore the possibility of putting the conflict-
era military archives online through the University of Texas. It has 
earned significant international and Guatemalan public respect for its 
work in support of peacekeeping operations, disaster response, and 
recovery efforts.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
    Question. Recent events have underscored the importance of the 
current United States strategy to continue withdrawing our troops from 
Afghanistan. What role do you see the United States Agency for 
International Development (USAID) playing in Afghanistan after our 
troops have left the country?
    Answer. Afghanistan faces a critical turning point in the next few 
years. Insecurity, corruption, the narcotics trade, and political 
instability continue to pose challenges to fragile gains in development 
and governance. The drawdown of international combat forces and the 
associated economic impact will slow growth. But as the recently 
concluded U.S.-Afghanistan Strategic Partnership Agreement (SPA) makes 
clear, we will stay engaged in Afghanistan for the long-term, providing 
the Afghan people support so that they can pursue a future of greater 
stability and dignity.
    The path to sustainable stability in Afghanistan requires continued 
commitment to civilian assistance, but increasingly through efforts 
that will boost Afghan self-sufficiency. The signing of the SPA is a 
major accomplishment and pivotal milestone on this path. The United 
States commitment to seek funding from the Congress for continued 
economic assistance is contingent on the Afghans fulfilling their 
commitments and obligations to strengthen accountability, transparency, 
oversight, and the effectiveness of government institutions. Through 
the SPA, we seek to cement an enduring partnership with Afghanistan 
that strengthens Afghan sovereignty and stability while promoting 
respect for the constitution, human rights, and the advancement of 
women.
    We have prioritized our assistance portfolio to make foundational 
investments that will enable transition to full Afghan security 
responsibility, and help to ensure Afghans increasingly have the skills 
and resources necessary to chart their own future. USAID plans to 
invest in priority sectors that are critical to private sector-led 
economic growth:
  --agriculture;
  --extractive industries;
  --trade; and
  --human capacity development.
    In addition, we are working with the Afghan authorities to ensure 
credible and inclusive national elections in accordance with the Afghan 
constitution, including by supporting and strengthening political 
parties and civil society coalitions to participate fully in an 
inclusive and representative democracy.
    In one of the most food-insecure countries on Earth, our 
agriculture assistance will help significantly boost crop yields, farm 
income, access to markets, and reduce dependence on opium poppy for the 
80 percent of Afghans who make their living from subsistence farming. 
Afghanistan's endowment of mineral wealth provides enormous 
opportunities to expand industry, trade corridors, and revenues, but 
presents significant potential pitfalls as well. USAID will work with 
the Afghan Government and the private sector to improve the investment 
climate, increase Afghan capacity to create and implement a policy and 
regulatory framework that meets international best practices, and 
transparently report and manage resource flows so that they benefit the 
Afghan people.
    As you well know, Afghanistan remains a poor country and as such, 
we cannot, and should not, set unrealistic goals. USAID is making 
difficult choices to sharpen our focus--reducing infrastructure 
investments in order to support the government to maintain the 
infrastructure it already has. Likewise, we are cementing, rather than 
expanding, gains in health and education, and are reorienting 
stabilization efforts to more directly support the transition and a 
sustainable Afghanistan.
    The G8, Chicago, and Tokyo conferences will be instrumental in 
engaging the Afghan Government and international community to advance 
our diplomatic and civilian efforts in the region.
    Question. On the 2-year anniversary of the Haiti earthquake this 
year, I wrote to the State Department expressing concern about the slow 
distribution of aid to the region. In January, the State Department 
responded by noting the many challenges that State and USAID have faced 
in distributing this aid. Understanding that USAID faces considerable 
challenges, what are you doing to speed the distribution of aid?
    Answer. The United States Government continues to move forward in 
programming our funds to meet the needs of the Haitian people. Since 
our response to you on January 19, 2012, we have made significant 
strides in accomplishing our goals set forth in our Post-Earthquake USG 
Haiti Strategy. As of March 1, 2012, USAID shelter solutions benefited 
64,478 households--or more than 322,000 people-- approximately one-
fifth of the 1.5 million people estimated to have been displaced by the 
earthquake. Overall, internally displaced persons (IDPs) are down to 
490,545 from the estimated 1.5 million after the earthquake. In 
addition, our efforts have removed 2.31 million cubic meters of 
rubble--almost one-half of all the rubble that has been removed.
    We have also made progress in longer-term development solutions. 
Our agricultural programs are increasing farmer incomes and 
productivity. The 2011 harvest produced increased yields in corn (+368 
percent), rice (+118 percent), beans (+85 percent), and plantains (+21 
percent). The 2012 planting season will incorporate new innovations in 
productivity and continue the progress being made.
    We have also successfully launched $6 million in programs to 
benefit vulnerable populations, specifically people with disabilities. 
These efforts will improve access to services, and the legal and policy 
environment, train health personnel to better understand and attend to 
their needs, and strengthen advocacy groups focused on this effort. 
Also, a $22 million human rights program is now underway which will 
protect the rights of children, women, and youth.
    We have addressed several key obstacles such as staffing shortages 
and procurement support. As a result, our pace of programming continues 
to accelerate, while still adhering to the requisite environmental and 
seismic data assessments.
    The resignation of Prime Minister Conille may unfortunately slow 
down development efforts. For our programs to function better and be 
implemented faster, we need a Haitian Government that is fully engaged 
and that is showing no tolerance for corruption and reaffirming its 
commitment to democracy and rule of law. Such engagement will also 
serve as a signal to other donors that their investments will be 
worthwhile and spent effectively.
    Question. It is critical that gender issues are integrated 
throughout all of our foreign aid programs, so I was pleased to see 
that USAID recently released a new policy on gender equality and 
women's empowerment. What metrics will you use to specifically 
determine the impact this new gender policy is having on women and 
girls around the globe?
    Answer. USAID's newly updated policy on Gender Equality and Women's 
Empowerment mandates the Agency to monitor the impacts of our 
investments on males and females and to measure our results in specific 
ways. To that end, USAID will measure performance in closing key gender 
gaps and empowering women and girls; ensure that our monitoring and 
evaluation methods include gender indicators that measure progress 
toward gender equality and women's empowerment; and ensure that 
projects collect and use sex-disaggregated data.
    USAID has already put in place various metrics to determine the 
impact of our investments. USAID's Feed the Future Initiative developed 
an enhanced monitoring and evaluation system that will comprehensively 
track the impact of our work on women and girls using a newly designed 
Women's Empowerment in Agriculture Index created in collaboration with 
the International Food Policy and Research Institute and Oxford's 
Poverty and Human Development Initiative. The Index is the first 
measure to directly capture women's empowerment and inclusion levels in 
the agricultural sector. It focuses on five areas:
  --decisions over agricultural production; and
  --power over productive resources such as:
    --land and livestock;
    --decisions over income;
    --leadership in the community; and
    --time use.
    Women are considered to be empowered when they meet the 
requirements in some combination amounting to 4 of the 5 areas. The 
Index also takes into consideration the empowerment of women compared 
with men in the same household, based on asking women and men the same 
survey questions. The Index will be used to monitor and evaluate 
programs in all 19 Feed the Future countries to ensure that our efforts 
are empowering women and supporting the essential role they play in 
reducing hunger and advancing prosperity.
    In 2011, the State-USAID Performance Plan & Report system was 
significantly revised and the entire Foreign Assistance indicator suite 
was re-engineered. This new system includes seven output and outcome 
indicators on gender equality, female empowerment, and gender-based 
violence that Operating Units will use in Performance Management Plans 
and Reports for tracking progress toward implementation results and 
measuring impact across programs. The seven indicators are:
  --Number of laws, policies, or procedures drafted, proposed, or 
        adopted to promote gender equality at the regional, national or 
        local level.
  --Proportion of female participants in U.S. Government-assisted 
        programs designed to increased access to productive economic 
        resources (assets, credit, income, or employment).
  --Proportion of females who report increased self-efficacy at the 
        conclusion of U.S. Government-supported training/programming.
  --Proportion of target population reporting increased agreement with 
        the concept that males and females should have equal access to 
        social, economic, and political opportunities.
  --Number of laws, policies or procedures drafted, proposed, or 
        adopted with U.S. Government assistance designed to improve 
        prevention of or response to sexual and gender-based violence 
        at the regional, national, or local level.
  --Number of people reached by a U.S. Government-funded intervention 
        providing GBV services (e.g., health, legal, psycho-social 
        counseling, shelters, hotlines, other).
  --Percentage of target population that views gender-based violence as 
        less acceptable after participating in or being exposed to U.S. 
        Government programming.
    These seven indicators were designed to be broad so that they can 
be used across various sectors--from health to democracy and governance 
to economic growth. Already, missions have asked implementing partners 
to begin collecting data and set targets for these indicators that can 
be used in fiscal year 2013 performance reports.
    Question. If we do not take real steps to stop the worst effects of 
climate change, what additional resource burdens will USAID face in 
trying to meet development goals in our partner countries?
    Answer. Climate change is already expected to exacerbate existing 
development pressures and most heavily impact the poor in developing 
countries. If steps are not taken to stop the worst effects of climate 
change, the impacts undoubtedly will be greater and place additional 
burdens on USAID programs, as well as countries that can least afford 
to handle them. Among the additional resource burdens USAID and its 
partners will face are:
  --Additional obstacles to achieving development goals in food 
        security, health, and economic growth. More variable rainfall, 
        stronger storms, and temperature changes, driven by unmitigated 
        climate change, have the potential to reduce agricultural 
        productivity. Agricultural productivity is projected to decline 
        in some continents, especially Africa and South Asia, at a time 
        of rapidly growing demand for food, threatening the success of 
        USAID's food security investments. The combined climate change 
        impacts of warming and ocean acidification are projected to 
        result in nearly all coral reefs classified as threatened by 
        2050, impacting the roughly 500 million people who depend on 
        reef ecosystems for their protein. Similarly, increased 
        incidence of flooding and drought, saltwater intrusion into 
        drinking water supplies, and the migration of disease vectors 
        into new areas (such as mosquitoes carrying malaria) will 
        affect public health by undermining access to clean water and 
        sanitation, undercutting nutritional gains, and changing 
        disease distribution patterns and prevalence. Reduced 
        agricultural productivity, combined with increased disease 
        burdens and increased economic losses from climate change-
        related damage will undermine effort to achieve sustainable 
        economic development in USAID-partner countries as well as 
        place additional burdens on the Agency.
  --Increased demand for humanitarian assistance. Unmitigated climate 
        change is likely to increase the severity and frequency of 
        natural disasters, such as floods and droughts. USAID already 
        spends significant resources responding to both immediate 
        humanitarian and long-term reconstruction needs after natural 
        disasters. These needs would increase with the number and 
        severity of disasters. Rising sea levels will render some 
        densely populated coastal areas uninhabitable, creating 
        ``climate refugees'' who will be forced to move to higher 
        ground.
  --Increased need to respond to conflict and political instability. 
        Any humanitarian crises, caused or exacerbated by climate 
        change will undermine the social, economic, and political 
        stability of our allies and partners, leaving them less able to 
        help address other global challenges. Climate change may 
        exacerbate water scarcity and increase conflicts; it could 
        trigger displacement and contribute to national and regional 
        resource governance tensions, threatening U.S. national 
        security objectives in key regions of the world. The U.S. 
        military, USAID, and intelligence community consider climate 
        change to be a ``threat multiplier.''
    Question. Worldwide, there are more than 200 million women who want 
to delay or prevent pregnancy but lack access to modern contraceptive 
methods. What new approaches and innovations is USAID supporting to 
meet these family planning needs? Additionally, how do investments in 
international family planning help USAID achieve the goals of the 
Global Health Initiative?
    Answer. Expanding the availability, accessibility, and voluntary 
use of family planning is vital to safe motherhood and healthy 
families, reduces abortion and mother-to-child transmission of HIV, and 
has profound health, economic and social benefits for families, 
communities, and nations. Voluntary family planning programs that 
enable couples to choose the number, timing and spacing of their 
children are a key intervention in achieving the Global Health 
Initiative goal of preventing 54 million unintended pregnancies.
    By allowing women to delay and space births, family planning could 
prevent as many as one-third of the 350,000 maternal deaths that occur 
each year. In the developing world, an estimated 90 percent of infants 
whose mothers die in childbirth will die by their first birthday. 
Family planning helps women have healthier children, and increases the 
likelihood that infants will survive and remain healthy.
    To help the more than 200 million women with an unmet need for 
family planning, USAID supports all the key components of effective 
family planning/reproductive health programs--service delivery, 
performance improvement, contraceptive supply and logistics, health 
communication, biomedical and social science research, policy analysis 
and planning, and monitoring and evaluation. In addition, USAID puts 
special emphasis on program approaches and issues that are under-
resourced in country programs but hold promise for accelerating 
progress, including contraceptive security, integrated family planning/
HIV and family planning/maternal and child health programming, 
community-based approaches, voluntary access to long-acting and 
permanent methods, gender, reaching youth and underserved populations, 
and equity in access to services.
    USAID also works to expand access to family planning through social 
science, operations and contraceptive research. These efforts include 
promoting a greater understanding of the gap between unmet need and 
planned family planning use through the social network, and developing 
a compendium of best practices in family planning/HIV integration.
    Question. The President's fiscal year 2013 budget request includes 
$770 million for the establishment of a new program Middle East and 
North Africa (MENA) Incentive Fund (IF). What type of programs and 
activities is USAID expecting to support with this new Fund? What 
requirements will be made of recipient groups or countries that receive 
this aid?
    Answer. The MENA IF represents a new approach to the Middle East 
and North Africa by demonstrating a visible commitment to reform and to 
the region; tying assistance to reform agendas; and providing 
flexibility for contingencies in order to take advantage of new 
opportunities. USAID will work with State Department and other 
interagency partners through a process that develops shared objectives 
consistent with U.S. foreign policy goals. Deploying the fund will 
require close coordination.
    What type of programs and activities is USAID expecting to support 
with this new Fund? MENA IF will address three types of needs as 
follows:
    Longer-Term Transition Incentives.--The bulk of the fund will be 
focused on activities supporting governance and economic reform 
including activities such as:
  --Private sector development, including jobs growth;
  --Seed money for larger investments and multilateral projects;
  --Loan guarantees;
  --Governance reform assistance;
  --Enterprise funds; and
  --Technical assistance to improve transparency, human rights, free 
        trade, and regional integration.
    Immediate Transition/Stabilization Contingencies.--In addition, a 
portion of the MENA IF will be available for short-term support for 
newly transitioning countries including activities focused on the 
following:
  --Short-term economic stabilization (e.g., fiscal support);
  --Assistance in managing immediate political transition processes;
  --Civil society strengthening;
  --Emergency technical support;
  --Humanitarian assistance and human rights investigations;
  --Transitional justice programs;
  --Security sector support; and
  --Bolster capacity to engage with newly emerging democracies.
    Regional Program Platforms.--MENA IF also includes the base funding 
for the Middle East Partnership Initiative (MEPI) ($65 million), and 
USAID's Office of Middle East Programs (OMEP) ($5 million). MEPI 
cultivates locally led change by supporting civil society in every 
country of the MENA region where the United States has a diplomatic 
presence. OMEP provides surge capacity and region-wide scope for 
development activities that respond to regional transition and reform.
    What requirements will be made of recipient groups or countries 
that receive this aid? MENA IF provides incentives to support 
transitioning governments who demonstrate a clear commitment to 
political and economic reform. Recipients will be required to submit 
credible political, economic, and/or security reform proposals for 
activities that demonstrate significant economic returns or progress in 
quality of governance. Policies and procedures for programming of 
assistance will govern proposal identification, implementation, 
monitoring, and evaluation. This will include, among other things, 
clearly defined conditions and benchmarks for measuring and achieving 
individual program success.
                                 ______
                                 
              Question Submitted by Senator Lindsey Graham
    Question. What are the specific impacts of sequestration on United 
States Agency for International Development operations and programs?
    Answer. We urge the Congress to enact balanced deficit reduction 
legislation that avoids sequestration. If necessary, the administration 
will be addressing important technical questions concerning sequester, 
but now is the time to focus on enacting the balanced framework 
proposed in the President's budget.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                            veterans hiring
    Question. According to the Office of Personnel Management (OPM), 
the United States Agency for International Development (USAID) has the 
lowest percentage of veteran hires and the second-lowest number of on-
board veteran employees among all executive branch agencies. According 
to OPM, in fiscal year 2010, veterans made up 5.6 percent of USAID's 
workforce, as compared to State Department's 16.7 percent, the Labor 
Department's 17.8 percent, or even the National Science Foundation's 
5.7 percent.
    Why is USAID unable to effectively recruit veterans?
    Answer. USAID has made substantial progress in recruiting veterans. 
In fiscal year 2011, USAID implemented a wide range of outreach, 
recruitment, and marketing initiatives to increase veteran hiring. 
These efforts resulted in a marked increase of new veteran hires from 
5.6 percent in fiscal year 2010 to 8.5 percent in fiscal year 2011. 
USAID continues to make significant progress this fiscal year. During 
the first quarter of fiscal year 2012, 11 percent of USAID's new hires 
were veterans.
    Question. What specific steps beyond OPM's hiring preferences is 
USAID taking to engage our veterans and substantially increase its 
number of veterans on staff? Does USAID have any specific veteran 
hiring programs?
    Answer. USAID has implemented a number of creative strategies to 
increase the number of veterans in USAID. First, we hired a seasoned 
full-time professional as the Veterans Employment Program Manager with 
primary responsibility for executing all aspects of the Veteran's 
Employment Initiative and serving as an advocate to promote veteran 
recruitment, hiring, and retention within USAID. Second, we initiated a 
vigorous internal referral program to target vacancies for veterans as 
soon as they arise. The program allows USAID hiring managers to contact 
the Veterans Employment Program Manager to fill their positions quickly 
with qualified veteran candidates using the Special Appointing 
Authorities for Veterans. These Special Appointing Authorities enable 
veterans to be referred for consideration prior to the posting of a job 
announcement. Twenty-five percent of all veterans hired in fiscal year 
2011 were referred from this program. Third, USAID sponsors quarterly 
Federal employment workshops at USAID headquarters at no cost for 
separating and retiring military members and spouses. Finally, USAID 
has increased the number of veterans hired through our formal Student 
Internship Program and continues to partner with a wide variety of 
Military Transition Assistance Programs and Veterans Rehabilitation 
Organizations. The specific types of transition assistance we provide 
include resume writing, workshops on the Federal application process, 
and interviewing skills. These are only a few examples of the many 
proactive initiatives USAID has implemented to hire more veterans.
    Question. How many veterans currently work for USAID and in what 
capacities are they primarily employed? Do their USAID positions align 
with previous military experience, including conducting development and 
diplomacy on the front lines? What specific skills gained by our men 
and women in uniform during their service can advance USAID's mission?
    Answer. Currently, there are 306 veterans employed at USAID (8 
percent of the workforce). There are 204 veterans employed in the Civil 
Service, 101 employed in the Foreign Service, and 1 veteran employed as 
an Expert Consultant. Veterans are employed in a myriad of professional 
and administrative positions in both the Civil Service and the Foreign 
Service, including the position of Chief of the Office of Human 
Resources' Outreach and Marketing team, which leads recruitment.
    Our veterans' previous military experience allows them to 
transition directly into positions conducting development and diplomacy 
on the front lines. For example, during fiscal year 2011, USAID hired 
15 veterans on term-limited appointments to the Foreign Service to work 
on critical priority programs in Afghanistan and Pakistan, allowing a 
seamless transfer of skills gained in uniform to assist in advancing 
USAID's mission in the field.
    The discipline and work ethic that our veteran men and women bring 
to bear, coupled with their technical skills, make them well suited for 
a variety of positions at USAID. Veterans at USAID are currently 
working in occupations such as acquisition, administration, information 
technology, communications, security, human resources, engineering, 
public policy, finance, and education.
                         partner vetting system
    Question. When do you expect the joint State-USAID Partner Vetting 
System (PVS) pilot to become fully operational?
    Answer. The Department of State and USAID are working closely to 
implement the pilot program. The schedule is dependent upon several 
factors including the rulemaking process which mandates a specific 
comment and review period; upgrades to the database functionality to 
incorporate the secure portal; and, the completion of the Department of 
State's iteration of the PVS database. USAID and the Department of 
State expect to begin the deployment to the pilot missions by September 
30, 2012 as required by Public Law 112-174.
    Question. Would you support expanding PVS globally?
    Answer. The Department of State and USAID consider the pilot PVS 
program to be a true test, with a view toward providing both agencies 
with a deeper understanding of the ways to mitigate risk in the 
provision of foreign assistance and safeguard U.S. taxpayer funds, as 
well as, to determine the feasibility and utility of developing a 
worldwide system. The pilot will ensure that countries will be selected 
with a range of terrorist threat levels, rather than simply selecting 
five countries with high threat levels, to provide a broad range of 
useful data for evaluation. At the conclusion of the pilot program, 
USAID and the Department of State will evaluate the results and make 
determinations regarding future applications of the vetting process.
                                somalia
    Question. Can you provide an update on USAID's assistance efforts 
in Somalia, including on the ground presence, applicable restrictions 
on USAID operations, and any efforts to expand the scope of USAID 
operations?
    Answer. Since early 2011, the United States has provided more than 
$252 million to respond to humanitarian needs in Somalia. USAID 
humanitarian programs focus mainly on providing emergency food 
assistance and supporting immediate recovery in food security, economic 
recovery, protection, health, water, sanitation, and hygiene 
activities. USAID development programs complement these efforts by 
focusing on improving good governance, increasing economic growth, 
enhancing education and livelihood opportunities, reducing the appeal 
of extremism, and promoting stabilization in recovering areas.
    Due to the highly insecure environment, the U.S. Government has no 
permanent staff presence in Somalia; however, USAID works closely with 
international and local organizations working in the country to 
implement USAID-funded programs. USAID staff members located in 
Nairobi, Kenya, and Addis Ababa, Ethiopia, manage humanitarian and 
development programs. USAID uses a third-party contractor to monitor 
its work in-country, interspersed with limited in-country travel by 
USAID staff to monitor programs, meet with partners, and build 
relationships with key stakeholders.
    USAID is expanding its development and stabilization programming to 
areas vacated by al-Shabaab such as Mogadishu and along the Kenya and 
Ethiopian border. In terms of humanitarian assistance, access 
constraints, ongoing insecurity, and population displacement affect the 
provision of humanitarian assistance for affected populations in 
Somalia. Al-Shabaab controls many parts of central and Southern Somalia 
and has prevented 16 relief agencies from operating in areas under the 
group's control since November 2011. In addition, al-Shabaab terminated 
the agreement under which the International Committee of the Red Cross 
(ICRC) was allowed to deliver aid in January 2012 and revoked the 
permission of another organization to operate in areas under the 
group's control in March 2012.
    USAID's efforts are critical to prevent a deterioration of 
humanitarian conditions or a reversal of recent food security gains.
    Question. On February 3, 2012, the United Nations declared the end 
of famine conditions in Somalia.
    Do you share this assessment and if so, how do you expect it to 
impact USAID operations in fiscal years 2012 and 2013?
    Answer. The United Nations based its February 2012 declaration that 
famine had ended in Somalia on findings from the Famine Early Warning 
Systems Network and the U.N. Food Security and Nutrition Analysis Unit. 
USAID concurs with this assessment. While famine no longer exists due 
to a favorable harvest and increased humanitarian assistance, high 
levels of food insecurity, malnutrition, and other emergency conditions 
still exist.
    The situation remains extremely fragile and conditions could 
deteriorate due to another anticipated season of below-normal rainfall 
combined with the loss of household assets, constraints to humanitarian 
access, insecurity, and displacement.
    In fiscal year 2012 and fiscal year 2013, USAID plans to continue 
providing humanitarian assistance for Somalia in response to identified 
needs and evolving conditions.
    Question. Following the decision by the al-Shabaab terrorist 
organization to ban all international organizations from distributing 
aid to al-Shabaab-controlled territories, you wrote to the Congress on 
December 8, 2011 that USAID is working ``to determine the impact of 
this ban and identify alternative options for delivering humanitarian 
assistance'' to these areas.
    Can you provide additional details regarding these efforts?
    Answer. As of mid-March 2012, Al-Shabaab was preventing 16 relief 
agencies from operating in areas under the group's control and halted 
the operations of two others. These agencies include several large U.N. 
agencies and international relief organizations that had facilitated 
logistics and supply chains for other relief agencies. However, a 
number of international and local relief agencies continue to operate 
in areas of Central and Southern Somalia controlled by al-Shabaab.
    Al-Shabaab's ban on humanitarian organizations has substantially 
reduced relief activities in affected areas. The number of 
beneficiaries reached by the Food Assistance Cluster--the coordinating 
body for food-related assistance in Somalia--decreased from 
approximately 2.6 million in October to 1.6 million in January due to 
access challenges. This affected 7 of the 18 Cluster partners and 
created notable nutritional gaps in the Bay, Bakool, and Middle 
Shabelle regions. The ban also interrupted the distribution of 
essential health supplies, limiting access to life-saving 
interventions. Affected populations in the Bakool, Bay, Hiraan, and 
Middle Shabelle regions did not receive food vouchers in January as a 
result of the ban.
    As of mid-February, USAID's partners continued to coordinate to 
provide humanitarian assistance in nonpermissive areas to address 
shortages in health, nutrition, water, sanitation, and hygiene supplies 
as a result of the ban. As humanitarian access levels in Somalia 
change, USAID staff will continue to identify and support implementing 
partners and approaches that can best meet humanitarian needs.
    Question. Can you provide an accounting of USAID's distribution of 
assistance to Nagorno Karabakh (NK) for fiscal year 2011 and fiscal 
year 2012 to date, including a complete description of the projects, 
purpose, funding, and an assessment of goals achieved?
    Answer. United States assistance supports our diplomatic efforts, 
including Armenia's reconciliation with Azerbaijan, and resolution of 
the conflict over NK. Our humanitarian assistance is also helping to 
stabilize the region and prevent future conflict. Our commitment to NK 
assistance has remained steadfast despite the decline in overall 
funding and competing priorities. During fiscal year 2011, the United 
States provided $2 million in humanitarian assistance to the people of 
NK. A similar amount of assistance is planned for fiscal year 2012. 
U.S. assistance is roughly split between humanitarian demining and 
potable water projects. The demining activity, implemented by HALO 
Trust since 2001, focuses on clearing mines and returning lands to the 
rural population for agricultural use. Thus far 94 percent of anti-
personnel and anti-tank mines and 71 percent of the battle area have 
been cleared. Upon the current project's completion in December 2012, 
the U.S. Government will have invested more than $7.6 million in 
demining.
    We are concluding a potable water program which is expanding access 
to clean water in the city of Stepanakert. The program, totaling $2 
million upon completion this year, supports improvements to two 
independent water systems in Stepanakert which are expected to benefit 
more than 20,000 people. Water supplies are being improved through 
priority repairs to water mains, sand traps, and dikes; providing for 
rehabilitation and modernization; and installing water meters.
    Question. Can you provide the results of all needs assessments that 
USAID has conducted with regard to the NK since December 2007?
    Answer. In March 2012, USAID, through an independent consultant, 
conducted a rural water sector needs assessment. The final report is 
expected in mid-April. USAID is planning to conduct a thorough 
assessment on the remaining minefield clearance in NK in July 2012. The 
assessment will also be implemented by an independent consultant.
    Question. In rendering aid decisions concerning NK, do USAID 
officials interact and consult with their counterparts in the NK 
Government? Can you provide details of such interactions concerning 
fiscal year 2011 assistance or fiscal year 2012 to date? Are there any 
restrictions in place for any such interactions?
    Answer. The U.S. Co-Chair of the OSCE Minsk Group has the U.S. lead 
in mediating the Nagorno-Karabakh conflict and travels frequently to 
Nagorno-Karabakh. USAID personnel have traveled to Nagorno-Karabakh in 
the past with the concurrence of the U.S. Co-Chair to implement 
humanitarian aid programs. USAID's non-American local staff visits NK 
to monitor the two ongoing projects. For program coordination purposes, 
non-American local staff may meet with community leaders, municipality 
representatives, or representatives of particular services such as the 
water operations and maintenance unit and the rescue team (which 
includes a demining section), but does not discuss future funding 
decisions with central NK authorities.
    Question. Pursuant to report language in Public Law 112-74, how 
does USAID plan to assist vulnerable ethno-religious minorities in 
Iraq, specifically the Chaldo-Assyrian communities in the Nineveh 
Plains?
    Answer. To date, the United States Government has provided about 
$40 million in assistance to Iraq's minority communities. This includes 
Iraq's Christian communities including the Chaldo-Assyrians in the 
Ninevah Plains. Assistance has included both short-term humanitarian 
and long-term development projects.
    In 2010-2011, USAID assisted minority communities in the Ninevah 
Plains with various community development projects. USAID also provided 
apprenticeships to help members of these communities gain the skills 
needed to sustain their development. USAID-funded microfinance 
institutions benefiting minority communities in the Ninevah Plains are 
focusing on expanding access to credit to promote private sector growth 
which generates jobs and increases incomes.
    Access to Credit.--USAID is providing additional funding to 
existing USAID-supported microfinance institutions, small- and medium-
enterprise lending units, vocational training and apprenticeships 
available to minorities in the Ninevah Plains and other vulnerable 
groups.
    Access to Justice.--USAID assists minorities in the Ninevah Plains 
by increasing awareness of their rights as well as avenues for 
receiving remedies from the government through legal clinics and as 
well as by Iraqi civil society partners, including professional legal 
associations, law schools, human rights nongovernmental organizations 
(NGOs), and government partners.
    Civil Society.--USAID supports Iraqi civil society efforts to 
advocate on behalf of minorities to improve national, provincial, and 
local governments' responsiveness to needs identified by local 
communities.
    Governance.--Broad-based improvements in Iraqi livelihood and 
democratic governance will also directly and indirectly benefit Iraqi 
minority communities. In fiscal year 2013, USAID expects to fund 
governance and livelihoods projects. These projects will improve the 
effectiveness of Iraqi governance at all levels and encourage 
community-based development through partnerships with civil society 
organizations, among others.
    Question. According to USAID, ``Kosovo is the youngest country in 
Europe with more than 50 percent of Kosovars aged 25 or younger. The 
growing youth population that is unemployed (estimates range from 50 
percent-75 percent), disengaged, and disconnected is emerging as an 
urgent issue for the newly independent state.''
    In an effort to foster stability and economic development, would 
you support prioritizing United States assistance for Kosovo with a 
focus on education?
    Can you please provide an update on your efforts in this regard?
    Answer. USAID currently supports the basic education sector in 
Kosovo by enhancing school management capacities at the municipal 
level, strengthening the assessment of learning outcomes, and improving 
in-service teacher professional development and certification.
    Consistent with the Ministry of Education's reform strategy, USAID 
improves the capacity of primary schools to provide a modern education 
through advanced teacher professional development, as well as 
introducing technology for science and math teaching. The USAID basic 
education program enhances skills in Kosovo's youth that are important 
to Kosovo's economic future.
    Higher education funds support results-oriented programs to address 
specific issues related to human resource development and higher 
learning. Our assistance is aimed at improving systems and processes in 
Kosovo institutions, particularly those that will have a direct impact 
on Kosovo's economic growth and democratic stability.
    USAID is currently engaging in a feasibility analysis to determine 
the needs of strategically selected Kosovar higher education 
institutions in priority developments areas. The assessment will also 
address institutional partnerships, faculty exchanges and student 
scholarships, as these contribute to building and strengthening 
Kosovo's development institutions and societal transformation.
                             west bank/gaza
    Question. Can you provide a list of all NGOs that received funding 
(with name of group, funding amount, account/bureau providing funds, 
and purpose) from USAID in fiscal year 2011 and so far in fiscal year 
2012 for accounts/programs/projects operating in Israel, the West Bank 
and Gaza?
    Answer. USAID/West Bank and Gaza Economic Support Fund (ESF) 
Bilateral Program.--The international organizations referenced below 
are all prime recipients of USAID/West Bank and Gaza managed fiscal 
year 2011 ESF funding. This first set of responses focuses on prime 
recipients. We will provide shortly a second tranche of information 
that will include the sub-awards. Total fiscal year 2011 funding 
obligated to date is $37.55 million. The bulk of fiscal year 2011 ESF 
for West Bank and Gaza program funds have not been obligated yet due to 
congressional holds on these funds in place until very recently. Fiscal 
year 2012 funds have not been obligated yet. USAID will first notify 
the Congress of our plans for fiscal year 2012 funding, and only after 
that, can obligation occur.

    Name of Group: Chemonics International
    Fiscal Year 2011 Funded Amount: $12.1 million

    Purpose:
Palestinian Authority Capacity Enhancement (PACE)
    PACE works with Palestinian Authority (PA) agencies and ministries 
to expedite service delivery, improve financial and human resource 
management, and enhance accountability and transparency.
The Palestinian Justice Enhancement Program (PJEP)
    PJEP aims to strengthen the justice sector by building public 
confidence and respect for institutions and the rule of law.
Palestinian Health Sector Reform and Development Project (Health 
        Flagship Project)
    The Health Flagship Project works with the Palestinian Ministry of 
Health (MOH) to improve the core areas identified in the Palestinian 
National Health Strategic Plan:
  --governance;
  --human resources for health;
  --access to quality services; and
  --healthy behaviors.
    The project also connects health clinics, the communities they 
serve, and the private sector.
Trade Facilitation Program (TFP)
    The movement and access of Palestinian goods within the West Bank 
and to/from Gaza, and in and out of Israel and neighboring countries, 
remains key to all other economic growth objectives. TFP stimulates 
trade in the West Bank and Gaza and facilitates cargo movement through 
crossing points allowing Palestinian enterprises to generate employment 
and economic opportunities.
Investment Climate Improvement (ICI)
    ICI assists the PA in adopting and implementing laws, regulations, 
policies, and procedures to improve the Palestinian business and 
economic climate and promote domestic and foreign investment.

    Name of Group: AMIDEAST
    Fiscal Year 2011 Funded Amount: $900,000

    Purpose:
Model Schools Network (MSN)
    MSN improves the quality of basic education (grades 1-9) in the 
Palestinian territories. The MSN program focuses on the professional 
development of teachers and administrators within the model school 
network, particularly in the areas of English, math, and science.

    Name of Group: Education Development Center, Inc.
    Fiscal Year 2011 Funded Amount: $1.1 million

    Purpose:
Palestinian Youth Empowerment Program (Ruwwad)
    Ruwwad builds the leadership capabilities of youth by engaging them 
in community service learning including:
  --civic engagement;
  --economic opportunities;
  --leadership skills; and
  --sports and culture.

    Name of Group: International Youth Foundation
    Fiscal Year 2011 Funded Amount: $1.4 million

    Purpose:
Youth Entrepreneurship Development Program (YED)
    YED prepares in and out-of-school youth ages 14-29 for the job 
market by equipping them with the employment and entrepreneurial skills 
needed to find jobs in the public and private sector or to start their 
own businesses.

    Name of Group: American Near East Refugee Aid
    Fiscal Year 2011 Funded Amount: $3 million

    Purpose:
Emergency Water and Sanitation and Other Infrastructure (EWAS II)
    EWAS II provides rapid response and emergency relief primarily in 
the water and sanitation sectors, and in other sectors as needed. This 
project improves the supply of potable water to Palestinian communities 
facing serious water shortages by rehabilitating, expanding, and 
upgrading small- and medium-scale water and sewage systems. EWAS II 
also supports the improvement of basic Palestinian infrastructure needs 
by building and rehabilitating community health facilities, classrooms, 
and community and youth centers.

    Name of Group: CHF International
    Fiscal Year 2011 Funded Amount: $1.3 million

    Purpose:
Local Government and Infrastructure Program (LGI)
    LGI promotes good local governance practices and provides the basic 
infrastructure necessary for sustainable improvements in the quality of 
life for Palestinians. LGI strengthens local government capacity to 
respond effectively and efficiently to community needs through capacity 
building, institutional development, and service delivery skill 
enhancement initiatives; promotes and institutionalizes good governance 
practices; encourages public involvement through participatory 
governance mechanisms; and enhances the capacity of the Ministry of 
Local Government to assume regulatory, policy development, and 
strategic planning responsibilities.

    Name of Group: Development Alternatives Inc.
    Fiscal Year 2011 Funded Amount: $5,263,000

    Purpose:
Enterprise Development for Global Competitiveness Project
    The Enterprise Development for Global Competitiveness Project 
improves access to markets for Palestinian Small and Medium 
Enterprises. Additionally, it improves economic growth and access to 
services through the development of local business associations and 
business service providers.

    Name of Group: Black & Veatch Special Projects Corp.
    Fiscal Year 2011 Funded Amount: $5.8 million already obligated

    Purpose:
Infrastructure Needs Program II Architect and Engineering Contract (INP 
        II)
    INP II Architect-Engineering provides design, engineering, 
operations and maintenance, and construction management services 
required to implement multi-discipline, high-quality construction 
projects in the West Bank.

    Name of Group: United Nations World Food Program (WFP)
    Fiscal Year 2011 Funded Amount: $4 million

    Purpose:
Assistance to Vulnerable Groups
    The WFP provides high-quality food assistance (direct food 
distribution and electronic food vouchers) to help meet basic food 
needs and improve dietary diversity of the most vulnerable and food 
insecure nonrefugee populations in the West Bank and Gaza.

    Name of Group: Mercy Corps
    Fiscal Year 2011 Funded Amount: $1,550,000

    Purpose:
Palestinian Community Assistance Program (PCAP)
    PCAP addresses infrastructure recovery needs through tangible 
improvements in community infrastructure and housing; supports economic 
recovery and development through the creation of income generation and 
business development opportunities; and promotes social recovery 
through community outreach programs focused on mental well-being, 
childhood education, humanitarian assistance, and cash-for-work 
programs.

    Name of Group: CARANA
    Fiscal Year 2011 Funded Amount: $687,000

    Purpose:
Enterprise Development and Investment Promotion (EDIP)
    EDIP supports the development of businesses and business 
associations to achieve increased production and better marketing of 
their products and services. EDIP improves the capacity of Palestinian 
businesses to integrate into domestic and international markets through 
initiatives with business associations.

    Name of Group: International Relief & Development; American 
Intercontinental Constructors, LLC; CDM Constructors Inc; BLD Services, 
LLC; APCO/ArCon; The Morganti Group
    Fiscal Year 2011 Funded Amount: $450,000

    Purpose:
Infrastructure Needs Program II Construction (INP II)
    INP II provides critical infrastructure that promotes economic 
growth, and helps the PA address both immediate and long-term 
infrastructure needs. INP projects include the construction and 
rehabilitation of roads, water systems and distribution networks, 
wastewater systems, schools, and other necessary facilities.
           conflict management and mitigation grants program
    The organizations referenced below are all expected to receive 
fiscal year 2011 funding as part of the congressionally mandated fiscal 
year 2011 Conflict Management and Mitigation program which is managed 
at post by both USAID and U.S. Embassy Tel Aviv. The recipients of 
fiscal year 2012 funds for this program have not yet been decided.

    Name of Group: The Economic Cooperation Foundation
    Funding Amount: $1 million

    Purpose:
Jenin-Gilboa-Nablus-Haifa: Cooperation Zone
    Economic growth requires cooperation, personal interaction, and 
joint planning among neighbors. This program is expected to promote 
people-to-people activities in Jenin, Gilboa, and Haifa cross-border 
area in tourism, trade, and infrastructure planning to support the 
economic development of the region. The program will bring together 
local and national authorities and civil representatives to strategize 
and promote economic development.

    Name of Group: Catholic Relief Services
    Funding Amount: $1 million

    Purpose:
The Gemini Project
    The program will build the capacity of Arab and Jewish youth from 
Israel to engage in civil debate and encourage increased civic 
engagement using nonviolent approaches.

    Name of Group: The Hand in Hand Center for Jewish-Arab Education in 
Israel
    Funding Amount: $1.08 million

    Purpose:
Shared Community/School Integration
    Hand in Hand works to integrate Jews and Arab children in schools, 
and to integrate the communities where these schools are located by 
generating people-to-people activities among the residents and 
increasing interactions between community members.

    Name of Group: Mercy Corps
    Funding Amount: $1.19 million

    Purpose:
Technology for Peace
    The program will bring Palestinian and Israeli youth, 
entrepreneurs, and companies together to pursue the shared interest in 
information and communication technology (ICT) as an enhancing tool 
both for peace activism as well as for economic collaboration and 
growth. This 18-month program, designed in collaboration with three 
local partners in Israel and the West Bank, seeks to promote peace 
activism through the enhanced use of social media, to build the 
capacity of Palestinian youth in collaboration with Israeli companies 
and joint Palestinian/Israeli youth activities in ICT, and to encourage 
economic cooperation between Israelis and Palestinians in the ICT 
sector.

    Name of Group: The Parents Circle--Families Forum
    Funding Amount: $700,000

    Purpose:
Where Parallel Lines Meet
    The project engages Israeli and Palestinian participants in an 
effort to promote peace and reconciliation.

    Name of Group: Israel/Palestine Centre for Research and Information
    Funding Amount: $1 million

    Purpose:
Jewish and Arab Israeli Youth Defining Shared Citizenship Through 
        Collaborative Community Programs
    This program will help Jewish and Arab Israeli youth, living 
together in mixed cities in Israel, redefine the nature and quality of 
their citizenship, promoting a shared citizenship with shared 
responsibilities. Reconciliation and cooperation between these groups 
of youth will be fostered through collaborative community programs that 
serve a common goal and by facilitating the organization of programs by 
the youth that are beneficial for both communities living in the target 
cities.

    Name of Group: Mifalot--Hapoel Tel Aviv Soccer Club's Education and 
Social Project
    Funding Amount: $900,000

    Purpose:
United Soccer for Peace
    This is an Israeli Arab training program for coaches using soccer 
as a tool for peace education, conflict resolution, and community 
development in marginalized populations. Mifalot will use soccer to 
cultivate the proper environment for growth leading to social change. 
The aim is to train young men and women as licensed soccer coaches, 
cultivate them as community leaders, and at the same time instill in 
them values of peace and conciliation. The program is based on a grass 
roots approach toward peace and conciliation, starting with 
geographically and socially marginalized populations, populations 
normally ignored in the people-to-people dialogue.

    Name of Group: The Maccabim Association
    Funding Amount: $93,000

    Purpose:
Goals for Peace
    This program recognizes that Arab and Jewish children have minimal 
contact with each other in their formative educational years. This has 
resulted in a lack of trust and tolerance of each other based on the 
prejudices and stereotypes of their families, communities and a biased 
media. This program will implement joint Jewish-Arab soccer activities, 
as well as computer classes and dialogue programming to reach 
marginalized groups that normally would not have an opportunity to be a 
part of these activities and to provide an opportunity for interaction. 
The program uses soccer as an educational tool for increasing 
cooperation and team work, respect for rules and each other, and to 
enhance communication and dialogue among participants.

    Name of Group: Arab-Jewish Community Center
    Funding Amount: $100,000

    Purpose:
Jewish-Arab Class Exchange Program
    This program recognizes that the majority of Jewish and Arab youth 
have not been previously exposed to one another and is expected to 
contribute to increased tolerance and respect.

    Name of Group: The State University of New York (SUNY) New Paltz 
Institute for Disaster Mental Health
    Funding Amount: $96,917

    Purpose:
Families First: A Palestinian-Israeli People-to-People Approach To 
        Assist Children and Caregivers as a Means of Conflict 
        Mitigation and Reconciliation
    The program recognizes that children raised in this environment are 
likely to absorb and echo the violence that surrounds them. It will 
bring together Palestinian and Israeli health and social service 
professionals to work in partnership to work to prevent long-term 
conflict by addressing short-term mental health needs of children and 
families.

    Name of Group: The Arava Institute for Environmental Studies
    Funding Amount: $561,438

    Purpose:
Mitigating Trans-Boundary Waste-Water Conflicts
    This program aims to address, help reduce, and prevent further 
wastewater conflicts and disputes between Israel and the West Bank.

    Name of Group: Seeds of Peace
    Funding Amount: $951,745
    Purpose:
On Common Ground
    The program is designed to provide Palestinian and Israeli young 
leaders between the ages of 14-32, as well as local educators, with 
experiences, skillsets, and resources to find common ground on the core 
issues within and between their societies that perpetuate conflict and 
prevent peace.

    Name of Group: Sipurei Yerushalayim (Jerusalem Stories)
    Funding Amount: $100,000

    Purpose:
Storytelling Encounters: A Model Approach for Transforming Israeli-
        Palestinian Perceptions
    The program seeks to make Israelis and Palestinians understand and 
humanize each other through the use of storytelling, photographs, and 
video and will build on this tested approach to train Israeli and 
Palestinian youth leaders in a series of joint workshops so that they 
can introduce the power of storytelling as a conflict transformation 
tool to broader audiences throughout Israel and the West Bank.

    Name of Group: Kids Creating Peace
    Funding Amount: $100,000

    Purpose:
Sach-Ten: A Uniquely Interactive Reconciliation and Leadership Program 
        for Israeli and Palestinian Youth
    The Sach Ten program is a recognized professional peace education 
program coordinated by the Israeli Ministry of Education and several 
leading Palestinian schools and educational institutes.
                    middle east regional cooperation
    The Israeli and Palestinian organizations listed below are all 
current recipients of USAID-managed ESF funding under the Middle East 
Regional Cooperation program, funded through prior year funding. MERC's 
$3 million fiscal year 2011 ESF was received in fiscal year 2012, and 
its distribution is dependent upon the completion of ongoing reviews of 
grant applications, expected to be finished by June 2012. MERC has not 
yet received its fiscal year 2012 funding.
    MERC is a competitive research program that funds joint Arab-
Israeli research grants to address shared development problems and 
promote direct collaboration between Arab and Israeli researchers, 
students, and institutions. MERC accepts jointly authored Arab-Israeli 
research proposals on any research topic that the applicants can 
justify as likely to produce a lasting development result. The program 
funds a wide variety of scientific research, but most projects focus on 
subjects such as agriculture, water resources, health and the 
environment.
    The following Israeli NGOs are current MERC recipients and 
illustrative of the Israeli institutions expected to receive fiscal 
year 2011 and 2012 funds:
  --The Arava Institute for Environmental Studies;
  --The Assaf Harofeh Medical Center;
  --Bar-Ilan University;
  --Ben-Gurion University of the Negev;
  --The Galilee Society;
  --Hebrew University of Jerusalem;
  --Shaare Zedek Medical Center;
  --The Technion Institute;
  --Tel Aviv University; and
  --The University of Haifa.
    The following Palestinian NGO are current MERC recipients and 
illustrative of the Palestinian institutions expected to receive fiscal 
year 2011 and 2012 funds:
  --Al-Quds University;
  --Augusta Victoria Hospital;
  --Beit Jalla Hospital;
  --Bethlehem University (a subsidiary of the Roman Catholic Church);
  --The Biodiversity and Environmental Research Center;
  --Caritas Baby Hospital, Children's Relief of Bethlehem;
  --The Environmental Protection Research Institute;
  --The House of Water and Environment;
  --The Palestinian Agricultural Relief Committee; and
  --The Princess Basma Center for Disabled Children.
    MERC funds are typically awarded to Israeli Government ministries 
and NGOs that serve as prime grantees and issue sub-awards to partner 
institutions in six Arab countries and Israel. Of the 37 projects 
active in 2011, 29 had been awarded to Israeli prime grantees, 5 to 
Jordanian primes, and 3 to primes in the United States. All of the 
Palestinian institutions listed above are sub-grantees of Israeli 
primes. Many institutions are on more than one project.
                 american schools and hospitals abroad
    USAID's Office of American Schools and Hospitals Abroad (ASHA) 
provides grants to competitively selected private, nonprofit 
universities and secondary schools, libraries, and medical centers 
abroad. The list below represents grants for Israeli and Palestinian 
institutions that received fiscal year 2011 ASHA funding. Fiscal year 
2012 funding decisions have not been made at this time.

    U.S. Organization: Trustees of the Feinberg Graduate School of the 
Weizmann Institute
    Organization Name: Feinberg Graduate School of the Weizmann 
Institute of Science
    Funding Amount: $1,000,0000
    Purpose: To acquire critically needed scientific instrumentation 
for Feinberg Graduate School educational and research activities in 
science education, energy/environment, and genome-based biomedicine 
programs.

    U.S. Organization: Hadassah Medical Relief Association, Inc.
    Organization Name: Hadassah Medical Center
    Funding Amount: $1,600,000
    Purpose: To acquire American-manufactured equipment and state-of-
the-art surgical equipment that will improve patient care at Hadassah 
Medical Center.

    U.S. Organization: Friends United Meeting
    Organization Name: Ramallah Friends School
    Funding Amount: $1,000,0000
    Purpose: To expand classroom capacity for art and music 
instruction, upgrade existing facilities to make them handicap 
accessible, update classroom technology, renovate guest rooms, and 
install photovotaic hybrid power plant.

    U.S. Organization: American Committee for Shaare Zedek Hospital in 
Jerusalem, Inc.
    Organization Name: Shaare Zedek Medical Center
    Funding Amount: $500,000
    Purpose: To replace obsolete equipment with American-standards 
models by purchasing new defibrillators, a new EKG system and new 
recovery monitors for the Post Anesthesia Care Unit.

    U.S. Organization: American Society of the Most Venerable Order of 
the Hospital St. John of Jerusalem
    Organization Name: St. John's Eye Hospital Group
    Funding Amount: $300,000
    Purpose: To purchase a set of highest-quality diagnostic and 
surgical equipment and instruments to expand the existing retinal care 
unit to benefit 10,000 patients annually.

    U.S. Organization: American Friends Tel Aviv University
    Organization Name: Tel-Aviv University
    Funding Amount: $325,000
    Purpose: To purchase American equipment for research to develop 
vaccines and therapies for HIV/AIDS, hepatitis, and other diseases 
prevalent and deadly in Africa and third world countries.

    U.S. Organization: American Friends of The Hebrew University
    Organization Name: The Hebrew University of Jerusalem
    Funding Amount: $500,000
    Purpose: To purchase next-generation genomic DNA sequencer and 
accessory liquid handling work station, essential for research 
uncovering roots of human disease to promote diagnosis, prognosis, and 
treatment.
    Question. Does USAID track the public statements made or events 
held by USAID-funded NGOs with regard to incitement against Israel or 
Jews?
    In a yes or no answer, do you believe USAID should provide funds to 
NGOs in Israel, the West Bank or Gaza that compare the State of Israel, 
Israelis, Jews, or Zionism to Nazis?
    In a yes or no answer, do you believe USAID should provide funds to 
NGOs in Israel, the West Bank or Gaza that support boycotts of, 
divestment from or sanctions against the State of Israel?
    In a yes or no answer, do you believe USAID should provide funds to 
NGOs that accuse Israel of ``the slaughter of Palestinian children'', 
``massacre'', ``cultural genocide'', ``war crimes'', or ``apartheid''?
    Answer. The United States has firmly and consistently condemned 
incitement to violence and called on both sides to take action to end 
such activity.
    Under the Roadmap for Peace brokered by the Quartet in 2003, both 
Israel and the Palestinian Authority are committed to ending 
incitement. The Palestinian Authority has made significant progress 
since the 1990s in combating official incitement to violence through 
measures that include undertaking revisions of official PA textbooks 
and reducing inflammatory rhetoric.
    We continue to work in a variety of ways to combat incitement. 
Also, in ongoing discussions with senior Palestinians, we continue to 
stress the importance of avoiding any actions that would constitute 
incitement.
    USAID also employs robust and effective measures to ensure that all 
of our assistance to the Palestinian people is only used when, where, 
and by whom we have authorized.
    Local NGOs that receive U.S. assistance, including sub-grantees, 
are vetted to ensure no terrorist connections. In addition to vetting, 
USAID has in place other mandatory anti-terrorism procedures including 
the requirement that an NGO receiving USAID assistance first sign the 
anti-terrorism certification, mandatory clauses in contracts and grants 
reminding awardees of their duty to comply with U.S. laws, and 
monitoring and audits of all programs in order to safeguard U.S. 
investments. These anti-terrorism procedures are described in more 
details below:
      Vetting.--Before making an award of either a contract or a grant 
        to a local NGO, the USAID West Bank/Gaza mission checks the 
        organization against lists maintained by the Office of Foreign 
        Assets Control within the Department of the Treasury. The 
        mission also checks all non-U.S. organizations and their 
        principal officer, directors, and other key individuals through 
        law enforcement and intelligence community systems accessed by 
        USAID's Office of Security. The mission collects the 
        individual's full name, government-issued photo identification 
        number, and the individual's date and place of birth.
      Anti-Terrorism Certification.--All NGOs applying for grants from 
        USAID are required to certify, before award of the grant will 
        be made, that they do not provide material support to 
        terrorists.
      Mandatory Clauses.--All contracts and grants also contain a 
        mandatory clause reminding awardees of their duty to comply 
        with U.S. laws and Executive orders prohibiting assistance to 
        terrorist organizations.
      Monitoring and Audits.--Once an award has been made, USAID has 
        established procedures to safeguard U.S. investments and ensure 
        the transparency and integrity of U.S. assistance. In order to 
        ensure that funding through local and U.S. NGOs is used only 
        for agreed-upon purposes, all NGOs are required to submit 
        quarterly financial reports to USAID on how funds are spent. 
        The annual appropriation act requires an audit of all direct 
        USAID grantees, contractors and significant subgrantees and 
        subcontractors on an annual basis to ensure, among other 
        things, compliance with vetting. In addition, the annual 
        appropriation act requires a Government Accountability Office 
        audit of the WB/G program, including the cash transfer.

                         CONCLUSION OF HEARINGS

    Senator Leahy. Thank you all for being here.
    I don't want to embarrass her, but there is one member of 
the audience who I first knew of when she was just 3 days old, 
Suphada Rom, and I want to take a moment to say hello to her 
before I leave.
    Thank you.
    Dr. Shah. Thank you, Senator.
    [Whereupon, at 11:30 a.m., the hearings were concluded, and 
the subcommittee recessed, to reconvene subject to the call of 
the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Blunt, Senator Roy, U.S. Senator From Missouri, Questions 
  Submitted by...................................................
  88.............................................................
Brown, Senator Sherrod, U.S. Senator From Ohio, Questions 
  Submitted by...................................................
  65.............................................................

Clinton, Hon. Hillary Rodham, Secretary, Office of the Secretary, 
  Department of State............................................
  1..............................................................
    Prepared Statement of........................................
      9..........................................................
    Summary Statement of.........................................
      6..........................................................

Durbin, Senator Richard J., U.S. Senator From Illinois, Statement 
  of.............................................................
  30.............................................................

Graham, Senator Lindsey, U.S. Senator From South Carolina:
    Questions Submitted by......................................66, 140
    Statements of................................................
      4, 95......................................................

Harkin, Senator Tom, U.S. Senator From Iowa, Questions Submitted 
  by............................................................55, 131
Hoeven, Senator John, U.S. Senator From North Dakota, Questions 
  Submitted by...................................................
  91.............................................................
    Statement of.................................................
      35.........................................................

Inouye, Senator Daniel K., U.S. Senator From Hawaii, Questions 
  Submitted by..................................................47, 128

Kirk, Senator Mark, U.S. Senator From Illinois, Questions 
  Submitted by..................................................79, 140

Landrieu, Senator Mary L., U.S. Senator From Louisiana:
    Questions Submitted by......................................56, 133
    Statement of.................................................
      33.........................................................
Lautenberg, Senator Frank R., U.S. Senator From New Jersey, 
  Questions Submitted by.........................................
  63, 136........................................................
Leahy, Senator Patrick J., U.S. Senator From Vermont:
    Opening Statements of........................................ 1, 93
    Prepared Statements of....................................... 3, 94
    Questions Submitted by......................................40, 121

Shah, Rajiv, M.D., Administrator, United States Agency For 
  International Development......................................
  93.............................................................
    Prepared Statement of........................................
      100........................................................
    Summary Statement of.........................................
      97.........................................................


                             SUBJECT INDEX

                              ----------                              

                          DEPARTMENT OF STATE

                           Secretary of State

                                                                   Page

Additional Committee Questions...................................    40
Arming Opposition................................................    82
Botswana.........................................................    77
Changing United States Role in the Asia-Pacific Region...........    44
Child Marriage...................................................    32
Death of Major Robert Marchante..................................    19
Egypt........................................................25, 38, 88
Family Planning..................................................    25
Food Security....................................................    77
Free Trade Agreement with Tunisia................................    38
Haiti............................................................    30
Human Rights.....................................................    24
Iran.............................................................    89
    Sanctions....................................................    37
Iraq.............................................................    13
Kosovo...........................................................    87
Land Mines.......................................................    40
Latin America....................................................    34
Leahy:
    Amendment....................................................    39
    Graham Amendment.............................................    39
Namibia..........................................................    77
Next Steps.......................................................    82
Nuclear Weapons..................................................    17
$100 Million Cash Transfer Option................................    71
Pakistan.........................................................    90
Pan Am 103 Bombing...............................................    26
President's Emergency Plan for AIDS Relief Communications 
  Strategy.......................................................    77
Quadrennial Diplomacy and Development Review.....................    33
Russia...........................................................    90
Somalia..........................................................    29
South Africa.....................................................    76
Sri Lanka........................................................    40
Supporting Tunisia's Financial Needs--Update on Loan Guarantee 
  Agreement......................................................    71
Syria............................................................    16
Trade Unions/Worker Rights.......................................    27
Tunisia's Budget Shortfall.......................................    71
Turkey Versus Syria..............................................    26
United Nations...................................................    15
    Educational, Scientific and Cultural Organization........12, 22, 39
Vulnerable Children..............................................    34
Worker Rights....................................................    28

               U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

Additional Committee Questions...................................   121
Afghanistan:
    Sustainability...............................................   122
    Pakistan, and Iraq Operations................................   121
American Schools and Hospitals Abroad............................   149
Building Resilience..............................................   103
Central America..................................................   134
Conflict Management and Mitigation Grants Program................   146
Cuts in Global Health Funding....................................   124
Development Grants Program.......................................   126
Efficiency, Trade Offs, and U.S. Agency for International 
  Development Forward............................................   100
Evaluation Policy................................................   128
Feed The Future..................................................   102
Haiti............................................................   127
Joseph Kony and the Lord's Resistance Army.......................   125
Middle East Regional Cooperation.................................   149
Pakistan.........................................................   123
Partner Vetting System...........................................   141
Procurement Reform...............................................   133
Protecting Forests and Indigenous People.........................   127
Public Opinion...................................................   124
Somalia..........................................................   141
Strengthening Education..........................................   103
Supporting Strategic Priorities and Strengthening National 
  Security.......................................................   101
Sustainability and Civilian Democracy............................   123
The Global Health Initiative.....................................   102
United States Agency for International Development Programs To 
  Strengthen Rule of Law and Environmental Safety in China.......   114
Veterans Hiring..................................................   140
Vulnerable Children..............................................   133
West Bank/Gaza...................................................   144

                                   - 

</pre></body></html>
